<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 110-599]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-599
 
                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1816                               S. 3148

                           S. 2093                               S. 3158

                           S. 2535                               S. 3226

                           S. 2561                               S. 3247

                           S. 3011                               H.R. 5137

                           S. 3113



                                     

                               __________

                             JULY 30, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
45-339 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Braunlich, William H., President, Monroe County Historical 
  Society, Monroe, MI............................................    53
Burr, Hon. Richard, U.S. Senator From North Carolina.............     3
Carter, Derb S., Jr., Attorney, Southern Environmental Law 
  Center, Chapel Hill, NC........................................    41
Clinton, Hon. Hillary Rodham, U.S. Senator From New York.........     8
Dole, Hon. Elizabeth, U.S. Senator From North Carolina...........     9
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    28
Jenkins, Coline, President, Elizabeth Cady Stanton Trust, 
  Greenwich, CT..................................................    48
Judge, Warren, Chairman, Board of Commissioners, Dare County, NC.    37
Levin, Hon. Carl, U.S. Senator From Michigan.....................     5
Smith, Hon. Gordon H., U.S. Senator From Oregon..................    10
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................    13

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    59

                              Appendix II

Additional material submitted for the record.....................    85


                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, JULY 30, 2008

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. Good afternoon. The Subcommittee on National 
Parks will come to order. We have a long list of bills to 
consider today, including the following:
    S. 1816, to authorize the Secretary of the Interior to 
establish a commemorative trail in connection with the Women's 
Rights National Historical Park, and will link properties that 
are associated with the struggle for women's suffrage.
    S. 2093, to direct the Secretary of the Interior to study 
segments of two rivers in the State of Vermont for potential 
addition to the National Wild and Scenic Rivers System.
    S. 2535, to revise the boundary of the Martin Van Buren 
National Historic Site in New York.
    S. 2561, to require the Secretary of the Interior to 
conduct a theme study to identify sites to commemorate and 
interpret the Cold War.
    S. 3011, to expand the boundaries of the Palo Alto 
Battlefield National Historic Site in Texas.
    S. 3113, which concerns off road vehicle use in Cape 
Hatteras National Seashore in North Carolina.
    S. 3148, to modify the boundary of Oregon Caves National 
Monument.
    S. 3158, to extend the authority for the Cape Cod National 
Seashore Advisory Commission.
    S. 3226, to rename the Abraham Lincoln Birthplace National 
Historic Site in Kentucky as the Abraham Lincoln Birthplace 
National Historical Park.
    S. 3247, to designate the River Raisin National Battlefield 
Park in Michigan.
    H.R. 5137, to ensure that hunting remains a purpose of the 
New River Gorge National River in West Virginia.
    While most of the bills on the agenda are non-
controversial, a few bills will require more discussion. One of 
the bills is S. 3113, regarding off road vehicle use within the 
Cape Hatteras National Seashore. This bill will overturn a 
consent decree negotiated by the affected parties and approved 
by the Federal judge, which is not our normal practice.
    The bill also raises issues about how the Park Service 
should manage the seashore and threatened wildlife. I 
understand that this is an important piece of legislation for 
the Senators from North Carolina. I hope that we can use this 
hearing to gain a better understanding of the situation.
    This is our last hearing of the summer. I wanted to thank 
our ranking member for working with me in such a cooperative 
and productive manner. Last week the subcommittee held an 
oversight hearing in Asheville, North Carolina regarding a 
biodiversity program of the Great Smoky Mountains National 
Park. The hearing was chaired by Senator Burr, and, by all 
accounts was a great success. I want to acknowledge Senator 
Burr's efforts to facilitate a timely discussion on the topic.
    With that I'd like to recognize Senator Burr for his 
opening remarks.
    [The prepared statements of Senators Sanders and Wyden 
follow:]

Prepared Statement of Hon. Bernard Sanders, U.S. Senator From Vermont, 
                               on S. 2093

    Chairman Akaka, Ranking Member Burr, as the Subcommittee on 
National Parks today considers a variety of bills I want to briefly 
comment on S. 2093, the Missisquoi and Trout Rivers Wild and Scenic 
River Study Act (S. 2093). Sponsored by Senator Leahy and myself, this 
bill would simply establish a study to determine the appropriateness of 
adding the Missisquoi River and its major tributary, the Trout River, 
to the National Park Service's Wild and Scenic River System. It would 
be the state's first wild and scenic river designation and as you might 
guess, is very important to the state of Vermont.
    Vermonters have long valued the natural beauty and water quality of 
our state's rivers. The Missisquoi River, in particular, offers 
significant values for wildlife, scenery, and recreational activities. 
In addition, as the Missisquoi River flows into Missisquoi Bay on Lake 
Champlain, the bill is important to ongoing efforts by the state of 
Vermont and local communities to protect and maintain water quality on 
the lake. It is important to note that since 1982, segments of the 
Missisquoi have been listed on the National Park Service's Nationwide 
Rivers Inventory list as being candidates for wild and scenic 
designation.
    The Missisquoi River Basin Association of East Berkshire, Vermont, 
is committed to protecting water quality through numerous on-the-ground 
projects in the area. They are also coordinating efforts in the state, 
with state and local governments and affected communities, to proceed 
with the Missisquoi River study called for in S. 2093. I have received 
letters supporting these efforts from them, the state Agency of Natural 
Resources, and affected communities along the river.
    As I read the Administration's testimony on S. 2093, I understand 
that there are concerns about areas on the Missisquoi River that they 
feel are not suitable for wild and scenic river consideration. I am 
confident that the Committee will be able to proceed in a positive 
manner that addresses the legitimate concerns of local communities in 
Vermont, for whom the Missisquoi's wild and scenic designation is 
crucial to protecting water quality and preserving the river's rich 
wildlife and recreational opportunities, and I look forward to moving 
this legislation quickly through the Committee.

                                 ______
                                 
    Prepared Statement of Hon. Ron Wyden, U.S. Senator From Oregon, 
                               on S. 3148

    I am very pleased that we are having a hearing today on S. 3148, 
legislation that I introduced to expand the boundary of the Oregon 
Caves National Monument, and I thank the Chairman for holding this 
hearing today.
    My bill would expand the Monument boundary by 4,084 acres to 
include the entire Cave Creek Watershed, management of which would be 
transferred from the United States Forest Service to the National Park 
Service.
    Expanding this boundary will allow us to further protect the 
stunning majesty of both the underground and the above-ground treasures 
found at this National Monument.
    Because the current 480-acre boundary is insufficient to adequately 
protect this cave system, the National Park Service has formally 
proposed a boundary modification numerous times, first in 1939, again 
in 1949, and most recently in 2000.
    In addition, my legislation would designate at least 9.6 miles of 
rivers and tributaries as Wild, Scenic, or Recreational, under the 
federal Wild and Scenic Rivers Act, including the first subterranean 
Wild and Scenic River, the River Styx. A perennial stream, the ``River 
Styx,''--an underground portion of Cave Creek--flows through part of 
the cave and is one of the dynamic natural forces at work in the 
National Monument.
    This bill would also provide authorization for the voluntary 
retirement of existing grazing allotments. The current grazing 
permitee, Phil Krouse and his family, has had the Big Grayback Grazing 
Allotment (19,703 acres) since 1937. But Mr. Krouse now favors lease 
retirement with private compensation for his allotment; my bill will 
enable that local solution to further protect monument resources.
    The Oregon Caves National Monument makes a unique contribution to 
Southern Oregon's economy and to the national heritage. The Monument 
receives over 80,000 visitors annually, and is the second smallest unit 
of the National Park System.
    A larger Monument boundary will help showcase more fully the 
recreational opportunities on the above-ground lands within the 
proposed Monument boundary and provide visitors more chances to enjoy 
them. In addition to the numerous subsurface resources, the Monument's 
above-ground lands in the Siskiyou Mountains possess a beauty and 
diversity that is unique in America, and indeed the world.
    I want to express my thanks to all the volunteers and supporters in 
the local business and conservation community in Southern Oregon, to 
Phil Krouse for his commitment to Oregon's natural resources, and to 
Craig Ackerman, the former Superintendent of the Oregon Caves National 
Monument.
    I look forward to working with my Senate colleagues and my 
colleagues in the House of Representatives, Representatives DeFazio, 
Hooley, Blumenauer and Wu, who have introduced the companion 
legislation to this bill, to advance this legislation.
    I will be submitting questions for record for the Agency witnesses.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Good afternoon. More 
importantly thank you for holding this hearing.
    As I've ended every hearing that we've had here with a long 
list of bills, the Chairman has suggested that we're through, 
only to find out a couple weeks later that we're back doing it 
again. So I'm not sure whether I'm going to take him at his 
word that this is the last of this year. But I do hope that we 
have addressed all of the bills that our colleagues find a need 
for us to address.
    Before going into any details on the bills before us today 
I also want to thank Senator Akaka, Senator Bingaman for 
allowing me to do a field hearing in the Great Smoky Mountains. 
This was an effort to update this committee and this Congress 
on the efforts undertaken years ago to do an inventory, an All 
Taxa Biodiversity Inventory, of each species and plants that 
maybe we didn't know existed in the United States or in the 
world. I will say that from the results of that hearing we have 
found phenomenal progress, the discovery of things never 
imagined. For anybody scared of spiders they might not want to 
hear how many new species of spiders have actually been found.
    Kira Rachel from the committee staff did a wonderful job, 
Mr. Chairman, working with the University of North Carolina at 
Asheville and with my staff to make this hearing a success. I, 
once again, I thank you publicly for your willingness to allow 
this to be undertaken.
    Now, I understand that this may be the last hearing of our 
subcommittee this year. I'd like to take a moment to 
acknowledge your leadership, Chairman Akaka as it's been 
productive. In the 12 hearings during 110th Congress, this 
subcommittee received testimony and discussions on 117 bills.
    I'm not sure how that compares with other subcommittees, 
but it must be a record. I'll say that's it a record, Mr. 
Chairman. Of the 11 bills on our agenda today, is close to the 
average. I know all the members appreciate your leadership in 
addressing these bills in a timely fashion.
    Today's agenda includes the important bill that my State of 
North Carolina with Cape Hatteras National Seashores. It's a 
national treasure for the people of North Carolina and more 
importantly for the visitors around this country that have 
enjoyed it for generations. The National Park Service has been 
remiss in their requirement to prepare an off road vehicle 
management plan for the park.
    Because of that, we're now faced with the situation in 
which a court sanctioned agreement is dictating the use of the 
area while the Park Service works on their rulemaking process 
that may take up to 3 years to complete. A bill introduced by 
Senator Dole, S. 3113, would authorize the Park Service to 
follow their interim management plan which addresses endangered 
species in accordance with the biological opinion issued by the 
U.S. Fish and Wildlife Service rather than the court sanctioned 
agreement.
    I support this legislation. I want to commend Senator Dole 
for her leadership in introducing this bill and for working to 
find a solution. She's here today now. She's here to provide 
more details about her bill. I certainly look forward to her 
testimony.
    We also, Mr. Chairman, have two witnesses here from North 
Carolina to provide testimony. I'd like to publicly welcome 
Warren Judge, from Dare County and Derb Carter from Chapel 
Hill. I thank both of them for their willingness to be here to 
make the trip to testify in front of this committee.
    Mr. Chairman, I'd love to think that we could get Senator 
Dole's bill done this year. I understand the comments that you 
made. I would only ask you and my colleagues throughout the 
entire Senate to understand we haven't been thrown a usual 
curveball, but we've been thrown a curveball that didn't exist 
up until now in large measure because the Park Service didn't 
do their management plan on time. The net result is that courts 
got involved in something that, quite frankly, they never 
should have gotten involved in. Those that will suffer are the 
next generation whose parents and grandparents use that 
national treasure in a way that they were protective of the 
environment, but enjoyed that national treasure in a way that I 
think God meant it to be enjoyed.
    I thank you for this hearing. Look forward to our 
witnesses.
    Senator Akaka. Thank you very much, Senator Burr. I want 
all of you to know that we are honored today to have three of 
our colleagues here to testify on some of these bills. This 
doesn't happen very often, but we have you here and I want to 
then ask in this order of Senator Levin, Senator Clinton and 
Senator Dole to give their statements.
    Senator Levin.

          STATEMENT OF HON. CARL LEVIN, U.S. SENATOR 
                         FROM MICHIGAN

    Senator Levin. Thank you very much, Senator Akaka. Senator 
Burr, thank you for the extraordinary work that you two do so 
well together. The issues that you grapple with, types, issues 
that we have on your agenda here today I know are important to 
each one of us. But you make these issues that are important to 
us, important to you as well and your staffs and that's very, 
very much appreciated.
    The bill that I'm here on is the River Raisin National 
Battlefield Act. The bill is co-sponsored by Senator Stabenow. 
It is a Senate Companion bill to the one introduced by 
Congressman Dingell, who I know had hoped to be here. I think 
there's three votes in the House. So he may not be able to get 
here I understand.
    He has spearheaded the effort to designate this battlefield 
as a unit of the National Park System. The battles of the River 
Raisin which took place in January of 1813 during the height of 
the War of 1812 were a critical part of the American campaign 
to retake Detroit in the Michigan territory from the British 
and from their Native American allies. On January 18, 1813, 
American militiamen were successful initially in overpowering 
the British forces in Frenchtown, now part of Monroe, Michigan.
    Four days later bolstered with additional support from 
their Native American allies the British returned killing 
hundreds of American soldiers. Outmatched the American forces 
were defeated and about 60 wounded militiamen were unable to 
walk were left behind on the battlefield. It was early the next 
morning on January the 23rd, when unarmed, wounded militiamen 
were killed.
    Settlement homes were set ablaze. The bodies of slain 
soldiers were thrown into the fires. Of the nearly 1,000 
Americans who fought in these fierce battles, about 400 were 
killed or missing in action, roughly 500 were taken as 
prisoners of war and only 33 escaped death or captivity.
    It was a brutal confrontation. It gave birth to a rallying 
cry, ``Remember the Raisin.'' That rallying cry galvanized 
American resolve of the War of 1812.
    It helped to rally American forces to overcome the British 
and to secure our Northern border. Visualize rallying cries 
like, ``Remember the Maine,'' or ``Remember Pearl Harbor,'' or 
just simply, 9-11. It may give you a flavor of what the cry, 
``Remember the Raisin'' meant in America in 1813.
    The War of 1812 sometimes called America's forgotten war 
was a vital turning point in our Nation's history. It 
established America's place as an independent Nation capable of 
defending itself. It secured our borders and enhanced our 
international reputation and boosted our young Nation's morale.
    The River Raisin Battlefield sites were the place of 
horrific events. Yet these events became a turning point. A 
turning point that spurred our troops to future victories, 
protect our lands and it culminated in a celebration of 
America's second war of independence.
    While there are currently eight War of 1812 battlefield 
sites there are included in the National Park System, none of 
these sites are located in areas that were then considered the 
Northwest. All of the National Park sites relating to War of 
1812 are located in the Eastern and Southern parts of the 
country. So the River Raisin Battlefield site meets important 
criteria for inclusion in the Park System.
    That is that it represents themes, sites and resources not 
already represented in the National Park System. Securing the 
Northwest, as it was then known during the War of 1812, as a 
vital piece of American history. It should be part of our 
Nation's Park System.
    Today we are delighted to have with us and you will hear 
from a representative of the Monroe Historical Commission and 
Society, Mark Worrel. Excuse me. That's the Mayor of Monroe is 
here today, Mark Worrel. He will not be testifying apparently.
    But William Braunlich, who is President of the Monroe 
County Historical Society is here. He will be representing 
Monroe. So we're delighted to have Mayor Worrel and Mr. 
Braunlich here with us.
    In summary, Mr. Chairman, the events at the River Raisin 
were a critical part of our Nation's history. They deserved to 
be shared with all Americans through our National Park System. 
Now this resource meets the criteria for inclusion in our Park 
System.
    We should not delay designating this area as a battlefield 
because we are approaching the 200th anniversary of the War of 
1812. We need to act quickly if we're to see this site properly 
interpreted in time for this national celebration. I would ask 
that the balance of my statement be inserted in the record.
    Senator Akaka. No objection.
    [The prepared statement of Senator Levin follows:]

  Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan, 
                               on S. 3247

    Chairman Akaka, Ranking Member Burr, thank you for holding this 
hearing today on S. 3247, The River Raisin National Battlefield Act. 
This bill, cosponsored by Senator Stabenow, is the Senate companion to 
a bill Congressman John Dingell introduced in the House. Congressman 
Dingell will also be testifying today and has spearheaded the effort to 
designate this battlefield as a unit of the National Park System.
    The Battles of River Raisin, which took place in January of 1813 
during the height of the War of 1812, were a critical part of the 
American campaign to retake Detroit and the Michigan Territory from the 
British and their Native American allies. On January 18, 1813, American 
militiamen were successful in initially overpowering the British forces 
in Frenchtown, which is now part of Monroe, Michigan. Four days later, 
bolstered with additional support from their Native American allies, 
the British returned, killing hundreds of American soldiers. 
Outmatched, the American forces were defeated, and about 60 wounded 
militiamen who were unable to walk were left behind on the battlefield. 
Early the next morning, on January 23, 1813, the unarmed wounded 
militiamen were killed. Settlement homes were set ablaze and the bodies 
of slain soldiers were thrown into the fires. Of the nearly 1,000 
Americans who fought in these fierce battles, about 400 were killed or 
missing in action, roughly 500 were taken as prisoners of war, and only 
33 escaped death or captivity. This brutal confrontation gave birth to 
the rallying cry, ``Remember the Raisin.'' It galvanized American 
resolve in the War of 1812 and helped rally American forces to overcome 
the British and secure our northern border.
    The War of 1812 is also known as America's forgotten war, and yet 
it was a vital turning point in our nation's history and established 
America's place as an independent nation, capable of defending itself. 
It secured our borders, enhanced our international reputation, and 
boosted our young nation's morale. The River Raisin battlefield sites 
were the place of horrific events; yet these events became a turning 
point that spurred our troops to future victories, protected our lands, 
and culminated in a celebration of America's ``Second War of 
Independence.''
    The River Raisin battles and the massacre that followed were some 
of the most significant of the War of 1812, and had one of the highest 
casualty rates for the American Army during the entire course of the 
war. The Monroe County Historical Society recently commissioned a study 
by Brian Dunnigan, Interim Director of the Clements Library at the 
University of Michigan, to address the issue of ``national 
significance.'' He concludes, ``The significance of the site lies in 
its manifestation that the War of 1812 in the West actually constituted 
a pair of parallel conflicts, in which the United States forces 
contended with the British and Canadians in a conventional war but were 
also involved in a full-scale and bitter wilderness conflict with the 
remaining organized Native American groups living east of the 
Mississippi River. . . . No other site better represents this theme of 
American history.'' The battlefield is also already listed on the 
National Register of Historic Places, and is being nominated for 
designation as a National Historic Landmark.
    While there are currently eight War of 1812 Battlefield sites that 
are included within the National Park System, none of these sites are 
located in areas that were then considered the ``Northwest.'' Instead, 
the War of 1812 sites currently within the National Park System are all 
located in the eastern and southern parts of our country. Thus, the 
River Raisin battlefield site also meets another criterion for 
inclusion in the park system: that it represents themes, sites, and 
resources not already represented in the National Park System. Securing 
the then Northwest during the War of 1812 is a vital piece of American 
history, and should be part of our nation's park system.
    When studying an area for inclusion in the park system, alternative 
management options also need to be considered to determine whether the 
National Park Service is best suited to administer the resource. 
Currently, some of the River Raisin battlefield is being managed 
through a cooperative agreement between the Monroe County Historical 
Commission and the Monroe County Historical Society. The City of Monroe 
and Monroe County own other parts of the battlefield site. Many local 
groups are involved, and powerful collaborative efforts are under way 
to protect and interpret these historical resources. It is critical 
that the federal government provide leadership to coordinate these 
efforts and bring this story to all of the American people through the 
National Park System. Elevating this nationally significant site to the 
Federal level will enhance its accessibility to all Americans and will 
bring this important story of America's Second War of Independence to 
the rest of our country.
    Finally, an area to be designated as a unit of the National Park 
System must have sufficient public support. The local enthusiasm behind 
this proposal is tremendous. Later during this hearing, in your third 
panel of witnesses, you will hear from William Braunlich, President of 
the Monroe County Historical Society, who has vast knowledge about the 
River Raisin site. Importantly, the Mayor of Monroe, Mark G. Worrell is 
also present today to show his strong support for this designation. 
Other current and past members of the Monroe County Historical Society 
are also here today to urge your support for this designation. I 
believe that you have also received several letters from other 
community members in support of this legislation. I have not heard of a 
single dissenting voice in the community. Significantly, the local 
community has donated tremendous time, money, and energy to preserving 
this battlefield site. Since 2000, a total of $1.5 million in local 
funds have been committed to the River Raisin battlefield site. The 
State of Michigan has long recognized the significance of this 
battlefield site, and placed it in the State Register of Historic 
Places in 1956. Since 2000, the state has provided over $2 million for 
the River Raisin battlefield site. Additionally, the City of Monroe is 
committed to donating a core 36-acre parcel of the battlefield to the 
National Park Service, which this bill will also authorize.
    The events at the River Raisin are a critical part of our nation's 
history, and deserve to be shared with all Americans through our 
National Park System. This resource clearly meets the criteria for 
inclusion in our park system, and we should not delay designating this 
area as a Battlefield. With the approaching 200th Anniversary of the 
War of 1812, we need to act quickly if we are to see this site properly 
interpreted in time for this national celebration. I now urge the 
Committee to favorably report the River Raisin National Battlefield Act 
so that all Americans will ``Remember the Raisin.''

    Senator Levin. Again I thank the Chair.
    Senator Akaka. Included in the record. Thank you very much, 
Senator Levin. Now we'll hear from Senator Hillary Clinton.

STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR FROM NEW 
                              YORK

    Senator Clinton. Thank you very much, Chairman Akaka and 
Senator Burr. Thank you for inviting us to testify today on 
some important matters to our states and to our country.
    I'm privileged to be here this afternoon with Coline 
Jenkins, who you will hear from in the next panel. She is the 
great, great granddaughter of Elizabeth Cady Stanton and the 
President of the Elizabeth Cady Stanton Trust. I'm testifying 
today on behalf of two pieces of legislation.
    One that would create the National Women's Rights History 
Project Act and the second, the Martin Van Buren National 
Historic Site Boundary Revision Act. You know, it has been a 
cause of mine for a number of years to make sure that all of 
our history is known and appreciated and particularly 
accessible to future generations. When I was privileged to be 
First Lady I created the Save America's Treasures Program which 
the Congress has consistently supported to preserve and promote 
historic treasures and landmarks throughout America.
    I also believe this is critical for economic development. 
Heritage, tourism, nostalgia tourism are real economic tools 
that more and more communities are beginning to use. When I 
look at the role that Upstate New York played in the Women's 
Rights movements that led to the women's right to vote and 
still is influencing the world today, I'm very excited by this 
legislation.
    Five years ago I started working with my colleague, 
Congresswoman Louise Slaughter to establish a tourism trail to 
be known as the Votes for Women History Trail Route. It is a 
commemorative trail in connection with the existing Women's 
Rights National Historical Park. It would create an auto route 
across upper New York State that would link properties 
historically and thematically associated with the struggle for 
women's rights.
    It will include uniform signage and maps and educational 
handbooks, interpretive guides and websites. It does not 
authorize through this legislation any land acquisition. But it 
links already existing sites, both privately and publicly 
owned. It would ensure that all the sites on the tour have 
verifiable connections to the expansion of women's rights.
    It will also recognize that although New York is where the 
Declaration of Sentiments was drafted in 1848 in this month, 
all those years ago, that women won the rights because of 
national action in amending our Constitution and passing 
necessary legislation. So the second part of the legislation 
would authorize the Secretary of the Interior to make annual 
grants for up to 5 years to assist in stage historic 
preservation efforts. It's important because then we would be 
able to have the National Women's Rights History Project 
National Registry.
    So we're going to both honor women's rights including Susan 
B. Anthony's home in Rochester, New York, the homes of Harriet 
Tubman in Auburn, New York. The Farmington Quaker Meeting House 
where members signed a petition to the New York legislature in 
favor of women's suffrage in 1848. But will also be expanding 
to a public/private partnership that will reach across our 
country.
    I want to say a few words about the Martin Van Buren 
National Historic Site Boundary Revision Act. President Van 
Buren, our eighth President, was born in a tavern in the tiny 
Upstate New York village of Kinderhook in 1782. After his 
Presidency, that's where he returned home to.
    The Martin Van Buren National Historic Site was established 
by Congress in 1974. It preserves a portion of land from the 
Van Buren's original farm as well as the mansion built in the 
1790s. Although the original farm was 225 acres, today the 
general public has access to only 20 acres.
    My legislation will adjust the boundary to increase the 
site to approximately 261 acres. That sounds like a big 
expansion. But all of the land owners agree because the 
majority of the land will remain under private ownership and 
management.
    But it will enable the Park Service to provide visitor 
access to Van Buren's original farm by way of trails. So the 
land will remain under private ownership and management. But 
will be accessible to the general public.
    So, Mr. Chairman and Senator Burr these are two very 
important projects to my state and our country. It's important 
that we recognize these historic achievements. We just marked 
the 160th anniversary of the Women's Rights Convention in 
Seneca Falls, New York for the very first time in all of 
history. Women and some courageous men came together to declare 
that women should have the same rights and to begin the long 
march toward suffrage which we finally achieved.
    My mother was born before women could vote. So for her and 
for so many of our mothers and our grandmothers this 
recognition linking our past to our present and moving into the 
future is especially important. I thank the committee for their 
consideration.
    Senator Akaka. Thank you very much for your statement. It 
will certainly help us in our consideration of your bills. At 
this point in time I would suggest to Senator Levin and Senator 
Clinton that you may be excused if you----
    Senator Levin. Thank you. Yes.
    Senator Akaka. Thank you very much for your statements.
    Now we will hear from Senator Dole and look forward to your 
statement.

   STATEMENT OF HON. ELIZABETH DOLE, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Dole. Thank you very much, Mr. Chairman, Senator 
Burr. Thank you for holding this hearing today on S. 3113, a 
bill to reinstate the National Park Service's Interim 
Management Strategy governing off-road vehicle use in the Cape 
Hatteras National Seashore in North Carolina. I introduced this 
bill with my colleague, Senator Burr. I appreciate your remarks 
earlier.
    This was introduced last month after hearing the cipherous 
concerns from local leaders and many of the seashore's visitors 
discussing the issue with the Park Superintendent and reviewing 
the Park's management plan. I strongly support the 
reinstatement of the National Park Services Interim Management 
Strategy. Because this will allow the time and opportunity for 
all parties to work together to find a long term, practical 
approach to off-road vehicle use at Cape Hatteras without the 
fear of litigation.
    No question the National Park Service has been out of 
compliance with the law for the past 35 years. That must be 
remedied. A management plan must be developed. However, 
residents and visitors as well as the local economy should not 
have to suffer in the meantime.
    I've heard from local officials and hundreds, hundreds of 
concerned constituents that the economic damage to the area as 
a result of the consent decree issued last April would be 
devastating. Furthermore high gas prices and other economic 
woes have made for hard times for our tourism industry. 
Severely limiting access to Cape Hatteras National Seashore, a 
favorite destination, only makes a tough situation even worse 
for folks who rely on tourism for their livelihood.
    Additionally, managing the seashore through the courts 
without allowing for public input is the wrong way to come to a 
resolution on this issue. To ensure that a long term, 
sustainable solution is reached, public involvement is 
absolutely critical. Access to beach areas for fishing and 
other recreational activities is a long standing tradition that 
I believe can be continued with the appropriate safeguards for 
public safety and protection of the seashore's natural 
environment.
    I appreciate the fact that Warren Judge, Chairman of the 
Dare County Board of Commissioners is here today to testify in 
support of this bill. I also have a statement from North 
Carolina Senate President Pro Tempore, Mark Basnight in support 
of the bill. Mr. Chairman, I ask that Senator Basnight's 
letter* be made a part of the record.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Mr. Chairman, Senator Burr, I encourage you to support this 
legislation. It is the right thing to do for the local 
community, for North Carolina and for this National Park. I 
appreciate this opportunity to make this statement today.
    Senator Akaka. Thank you very much, Senator Dole, for your 
statement. I'm looking forward to also a statement from 
Representative Dingell. Senator Dole, like the others, I will 
certainly excuse you from the hearing here.
    Senator Dole. Thank you, Mr. Chairman.
    Senator Akaka. Yes. Let me call the first panel to the 
desk. Soon as they're situated I'm going to call on Senator 
Smith for any remarks he may have.
    This is considered an Administration panel. We have Daniel 
N. Wenk, Deputy Director, National Park Service, Department of 
the Interior; and, Joel Holtrop, Deputy Chief for the National 
Forest System, Forest Service, Department of Agriculture.
    Welcome and I'm now going to call on Senator Smith for his 
opening statement.

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you so much, Mr. Chairman. It's a 
pleasure to serve with you.
    I speak today on behalf of S. 3148, the Oregon Caves 
Monument Boundary Adjustment. It's an act of 2008. I appreciate 
the work of this subcommittee in bringing this legislation 
before us. The Oregon Caves Monument is a very special place to 
the residents of Oregon, particularly to those in the Southern 
Oregon's Illinois Valley.
    Ever since their unofficial discovery, most likely by the 
Takelma Indians of Southern Oregon and the subsequent re-
discovery by Elijah Davidson in the fall of 1874, this jewel of 
Southern Oregon has illuminated the culture and history of the 
region. When President Taft established the 480 acre Oregon 
National Caves Monument in 1909, he did so to preserve this 
wonderful and unique site for generations to come. The caves 
have played a key role in the development of the community of 
Cave Junction in Josephine County.
    In the 1920s the Oregon Cave's Cavemen were formed by a 
group of local businessmen and drafted Neanderthals to promote 
tourism to the caves in the region. With their cavemen attire 
and zany antics, they were a superb promotion for the caves and 
attracted thousands of tourists to the region. In 1931 a local 
designer and builder named Gust Lium, built the Oregon Caves 
chateau which today still stands as one of three great lodges 
in Oregon.
    The chateau has played a critical role in bringing tourists 
to this remote location. Today the chateau is maintained by the 
Illinois Valley Community Development Corporation. An 
organization dedicated to improving economic conditions in 
Oregon's rural southwest.
    Next year will mark the Oregon Caves National Monument 
centennial anniversary. I believe this is a fitting time to 
discuss the options before us. While I'm generally supportive 
of the legislation to expand the monument's boundary, I do have 
some concerns and would like to work with the subcommittee and 
with Senator Wyden to make some important changes to this bill.
    In addition to the critical aspects of tourism which has 
help build the local community, elements of agriculture, 
forestry and grazing have been equally, if not more important 
to the cultural and historical development of this community. 
To this end I have three concerns regarding this legislation.
    My first concern is that the bill's provisions on grazing 
do not adequately protect Mr. Phil Krouse, whose family has 
brought their livestock to graze on these allotments since the 
1930s. Mr. Krouse has prepared a statement for today's hearing. 
Mr. Chairman, I would ask that this be included in the record, 
his statement.*
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Senator Akaka. No objection. It will be included in the 
record.
    Senator Smith. I hope to work with the subcommittee to 
ensure that the regulations managing these allotments remain 
with the Forest Service in the Bureau of Land Management until 
such time as Mr. Krouse is willing to accept a voluntary and 
private buy out of his grazing permits, subsequently 
relinquishing them back to the Federal Government.
    My second concern relates to forest contiguous to the 
monument. The forests around Oregon caves are in need of 
thinning and restoration to reduce the risk of catastrophic 
fire. The historic chateau, in particular, must be protected 
from the threat of wildlife.
    The National Park Service is fully capable of carrying out 
fuels treatment projects. I wish to include a condition in this 
legislation that the Park Service complete adequate fuels 
treatment projects on the lands acquired from the Forest 
Service.
    My third concern relates to hunting. Since lands 
administered by the Park Service are generally off limits to 
hunting. However, Oregon hunters, particularly bear hunters use 
the area discussed in this bill. According to the National Park 
Service there are roughly 70 park units that currently allow 
hunting.
    The Oregon Department of Fish and Wildlife has statewide 
jurisdiction for managing wildlife for hunting as well as 
managing the hunting seasons. So I would hope that the Park 
Service would work with ODF and W to determine how best to 
accommodate both hunting and tourism in the woods around Oregon 
Caves. After all, the caves were discovered by a bear hunter 
and his dog.
    Mr. Chairman, I appreciate the subcommittee's time. I look 
forward to working with you as this bill expanding the Oregon 
Caves National Monument moves through the legislative process. 
I thank you.
    Senator Akaka. Thank you. Thank you very much, Senator, for 
your testimony. I want to include in the record the testimony 
of Representative John Dingell to the record.
    [The prepared statement of Mr. Dingell follows:]

 Prepared Statement of Hon. John D. Dingell, U.S. Representative From 
                          Michigan, on S. 3247

    I write to express my wholehearted support for S. 3247, the River 
Raisin National Battlefield Act, which will be under consideration in 
the Subcommittee on July 30. I have introduced companion legislation, 
H.R. 6740, in the House. It is my sincere hope that with your help we 
can see this legislation signed into law by the end of the year.
    S. 3247 would direct the Secretary of the Interior to accept the 
donation of lands related to the Battles of the River Raisin in Monroe 
or Wayne County, Michigan and to designate those lands as a unit of the 
National Park System, to be known as River Raisin National Battlefield 
Park. The River Raisin Battlefield is the site of a major engagement of 
the War of 1812 that occurred during the American campaign in the 
winter of 1813 to retake Fort Detroit from the British. Although the 
Americans repelled the British in first battle at the settlement, then 
known as Frenchtown, along the River Raisin, the second battle ended in 
major defeat and significant loss of life, causing General William 
Henry Harrison to describe the occurrences in Frenchtown as a 
``national calamity.'' The disastrous loss gave birth to the rallying 
cry, ``Remember the Raisin,'' aiding recruitment efforts for Harrison's 
spring 1813 campaign, and ultimately spurred the American troops to 
victory at the Battle of the Thames nine months later, effectively 
ending the War.
    Many reasons underscore the importance of support for S. 3247. I 
have outlined them below:

  <bullet> The Battle of the River Raisin is arguably the largest land 
        engagement during the War of 1812. While the battle was a 
        devastating loss to the American Army, the tragedy created a 
        rallying point for U.S. troops and led to a decisive American 
        victory effectively ending the War.
  <bullet> The casualties incurred at the River Raisin rank it among 
        the most disastrous battles for the American Army during the 
        entire War of 1812. 397 Americans were listed as killed or 
        missing in action and 536 listed as prisoners of war. 
        Designation of the site as a National Park will honor the 
        sacrifice of those patriots who gave their lives in defense of 
        our fledgling country.
  <bullet> The federal government will obtain River Raisin Battlefield 
        at no cost. The good people of Monroe and/or Wayne Counties, 
        Michigan will donate the battlefield to the federal government.
  <bullet> The local community values the River Raisin Battlefield for 
        its historical and national significance, and its designation 
        as a National Park enjoys vast public support. Indeed, 
        designation would have positive economic benefits for the local 
        community and state through increased heritage tourism.
  <bullet> There is little debate that the River Raisin is a nationally 
        significant site.
  <bullet> The National Park Service is the only entity with the 
        expertise to interpret and care for a site of such national 
        importance. We owe the many Americans who died at the River 
        Raisin defending our young country the sufficient dignity and 
        esteem inherent in becoming a unit of our National Park System 
        without delay.

    Designation of the River Raisin battlefield as a National Park will 
afford the site with much deserved national recognition. Through 
enactment of S. 3247, not only can we commemorate the heroism of those 
who lost their lives during the Battle, but also add insight into an 
important chapter in our nation's history.

    Senator Akaka. Again, I want to welcome our witnesses 
today. We will include your full written statement in the 
hearing record. So I would ask that you please limit your 
remarks to no more than 5 minutes. Following your statements we 
will have questions.
    So, Mr. Wenk, will you please begin with your statement?

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Mr. Chairman, thank you for the opportunity to 
appear before this subcommittee to present the Administration's 
views on the 11 subjects on today's agenda. I would like to 
submit our full statements for each of these subjects for the 
record and summarize the Administration's position on these 
bills.
    The Department supports the following bills.
    S. 2093, which would designate a segment of the Missisquoi 
and Trout Rivers in the State of Vermont for study for 
potential addition to the National Wild and Scenic River 
System.
    S. 2535, which would expand the boundary of Martin Van 
Buren National Historic Site.
    S. 2561, which would require the Secretary of the Interior 
to conduct a theme study to identify sites and resources to 
commemorate and interpret the cold war.
    S. 3011, which would expand the boundaries of Palo Alto 
Battlefield National Historic Site.
    S. 3158, which would extend the authority for Cape Cod 
National Seashore Advisory Commission.
    S. 3226, which would rename the Abraham Lincoln Birthplace 
National Historic Site in the State of Kentucky as the Abraham 
Lincoln Birthplace National Historical Park.
    H.R. 5137, which would ensure that hunting remains a 
purpose of the New River Gorge National River.
    The reasons for our positions on these bills are explained 
in detail in our full statements. For some of the bills we are 
requesting that the committee make minor amendments to the bill 
language. Explanations of these requested amendments are also 
contained in the full statements.
    On the remaining four bills, the position of the Department 
is as follows.
    On S. 1816, which would authorize the Secretary of Interior 
to establish a commemorative Votes for Women History Trail 
Route in connection with Women's Rights National Historical 
Park, the Department could support the bill if it is amended to 
delete the grant authorizations in sections three and four. 
These grant programs would divert available resources from 
broader historic preservation purposes to specific sets of 
beneficiaries and duplicate existing authorities.
    The Department would welcome the opportunity to work with 
the committee to see if we could achieve the goals of these two 
sections within our existing authorities.
    On S. 3148, which would modify the boundary of Oregon Caves 
National Monument, the Department supports the intent of the 
bill, but recommends deferring action to give us the 
opportunity to explore ways to maintain continuity and 
interagency coordination on issues related to forest health and 
recreational opportunities. The U.S. Forest Service which 
currently manages the 4,070 acres that would be added to the 
monument, is working on a multi-year effort to reduce fuels 
under a comprehensive forest plan, which in turn would benefit 
monument resources that are at risk from fire and fire 
suppression damage. The Department also finds it important to 
acknowledge that hunting is allowed by the U.S. Forest Service 
on the lands that would be transferred to the National Park 
Service.
    We would like to continue our discussions with the Forest 
Service on these matters prior to further action on this 
legislation.
    On S. 3247, which would provide for the designation of the 
River Raisin National Battlefield Park in the State of 
Michigan, the Department recommends deferring action. Our 
recommendation does not detract from the significance and 
importance of this battlefield site and the historical events 
associated with this major engagement of the War of 1812. The 
special resource study and the National Historic Landmark 
nomination currently underway need to be completed so a 
determination could be made if the site is nationally 
significant and is both suitable and feasible to be designated 
as a unit of the National Park System.
    With public involvement these two efforts will provide 
needed information to determine the best path for preservation 
and interpretation of the battlefield. We expect both to be 
completed in 2 to 3 years from now.
    On S. 3113, which would re-instate the Interim Management 
Strategy governing off-road vehicle use at Cape Hatteras 
National Seashore, North Carolina pending the completion of an 
ORV management plan in issuance of a final rule for ORV use the 
Department cannot support the legislation. The Department 
supports allowing public use and access of National Seashores 
to the greatest extent possible while ensuring protection for 
wildlife there including the federally protected species that 
are the focus of our present concern.
    We believe that the April 30, 2008, consent decree will 
accomplish its objective better than the original 2007 Interim 
Management Strategy for the period until a final ORV plan and 
rule are adopted.
    Mr. Chairman, that concludes my statement. I'd be pleased 
to answer questions that you may have.
    [The prepared statements of Mr. Wenk follow:]

 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior

                               H.R. 5137

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 5137, to ensure that hunting remains a purpose of the New River 
Gorge National River.
    The Department strongly supports enactment of H.R. 5137. This bill 
would amend Section 1106 of the National Parks and Recreation Act of 
1978, the New River Gorge National River's (park) authorizing 
legislation to require the Secretary of the Interior to permit hunting 
and fishing on National Park Service (NPS) lands within the park, 
instead of allowing this authority to be discretionary. If enacted, 
this bill would provide legislative direction to the Department on 
hunting and fishing at New River Gorge. We believe that enactment of 
the legislation will maintain important protections that allow hunting 
in the park to be managed consistent with the NPS mission to ensure 
public safety and to conserve the park's natural resources, including 
wildlife and its habitat. The bill is consistent with other policy 
statements from Congress and the Park Service, and also advances the 
purposes of Executive Order 13443, ``Facilitation of Hunting Heritage 
and Wildlife Conservation.''
    The New River Gorge National River was established in 1978, by 
Public Law 95-625, to conserve and protect 53 miles of the New River as 
a free-flowing waterway. Section 1106 states in part that ``The 
Secretary may permit hunting and fishing on lands and waters under his 
jurisdiction within the boundaries of the New River Gorge National 
River in accordance with applicable Federal and State laws, and he may 
designate zones where, and establish periods when, no hunting or 
fishing shall be permitted for reasons of public safety, 
administration, fish or wildlife management, or public use and 
enjoyment.'' We believe that enactment of H.R. 5137 would have the 
narrow effect of requiring a continuation of an ongoing recreational 
activity in the park while maintaining the Service's ability to 
continue to manage the activity in a manner that protects public safety 
and retains natural resource and wildlife conservation tools such as 
adaptive management.
    The park's current GMP, dated November 1982, addressed hunting as 
an approved recreational activity, stating ``Recreational hunting of 
game will be permitted in accordance with State regulations, with the 
exception of jointly designated limited closures for reasons of public 
safety or wildlife preservation.'' Since adoption of the GMP, the park 
has permitted hunting on lands owned and administered by the NPS, 
except in areas of developed recreational facilities, such as river 
accesses and campgrounds, for reasons of public safety.
    In an April 10, 2002, letter, the Public Employees for 
Environmental Responsibility pointed out the need for a regulation to 
be promulgated to permit hunting at New River Gorge National River. On 
September 25, 2003, an interim final rule was published in the Federal 
Register that would have allowed hunting to continue within the park. 
The rule was written to become effective immediately. On October 9, 
2003, the NPS Director received a letter from a law firm representing 
the Fund for Animals that questioned the legality of the interim final 
regulation.
    The 2004 Interior Appropriations Act, Section 150, stated that 
``The National Park Service shall issue a special regulation concerning 
continued hunting at New River Gorge National River in compliance with 
the requirements of the Administrative Procedures Act, with opportunity 
for public comment, and shall also comply with the National 
Environmental Policy Act as appropriate. Notwithstanding any other 
provision of law, the September 25, 2003 interim final rule authorizing 
continued hunting at New River Gorge National River shall be in effect 
until the final special regulation supersedes it.''
    The NPS was about to begin a GMP for New River Gorge National River 
when Congress enacted the 2004 directive. As part of the GMP, it was 
decided that the NPS would undertake an extensive public involvement 
process on the issue of hunting within the park. The draft GMP includes 
four action alternatives; three of those alternatives would allow 
continued hunting within the park. About 300 people attended one or 
more of the three public meetings held on the hunting issue, and the 
public was overwhelmingly in favor of the continuation of hunting at 
New River Gorge National River. The draft GMP is being finalized, and 
we hope to release it for public review by the end of this year.
    As part of the process to revise the GMP, the NPS contracted with 
the Virginia Tech Department of Fisheries and Wildlife Services to 
assess the impacts of hunting in the park. The assessment, which was 
finalized in 2006, concluded the ``hunting conducted in accordance with 
existing laws and regulations should have no adverse impact on the 
fauna and flora within the boundaries of New River Gorge''. We do not 
believe that enactment of this legislation would have any effect on 
this science-based assessment and its conclusions.
    The NPS is cognizant of the importance of hunting to the local 
community as well as the ecological implications of hunting within New 
River Gorge National River. The ``no hunting alternative'' has proven 
to be very controversial with the State of West Virginia and with local 
hunters. However, the NPS has determined that under the existing 
legislation the park must include an analysis of the no hunting 
alternative to ensure that the requirements of the National 
Environmental Policy Act are adequately met. When the draft GMP is 
released for public review it will include a preferred alternative 
stating the NPS's position on continued hunting at New River Gorge 
National River, regardless of whether or not this legislation is 
enacted. After the GMP is completed, NPS would be required to 
promulgate a special regulation for any preferred alternative involving 
hunting on park lands within the national river.
    Executive Order 13443, ``Facilitation of Hunting Heritage and 
Wildlife Conservation'' was signed by President Bush on August 17, 
2007, directing the Department of the Interior and other Cabinet 
officers to facilitate the expansion and enhancement of hunting 
opportunities and the management of game species and their habitat. We 
are pleased that H.R. 5137 is consistent with this direction and would 
provide a specific way to contribute toward the results of E.O. 13443.
    That concludes my statement. I will be happy to answer any 
questions you or any members of the subcommittee may have.

                                S. 1816

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1816, a bill to authorize the Secretary of the Interior to establish a 
commemorative ``Votes for Women History Trail Route'' in connection 
with Women's Rights National Historical Park. The trail route would 
link sites that are historically and thematically associated with the 
struggle for women's suffrage in the State of New York.
    The Department could support this legislation if amended to delete 
grant authorizations in sections 3 and 4.
    The Omnibus Appropriations Act for Fiscal Year 1999 (Public Law 
105-277) provided funding for a Women's Rights National History Trail 
feasibility study. The study team documented women's rights history-
related properties reaching from Maine to Virginia, including the 
District of Columbia. The largest numbers of properties in the 
Northeast were in the Commonwealth of Massachusetts and the State of 
New York. The study team considered a long-distance trail in the 
corridor between Boston and Buffalo, but determined that this concept 
was not viable based upon the lack of properties between these two 
places. The study also found that the trail would not meet the criteria 
as a national historic trail under the National Trails System Act.
    The study concluded that significant concentrations of resources 
associated with the struggle for women's suffrage in the United States 
lie within an area stretching from Syracuse, New York in the east 
through the Finger Lakes region westerly to Rochester. In the midst of 
this concentration of resources are the towns of Seneca Falls and 
Waterloo, New York, where the first women's rights convention in 
America was planned and held in 1848. Women's Rights National 
Historical Park, established in 1980 by Public Law 96-607, preserves 
and interprets the important sites associated with the formal beginning 
of the struggle for equal rights for women in the United States. It was 
at Seneca Falls in 1848 that the Declaration of Sentiments was signed, 
advocating for political, economic, educational, religious, and 
societal equality for women.
    The final report described three concepts that could support the 
recognition, promotion, and protection of properties associated with 
women's rights history: A ``Votes for Women'' History Trail, a 
vehicular tour route linking together a number of historic properties 
associated with women's suffrage in New York State; a National Women's 
Rights History Project focused on expanding the number of properties 
listed on the National Register of Historic Places that are associated 
with women's rights; and a National Women's Rights History Project and 
Partnerships Network that would offer financial and technical 
assistance to participating members for interpretive and educational 
program development through the use of partnerships and matching 
grants. A final report was transmitted to Congress in January 2004.
    Section 2 of S. 1816 would amend Public Law 96-607 to establish a 
``Votes for Women History Trail Route'', a vehicular tour route linking 
sites associated with the 72-year struggle for women's suffrage across 
New York State, a movement which spread throughout the nation. The 
trail route would be administered by the National Park Service through 
Women's Rights National Historical Park. The National Park Service 
would be authorized to support the development of interpretive signage 
and to develop and disseminate interpretive and educational materials 
and media to provide public understanding and appreciation of the 
resources along the trail route and their respective roles in the 
women's suffrage movement. Sites along the trail route could include 
the Susan B. Anthony House in Rochester, the Wesleyan Chapel in Seneca 
Falls, and Harriet Tubman Home in Auburn.
    Section 2 of the bill would also authorize the Secretary to enter 
into cooperative agreements with other Federal agencies, the State of 
New York, and other governmental and private entities to facilitate the 
development of the trail route and to provide technical and financial 
assistance to such organizations to achieve the purposes of the 
legislation. The public/private partnerships envisioned would provide 
opportunities for the public to learn about the rich, yet largely 
unknown history of the struggle for women's suffrage in the United 
States, while enhancing preservation of the remaining tangible 
resources associated with this effort.
    Section 3 of the bill would establish a National Women's Rights 
History Project National Registry that would authorize the Secretary to 
provide grants to State Historic Preservation Offices (SHPOs) to assist 
in surveying, evaluating, and nominating women's rights history 
properties for consideration to be listed on the National Register of 
Historic Places. Such activities are already within the purview of 
existing SHPO responsibilities. This legislation would therefore 
duplicate SHPO responsibilities, and divert limited available funds for 
broad SHPO responsibilities to a specific set of beneficiaries and 
purposes. SHPOs already have the ability to add sites to the National 
Park Service's website, ``Places Where Women Made History.'' The 
website lists historic places associated with women's history in New 
York and Massachusetts, travel itineraries, maps, photographs, and 
other information about these historic properties. The website has the 
capacity to provide opportunities for citizens of this nation, and 
those outside of the United States, to learn about the sites and people 
associated with the struggle for women's rights in America. These 
struggles remain relevant in American society today, and provide 
inspiration to others seeking equal rights in their own countries.
    Finally, section 4 of S. 1816 provides for the establishment of a 
National Women's Rights History Project Partnerships Network, managed 
through a nongovernmental entity, which would offer matching grants and 
technical assistance for the purpose of providing interpretive, 
educational, and historic preservation program development. The 
establishment of such a network would earmark historic preservation 
grants for a specific set of beneficiaries and would divert available 
resources for broader historic preservation purposes. NPS already has 
the authority to enter into collaborative proposals that could involve 
a variety of property types and that would be anchored by one or more 
National Register-eligible properties.
    We believe that particular aspects of S. 1816 provide the 
opportunity for all to gain a clear understanding and appreciation of 
the sacrifices and contributions of those associated with the quest for 
women's rights in the past, and for those who continue their work today 
throughout the world. However, we also believe that particular aspects 
of this legislation divert available resources from broader historic 
preservation purposes to specific sets of beneficiaries and duplicates 
existing authorities. The Department would welcome the opportunity to 
work with the committee to further review existing NPS programs to 
determine if we could achieve the goals of section 3 and 4 of the bill 
within our existing authorities.
    Mr. Chairman, this concludes my remarks, and I would be happy to 
respond to any questions that you and the committee may have.

                                S. 2093

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 
2093, a bill to amend the Wild and Scenic Rivers Act to designate a 
segment of the Missisquoi and Trout Rivers in the State of Vermont for 
study for potential addition to the National Wild and Scenic Rivers 
System.
    The Department supports enactment of this legislation with the 
amendments described in this testimony. However, the Department feels 
that priority should be given to the previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress. On April 24, 2008, the Department 
testified in support of the House companion bill, H.R. 3667.
    S. 2093 would direct the Secretary of the Interior to study the 
segment of the Missisquoi and Trout Rivers from the headwaters of the 
rivers downstream to the confluence of that segment with the Missisquoi 
Bay of Lake Champlain in the State of Vermont. A report that describes 
the results of the study is required to be submitted to Congress not 
later than three years after the date of enactment of this Act.
    Two segments of the Missisquoi River are listed on the Nationwide 
Rivers Inventory of candidate wild and scenic rivers. The mouth of the 
river includes the Missisquoi National Wildlife Refuge which comprises 
the Missisquoi River Delta and Missisquoi Bay on Lake Champlain. Upper 
portions of the Missisquoi and Trout Rivers are prized for their scenic 
beauty, recreational boating and fishing opportunities, and historic 
and archaeological values.
    The Missisquoi Valley Rail Trail parallels much of the upper 
Missisquoi River, and offers excellent potential for public access and 
recreational opportunities linked to the river and the broader river 
valley. Portions of the river also serve as the route for the Northern 
Forest Canoe Trail, based on the river's historical significance as a 
travel route for the Abenaki Indians. Great Falls on the upper 
Missisquoi is recognized as Vermont's largest undammed falls, and is 
part of a series of spectacular gorges and falls located on the upper 
river.
    The State of Vermont, Agency of Natural Resources (ANR) has been 
working extensively with communities of the upper Missisquoi watershed 
to address river management issues related primarily to agricultural 
run-off affecting water quality of the river and Missisquoi Bay/Lake 
Champlain. The forum that has been created through these efforts offers 
an ideal opportunity for the National Park Service to join the ANR and 
local communities in a comprehensive study that would add broader 
natural, recreational, and cultural considerations to the issues 
already being considered. The ANR and affected communities of the upper 
Missisquoi have all expressed their support for such a partnership-
based study.
    The Department notes that several large hydroelectric generating 
facilities are located on the lower Missisquoi River, making it 
inappropriate for wild and scenic river consideration. In addition, a 
segment of the upper Missisquoi River bows north into Canada, and 
should be excluded from this study effort. Therefore, we recommend S. 
2093 be amended to direct the study effort to the following river 
segments:

  <bullet> The approximately 25-mile segment of the upper Missisquoi 
        from Enosburg Falls upstream to the Canada border in East 
        Richford;
  <bullet> The approximately 25-mile segment of the upper Missisquoi 
        from the Canada border in North Troy upstream to the headwaters 
        in Lowell;
  <bullet> Approximately 20 miles of the Trout River from its 
        confluence with the Missisquoi to its headwaters.

    The Department would also like to work with the committee on 
several technical amendments to make this bill consistent with other 
recently enacted wild and scenic river study bills.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.

                                S. 2535

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2535, a bill to revise the boundary of Martin Van Buren National 
Historic Site, and for other purposes.
    The Department supports enactment of this bill.
    S. 2535 would expand the boundary of the Martin Van Buren National 
Historic Site, located in Kinderhook, New York, by including 261 acres 
of land surrounding Lindenwald, the home and farm of the eighth 
President of the United States. The bill also provides to the Secretary 
of the Interior land acquisition authority from willing sellers, by 
donation, by purchase with donated or appropriated funds, or by 
exchange.
    The boundary expansion would help visitors to understand the 
importance of agriculture in President Van Buren's life and the role of 
the changing agricultural economy before the Civil War. In addition to 
protecting Lindenwald in its historic agricultural setting, the 
legislation offers increased opportunities for public enjoyment of the 
park and surrounding land as part of an overall plan that was developed 
in concert with local landowners and governments.
    The proposed acreage includes a farm cottage, one of only three 
surviving structures associated with President Van Buren, and 
agricultural lands that once were a part of his original 226-acre farm 
and are still in active cultivation. Preserving these scenic and 
historic resources is critical to the future of the park. The expanded 
boundary would also allow the National Park Service (NPS) to replace 
temporary operational facilities, including a maintenance garage 
directly behind Lindenwald, and administrative facilities now housed in 
trailers, with permanent buildings more appropriate to the historic 
setting.
    Martin Van Buren National Historic Site was established by Public 
Law 93-486 to commemorate the life and work of President Martin Van 
Buren through the preservation and interpretation of his home and farm. 
The 39-acre park predominately consists of a prominent mansion located 
within the present boundary, a factor that narrows the focus of 
interpretation to a traditional house tour. Although agrarian ideals 
formed a central theme of Van Buren's political philosophy, 
agricultural components of the 226 original acres of Lindenwald are 
neither fully protected nor available for interpretation.
    Kinderhook, New York, part of the Hudson River Valley, was a rural 
farming area when the site was established in 1974. Since then, 
suburban, residential and commercial development has begun to threaten 
the area surrounding the park. This prompted the NPS to undertake a 
comprehensive study of the area in 2003, and to address concerns such 
as protecting the historic setting and enhancing opportunities for 
interpretation. The boundary study identified 24 contributing 
characteristics and features outside of the current park boundary that 
can be traced directly to Van Buren's tenure at Lindenwald. Expansion 
of the boundary to include these resources will provide for future 
protection of park-related resources and scenic values, and increase 
public understanding and appreciation of the life and ideals of Martin 
Van Buren, a preeminent politician during the Nation's turbulent 
antebellum years.
    Park managers have a close working relationship with the present 
owners of the land proposed for addition to the boundary of the park, 
some of whom will continue to farm the land and have agreed to make 
portions of their land available to visitors for a trail to enhance 
interpretation of the park. Within the proposed 261-acre boundary, 25 
acres are expected to be donated in fee to the NPS and 173 acres are 
expected to be donated in the form of conservation easements. The NPS 
would seek to acquire the remaining 63 acres through purchase of 
easements or fee interests from willing sellers. If acquired in fee, 
the cost would be approximately $667,000, subject to NPS priorities and 
the availability of appropriations. The majority of the land will 
remain in agricultural use. Monitoring of the conservation easements 
will be done by NPS personnel through the park's existing operations 
budget. The conservation easement lands would remain on the local tax 
rolls.
    The only structure that would be acquired on the 261 acres is an 
800-square foot historic cottage that is in sound condition, but will 
require some improvements such as painting the wood siding and 
repairing decaying window frames. Some of this cost could be paid 
through park maintenance funds, but if more extensive repairs are 
needed depending on the future use of the cottage, funds would be 
subject to NPS priorities and the availability of appropriations. The 
future use of the cottage will be determined in the general management 
planning process, which just began for the existing park.
    Should this legislation be signed into law, the general management 
planning process also would determine the need to relocate operational, 
maintenance or administrative facilities on the lands included in the 
park by this boundary addition, to move some of these facilities 
outside the park boundaries or to address the code and safety issues in 
the facilities' current location. The park currently rents two double-
wide trailers for administrative facilities, and houses curatorial 
storage in a deteriorating barn. Located adjacent to the trailers is a 
shed, built by NPS, that is used for visitor contact. The park also 
uses a garage for a maintenance facility that has serious code and 
worker safety issues and that is intruding on the historic setting of 
the Van Buren house. It is estimated it would cost $1.9-$2.8 million to 
address these two priority issues with or without a boundary change, 
since the temporary facilities are inadequate to be used in the long-
term. Any final decisions would be made as part of the general 
management planning process, and if included in the final plan, would 
be subject to the budget prioritization process of the NPS.
    This legislation enjoys broad support from various constituencies 
interested in conservation, historic preservation, and agricultural 
sustainability, including the New York State Office of Parks, 
Recreation, and Historic Preservation; the Columbia Land Conservancy; 
the Open Space Institute; the Columbia County Board of Supervisors; the 
Friends of Lindenwald; the Kinderhook Town Board; the Kinderhook 
Village Board; the Valatie Village Board; the Columbia County Tourism 
Department; and many other public organizations and local agencies.
    Mr. Chairman, this concludes my testimony and I am pleased to 
answer any questions you or other members of the subcommittee may have.

                                S. 2561

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2561. This bill would require 
that the Secretary of the Interior conduct a theme study to identify 
sites and resources associated with the Cold War and to recommend ways 
to commemorate and interpret that period of our nation's history.
    The Department supports this legislation as we believe that it is 
wholly appropriate for the National Park Service to undertake a study 
that will help ensure that the history of the Cold War era is preserved 
for future generations of Americans. In the 108th Congress, the 
Department testified in support of similar legislation, S. 452; however 
there was no other action taken on the bill.
    S. 2561 would require the Secretary of the Interior to conduct a 
National Historic Landmark theme study to identify sites and resources 
in the United States that are significant to the Cold War. The bill 
specifically provides that the study consider the inventory of Cold War 
resources that has been compiled by the Department of Defense and other 
historical studies and research on various types of military resources. 
It also requires the study to include recommendations for commemorating 
these resources and for establishing cooperative arrangements with 
other entities.
    We want to note that the study would not cover every resource that 
may be significant to the history of the Cold War as it affected our 
nation, since it would not include sites outside the United States such 
as U.S. installations in Germany or South Korea. It is necessary to 
limit the scope of the study to sites and resources within the United 
States, as S. 2561 does, because we do not have the authority to 
identify resources that are beyond our borders for potential National 
Historic Landmark status.
    In addition to authorizing the theme study, S. 2561 would require 
the Secretary to prepare and publish an interpretive handbook on the 
Cold War and to disseminate information gathered through the study in 
other ways. S. 2561 would authorize appropriations of $500,000 to carry 
out the legislation.
    National Historic Landmark theme studies are funded from a variety 
of sources including, in some cases, the special resource study budget, 
which is about $935,000 in FY 2008. There are 37 studies previously 
authorized by Congress that are being funded from the special resource 
study budget, nearly half of which will have at least some funding 
needs beyond Fiscal Year 2008. Our highest priority is to complete 
pending studies, though we expect to start newly authorized studies as 
soon as funds are made available.
    The National Historic Landmarks program was established by the Act 
of August 21, 1935, commonly known as the Historic Sites Act (16 U.S.C. 
461 et. seq.) and is implemented according to 36 CFR Part 65. The 
program's mission is to identify those places that best illustrate the 
themes, events, or persons that are nationally significant to the 
history of the United States and that retain a high degree of 
integrity. Potential national historic landmarks are often identified 
through theme studies such as the one that would be authorized by this 
legislation.
    Theme studies are not the same as special resource studies, which 
assess the suitability and feasibility of adding a site to the National 
Park System. Theme studies may identify sites that may be appropriate 
candidates for special resource studies, but these studies themselves 
do not evaluate sites for possible addition to the National Park 
System. Therefore, theme studies do not have the potential to lead 
directly to new operation, maintenance or other costs for the National 
Park Service.
    For example, in 2008, the National Park Service completed and 
transmitted to Congress a National Landmark Theme Study on the World 
War II Home Front. Through a partnership with the Organization of 
American Historians (OAH), NPS focused on themes that saw 
transformation during this period: civil rights with regard to an 
integrated work force, migration and resettlement to support 
mobilization, changes in gender roles as women entered the work force, 
labor relations as unions flexed new-found powers, economic 
mobilization and government cooperation with the private sector to 
support the war effort, technological advances, popular culture, and 
architectural change. The National Park Service is also conducting 
several other theme studies, including one on American Civil Rights, 
one related to the history of the labor movement, another on the 
earliest inhabitants of Eastern North America, and another on sites 
associated with Japanese Americans during World War II.
    At the moment, the history of the Cold War has some presence in the 
National Park System and on the two lists of historic sites maintained 
by the National Park Service. The National Park System includes one 
unit related to the Cold War, the Minuteman Missile National Historic 
Site in South Dakota, which Congress established in 1999 to preserve 
and interpret the role of Intercontinental Ballistic Missiles in our 
nation's defense system.
    Out of 2,444 designated national historic landmarks, at least five 
recognize civilian or military aspects of Cold War history; and out of 
approximately 76,000 listings on the National Register of Historic 
Places, at least 17 (including the five landmarks) are related to the 
Cold War. The relatively small number of recognized sites is due in 
large part to the fact that the Cold War has only recently been viewed 
as historically important. With or without a theme study, these numbers 
would likely increase over time, and the Department of Defense could 
take steps on its own to identify these sites under their jurisdiction.
    National Historic Landmark program regulations require consultation 
with Federal, state, and local governments; national and statewide 
associations; and a variety of other interested parties. Through 
partnering with a national historical organization, using a peer-review 
process, and consulting with appropriate subject experts as well as the 
general public, the National Park Service would ensure that the 
broadest historical perspectives are represented in any study it 
undertakes.
    In addition, we have been informed by the Department of Justice 
that the provisions of the bill that would require the Secretary of the 
Interior to make recommendations to Congress concerning federal 
protection for Cold War sites raise concerns with regard to the 
Recommendations Clause of the Constitution, which reserves to the 
President the power to decide whether it is necessary or expedient for 
the Executive Branch to make legislative policy recommendations to the 
Congress. The Administration would be pleased to provide language to 
resolve these constitutional concerns.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

                                S. 3011

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 3011, a bill to amend the Palo Alto Battlefield National Historic 
Site Act of 1991 to expand the boundaries of the historic site, and for 
other purposes.
    The Department supports S. 3011 with an amendment to provide the 
correct map reference for the boundary expansion. On June 5, 2008, the 
Department testified in support of H.R. 4828, an almost identical bill, 
before the House Subcommittee on National Parks, Forests and Public 
Lands.
    S. 3011 would amend Public Law 102-304 to adjust the boundary of 
the Palo Alto Battlefield National Historic Site (park) to include the 
addition of approximately 34 acres. The lands added to the boundary 
would remain under the ownership of the Brownsville Community 
Foundation (Foundation), Brownsville, Texas. The Foundation and the 
National Park Service (NPS) would co-manage and administer the lands 
added to the boundary through a cooperative agreement. There would be 
no acquisition costs associated with the boundary expansion and we 
estimate NPS's management, administrative, interpretive, resource 
protection, and maintenance costs to be approximately $200,000 
annually. Additional infrastructure improvements would include an ADA 
accessible trail, a visitor parking lot, trail and pavilion benches, 
the resaca overlook, interpretive panels and replica cannons, an NPS 
sign, a security gate, and utilities at an estimated cost of $360,000.
    The land proposed for addition to the park is known as `Resaca de 
la Palma', a National Historic Landmark. Located approximately four 
miles south of the existing park boundary and in the Heart of the City 
of Brownsville, Texas, the land is closely connected to Palo Alto 
Battlefield National Historic Site, the only unit in the National Park 
System to commemorate the Mexican War, both historically and 
culturally.
    Resaca de la Palma is the site of the second battle of the U.S. War 
with Mexico. The battle proved decisive for American forces and forced 
Mexican troops back across the Rio Grande River. The site is hallowed 
ground for many, including descendents of more than 214 individuals 
from the United States and Mexico who lost their lives at this site on 
May 9, 1846. After the battle, many visitors to Palo Alto and Resaca de 
la Palma viewed the land as having been transformed by the bloody 
sacrifices made there. That sentiment remains today and many residents 
of Brownsville believe that both of the battlefields should be 
preserved to honor the memory of the soldiers who fought and died 
there.
    Although the original battlefield at Resaca de la Palma extended 
over hundreds of acres, today only 34 acres remain undeveloped. In 
essence, Resaca de la Palma represents an oasis, surrounded by a 
developing city. In addition to its rich cultural heritage, these 34 
acres provide habitat for migratory and resident birds and small 
mammals. The battlefield site also represents a typical but 
disappearing landscape of the Rio Grande delta and conserves native 
chaparral, prairie, and brush.
    Resaca de la Palma is easily accessible to community members and 
visitors to the area. The 34 acres included in this boundary adjustment 
also represent a rare community green space that will be preserved. 
Existing structures include an interpretive trail and exhibits, a 
covered shelter, and a viewing platform overlooking the resaca, the 
literal translation of which is: the dry river bed of the palms.
    The National Park System includes many successful examples of 
philanthropic efforts that have added immeasurably to the preservation 
of our nation's natural and cultural treasures. The partnership between 
the NPS and the Foundation to co-manage Resaca de la Palma is another 
successful example of this type of effort. Many hours have been donated 
toward preserving Resaca de la Palma by board members, the park, and 
individuals in the community. Additionally, several private and public 
organizations have donated time and money to ensure Resaca de la Palma 
remains protected and accessible to visitors. These include the Boy and 
Girl Scouts of America, the City of Brownsville, the Cameron County 
Sheriff Department, and the Texas Department of Transportation.
    The Palo Alto Battlefield National Historic Site 1988 General 
Management Plan proposed including Resaca de la Palma within the park's 
administrative boundary. This legislation would achieve that goal. 
However, without this legislation, the NPS would be limited in its 
ability to interpret, maintain, or manage the Resaca de la Palma area 
for future generations.
    We suggest one amendment to S. 3011. On page 2, lines 13 and 14, 
the correct map information is: ``entitled Palo Alto Battlefield NHS 
Proposed Boundary Expansion, numbered 469/80,012, and dated May 21, 
2008.''
    That concludes my statement. I would be happy to answer any 
questions that you or other members of the subcommittee might have.

                                S. 3113

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3113, a bill to reinstate the Interim Management 
Strategy governing off-road vehicle (ORV) use at Cape Hatteras National 
Seashore (Seashore), North Carolina, pending the completion of an ORV 
management plan and issuance of a final rule for ORV use. The Interim 
Management Strategy was adopted on July 13, 2007 by the National Park 
Service to provide resource protection guidance in areas subject to ORV 
use. The bill would make inapplicable the consent decree that 
implements a settlement agreement modifying this Interim Management 
Strategy, to which all parties involved in a lawsuit agreed just three 
months ago.
    The Department supports allowing public use and access at Cape 
Hatteras National Seashore to the greatest extent possible while 
ensuring protection for the Seashore's wildlife, including the 
federally protected species that are the focus of present concern, for 
this and future generations of park visitors. Because we believe that 
the April 30, 2008, consent decree will accomplish this objective 
better than the original 2007 Interim Management Strategy for the 
period until a final ORV plan and rule are adopted, the Department 
cannot support S. 3113.
Background on Protected Species and ORV Management at Cape Hatteras
    Beach driving, also known as ORV use, predates the 1937 
authorization of the National Seashore and has become a popular method 
of access for recreational pursuits such as swimming, fishing, and 
water sports.
    Executive Order 11644 (1972), amended by Executive Order 11989 
(1977), requires the National Park Service to issue regulations on the 
designation of specific trails and areas for ORV use based upon 
resource protection, visitor safety, and minimization of conflicts 
among uses of agency lands. The Executive Order directs that these 
``[a]reas and trails . . . be located to minimize harassment of 
wildlife or significant disruption of wildlife habitats.'' Furthermore, 
``. . . whenever [the agency] determines that the use of off-road 
vehicles will cause or is causing considerable adverse effects on . . . 
wildlife (or) wildlife habitat, [it shall] immediately close such areas 
or trails to the type of off-road vehicle causing such effects until 
such time as [it] determines that such adverse effects have been 
eliminated and that measures have been implemented to prevent future 
occurrence.'' In response to the Presidents' direction, the National 
Park Service promulgated the regulation at 36 C.F.R. Sec.  4.10, which 
requires the Park Service to designate, by special regulation, ORV use 
areas and routes in compliance with Executive Order 11644. In 1978, the 
Park Service drafted an interim ORV management plan for Cape Hatteras 
National Seashore but never finalized it. In 1973 and 1990, the Park 
Service drafted ORV regulations for the Seashore but never promulgated 
them.
    To date, the National Park Service has not met the requirements of 
its own regulation. However, subsequent to a feasibility assessment 
process which queried numerous stakeholder groups, in December 2007 the 
Secretary of the Interior established a negotiated rulemaking committee 
under the Federal Advisory Committee Act (FACA) to aid the Service in 
the development of an ORV management plan and special regulation to 
meet the requirements of 36 C.F.R.Sec.  4.10. The committee, which has 
met five times thus far in 2008, is making progress toward this goal. 
The committee is scheduled to meet again in September, October, 
November, and December 2008. Under the April 30, 2008, consent decree, 
the ORV management plan must be completed by December 31, 2010, and the 
special regulation by April 1, 2011.
    The Seashore is the breeding site for many species of beach-nesting 
shorebirds and waterbirds, including the federally-listed threatened 
piping plover, the state-listed threatened gull-billed tern, and a 
number of species of concern including the common tern, least tern, 
black skimmer, and the American oystercatcher. All of the above species 
have experienced breeding population declines at Cape Hatteras over the 
past 10-20 years. For example, in 1989 the Seashore had 15 breeding 
pairs of the federally threatened piping plover. By 2001-2005, the 
Seashore experienced only 2-3 pairs attempting to nest each year. The 
numbers of colonial waterbird nests on the Seashore have declined from 
1,155 nests in 1999 to 217 nests in 2007. Individual colonial waterbird 
species have experienced the following reduction in nests on the 
Seashore from 1999 to 2007: gull-billed tern, 103 nests to zero; least 
tern, 306 nests to 196; common tern, 440 nests to 19; and black 
skimmer, 306 nests to 2. American oystercatcher numbers on the Seashore 
have declined from 41 breeding pairs in 1999 to 22 breeding pairs in 
2007.
    While a complex array of variables including weather events and 
predation contribute to these declines, human disturbance is certainly 
a factor, reflecting the inherent conflict resulting from the fact that 
peak visitor demand for access to key breeding sites, which are also 
popular fishing sites, occurs at approximately the same time as the 
primary period of wildlife breeding activity. The overall trend of 
declining numbers and the low numbers for specific species (piping 
plover, gull-billed tern, common tern, and black skimmer) at Cape 
Hatteras National Seashore has been of particular concern, because the 
National Park Service by law and policy is committed to preventing 
impairment of park resources, and preserving and restoring the natural 
abundance, diversity and distribution of native animal populations and 
ecosystems in which they occur in units of the National Park System.
    In July 2007, the National Park Service approved an Interim 
Protected Species Management Strategy and Environmental Assessment for 
the Seashore. This Interim Management Strategy provides guidance for 
the protection of beach-nesting shorebirds and sea turtles, and a 
threatened beach plant species, until a long-term ORV management plan 
and regulation can be developed. Meanwhile, in consultation with the 
negotiated rulemaking committee that was established in December 2007, 
the Service is working on the development of a long-term ORV management 
plan and environmental impact statement.
    In October 2007, Defenders of Wildlife and the National Audubon 
Society, represented by the Southern Environmental Law Center 
(Plaintiffs), filed a complaint in the U.S. District Court for the 
Eastern District of North Carolina challenging the Interim Management 
Strategy. In December, the complaint was amended to include the U.S. 
Fish and Wildlife Service as co-defendant based on Endangered Species 
Act claims related to its biological opinion. Additionally, two local 
counties, Dare and Hyde, and the Cape Hatteras Access Preservation 
Alliance, which is a coalition of local ORV and fishing groups, were 
granted intervenor status by the court. All of these entities are 
members of the negotiated rulemaking committee.
    On February 20, 2008, the Plaintiffs filed a motion for a 
preliminary injunction requesting the court to direct the National Park 
Service to completely close six key breeding sites (Bodie Island Spit, 
Cape Point, South Beach, Hatteras Spit, North Ocracoke, and South 
Ocracoke) to ORV use on a year-round basis consistent with the 2005 
management recommendations provided to the Park Service by scientists 
from the U.S. Geological Survey (referred to as the ``USGS 
protocols.'') These six sites are also the most popular fishing areas 
that are traditionally accessed by ORV users.
    In April 2008, the Plaintiffs, Federal defendants, and intervenors 
jointly filed a proposed consent decree with the U.S. District Court to 
implement a settlement reached by the parties, which the court issued 
on April 30. Reaching this settlement prevented a complete year-round 
shutdown of ORV access to the six popular fishing areas. The consent 
decree is not expected to affect the fall or winter fishing season. It 
will also allow many areas of the beach to remain open to recreational 
use, even during the breeding season.
    The consent decree provides for increased resource protection 
during the breeding season, while allowing for continued ORV access to 
the six key sites during the non-breeding season. It addresses 
individual species concerns and specifies buffer sizes and types, 
timing restrictions, and monitoring efforts to protect beach-nesting 
bird species, including piping plover, American oystercatcher, and four 
species of colonial waterbirds; and three species of federally 
protected sea turtles. It settles all claims raised in the lawsuit and 
does not set a precedent for the long-term ORV management plan or the 
regulation.
    Compared to the Interim Management Strategy, the consent decree 
includes larger, non-discretionary buffer distances to protect beach-
nesting birds once breeding activity is observed. It also includes a 
new prohibition on night driving on seashore beaches from 10:00 p.m. 
until 6:00 a.m. during the sea turtle nesting season. The consent 
decree does not directly mandate an outright closure of the six popular 
fishing areas. The National Park Service had to close these areas 
earlier this summer, however, to comply with the consent decree's 
criteria for determining buffer distances once breeding activity was 
observed. These areas are being reopened as breeding activity 
concludes. We are working hard to keep the public informed of beach 
access status.
    Many sections of beach have remained open to ORV and pedestrian 
access during the breeding season. As of July 17, 2008, of 
approximately 66.6 total miles of Seashore beaches, 26.1 miles were 
open to ORVs and pedestrians, an additional 25.5 miles were open to 
pedestrians only (totalling 51.6 miles open and accessible to 
pedestrians), 3.7 miles were ``open to pedestrians'' but access was not 
practical, and 11.3 miles were closed to ORVs and pedestrians to 
protect breeding and nesting areas.

Preliminary Results of Resource Protection Measures Taken in Accordance 
        with the Consent Decree
    Although the breeding season is not yet completed, it appears that 
actions taken under the consent decree have been beneficial for 
resource protection. Under the consent decree, the Seashore has 
experienced an increase in the number of breeding pairs of piping 
plover from 6 pair in 2006 and 2007, to 11 pairs in 2008. As of July 
19, 2008, there were 83 sea turtle nests on the Seashore compared to 49 
nests last year at this time.
S. 3113
    S. 3113 would reinstate the Interim Strategy for ORV use at the 
Seashore and declare the consent decree inapplicable. A return to 
managing the Seashore under the Interim Management Strategy would 
result in a reduction in the size, frequency, and timing of the buffers 
protecting federally and state listed species, and a likely reduction 
in the increase in nesting activity observed in 2008.
    We reiterate our commitment to providing for everyone's enjoyment 
of Cape Hatteras National Seashore's wonderful resources to the 
greatest extent possible while ensuring protection of park resources, 
including federally protected species, for this and future generations. 
We strongly believe that completion of the long-term ORV management 
plan and special regulation is the best way to involve all interested 
parties, including the general public, and meet the Service's 
responsibilities under the Endangered Species Act, National Park 
Service Organic Act, Cape Hatteras National Seashore enabling act, 
Migratory Bird Treaty Act, and other applicable laws. Through this 
process, the National Park Service will determine how to provide 
appropriate resource protection and reasonable visitor access at the 
Seashore. While we continue to implement the consent decree, we are 
actively working with all interested stakeholders in the development of 
the regulation and plan, and we look forward to continuing to work with 
the subcommittee, the local communities, and the involved stakeholders 
as these processes move forward.
    Mr. Chairman, that concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.

                                S. 3148

    Mr. Chairman, thank you for the opportunity to appear before you to 
present the views of the Department of the Interior on S. 3148, a bill 
to modify the boundary of the Oregon Caves National Monument, and for 
other purposes.
    The Department supports the intent of S. 3148 as consistent with 
the General Management Plan (GMP) for the park but recommends deferring 
action on the bill to give us the opportunity to explore ways to 
maintain continuity and interagency coordination on issues related to 
forest health and recreational opportunities.
    S. 3148 would adjust the boundary of the Oregon Caves National 
Monument to include the addition of approximately 4,070 acres to 
enhance the protection of the resources associated with the monument 
and to increase public recreation opportunities. The lands that would 
be added are currently managed by the U.S. Forest Service as part of 
the Siskiyou National Forest.
    In 1907, the Secretary of the Interior withdrew approximately 2,560 
acres for the purposes of establishing a national monument. The 1909 
presidential proclamation establishing Oregon Caves National Monument 
included only 480 acres. The monument was managed by the U.S. Forest 
Service until its administration was transferred to the National Park 
Service in 1933. The remaining withdrawal outside of the monument is 
administered by the USFS as part of the Siskiyou National Forest. This 
bill restores these lands to the monument boundary.
    There would be no acquisition costs associated with the boundary 
expansion and while a formal estimate has not yet been established, we 
anticipate National Park Service's management, administrative, 
interpretive, resource protection, and maintenance costs could be 
approximately $300,000-$750,000 annually.
    The explorer Joaquin Miller extolled ``The Wondrous marble halls of 
Oregon!'' when speaking about the newly proclaimed Oregon Caves 
National Monument in 1909. Oregon Caves is one of the few marble caves 
in the country that is accessible to the public. This park, tucked up 
in the winding roads of southern Oregon, is known for its remoteness, 
the cave majesty, and the unusual biota. The park is located in the 
Siskiyou Mountains and is part of a bioregion that has among the 
nation's highest biodiversities of vascular plants and animals--more 
than is found even in the tropics. The high rate of biodiversity is due 
to the diverse temperatures, moisture regimes, climates, bedrock, and 
productivity. The serpentine caves, cliffs, streams, springs and 
granitic formations seem to be just the right size for diversity--not 
so large that rare plants will continue to propagate, but not too small 
that extinction is high or migrants cannot find it.
    The stream flowing from the cave entrance is a tributary to a 
watershed that empties into the Pacific Ocean. There are no human-made 
obstructions that would prevent salmon migration, which makes this the 
only cave in the National Park Service with an unobstructed link to the 
ocean.
    The caves are nationally significant and a favorite visit for 
school kids and travelers alike. They remain alive and healthy because 
of the watershed above them. The park recognized this when developing 
the 1998 GMP and accompanying Environmental Impact Statement. The plan 
recommended the inclusion of the watershed into the park to provide for 
better cave protection and to protect the surface and subsurface 
hydrology and the public water supply. Because of changes in the 
recreational use of the lands since that time, additional discussions 
with the USFS are warranted.
    S. 3148 would designate approximately 7.6 miles of these waterways 
as wild, scenic, or recreational under the Wild and Scenic Rivers Act, 
including the first subterranean designated waterway in the country, 
the River Styx, which flows through the caves. This designation 
provides no additional protections to land and water resources.
    S. 3148 also provides authority for the Secretary to protect the 
water quality--in the caves and for public consumption--and to 
administer the lands in accordance with current laws and regulations. 
The Secretary is also directed to carry out ecological forest 
restoration activities that would establish a fire regime, manage 
revegetation projects, and reduce the risk of losing key ecosystem 
components. The land that this bill would transfer is categorized by 
the U.S. Forest Service as condition class 3--high risk of fire. Most 
of it is also designated as Late Successional Reserve under the 
Northwest Forest Plan. We understand that the Forest Service is 
currently working on a multi-year effort to reduce fuels under a 
comprehensive forest plan which is intended to help restore the 
appropriate role of fire in the ecosystem, which in turn would benefit 
monument resources that are at risk from fire and fire suppression 
damage.
    Section 7 of S. 3148 provides for voluntary relinquishment of 
grazing leases or permits by permittees to the Secretary of the 
Interior for authorized grazing on BLM-managed lands within the Billy 
Mountain Grazing Allotment. Under the bill, the Secretary is required 
to accept the donation of those permits or leases from grazing.
    The Billy Mountain Grazing Allotment is located 15 miles from the 
OCNM boundary, and the proposed legislation does not identify a clear 
link between this allotment and the monument. This grazing allotment 
has been designated under the Medford Resource Management Plan, and 
subsequent changes in designation are possible through the land use 
planning process if land and resource data indicate that grazing should 
no longer be supported on this allotment.
    The BLM is opposes this provision. However, the BLM also recognizes 
the value of working cooperatively and collaboratively with local 
stakeholders to fulfill its multiple use mission on BLM lands.
    While the transfer of these lands to the National Park Service 
would increase interpretive and educational opportunities for visitors, 
the Department finds it important to acknowledge and bring to the 
committee's attention a current recreational activity that would be 
affected by enactment of this legislation. Hunting is allowed by the 
U.S. Forest Service on the lands in question. As currently drafted, the 
legislation would extend the monument boundaries in a manner that 
prohibits continuation of hunting on these lands. The Department 
supports continuation of the diverse and traditional recreation 
opportunities on these lands
    To insure issues affecting the current forest health activities and 
recreational opportunities on the lands are adequately considered, we 
recommend the committee defer action on the legislation at this time. 
We will continue our discussions with the U.S. Forest Service on these 
matters.
    Should the committee decide to move ahead on the legislation, the 
Department recommends one technical amendment to the language involving 
the transfer of the land from one Federal agency to another.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
Suggested technical amendment to S. 3148
    On page 5, line 14, after ``transfer'' insert ``administrative 
jurisdiction of''

                                S. 3158

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 
3158, to extend the authority for the Cape Cod National Seashore 
Advisory Commission.
    The Department strongly supports enactment of S. 3158, which would 
amend Section 8(a) of Public Law 87-126 to extend the life of the 10-
member Cape Cod National Seashore Advisory Commission (commission) from 
2008 until 2018. The Administration transmitted a similar proposal to 
Congress on May 19, 2008.
    The commission was authorized in 1961, as part of the national 
seashore's enabling legislation and began operation in 1966. It has 
been legislatively and administratively reauthorized several times. The 
commission was last reauthorized for a ten-year period by Public Law 
105-280 and is set to expire on September 26, 2008.
    The commission is an exemplary example within the National Park 
System of a partner in cooperative land stewardship. Its purposes are 
to advise park management on questions relating to private land 
ownership and occupancy inside the boundaries of the national seashore, 
and on the management of recreational activities. Membership consists 
of one representative from each of the six lower cape towns, two 
representatives from the Commonwealth of Massachusetts, one 
representative from Barnstable County, and one representative of the 
Secretary of the Interior.
    Cape Cod National Seashore, located in eastern Massachusetts, was 
authorized by Public Law 87-126 in 1961, and established in 1966 with a 
unique pattern of land ownership and management. The six lower cape 
towns, from whose lands the Cape Cod National Seashore was carved, 
retain ownership of numerous parcels within the park including ponds, 
beaches, parking lots and roads. In addition, more than 600 parcels 
inside the park are privately owned. Under a unique landowner 
arrangement, sometimes referred to as the ``Cape Cod Formula,'' these 
parcels are expected to remain in private hands. However, activities on 
these lands can have profound effects on protected resources within the 
national seashore, creating a need for constructive and creative 
dialogue among landowners and park managers.
    The Cape Cod National Seashore Advisory Commission is a valuable 
asset that enhances communication between park managers and local 
communities and has established an excellent reputation as a 
facilitator of vital public/private dialogue. Frequent use of 
subcommittees dedicated to the exploration of specific questions allows 
local opinion leaders to remain involved. At the same time, it permits 
numerous parties to have direct access to park management through 
dozens of hours of consultation that park staff would be otherwise 
unable to support either individually or in public hearings.
    The commission's state and local representatives participate 
actively, and they strongly support its continuation. The cost of 
administering the Commission is minimal, approximately $7,000 annually, 
and is covered by the park's operating budget.
    Mr. Chairman that concludes my prepared remarks. I would be happy 
to answer any questions you or other members of the subcommittee may 
have.

                                S. 3247

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 3247, a bill to provide for the 
designation of the River Raisin National Battlefield Park in the State 
of Michigan.
    At this time, the Department recommends deferring action on S. 
3247. Our recommendation does not detract from the significance and 
importance of this battlefield site and the historical events 
associated with this major engagement of the War of 1812. We believe 
that the special resource study and the national historic landmark 
nomination currently underway should be completed so a determination 
can be made if the site is nationally significant and is both suitable 
and feasible to be designated as a unit of the National Park System.
    S. 3247 directs the Secretary of the Interior to accept the 
donation of real property from willing landowners in Monroe or Wayne 
Counties, Michigan, relating to the Battles of the River Raisin and 
their aftermath. If sufficient acreage to permit efficient 
administration is donated, the Secretary shall designate the acquired 
land as a unit of the National Park System. The new unit would be known 
as the ``River Raisin National Battlefield Park.''
    Public Law 109-429, signed by President Bush on December 20, 2006, 
authorized the Secretary of the Interior to complete a special resource 
study of sites relating to the Battles of the River Raisin on January 
18 and 22, 1813 and their aftermath. The study would provide 
alternatives for the appropriate way to preserve, to protect, and to 
interpret these sites and resources. Those alternatives would include 
recommendations on whether the area could be included as a new unit or 
part of an existing unit of the National Park System, or if the Federal 
government is the most appropriate entity to manage the site.
    The National Park Service has begun work on the special resource 
study and preliminary evaluation indicates that the site would qualify 
as a national historic landmark. There is intact archaeological 
evidence of the site; and archaeologists within the National Park 
Service's Battlefield Protection Program say that if the archaeology is 
preserved, the site has impressive integrity as a battlefield.
    We believe the study process should be allowed to continue in 
tandem with the national historic nomination. With public involvement, 
these two efforts will provide needed information to determine the best 
path for preservation and interpretation of the battlefield. We expect 
both to be completed in 2-3 years from now.
    The battles of the River Raisin were among the largest and most 
tragic engagements of the War of 1812. They were fought where the River 
Raisin enters Lake Erie at Frenchtown, or present day Monroe. Only 33 
of the 934 American soldiers who fought in the battles escaped death or 
capture. The massacre of wounded soldiers by Indians on January 23, 
1813, shocked people throughout the Northwest Territories. This was 
later known as the ``Massacre of the River Raisin.''
    The River Raisin was left a desolate, nearly abandoned settlement 
for eight months following the massacre. It was liberated on September 
27, 1813, when Colonel Richard M. Johnson's Kentucky cavalry, led by 
men from the River Raisin, rode into the settlement. Although the 
British could not return, destruction was so severe that the River 
Raisin settlement remained desolate and impoverished for five years 
after the battle.
    Until recently, the site of the main battlefield was occupied by an 
abandoned paper mill and listed as a brownfield site. However, the city 
of Monroe has received $1 million in grants and loans from the Clean 
Michigan Initiative and the Michigan Department of Environmental 
Quality to remove the structures and mitigate any polluted soils. An 
archaeologist monitored the removal and cleanup activities at the site, 
which has recently been transferred to public ownership.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.

                                S. 3226

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on S. 3226, a bill to rename the Abraham Lincoln 
Birthplace National Historic Site in the State of Kentucky as the 
``Abraham Lincoln Birthplace National Historical Park''.
    The Department supports enactment of S. 3226, as we believe that 
the term ``national historical park'' is a more appropriate designation 
for the Abraham Lincoln Birthplace site than its current designation. 
This bill is based on an Administration legislative proposal that was 
transmitted to Congress on May 8, 2008.
    Abraham Lincoln, one of our most revered Presidents, was born 
February 12, 1809, in a one-room log cabin on the Sinking Spring Farm 
near Hodgenville, Kentucky. This site, where the Lincoln family lived 
until 1811, was established as the Abraham Lincoln Birthplace National 
Historic Site in 1916. This 116-acre site features a memorial building 
that preserves an early 19th century Kentucky cabin, symbolic of the 
one in which Lincoln was born.
    In 1811, the family lost title to their Sinking Spring Farm and 
moved ten miles away to 30 leased acres in the Knob Creek Valley. It 
was here that young Abraham first attended the `Blab Schools,' so named 
because the children recited their lessons aloud. It was also here that 
a third child was born to the family, Thomas Lincoln, Jr., who survived 
only a short time. The Lincolns lived at Knob Creek Farm until 1816, 
when they moved to Indiana. Public Law 105-355, enacted in 1998, 
authorized the acquisition of Knob Creek Farm, and the 228-acre parcel 
of land was donated to the National Park Service in November 2001. This 
acquisition added a second unit to the Historic Site.
    Because the Historic Site now has two non-contiguous sites, its 
2006 General Management Plan recommends seeking legislation to change 
its name to ``Abraham Lincoln Birthplace National Historical Park,'' 
which would make the name consistent with other parks that have 
historic resources at multiple sites.
    This legislation proposes a name change only. Costs associated with 
the name would be minimal and would only involve changing the park name 
on signs, letterhead, and brochures.
    Mr. Chairman, this concludes my statement. I will be happy to 
answer any questions that you or members of the committee may have.

    Senator Akaka. Thank you very much, Mr. Wenk.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, Senator Burr, thank you for the 
opportunity to present to the subcommittee the perspective of 
the Department of Agriculture on S. 3148, the Oregon Caves 
National Monument Boundary Modification. This bill would do 
three things.
    Transfer approximately 4,070 acres of land from the Rogue 
River-Siskiyou National Forest to the Oregon Caves National 
Monument.
    Designate six segments of river as part of the National 
Wild and Scenic Rivers System.
    Provide for the termination of grazing use on a Forest 
Service managed grazing allotment adjacent to the monument.
    The intent of these actions is to enhance protection of 
resources associated with the Oregon Caves National Monument 
and to increase public recreation opportunities in and around 
the monument. We applaud these intentions and share these 
goals. However we believe that this bill would not accomplish 
these goals.
    A similar expansion proposal has been a part of the Oregon 
Caves National Monument General Management Plan since 1998. 
Since that time, the Forest Service and Department of Interior 
have not been jointly considering land status changes. The long 
standing policy of USDA and DOI is to avoid unilateral 
proposals that would change the status of lands.
    Instead the approach has been to conduct a joint study 
fully open to public participation. Moreover, long standing 
direction from both Departments has been for mutual support and 
cooperation in management of lands under each jurisdiction. I 
want to assure you the Forest Service is fully committed to 
cooperative and mutually supportive management.
    Now I'd like to talk briefly about a commitment to 
cooperation in resource protection on these lands. The land 
managers of the Rouge River-Siskiyou National Forest currently 
work very closely with managers of the Oregon Caves National 
Monument on resource issues that cross boundaries. A primary 
goal of both the Forest and the Monument is to maintain and 
protect cave resources, hydrologic resources, watersheds and 
view sheds.
    Critical landscapes are currently managed by interagency 
cooperation. These resources not only extend beyond the current 
monument boundary, but also extent well beyond the proposed 
expansion area. A great example of working to enhance resource 
protection across boundaries is the Rogue River-Siskiyou's 
commitment to improving forest health by addressing hazardous 
fuels.
    The majority of the proposed expansion area is designated 
as late successional reserve, LSR for short, as defined under 
the Northwest Forest Plan. The LSR managed by the Forest 
Service within the expansion area is in fire condition Class 
Three, high risk of damaging, perhaps catastrophic wildfire. 
This danger is very real. This same ranger district experienced 
a very large fire in 2002, the Biscuit Fire, that burned more 
than a half million acres.
    Currently the Rogue River-Siskiyou National Forest is using 
commercial harvesting in a coordinated multi-year effort to 
reduce fuels around the monument boundary and across the larger 
watershed and surrounding landscape. Some of the revenue from 
commercial treatments will be used to reduce the cost of fuel 
treatments on acres that can't be conducted commercially. Some 
of this revenue will be returned to the State of Oregon to 
support local schools and road maintenance.
    The Forest Service is fully committed to providing a wide 
range of public outdoor recreational opportunities on this 
landscape. Visitors to National Forest lands in the area enjoy 
horseback riding, camping, backpacking and hiking as well as 
hunting and fishing. The Forest Service does and will work with 
the National Park Service and the local community to make the 
most of the recreational opportunities on and around the 
monument.
    However if the bill is enacted as written, hunting will be 
prohibited from the proposed expansion area. The legislation 
directs the Secretary of Agriculture to accept any donation of 
a grazing permit by the permit holder for the Forest Service 
grazing allotment. If this donation is receiving, grazing would 
end on the entire allotment.
    Regardless of what happens to this particular allotment. 
The Forest Service believes that grazing is an environmentally 
compatible use within this portion of the Rogue River-Siskiyou 
National Forest. We also believe that livestock grazing on 
public range lands continues to be an important and appropriate 
use of these lands.
    Ranching contributes to the economic vitality of rural 
communities. It's tightly bound to the cultural identity of the 
West and provides for open space values on the private lands 
associated with public grazing. Wherever possible, we at the 
Forest Service want to ensure policies help to keep working 
ranches in operation and the land whole in the best tradition 
of conservation.
    In closing we believe that commitment on the part of the 
Forest Service and National Park Service to actively cooperate 
in management is the best and most effective means to enhance 
resource protection and recreational opportunities across this 
landscape. To that end, we request the committee defer action 
on this proposal pending further coordination. Mr. Chairman, 
this concludes my statement.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
     System, Forest Service, Department of Agriculture, on S. 3148

    Thank you for inviting me to testify on S.3148 the Oregon Caves 
National Monument Boundary Modification. The intent of the legislation 
is to enhance protection of resources associated with the Monument and 
to increase public recreation opportunities. To achieve these goals the 
bill would transfer approximately 4,070 acres of land from the Rogue 
River-Siskiyou National Forest to the Oregon Caves National Monument; 
it would designate six segments of rivers within the boundaries of the 
proposed transfer as part of the National Wild and Scenic Rivers 
system; and it would provide for possible termination of grazing use on 
a Forest Service-managed grazing allotment, a portion of which is 
located within the proposed boundary of the Monument.
    The Department of Agriculture (USDA) does not believe that either 
of the bill's primary purposes, enhanced protection of resources or 
increased public recreation opportunities, would be effectively 
achieved by its enactment. We believe that interagency coordination is 
the best and most effective means not only to enhance resource 
protection and recreational opportunities but also, and perhaps more 
importantly in the long run, to increase the participation of local 
communities, governments, and interest groups in Federal land and 
resource planning activities. To that end, we request that the 
committee defer action on this proposal pending further coordination 
between the Forest Service and the National Park Service.
    By way of background, the Oregon Caves National Monument is 
comprised of an area of approximately 480 acres located in the Siskiyou 
Mountains of southern Oregon. S. 3148 would expand the Monument 
boundary, through a land transfer to the Secretary of the Interior, to 
include approximately 4, 070 acres of land that are currently in the 
Rogue River-Siskiyou National Forest.
    In order to better illustrate the Department's position, I would 
like to take this opportunity to discuss in greater detail a number of 
the bill's specific proposals as well as the current status of 
cooperative and mutually supportive management between the Rogue River-
Siskiyou National Forest and the Oregon Caves National Monument.
Expansion Proposal
    Section 4 of the bill would direct the Secretary of Agriculture to 
transfer the proposed expansion area to the Secretary of the Interior, 
and to adjust the boundary of the Rogue River-Siskiyou National Forest 
to exclude the transferred land. The 1998 Oregon Caves National 
Monument General Management Plan, developed through the public NEPA 
process, recommended a similar boundary expansion. No coordinated study 
or formal dialogue between the Departments (beyond that provided under 
NEPA during development of the 1998 plan) has taken place in the 
intervening period.
    The longstanding policy of USDA and DOI is to avoid unilateral 
proposals to change the status of lands. Instead if land change status 
is to be considered, the Departments' approach has been to conduct 
joint study, fully open to public participation. Moreover, longstanding 
direction has been for mutual support and cooperation in management of 
lands under each jurisdiction. The U.S. Forest Service is fully 
committed to cooperative and mutually supportive management across our 
respective jurisdictions.
Protection of Resources
    The land managers of the Rogue River-Siskiyou National Forest and 
the Oregon Caves National Monument currently work very closely together 
on areas of mutual interest. The Forest Service and National Park 
Service managers mutually support the following three specific goals:

          1. Maintaining and protecting cave resources, hydrologic 
        resources, watersheds, and view sheds. Critical landscapes, 
        including cave resources and watersheds, are managed by 
        interagency collaboration. These resources, and the need to 
        manage them in a cooperative manner, not only extend beyond the 
        current Monument boundary but also extend well beyond the 
        proposed expansion area. Mere expansion of the Monument 
        boundary would do little to further enhance resource protection 
        of these landscapes and resources.
          2. Improving forest health by addressing hazardous fuels. The 
        majority of the proposed expansion area is designated as 
        ``Late-Successional Reserve'' (LSR) as defined under the 
        Northwest Forest Plan. These areas are intended to serve as 
        habitat for late-successional and old-growth related species. A 
        majority of the LSR landscape within this watershed, and the 
        larger surrounding landscape managed by the Forest Service, is 
        in fire condition class 3--high risk of damaging, perhaps 
        catastrophic, wildfire. Currently the Rogue River-Siskiyou 
        National Forest is using commercial harvest in a coordinated, 
        multi-year effort to reduce fuels, both around the immediate 
        vicinity of the Monument and across the larger watershed and 
        landscape. The Rogue River-Siskiyou National Forest plans for 
        approximately 1550 acres of fuels treatment projects within the 
        proposed expansion area. Four hundred and forty acres will be 
        treated over the next several years. Of those acres, 
        approximately 100 acres will be treated by commercial harvest 
        with volume estimated at 560 thousand board feet and an 
        appraised value of approximately $168,000. The remainder will 
        be treated non-commercially. These treatments are designed and 
        implemented to help restore the historic role of fire in this 
        ecosystem and will help ensure that the forest attributes 
        intended for the LSR, including bigger, older, more fire 
        resistant trees, remain intact. To that end, we fully endorse 
        the intent of section 6 of the proposed legislation to have 
        forest restoration activities continue on the proposed 
        expansion area. The hazardous fuel challenge in this region -
        and the danger of catastrophic fire-crosses all jurisdictions 
        and is one we all must work together to address.
          3. Minimizing any potential impacts from harvest, grazing, 
        mining, and road construction. The Forest Service is fully 
        committed to its multiple-use mission on National Forest System 
        lands. Sustainable timber harvesting, grazing, and special 
        forest products harvesting, as well as providing for a 
        diversity of recreation opportunities, including hunting and 
        fishing, help support the local economy. Returned receipts to 
        states from commercial activities on National Forest lands play 
        an important role supporting local public infrastructure, 
        including schools and roads.\1\
---------------------------------------------------------------------------
    \1\ 16 U.S.C. 500 directs 25% of receipts from a National Forest to 
be returned to the state where the National Forest is located; the 
state then distributes to the county where the National Forest is 
situated for public schools and roads as the state may prescribe.

    On the National Forest lands that surround the Monument, timber 
harvesting, grazing and special forest product harvesting (i.e. bear 
grass, firewood, mushrooms, etc.) are allowed only if they meet 
resource objectives, as described above. Road management is limited to 
maintenance and reconstruction activities; no new roads are planned to 
be built within the area. Moreover, interagency collaboration provides 
additional oversight of these types of multiple-use activities.
Expanding and improving tourism and recreational opportunities
    Current recreation on the portion of the National Forest proposed 
to be transferred includes horseback riding, hunting and fishing, 
gathering, camping, backpacking, and hiking. Interagency coordination 
maintains access to a full range of recreational opportunities which 
enhances the experience of both Monument and National Forest visitors. 
Executive Order 13443, issued in August 2007, directs the managers of 
national parks, forests, and other public lands, consistent with agency 
missions, to ``facilitate the expansion and enhancement of hunting 
opportunities and the management of game species and their habitat.'' 
If the bill is enacted, we understand from the National Park Service 
that hunting would be prohibited from the 4070 acre proposed expansion 
area. The Forest Service is fully committed to working with the 
National Park Service and the local community to provide for and to 
enhance a full spectrum of public outdoor recreational opportunities.
Relinquishment and Retirement of Grazing Permits
    Section 7 of the proposed legislation would direct the Secretary of 
Agriculture to accept any ``donation'' of a grazing permit by the 
permit holder for grazing on the Forest Service managed Big Grayback 
grazing allotment, and if such a donation is received, ensure an end to 
grazing on the entire allotment. Under this legislation, only a small 
portion of the Big Grayback allotment would become part of the 
Monument, and it is not clear how permanently ending grazing on a large 
area of land outside the Monument will further the legislation's 
purposes of enhancing resource protection and recreation opportunities 
on the Monument.
    The Forest Service believes that grazing is an environmentally 
compatible use within this portion of the Rogue River-Siskiyou National 
Forest. Livestock grazing on public rangelands has been and continues 
to be an important and appropriate use of our public lands and is 
important to the economic vitality and cultural identity of many 
communities. We recognize that most ranchers are good stewards of the 
land, and that they are essential contributors to retaining rangelands 
as open space and working lands across the Nation. The United States is 
losing important working rangelands to development all across the 
Nation. The loss of open space results in fragmentation of the 
rangelands into smaller, more isolated patches. The loss of open space 
affects our air, water, and vegetation, and degrades wildlife habitat; 
increasingly these former rangelands are developed into part of the 
wildland/urban interface. Development of open space is driven by a 
multitude of social and economic factors, some of which are beyond the 
mission or ability of the Forest Service to address. However, for our 
part, we want to ensure that Forest Service policies help to keep 
working ranches in operation and the land whole, in the best tradition 
of conservation.
    The permit holder's family has historically held permits on this 
allotment since 1937. The current permit was issued 2002 and will 
expire in 2012. A revised management plan for the allotment was issued 
in February, 2008 following an Environmental Assessment that was 
completed in October, 2007. The revised plan has not yet been issued, 
pending an appeal resolution under the National Environmental Policy 
Act (NEPA).
    Absent a voluntary waiver of the permit by the permit holder, the 
Forest Service generally only retires grazing permits through the 
public land use planning processes. The current permit holder may waive 
the permit at any time. If the permittee waives the permit back, the 
Rogue River-Siskiyou National Forest currently has the discretion to 
utilize the land within the parameters of the Forest's Land Management 
Plan. Options for use of the land include issuing the permit to a new 
holder if the base acres requirement is met, holding the allotment 
vacant, or retiring the allotment. We note that if the legislation is 
enacted and the permit is not waived, the permit on the National Forest 
portion of the allotment, beyond the proposed expansion area, would 
continue as a valid use. Further, the Forest Service would not be 
responsible for enforcement of livestock exclusion, including fence 
construction and range improvements, on the portion of the allotment in 
the proposed expansion area, since that land would be transferred to 
the Secretary of the Interior.
    We have other concerns with section 7. For example, section 7 does 
not indicate how the allotment would be managed should the permittee 
opt not to relinquish the permit, or in what order the transfer of the 
land and the waiver of the permit would occur. In addition, while 
section 7(a) would require a permanent end to grazing on the allotment 
if the permit is ``donated,'' section 7(b) indicates that a portion of 
a grazing permit could be donated. We also have concerns with some of 
the terminology in section 7. For instance, one example is the use of 
the term ``donation'', a concept that is not applicable to Forest 
Service grazing permits. The Forest Service uses the term ``waiver'' to 
describe a permittee's voluntary relinquishment of a grazing permit.
    Consequently, the Forest Service opposes this provision. However, 
the Forest Service also recognizes the value of working cooperatively 
and collaboratively with local stakeholders to fulfill its multiple use 
mission on Forest Service lands.
Wild and Scenic Rivers
    Section 5 of the proposed legislation provides for the addition of 
six river segments to the National Wild and Scenic Rivers System 
(NWSRS). The Siskiyou National Forest analyzed all tributaries to the 
Illinois River on National Forest System lands for eligibility for 
inclusion in the NWSRS as part of a 1989 settlement agreement to an 
appeal of the Land and Resource Management Plan. None of the four 
rivers included partly or entirely in the current Monument expansion 
proposal were found to meet the criteria for eligibility at that time. 
The Forest Service would suggest that, at minimum, the segments within 
the proposed expansion area be re-evaluated for their eligibility for 
the NWSRS.
    Thank you for the opportunity to testify on this legislation. I 
would be pleased to answer any questions you may have.

    Senator Akaka. Thank you very much, Mr. Holtrop.
    I would like to begin with a question for Mr. Wenk 
regarding S. 3247, the River Raisin National Battlefield bill. 
I understand that the Park Service believes that the site and 
its history are significant. However, and you did state in your 
testimony, you would like the opportunity to complete the 
suitability study to determine the best way to preserve and 
interpret the battle and battlefield and you did mention in 
your testimony that you think it will take about two to 3 years 
to complete the study.
    My only question is, ``Why is it going to take that long?''
    Mr. Wenk. Mr. Chairman, the typical study for a new area 
study or special resource study of the National Park Service 
typically takes 2 to 3 years and costs approximately $300,000 
to do that. We did launch the study in April of this year. The 
first public meetings are scheduled for October of this year.
    There is reason to believe based on preliminary work that's 
been done at the National Historic Landmark Study with the city 
of Monroe, that it is nationally significant or has national 
significance. The question of suitability and feasibility can 
only be answered by going through the complete study. That's 
just, sir, the time that it takes to get a study done.
    Senator Akaka. Thank you for the explanation. I would like 
to ask you a question regarding S. 3113, a bill regarding off-
road vehicle use in the Cape Hatteras National Seashore. If 
this bill is enacted into a law and the court decree is 
overturned what do you see as the most significant, on the 
ground impact?
    Mr. Wenk. I think there's two ways to look at the impact, 
sir. One of the ways is to look at the effects on the natural 
resources, the endangered species. We know that under the 
consent decree that we had an increase in the number of nesting 
pairs of endangered species, the piping plover and of the 
fledglings from those nestings there.
    We know we've had an increase in other species that are 
protected either by the Federal Government or under state 
government. We also know that there's been an increase in the 
amount of nests of the turtles. So one side is that we, if we 
were not to continue with the consent decree, we may see, some 
of those gains not being able to be sustained.
    On the other hand if it was rolled back there would be more 
beach space or beach access that would be available. The 
setbacks that are required under the consent decree are greater 
in distance from nesting pairs from fledglings than they would 
be under the consent decree. So there is a difference in the 
amount of beach access at particular times of year.
    I might say that currently 3 of the 6 fishing areas are at 
least partially open. We expect that all six will be open in 
September, and that the consent decree will not affect the fall 
and winter fishing seasons at Cape Hatteras.
    Senator Akaka. Thank you. Mr. Wenk, I would like to ask you 
about S. 3148, Oregon Caves National Monument Boundary 
Expansion. I understand that it is the Administration's 
position generally, to oppose the transfer of lands from the 
Forest Service to the National Park Service. However, can you 
tell me from the Park Service's perspective whether or not the 
land issued here would be suitable for addition to the 
monument?
    Mr. Wenk. Mr. Chairman, in 1998 and 1999 there was a 
general management plan done with considerable public 
involvement and what that general management plan looked at was 
how the ecology of the cave and their environments, including 
the Lake Creek and Cave Creek watersheds, could be offered 
additional protections. In addition to the monument's water 
supply, protection of the source of that supply which is on 
these proposed additions, would offer additional protection to 
the viewsheds from the monument's developed areas and the 
monument's trails would be further enhanced.
    So, we believe there are further protections that are 
included within there. Therefore they are suitable.
    Senator Akaka. Let me now ask for questions from my 
colleague, Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. I would also ask 
unanimous consent to send additional questions to our witnesses 
because I will focus on Hatteras, but I do have questions on 
other things.
    Senator Akaka. No objection. They will be included.
    Senator Burr. Dan and Joel, thank you for being here. Dan, 
I'm going to focus on you and let Joel off the hook. As it 
relates to the Cape Hatteras National Seashore, during the time 
in which the Interim Management Plan was followed, did the 
National Park Service comply with the terms of the formal 
biological opinion?
    Mr. Wenk. We did comply with the reasonable and prudent 
measures that were within the terms of the conditions of that 
original 2006 biological opinion. However, we did fail to meet 
some of the performance measures that were contained in there. 
Therefore, we had to re-engage in negotiations with the Fish 
and Wildlife Service on those terms and measures.
    Senator Burr. During the court approved agreement time that 
it's been in place, which is just under 3 months if I remember. 
Has there been any increase in beach traffic anywhere else 
because of the limitations that have been put on Hatteras?
    Mr. Wenk. Are you saying any other place within the 
National Park System or within different segments of the beach? 
I want to make sure I'm answering your question.
    Senator Burr. Given that there have been limitations placed 
that didn't exist before on beach traffic, it would be all from 
the seashore area.
    Mr. Wenk. I'm not aware that there's any increased traffic 
off of the beach area. I do know that on 1 day over the 
Memorial Day weekend, we had a situation with beach traffic in 
terms of concentration of the ORV traffic that we had to 
actually sort of, if you will, allow beach traffic, monitor or 
control the traffic through an area because of the size of the 
open space. But that only happened on 1 day.
    I can tell you, sir that the amount of area closed in 
general, has been very close to the same under the Interim 
strategy or under the consent decree. The issue obviously 
serves where it's closed in terms of the total miles on the 
beach.
    Senator Burr. So for 2008 has the visitation of the 
Hatteras National Seashore--is it up or is it down?
    Mr. Wenk. It's down about 15 percent.
    Senator Burr. What's the average for the Park Service in 
total?
    Mr. Wenk. In total, I don't know. I did look at some 
numbers in preparation for this.
    Senator Burr. It's down 1.2 percent. I'll save you looking 
it up.
    Mr. Wenk. I do know Cape Lookout is down 18 percent. I know 
that Cape Cod is 2 percent. Regarding seashores, Padre Island 
is down. As are other islands, Assateague, Cumberland and Fire 
Island.
    Senator Burr. Do the others fall within the framework of 
what the Park Service totally is down. But my question gets to 
the heart of the fact that there's something that's 
unpredictable about outer seashore. It's not just affected the 
visitation of Hatteras.
    It's affected the visitation of Lookout and of other areas. 
Senator Dole put this incredibly well that part of the balance 
we have to look at from a standpoint of our side is what's the 
economic impact. Could this decision be economically 
devastating to those in the area? A 14.5 percent reduction in 
visitation, a larger loss of economic business at Lookout, down 
the Island is a significant impact when you're talking about 
the period that truly is the money making time of this area of 
North Carolina.
    You gave a statistic. I don't question the statistic. 
That's the number of fledglings off the nest. I interpreted you 
to insinuate that this was the direct result of this new 
strategy, of this rule in place.
    Now this rule has been in place for 3 months. Can you 
honestly make that assessment based on a 3-month period?
    Mr. Wenk. Sir, the only thing I can tell you is that the 
difference between 2007 and 2008. I cannot tell you if that's a 
trend that can be sustained or will be sustained. I just can 
tell you in terms of the observation. This was what was 
observed in 2007. This is what's observed in 2008.
    Senator Burr. By the same?
    Mr. Wenk. It's a fact.
    Senator Burr. By the same token you can't tell me if the 
double digit decline in visitation is an aberration or it's 
just a continuation.
    Mr. Wenk. That is correct.
    Senator Burr. Ok. I thank you. Thank the chairman.
    Senator Akaka. Thank you very much, Senator Burr. Now I'd 
like to call on Senator Craig for any comments or questions he 
may have.
    Senator Craig. Thank you very much, Mr. Chairman. I think 
in light of what Senator Burr's concerns are, gentlemen, I'm 
always frustrated when we see the restriction of OHV use on 
land intended for recreational use. We try to designate for 
purposes of resource value and resource balance.
    At the same time we certainly designate properties that are 
for certain types of use. Then to step in and start restricting 
that use additionally, to me, denies Americans a right to enjoy 
their natural heritage in many ways. Certainly OHVs allow for a 
greater number of our people to enjoy our Nation and what it 
has to offer.
    The economic consequences of these kinds of activities are 
real. We all know there are types of resources that properly 
managed can utilize those. There are others properly managed 
shouldn't have them on it.
    I think I understand that. I would hope that that would be 
true in the situation that Senator Burr is speaking to. In that 
sense I think S. 3113 which is the legislation you're dealing 
with, Richard, as it relates to the interim plan for National 
Parks and in this case beach use.
    Also, Mr. Chairman, there's another piece of legislation S. 
3148 that deals with boundaries on the Oregon Caves National 
Monument to include about 4,000 acres of forested lands. This 
would increase the size of that monument by ten fold from its 
current 480 acres. In these areas, I know that my colleagues 
from Oregon have some frustration about it.
    But grazing plays a typical role in ranching. Ranchers 
cannot afford, I think, to compete with environmental 
organizations that have large accounts for funding their 
purposes. I found that time and time again where we, in 
creating public policy really have to become the reasonable 
moderator. That's something that I think is tremendously 
important.
    In the West that I represent environment values are awfully 
important along with grazing, all kinds of recreational 
activities. I'm always cautious when I see overly restrictive 
designations in areas that probably, I would find or most would 
find it hard to justify, when in fact the resource itself has 
been designated or the one that we're focused on designating.
    Also, one of the things that I think we're finding 
increasingly important out West as it relates to access and all 
of that is in a balance so that we can get in to fight fires 
and deal with the increased intensity of these fires in a way 
that allows our management the flexibility of doing that.
    Anyway those are some of my frustrations I think on these 
two pieces of legislation that are before the committee today 
along with several others. I'll approach those with due 
caution. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Craig. I want 
to thank our two witnesses on this panel very much for being 
here today. We will keep the record open for any further 
statements or questions that we may have, that we'll submit to 
you.
    Thank you very much.
    Senator Craig. I would also ask unanimous consent that my 
full statement be included in the record.
    Senator Akaka. Without objection it will be included in the 
record, Senator Craig.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    Restricting OHV use on land intended for recreation use is 
restricting the right that every American has to enjoy our natural 
heritage. OHV's allow for a greater number of people to enjoy what our 
nation has to offer.
    We must also consider the economic consequences-when the major 
attraction of a small town is a beach, it doesn't help to shut it down.
    While I understand the importance of keeping America's public lands 
peaceful and pristine.
    I don't think that OHV use would detract from this, in fact, it 
could increase visitation as it diversifies the activities one can 
partake in at various sites.
    It seems to me that were the residents of an area given the option 
of protecting a threatened species and recreating vs. protecting a 
species or recreating, they would go with the first option.
    Opinions are divided over the importance of the some oceanic 
creature's habitat and recreation on the beaches.
    In some cases, the voices of the locals are being suppressed in 
favor of the more outspoken, though not necessarily correct, and 
structured organizations with more resources at their disposal.
    Many times these organizations are regionally or nationally based 
entities that do not have a stake in the local community.
    It is not only the locals who enjoy recreating on the federal 
lands. Visitors from all over the United States face disappointment as 
more and more of their land is designated as critical habitat.
    How can we determine at this point whether or not a plan that has 
been implemented for less than a year (from June 13, 2007-April 2008) 
has resulted in success?
    Environmentalists claim that the decline in shorebird population is 
due to the OHV usage which is unsubstantiated due to the lack of 
information.
    The ``decline'' could be a result of a variety of factors. To 
consider the results inconclusive after one season is inappropriate.

                          STATEMENT ON S. 3148

    Grazing plays a pivotal role in ranching. Ranchers cannot afford to 
compete with environmental organizations that have large amounts of 
funding at their disposal. It's important to ensure that buyouts are 
fair and not placing the ranchers at a disadvantage.
    Ranchers should not be forced to give up private land needed for 
grazing in order to expand federal land holdings.
    Another concern has been over thinning and restoration in the 
forests around Oregon Caves, which would be transferred from the Forest 
Service to the Park Service.
    Should the forest be neglected, Oregon and neighboring states could 
face an increase of intense wildfires as a result.
    The transfer of power is also a cause for concern. Undoubtedly the 
Forest Service has a different focus than the Park Service, which could 
lead to more a focus on the Oregon Caves while the forests become 
dilapidated.
    A third concern has been over hunting on Park Service lands, which 
are generally off limits to hunting.  Expanding the boundary will push 
hunters back, and they are generally opposed to locking up more land.
    Hunting has the potential to fuel tourism. Restricting hunting 
rights even further is unfair to residents who rely on the patronage 
hunters can bring.
    Considering the land was originally managed by the Forest Service, 
hunters have a reasonable expectation to not have their lands curtailed 
by a related agency.

    Senator Akaka. I would like to call up the second panel.
    The Honorable Warren Judge, Chairman of the Dare County 
Board of Commissioners; Derb Carter, Director of the Carolina 
Office for the Southern Environmental Law Center; Coline 
Jenkins, President of the Elizabeth Cady Stanton Trust; and, 
William Braunlich, President of the Monroe County Historical 
Society.
    I want to thank all of you for being here today to testify 
before the committee. I want to tell you that we appreciate 
your coming. Some of you have traveled from out of town. We 
appreciate your time and effort.
    Your testimonies will certainly help the committee. I just 
want you to know that following your testimony you will be 
subject to questions, and also to ask you to please limit your 
remarks to no more than 5 minutes. Your complete statements 
will be included in the record along with any other materials 
you may submit.
    Commissioner Judge, will you please proceed?

 STATEMENT OF WARREN JUDGE, CHAIRMAN, BOARD OF COMMISSIONERS, 
                        DARE COUNTY, NC

    Mr. Judge. Good afternoon and thank you, Senator Akaka, 
Senator Burr and Senator Craig. I'm Warren Judge, Chairman of 
the Dare County Board of Commissioners. On behalf of the 33,000 
people who call Dare County their home and six million people 
who visit Dare County and the Outer Banks every year, it is my 
honor to appear before you to seek your support for S. 3113 to 
return the management of the Cape Hatteras National 
Recreational Area to the Park Superintendent.
    I've attached supporting materials by outside counsel 
Holland and Knight.
    The National Park Service created the Cape Hatteras 
National Seashore in 1937. In 1952, in an effort to alleviate 
the concerns of the people of Hatteras Island after taking 
miles of privately owned lands, Conrad Wirth, the Director of 
the Park Service sent an open letter to the people of the Outer 
Banks assuring them that there will always be access to the 
beach for all people whether they are local residents or 
visitors. His letter went on to acknowledge that the people who 
had lived in the area for generations would be responsible for 
caring for the tourists that would arrive to the newly created 
seashore and that these communities would enjoy the prosperity 
created by the Park.
    Until April of this year, Director Wirth's vision for the 
Park has been carried out. For decades the National Park 
Service has balanced the rights of all Americans to access the 
seashore with the need to protect the Park's resources. In 
April of this year, special interest environmental groups put 
an end to the National Park Service's successful and accepted 
management principles.
    As a result of a lawsuit and under the threat of an 
injunction closing even larger portions of the seashore, a 
consent order was issued by U.S. Federal District Court Judge, 
resulting in the closure of significant portions of the 
seashore to human access including the most popular swimming 
areas in the seashore and the traditional and world renown 
fishing areas. Special interest groups were relentless in their 
pressure on the park and the management in their effort to 
close the seashore. These special interest groups have no 
practical sense and advocate the removal of people from the 
Cape Hatteras National Recreational Area.
    Contrary to Director Wirth's acknowledgement that and I 
quote, ``Man is an integral part of nature and a very important 
consideration of designing solutions in dealing with nature.'' 
Senators, this an issue of access for all people to their 
favorite place in the recreational area, the backside beaches 
and tidal pools at Oregon Inlet or for Moms and Dads a great 
place to take their young children to experience the oceanside 
out of the wave zone. Cape Point is world renown for fishing. 
There is no better place in the world to drum fish.
    Cape Point is where the Gulf Stream and the Labrador 
Current collide. This phenomenon brings surfers from all over 
the world. If you surf Hawaii and if surf Australia, you will 
surf Cape Point.
    This is an issue of how heritage and our culture. It is 
about our people. Generations of Hatterasmen who are 
descendants of shipwreck victims. It is about the Migdett's, 
Burrus', Couch's, Dillon's, all who for generations have owned 
and operated family businesses on Hatteras Island.
    There are hundreds of stories that I could share with you 
today about people whose businesses, as a result of this court 
order, have declined in some cases by as much as 50 percent 
since April, even as we are on the prime part of our season. 
Senators, there are no factories in Dare County. There are no 
corporate headquarters. We are hundreds of small business men 
and women.
    We go to work everyday to provide for ourselves and to 
serve as hosts to millions of vacationers as they come to Dare 
County and the Cape Hatteras National Recreational Area. Many 
of them eke out a living and are content to do that for the 
opportunity to live and to enjoy the outdoors that Hatteras 
Island provides. Government should not take that away. 
Government should do all that it can to preserve this way of 
life.
    These same men and women that I have spoken about are the 
very ones who care for the environment and the beauty of the 
Cape Hatteras National Recreational Area. You will find them 
cleaning the beaches or guiding and protecting turtle 
hatchings. They'll cherish the Park's natural resources.
    These are the same resources that attracted them to Dare 
County and attract the visitors upon whom all of our 
livelihoods depend. They, too want to protect these resources, 
but do not believe it should be done without thought of human 
impact. The Interim Management Plan that was adopted in 2007 
worked. The birds and turtles were protected and the people had 
access to the recreational area.
    The people of Hatteras Island understood and accepted the 
plan. It was developed by the National Park Service in 
conjunction with the U.S. Fish and Wildlife Service. It gave 
Park Managers the ability to manage.
    That ended when those unwilling to balance interests, who 
are single minded in their pursuits filed legal action to 
obtain their goals without thought to the impact on small 
communities and to the working people who live in those 
communities. It should now be restored while we work together 
to come up with a permanent plan that accomplishes these goals. 
The people of Hatteras Island and Dare County are counting on 
you to help them to keep the promises made by those before you.
    Please help us preserve our culture, our history, our way 
of life. Please support S. 3113. Thank you for this opportunity 
to appear before you today.
    [The prepared statement of Mr. Judge follows:]

 Prepared Statement of Warren Judge, Chairman, Board of Commissioners, 
                            Dare County, NC

    Thank you Senator Akaka (Mr. Chairman), I appreciate the 
opportunity to be here today. It is an honor and a privilege to 
represent the 33,000 people who call Dare County, North Carolina their 
home and the 6 million people who visit Dare County and the Outer Banks 
every year.
    I am here today on behalf of those people to ask for your support 
of S3113 to return the management of the Cape Hatteras National 
Recreational Area to the Park Superintendent. I have attached 
supporting material by outside counsel, Holland and Knight.
    The National Park Service created the Cape Hatteras National 
Seashore in 1937. In 1952, in an effort to alleviate the concerns of 
the people of Hatteras Island after taking miles of privately owned 
lands, Conrad Wirth, the Director of the Park Service, sent an open 
letter to the people of the Outer Banks assuring them that ``there will 
always be access to the beach for all people, whether they are local 
residents or visitors.'' His letter went on to acknowledge that the 
people who had lived in the area for generations would be responsible 
for caring for the tourists that would arrive to the newly created 
Seashore and that these communities would enjoy the prosperity created 
by the Park. Until April of this year, Director Wirth's vision for the 
Park has been carried out. For decades the National Park Service has 
balanced the rights of all Americans to access the Seashore with the 
need to protect the Park's resources.
    In April of this year, environmental groups put an end to the 
National Park Service's successful and accepted management practices. 
As a result of a lawsuit and under the threat of an injunction closing 
even larger portions of the Seashore, a consent order was issued by a 
U.S. Federal District Court judge resulting in the closure of 
significant portions of the Seashore to human access, including the 
most popular swimming areas in the Seashore and the traditional and 
world renowned fishing areas. Special interests groups, in particular 
National Audubon and the Defenders of Wildlife, were relentless in 
their pressure on the Park and the management in their efforts to close 
the Seashore. These special interest groups have no practical sense and 
advocate the removal of people from the Cape Hatteras National 
Recreational Area contrary to Director Wirth's acknowledgment that 
``man is an integral part of nature and a very important consideration 
of designing solutions in dealing with nature''.
    Senators, this is an issue of access for all people to their 
favorite place in the Recreational Area. Have you ever been to Oregon 
Inlet? It is a first class location to surf fish, and has some of the 
best family swimming beaches you will ever find. The back side beaches 
and tidal pools offer moms and dads a great place to take their small 
children to experience the ocean outside of the wave zone. Cape Point 
is world renowned for fishermen; there is no better place in the word 
to drum fish. Cape Point is where the Gulf Stream and the Labrador 
Current collide. This phenomenon brings Surfers from all over the 
world. If you surf Hawaii and Australia, you will surf Cape Point. 
South Beach, too, is a world class beach and known the world over. You 
do not visit Hatteras Island without spending a day on South Beach.
    This is an issue of our heritage and our culture. It is about our 
people; generations of Hatterassmen who are descendents of shipwrecked 
victims. It is about two brothers, Stocky and Anderson Midgett, who 
operated a bus from Oregon Inlet to Hatteras Inlet delivering supplies 
and people up and down the Island--the Beach was the highway. This is 
about John Couch, a second generation family business owner, who has 
provided services for visitors. It is about Allen Burrus a five 
generation family business owner. Allen's family has owned and operated 
a Grocery Store in the same location since 1866. Allen's grandfathers 
watched as the Federal Government took their land for the Cape Hatteras 
National Seashore Recreational Area, and promised them that they would 
always be able to hunt, fish, and have access to the ocean. It is about 
Carol Garris, a wife and mother who with her husband had the American 
Dream, to own their own business. They worked hard and were successful. 
When the Consent Degree closed many miles of beach, their business was 
devastated. Not only is their business in jeopardy, but they are facing 
personal financial ruin. This is about Carol Dillon, a 79 year old 
woman, a native of Buxton, who has operated the Outer Banks Motel just 
north of Cape Point for 50 years. Carol was at the Public Meeting in 
the early 1950's when Director Conrad Wirth promised the people of 
Hatteras Island and Dare County that taking their land and making it a 
National Recreational Area was in their best interests. The land would 
be preserved forever for all to enjoy.
    There are hundreds more of these faces that I can share with you 
today. These are the people whose businesses, as a result of a Court's 
order, have declined by as much as 50% since April, even as we are in 
the prime part of our season. Senators, there are no factories in Dare 
County; there are no Corporate Headquarters. However, we are as 
American as you can be. We are hundreds of small businessmen and women; 
from charter boat captains to commercial fisherman, from fishing tackle 
stores to gift shops; from motels and cottages to rental homes; from 
variety stores to eco sports outlets. We go to work everyday to provide 
for ourselves and to serve as hosts to millions of excited vacationing 
visitors as they come to Dare County and the Cape Hatteras National 
Recreational Area for the times of their lives. Many eke out a living 
and are content to do that for the opportunity to enjoy the outdoors 
that Hatteras Island provides. Government should not take that away. 
Government should do all that it can to preserve this way of life.
    These same men and women that I have spoken about are the very ones 
who care for the environment and beauty of the Cape Hatteras National 
Recreation Area. You will find them cleaning the beaches as they 
organize beach sweeps to remove litter and trash that is harmful to 
birds; sitting up all night waiting for a nest of turtle eggs to hatch 
and then guide them safely to the ocean protecting them from their 
natural predators on land. These same people have more knowledge of all 
the birds and nests on Cape Hatteras than any special interest group 
spokesman that will come before you. The Interim Management plan that 
was adopted in 2007 worked, the birds and turtles were protected and 
the people had access to the Recreational Area. The people of Hatteras 
Island understood and accepted the plan. It gave Park Managers the 
ability to manage. That ended when those, who are unwilling to balance 
interests, who are single minded in their pursuits, filed legal action 
to obtain their goals without thought to the impact to small 
communities and to the working people who live in those communities.
    In a minute, you will hear from the attorney who represented those 
environmental groups in their efforts to close the seashore's beaches. 
He will no doubt tell you about his interpretation of the law, and 
about the correctness of his client's actions, about the failures of 
the National Park Service, and even provide you with statistics that he 
says support his view. Though other lawyers and biologists disagree 
with his opinions and statistics, he will not tell you that, nor will 
he tell you about the impact of his and his client's actions on the 
people of my community. While he may not care about the people of 
Hatteras Island and Dare County, these same people do care about the 
resources he says he is trying to protect. These are the same resources 
that attracted them to Dare County and attract the visitors upon whom 
all of our livelihoods depend. We too want to protect these resources, 
but do not believe it should be done without thought of the human 
impact. The Interim Management Plan provided the balance that we seek. 
It was developed by the National Park Service in conjunction with the 
U.S. Fish and Wildlife Service. It protected the resources of the Park 
and the interests of the community. It gave the National Park Service 
the flexibility to continue doing that. It should be restored while we 
all work together to come up with a permanent plan that accomplishes 
these same goals.
    The people of Hatteras Island and Dare County are counting on you 
to help them, to keep the promises made by those before you. Please 
help us preserve our culture, our history, our way of life. Please 
support S3113.
    [Resolution, background paper, and attachment 1 have been retained 
in subcommittee files.]

    Senator Akaka. Thank you very much, Honorable Judge. Now we 
will hear from Derb Carter. Will you please proceed?

     STATEMENT OF DERB S. CARTER, JR., ATTORNEY, SOUTHERN 
           ENVIRONMENTAL LAW CENTER, CHAPEL HILL, NC

    Mr. Carter. Mr. Chairman, Senator Burr, I'm Derb Carter 
with the Southern Environmental Law Center in Chapel Hill, 
North Carolina. Thank you for the invitation today to present 
our views on S. 3113. We represented the National Audubon 
Society and Defenders of Wildlife in the lawsuit that led to 
the consent decree that's now the subject of this legislation.
    For the reasons that I will summarize, that are discussed 
in more fully in our written testimony, we ask the subcommittee 
to oppose S. 3113.
    The consent decree requires the Park Service to implement 
specific management measures on Cape Hatteras National Seashore 
to protect wildlife until a final ORV management plan and 
special regulation is put in place. The consent decree was a 
product of negotiations between all parties to the lawsuit, 
Dare County, Hyde County, the Cape Hatteras Access Preservation 
Alliance, the Coalition of ORV groups, the National Park 
Service and of course my clients, Defenders of Wildlife and the 
National Audubon Society. All parties signed a consent decree 
and recommended to the court that it be entered, which the 
court did.
    The Senate should honor this agreement and settlement 
negotiated in good faith by the parties to the lawsuit and 
approved by the court. As our beaches and shorelines have been 
developed, sea turtles and several species of water birds and 
shore birds have little place left to breed and nest except 
areas we have set aside for them, such as Cape Hatteras 
National Seashore. Congress has wisely chosen to preserve 
national seashores as a part of our National Park System to 
leave them unimpaired for future generations to enjoy.
    The management measures to protect wildlife on the seashore 
required by the consent decree are the moderate protection 
recommendations of Department of Interior scientists that were 
requested by the National Park Service. We believe this peer 
reviewed scientific recommendations are the best scientific 
information available on protection of these nesting birds and 
sea turtles. The preliminary results from implementation of 
these management measures under the consent decree are very 
encouraging as previously discussed by the Park Service.
    The season is not yet over, and 99 sea turtles have pulled 
up on the beaches at night to nest. Only 82 nested on the 
seashore during the entire year last year.
    Federally threatened piping plover breeding pairs and 
fledged chicks nearly doubled. Colonial waterbird numbers are 
up. One species black skimmer, which disappeared from the 
seashore last year returned to nest this year. In short, the 
management numbers required by the consent decree are working 
to protect and restore the wildlife on Cape Hatteras National 
Seashore.
    While the temporary closures of areas for breeding birds 
have restricted access to some parts of the seashore beach. The 
vast majority has remained open to beach goers. Much has 
remained open to ORV users.
    I was on Cape Hatteras point on Saturday. Currently 
approximately nine miles, of the 67 miles of seashore beach is 
closed for resource protection. Much of that closure will begin 
to come down and by the fall all of it will come down and the 
beaches will be fully open. Over 53 miles of the seashore beach 
are open and accessible to beach goers. Over 27 miles are 
available for ORV use.
    On July 4th the National Park Service reported 2,557 
vehicles on Cape Hatteras National Seashore beaches. To our 
knowledge no ORV has been denied access to the beach since the 
consent decree was entered. There's a lot of beach available 
for all users. Even sharing some of that beach with the 
wildlife that has little other place to go.
    It also appears that many users are enjoying the beaches of 
Dare County. The Dare County Visitor Bureau reports that 
visitation measured by occupancy at hotels and rental homes was 
up 6.3 percent in May, the first month of the consent decree 
compared to May 2007 despite the sagging economy and high gas 
prices. As Senator Burr mentioned the drop in visitation to the 
seashore of 14 percent, we're aware of that figure. But it's 
also interesting to note that the drop in visitation to the 
seashore was 20.2 percent prior to the consent decree and has 
decreased to 10 percent since the consent decree was entered.
    Let me conclude on a personal note. I've visited and driven 
on the beaches of Cape Hatteras National Seashore for 30 years 
to enjoy some of the best birding and fishing on the East Coast 
as many others have. I've observed the dramatic increase in 
vehicles and general use of that beach. I've also observed the 
dramatic declines in wildlife that has occurred during that 
period of time.
    I agree entirely with Senator Burr that Cape Hatteras is a 
very unique and special place and a national treasure for all 
of our citizens. I believe the management measures in the 
consent decree provide much needed and appropriate protections 
to the seashore's wildlife. While allowing access for families, 
fishermen, water sport enthusiasts and ORV users and should 
remain in place until final ORV and management regulation is 
put in place.
    I appreciate the opportunity to be here today and present 
these comments and look forward to any questions you may have.
    [The prepared statement of Mr. Carter follows:]

     Prepared Statement of Derb S. Carter, Jr., Attorney, Southern 
         Environmental Law Center, Chapel Hill, NC, on S. 3113

    My name is Derb S. Carter, Jr. I am an attorney with the Southern 
Environmental Law Center in Chapel Hill, North Carolina. We represented 
the National Audubon Society and Defenders of Wildlife in the 
litigation that resulted in the consent decree that is the subject of 
Senate Bill 3113. This testimony is submitted on behalf of the National 
Audubon Society, Defenders of Wildlife, The Wilderness Society, and the 
Southern Environmental Law Center. Because the consent decree provides 
overdue protection of the natural resources of Cape Hatteras National 
Seashore and allows for appropriately managed off-road vehicle 
(``ORV'') use, we oppose Senate Bill 3113, legislation that would 
mandate a return to management practices that were resulting in 
declines and disappearance of wildlife from the Seashore.

                                SUMMARY

    On April 30, 2008, Dare County, Hyde County, an alliance of off-
road vehicle advocacy groups, the National Park Service, the National 
Audubon Society, and Defenders of Wildlife entered a consent decree in 
federal court requiring the National Park Service to implement certain 
wildlife protection measures on Cape Hatteras National Seashore 
(``Seashore'') until it fulfills a more than thirty-year old obligation 
under federal law to adopt a final ORV management regulation. Senate 
Bill 3113, if enacted, would nullify this consent decree, which was 
agreed to by all parties and approved by the court, and would instead 
reinstate previous management guidelines that resulted in declines and 
disappearance of wildlife on the Seashore. We urge this committee and 
the Senate to oppose any effort to enact this legislation.
    The consent decree implements the recommendations of Department of 
the Interior scientists to protect wildlife species on Cape Hatteras 
National Seashore until a final ORV plan and regulation is adopted. The 
species management measures include temporary closures to prevent 
disturbance of birds during the critical nesting season and 
restrictions on night driving to protect nesting sea turtles. These 
measures are necessary to halt the precipitous declines of species on 
the Seashore. Preliminary monitoring results from the National Park 
Service are encouraging, and all species appear to be benefiting from 
the management measures required by the consent decree. In addition, 
the Department of the Interior and National Park Service are required 
to protect and preserve the Seashore and its wildlife. This consent 
decree is intended to bring the agency into compliance with its legal 
mandate regarding wildlife while it completes its work to comply with 
mandates to manage ORV use.
    The species management requirements of the consent decree have not 
unreasonably restricted use of the Seashore. Residents and visitors are 
familiar with seasonal ORV prohibitions for resource protection and in 
front of the seven villages where ORV use is prohibited during the 
summer for families to enjoy sunbathing, swimming, and other 
nonvehicular activities.
    Cape Hatteras National Seashore has approximately 67 miles of 
beaches. As of July 24, of the 67 miles of beaches on the Seashore, the 
area temporarily closed to ORV and pedestrian use for natural resource 
protection was 9.1 miles. In contrast, over 53 miles of beach are open 
and available for families to enjoy on foot at the Seashore. Similarly, 
26.8 miles of the Seashore are available for ORV use. ORV users have 
taken advantage of these areas; on July 4, 2008, 2,557 vehicles used 
Seashore beaches.
    The consent decree will remain in effect until the National Park 
Service adopts a final management plan and rule through a negotiated 
rulemaking process. It requires that the National Park Service publish 
the final ORV management regulation by April 2011. The consent decree 
makes clear that the final plan will replace the management 
requirements in the consent decree and the requirements in the consent 
decree are not binding on the negotiated rulemaking or the negotiated 
rulemaking committee.

                               BACKGROUND

    In 1972, President Nixon issued Executive Order 11644 requiring 
federal land management agencies to publish regulations for all federal 
lands designating ORV areas and trails and ensuring ORV use does not 
harm natural resources.\1\ National Park Service regulations prohibit 
ORV use in national parks and seashores unless and until parkspecific 
ORV regulations are published.\2\ While other national seashores have 
complied with the requirement to issue plans and regulations for ORV 
use,\3\ Cape Hatteras has not.
---------------------------------------------------------------------------
    \1\ Exec. Order No. 11644, 37 Fed. Reg. 2,877 (Feb. 8, 1972).
    \2\ 36 C.F.R. Sec.  4.10(a).
    \3\ Cape Cod National Seashore, Assateague Island National 
Seashore, Gulf Islands National Seashore, Fire Island National 
Seashore, and Padre Island National Seashore have regulations managing 
ORV use. See 36 C.F.R. Sec. Sec.  7.65, 7.67, 7.20, 7.12, and 7.75. 
Cumberland Island National Seashore, Canaveral National Seashore, and 
Point Reyes National Seashore all prohibit off-road vehicles entirely. 
See http://www.nps.gov/cuis/planyourvisit/hours.htm; http://
www.nps.gov/cana/faqs.htm; http://www.nps.gov/pore/parkmgmt/upload/
lawsandpolicies--compendium2005.pdf. Of the ten national seashores, 
only Cape Hatteras National Seashore and Cape Lookout National Seashore 
have failed to enact regulations managing ORV use.
---------------------------------------------------------------------------
    In 2007, the National Park Service issued an ``interim plan'' for 
species management on the Seashore which in most respects simply 
reduced previous management of species to writing. In the decade prior 
to the ``interim plan,'' protected colonially nesting waterbirds on 
Seashore beaches declined 86% and threatened piping plovers declined 
from 14 pairs in 1996 to 6 pairs in 2007.\4\ The first year of the 
``interim plan,'' 2007, was one of the worst bird breeding seasons on 
record and two colonial waterbird species failed to successfully nest 
on the Seashore beaches at all.\5\ Unsuccessful nesting attempts by 
threatened and endangered sea turtles exceeded successful nesting.\6\ 
As a result, the Park Service exceeded the amount of incidental taking 
authorized under the Endangered Species Act for threatened piping 
plovers and threatened or endangered sea turtles on the Seashore.\7\
---------------------------------------------------------------------------
    \4\ Declaration of Walker Golder  5, filed in Defenders of 
Wildlife, et al. v. National Park Service, et al, Feb. 20, 2008 
(summarizing North Carolina Wildlife Resources Commission data on Cape 
Hatteras National Seashore bird populations).
    \5\ Id.
    \6\ NATIONAL PARK SERVICE, CAPE HATTERAS NATIONAL SEASHORE: 2007 
ANNUAL TURTLE REPORT 5 (2007) (reporting 82 nests and 115 false crawls 
during the 2007 season).
    \7\ See Letter from Pete Benjamin, U.S. Fish & Wildlife Service, to 
Mike Murray, National Park Service (April 24, 2007) (amending the U.S. 
Fish & Wildlife Service's biological opinion evaluating the interim 
plan and prescribing performance measures, including that the sea 
turtle nest to false crawl ratio be less than 1:1).
---------------------------------------------------------------------------
    In October 2007, the National Audubon Society and Defenders of 
Wildlife filed a lawsuit against the National Park Service, challenging 
the ``interim plan'' for species management on the Seashore.\8\ The 
organizations were concerned about the continuing decline of species on 
the Seashore and the fact the ``interim plan'' failed to implement the 
sciencebased management recommendations from Department of the Interior 
scientists. Dare and Hyde Counties and an alliance of ORV advocacy 
groups intervened in the lawsuit on the basis that they represented 
``local governments, ORV enthusiasts, recreational anglers, and ORV 
service providers . . . the parties that will be most immediately and 
directly affected by the outcome of this case.''\9\ On April 30, 2008, 
the U.S. District Court for the Eastern District of North Carolina 
approved a consent decree, agreed to and recommended to the court by 
all parties including the intervenors; it addressed driving on the 
beaches of Cape Hatteras National Seashore and the protection of 
wildlife there until a final ORV management plan is adopted.
---------------------------------------------------------------------------
    \8\ Together, Defenders of Wildlife, The National Audubon Society, 
and SELC have over two million members and supporters total, with more 
than 60,000 members and supporters in North Carolina.
    \9\ Mem. of P. & A. in Supp. of Dare County, et al. Motion to 
Intervene in Defenders of Wildlife, et al. v. National Park Service, et 
al. 1, Nov. 28, 2007.
---------------------------------------------------------------------------
             CAPE HATTERAS NATIONAL SEASHORE CONSENT DECREE

    The consent decree requires the National Park Service to publish a 
plan and regulations designating areas or trails for ORV driving on the 
Seashore, as required by federal law. The regulations must be published 
no later than April 1, 2011. In addition, to address declining wildlife 
populations, the consent decree requires that the National Park Service 
implement measures to protect breeding birds and sea turtles from 
disturbance until a final ORV management plan is adopted.
    The parties to the consent decree are Dare County, Hyde County, 
Cape Hatteras Access Preservation Alliance, the National Park Service, 
the Department of the Interior, the National Audubon Society, and 
Defenders of Wildlife. The Cape Hatteras Access Preservation Alliance 
is an umbrella organization that includes the Outer Banks Preservation 
Association, the Cape Hatteras Anglers Club, and the North Carolina 
Beach Buggy Association.\10\ All parties in the lawsuit supported the 
consent decree and recommended that the court approve it.
---------------------------------------------------------------------------
    \10\ Cape Hatteras Access Preservation Association website, http://
capehatterasapa.org/.
---------------------------------------------------------------------------
    That unanimous support for the consent decree was the result of 
extensive negotiations among all parties and detailed consideration of 
all affected interests. When asked by the court whether the counties 
and ORV coalition supported the consent decree, their attorney 
responded, ``There have been intense negotiations between the parties 
here. Our clients have participated in those negotiations in good 
faith. A settlement has been worked out that is, I think, in nobody's 
mind a perfect solution. We believe that we participated in the process 
in good faith and we join in asking the court to enter the consent 
decree.''\11\ The commissioners of both counties held public meetings 
and voted to approve the settlement, and the ORV coalition similarly 
met and authorized their attorney to sign the consent decree. 
Similarly, the Park Service stated, ``The agreement reached between the 
NPS and the other parties to the lawsuit is a creative solution that 
addressed a tough issue. This well thought out plan will serve as an 
example of how we fulfill our responsibilities and meet the needs of 
all parties involved.''\12\ National Audubon Society and Defenders of 
Wildlife also recommended approval of the consent decree.
---------------------------------------------------------------------------
    \11\ Consent Decree Hr'g Tr. 45:9-14, April 30, 2008. Despite this 
representation in federal court that they negotiated and supported the 
consent decree, CHAPA and its member organizations have sought to 
override the agreement they crafted and joined through this proposed 
legislation. CHAPA has listed instructions and posted a sample letter 
to encourage its members to support this legislation. The Outer Banks 
Preservation Association, the North Carolina Beach Buggy Association, 
and the Cape Hatteras Anglers Club have similarly advocated for their 
members to support this legislation overturning the agreement they 
entered into.
    \12\ Press Release, National Park Service, Agreement Reached to 
Preserve Wildlife and Recreation Opportunities on Cape Hatteras 
National Seashore (May 1, 2008).
---------------------------------------------------------------------------
                 WHAT DOES THE CONSENT DECREE REQUIRE?

    The consent decree requires that the National Park Service provide 
places for federally and state protected birds and sea turtles to nest 
on the Seashore during the breeding seasons--generally April to July or 
August for birds and May to November for sea turtles. ORV use is 
restricted at historic bird breeding sites in the spring to provide 
disturbance-free areas that allow the birds to set up territories or 
colonies and to nest. The pre-nesting areas still allow ORV use of the 
inlets and Cape Hatteras Point. During the months of the year before 
the establishment of pre-nesting closures on March 15 and after the 
completion of the bird and sea turtle breeding, resource management 
closures do not limit ORV use of the ocean beaches of the Seashore.
    If birds do begin to nest in the pre-nesting closures or other 
areas outside these prenesting closures, buffers are established around 
the nesting areas to prevent disturbance. The species-specific 
disturbance buffers are based on the ``moderate protection 
recommendations'' from peer-reviewed reports prepared by scientists in 
the United States Geological Survey (a part of the Department of the 
Interior) at the request of the National Park Service and on the 
recovery plan for the Atlantic Coast population of the threatened 
piping plover developed and issued by the U.S. Fish and Wildlife 
Service.\13\ Those reports were based on a thorough review of the best-
available science. Depending on where the nesting occurs, ORV corridors 
and/or pedestrian access may or may not be affected by the buffers. The 
scientifically determined disturbance buffers may limit ORV and/or 
pedestrian use of an area until breeding is completed.
---------------------------------------------------------------------------
    \13\ See e.g., UNITED STATES GEOLOGICAL SURVEY, MANAGEMENT, 
MONITORING, AND PROTECTION PROTOCOLS FOR COLONIALLY NESTING WATERBIRDS 
AT CAPE HATTERAS NATIONAL SEASHORE, NORTH CAROLINA 13 
(2005)(recommending 100m to 200m buffers for different colonial 
waterbirds); UNITED STATES FISH AND WILDLIFE SERVICE, PIPING PLOVER 
(CHARADRIUS MELODUS) ATLANTIC COAST POPULATION REVISED RECOVERY PLAN 
192-194 (1996)(recommending buffer distances for pedestrians and ORVs).
---------------------------------------------------------------------------
    Sea turtles, which primarily nest and hatch during the night, are 
protected under the consent decree by closure of the beaches to ORV use 
from 10 p.m. to 6 a.m. May 1 through September 15 and a requirement for 
permits, driver education, and light restrictions from September 16 
through November 15. These restrictions are also based on the best-
available science, including the United States Geological Survey 
recommendations.\14\
---------------------------------------------------------------------------
    \14\ UNITED STATES GEOLOGICAL SURVEY, MANAGEMENT AND PROTECTION 
PROTOCOLS FOR NESTING SEA TURTLES AT CAPE HATTERAS NATIONAL SEASHORE, 
NORTH CAROLINA (2005).
---------------------------------------------------------------------------
       EFFECTS OF THE CONSENT DECREE ON VISITORS TO THE SEASHORE

    Under the consent decree, only those areas used by breeding birds 
and areas immediately surrounding sea turtle nests are closed to ORV 
use during daylight hours. Breeding closures are removed when birds 
complete nesting and chicks fledge. Turtle nest closures are removed 
after the nest has hatched. As the breeding seasons for birds and 
turtles progresses and then winds down, the total area opened or closed 
to ORV use changes in response to breeding and nesting activity. This 
approach ensures that scientifically supported protections are put in 
place when needed to protect wildlife. In addition, this approach 
requires extensive monitoring and management of resources in order to 
make beaches available to vehicles quickly after turtles hatch or 
chicks fledge. An alternative approach, also recommended by Department 
of Interior scientists, is to close to ORV access key nesting areas 
around the inlets and Cape Point year-round.
    To date, resource closures under the consent decree have only 
affected small stretches of the Seashore's beaches. Cape Hatteras 
National Seashore has approximately 67 miles of beaches. On July 24, 
2008, 9.1 miles were temporarily closed for natural resource 
protection; 53.3 miles of Seashore were open to pedestrians; and 26.8 
miles were open to ORV traffic. Cape Point, though temporarily closed 
during to protect piping plovers, was opened to pedestrian access on 
July 22, 2008.\15\
---------------------------------------------------------------------------
    \15\ OUTER BANKS GROUP, NATIONAL PARK SERVICE BEACH ACCESS REPORT 
FOR JULY 24 2008 (2008) (``July 24 Beach Access Report'').
---------------------------------------------------------------------------
    The size of some closures is, in part, a result of vandalism of 
buffer fencing. The National Park Service has documented four separate 
incidents of vandalism of resource closures. Two of those acts of 
vandalism occurred on Hatteras Island\16\ and two occurred on Bodie 
Island.\17\ In each instance, the first act of vandalism triggered a 50 
meter buffer expansion and the second act of vandalism resulted in 
expansion a 100 meter buffer expansion.
---------------------------------------------------------------------------
    \16\ Press Release, Outer Banks Group, Second Act of Vandalism of 
Shorebird Closure Fencing (May 19, 2008), at http://www.nps.gov/caha/
parknews/second-act-of-vandalism-of-shorebird-closure-fencing.htm.
    \17\ Press Release, Outer Banks Group, A Deliberate Violation of 
Resource Protection Area for Least Tern Colony with Chicks and Nests 
(July 28, 2008), http://www.nps.gov/caha/parknews/a-deliberate-
violationof-resource-protection-area-for-least-tern-colony-with-chicks-
and-nests.htm.
---------------------------------------------------------------------------
    Moreover, the two holiday weekends that have taken place under the 
consent decree appear to have been successful for tourism in the area. 
According to the local online newspaper, the Island Free Press, the 
usually busy Memorial Day weekend ``was, well, like any other holiday 
weekend on Hatteras and Ocracoke'' despite the ``unprecedented beach 
closures.''\18\ This trend continued through the Fourth of July 
weekend; the Park Service reported 2,557 vehicles were on Seashore 
beaches on July 4th.\19\ The Island Free Press stated, ``There are 
beaches open to off-road vehicles on Hatteras and Ocracoke islands--
despite the impression that some folks have that all beaches are closed 
down. Even through the July 4 holiday weekend, there was room on those 
open beaches for anyone who wanted to drive to the ocean's edge.''\20\
---------------------------------------------------------------------------
    \18\ Irene Nolan, Dodging the bullet on Memorial Day Weekend, 
ISLAND FREE PRESS, May 19, 2008, http://www.islandfreepress.org/
2008Archives/05.19.2008-DispatchesFromTheBeachfront.html.
    \19\ Irene Nolan, New dispatches from the beachfront: Access 
update, getting smart about beach driving, manners and laws, and July 4 
report, ISLAND FREE PRESS, http://www.islandfreepress.org/2008Archives/
07.11.2008-ShootingTheBreezeNewDispatchesFromTheBeachfront.html. This 
level of ORV activity indicates that there has been little to no effect 
on overall ORV use of the beach, with the busiest holiday weekends in 
previous years reportedly approaching only 2,200 vehicles. Notice of 
Intent (NOI) To Prepare a Draft Environmental Impact Statement (DEIS) 
for an Off-Road Vehicle Management Plan (ORV Management Plan) for Cape 
Hatteras National Seashore, NC, 71 Fed. Reg. 71552 (Dec. 11, 2006).
    \20\ Irene Nolan, New dispatches from the beachfront: Access 
update, getting smart about beach driving, manners and laws, and July 4 
report, ISLAND FREE PRESS, http://www.islandfreepress.org/2008Archives/
07.11.2008-ShootingTheBreezeNewDispatchesFromTheBeachfront.html.
---------------------------------------------------------------------------
       EFFECTS OF THE CONSENT DECREE ON WILDLIFE ON THE SEASHORE

    It is too early in the first breeding season under the consent 
decree to have a complete data set, but preliminary results from the 
National Park Service's weekly Resource Management Reports are 
encouraging. By the last week in July, piping plovers had increased 
from 6 breeding pairs in 2007 to 11 pairs in 2008, an 83% increase for 
this threatened species.\21\ Fledged piping plover chicks nearly 
doubled from 4 to 7 during the same period, the highest number of 
fledged piping plover chicks on the Seashore since 1998.\22\ American 
oystercatchers, which declined 42% between 1999 and 2007, were down one 
pair this year to 21 breeding pairs on Seashore beaches, but at least 
20 additional oystercatchers were present, some of which appeared to be 
paired.\23\ Oystercatchers have equaled last year's total of 10 fledged 
chicks, with up to 7 more possible, which raises the hope that the 
oystercatcher breeding population will continue to recover in coming 
years.\24\ The overall number of nesting colonial waterbirds has 
increased, and black skimmers are nesting again on Seashore beaches, 
after failing to nest at all last year.
---------------------------------------------------------------------------
    \21\ OUTER BANKS GROUP, NATIONAL PARK SERVICE RESOURCE MANAGEMENT 
WEEKLY FIELD SUMMARY REPORT FOR JULY 24, 2008 1 (2008) (``July 24 
Resource Report'').
    \22\ Declaration of Walker Golder Attachment 7, filed in Defenders 
of Wildlife, et al. v. National Park Service, et al, Feb. 20, 2008.
    \23\ OUTER BANKS GROUP, NATIONAL PARK SERVICE RESOURCE MANAGEMENT 
WEEKLY FIELD SUMMARY REPORT FOR JUNE 18, 2008 2 (2008).
    \24\ See Id.
---------------------------------------------------------------------------
    Additionally, the number of successful sea turtle nesting attempts 
has increased to 92 so far in 2008, up from 82 all of last year. As of 
July 24, there have been 92 successfully laid sea turtle nests and only 
82 unsuccessful nesting attempts,\25\ reversing last season's ratio 
under the ``interim plan'' when the number of unsuccessful nests, 115, 
far exceeded the number of successful nests, 82.\26\ Based on these 
preliminary indicators, all species appear to be benefiting from the 
management measures required by the consent decree. However, due to the 
steep population declines over the last decade, it will take more than 
one or two years of proper management for beach nesting birds to 
recover fully at the Seashore.
---------------------------------------------------------------------------
    \25\ Id. at 3.
    \26\ NATIONAL PARK SERVICE, CAPE HATTERAS NATIONAL SEASHORE: 2007 
ANNUAL TURTLE REPORT 5 (2007).
---------------------------------------------------------------------------
                 ECONOMIC EFFECTS OF THE CONSENT DECREE

    As with environmental effects, it is too early to assess the 
economic effects, if any, of the restrictions on beach driving. 
Approximately 2.5 million visitors come to the Seashore each year. A 
2008 government-contracted study concluded that 2.7 to 4% of these 
visitors are ORV users.\27\ That study also estimated that 9% of the 
visitors to the Seashore would return more often if driving were 
restricted on the beaches.\28\
---------------------------------------------------------------------------
    \27\ INDUSTRIAL ECONOMICS, INC., ECONOMIC ANALYSIS FOR CRITICAL 
HABITAT DESIGNATION OF THE WINTERING PIPING PLOVER 2-14 (2008).
    \28\ Id. 2-17.
---------------------------------------------------------------------------
    The Dare County Visitors Bureau reports that visitation during May 
2008 (the first month of the consent decree) as measured by occupancy 
of motels, cottages, and other accommodations, was 6.31% higher than 
May 2007, a greater increase in visitation than the average increases 
for May over the past five years.\29\ This increase in visitation 
occurred despite a sagging economy and record high gas prices.
---------------------------------------------------------------------------
    \29\ OUTER BANKS VISITORS BUREAU, GROSS OCCUPANCY SUMMARY 1994-
2007, www.outerbanks.org/pdf/Gross_Occupancy_Summary_receipts.pdf.
---------------------------------------------------------------------------
    The National Park Service reports a drop in visitation this year to 
Cape Hatteras National Seashore of 14.5% through June 2008 as compared 
to the same period last year.\30\ This reflects an overall drop in 
visitation to the entire national park system this year. However, the 
drop in visitation to Cape Hatteras National Seashore this year prior 
to implementation of the consent decree (January-April) was 20.2% 
compared to a 10% drop after implementation of the consent decree. 
Visitation at nearby Cape Lookout National Seashore, unaffected by the 
consent decree, has dropped 35% through June 2008 compared to the same 
period last year.\31\ Accordingly, the consent decree appears to have 
had little to no negative effects on tourism.
---------------------------------------------------------------------------
    \30\ http://www.nature.nps.gov/stats/
    \31\ Id.
---------------------------------------------------------------------------
park service negotiated rulemaking to adopt a final orv management plan
    In January 2008, the Department of the Interior established an 
advisory committee representing diverse interests and charged with 
recommending a proposed final ORV management plan to the National Park 
Service. The consent decree does not restrict or undermine this 
process. The lawsuit that led to the consent decree challenged the 
ongoing management of wildlife on the Seashore under the interim plan 
and sought to halt the decline and disappearance of birds on the 
Seashore during the time it will take for a final ORV plan--the focus 
of the negotiated rulemaking--to be adopted. According to the Park 
Service, it will take three years to go through rulemaking to adopt a 
final ORV plan. At that time, as the consent decree states, the final 
plan will replace the management requirements in the consent decree. By 
its terms, the consent decree is not, nor could it be, binding on the 
negotiated ruling.

              CAPE HATTERAS IS A NATIONAL PARK SYSTEM UNIT

    Cape Hatteras was established as the nation's first national 
seashore to be managed by the National Park Service in 1937. The 
enabling legislation creating the Seashore states

          Except for certain portions of the area, deemed to be 
        especially adaptable for recreational uses, particularly 
        swimming, boating, sailing, fishing, and other recreational 
        activities of a similar nature, which shall be developed for 
        such uses as needed, the said area shall be permanently 
        reserved as a primitive wilderness and no development of the 
        project or plan for the convenience of visitors shall be 
        undertaken which would be incompatible with the preservation of 
        the unique flora and fauna or the physiographic conditions now 
        prevailing in the area.\32\
---------------------------------------------------------------------------
    \32\ 16 U.S.C Sec.  459a-2.

    Neither ``off-road vehicles'' nor driving on the Seashore beaches 
are mentioned in any legislation creating the Seashore. In 1940, 
Congress passed a bill that authorized hunting on the Seashore and 
added the words ``Recreational Area'' to the name of the Seashore, but 
did not change the basic mandates for the park and did not address the 
use of ORVs.
    The obligation of the Park Service to protect the natural resources 
of the Seashore is unaffected by its designation as a ``National 
Seashore'' instead of a ``National Park,'' because under the General 
Authorities Act, Congress mandated all units of Park System be managed 
under a unified system.\33\ The Seashore is managed by the National 
Park Service under the congressional mandates of the National Park 
Service Organic Act. In that Act, Congress declared that the primary 
purpose of the Seashore is ``to conserve the scenery and the natural 
and historic objects and wildlife therein and to provide for the 
enjoyment of the same in such a manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.''\34\ 
Moreover, National Park Service management policies governing the 
Seashore recognize that ``when there is a conflict between conserving 
resources and values and providing enjoyment of them, conservation is 
predominant.''\35\
---------------------------------------------------------------------------
    \33\ 16 U.S.C. Sec. Sec.  1, 2-4.
    \34\ 16 U.S.C. Sec.  1.
    \35\ National Park Service Management Policies 1.4.3 (2006).
---------------------------------------------------------------------------
    Protection of the natural resources on national parks and seashores 
to leave them unimpaired for future generations is, and should be, 
paramount. The consent decree strikes the appropriate balance in 
addressing conservation and recreation interests and provides much 
needed protection to wildlife on The Seashore until a final ORV 
management plan is adopted.

                               CONCLUSION

    In sum, all parties and interests agreed in open court to the terms 
of the consent decree augmenting the terms of the ``interim plan'' 
until such time as the National Park Service adopts a final ORV 
management plan, and a federal court approved it. As the statistics 
above show, the slight increase in the portions of the beach that have 
been closed to ORV use under the consent decree has had only a 
negligible impact, if any, on tourism and on the numbers of ORVs using 
the Seashore. At the same time, however, the closures have had a 
strikingly positive effect on the success of the endangered and 
threatened species that live and breed at Cape Hatteras. We ask, 
therefore, that this Committee oppose Senate Bill 3113 and leave the 
consent decree in place.
    [Graphics have been retained in subcommittee files.]

    Senator Akaka. Thank you very much for your statement. Now 
we will hear from Coline Jenkins. Please proceed.

STATEMENT OF COLINE JENKINS, PRESIDENT, ELIZABETH CADY STANTON 
                      TRUST, GREENWICH, CT

    Ms. Jenkins. Thank you Chairman Akaka. It is an extreme 
pleasure for me to be here. I'm very appreciative that you 
brought this legislation forward to this hearing. I also thank 
Hillary Rodham Clinton, Senator Clinton, for her leadership in 
bringing this bill forward.
    I am Coline Jenkins Sahlin. I'm a resident of Old 
Greenwich, Connecticut and President of the Elizabeth Cady 
Stanton Trust. I'm also the great, great granddaughter of 
Elizabeth Cady Stanton.
    Elizabeth Cady Stanton was one of America's foremost 
leaders in the women's suffrage movement. In 1848, she publicly 
called for the women's right to vote. Later in 1878, she 
appeared before the Senate Committee on Privileges and 
Elections.
    In 1892, she appeared before the House Committee Judiciary 
Committee. I do have a graphic from that period showing her 
appearing, which I'd like to share with you. At both hearings 
she supported the passage of the women's suffrage and the 
expansion of women's rights.
    Today I come here before you in support of Senate bill 
1816, the creation of a women's rights history trail, its 
inclusion on the National Registry and its support by State 
Historic Preservation Offices across the whole Nation. Back in 
the 1800s, when Elizabeth appeared before the Senate and the 
House, the committee members had a different set of fish to fry 
than what we discuss today. They were struggling with the 
issues of Nation building.
    Were we, as Nation, going to extend rights to 51 percent of 
the population, women, or were women particularly those 
married, to lack fundamental legal rights as dictated by the 
traditions of English common law. Since women were American 
citizens, Stanton argued. They also should enjoy all rights 
including the ultimate right of citizenship, the right to vote.
    Stanton would never live to see these rights enshrined in 
the Constitution. She died in 1902. As we all know the 19th 
amendment was passed in 1920.
    My mother, Rhoda Barney Jenkins was born 1 month before the 
passage of the 19th amendment. She died last summer on the eve 
of August 25, the day that Congress granted women the vote 87 
years earlier. My mother's life is a measurement of women's 
rights progress.
    This bill is crucial and necessary in honoring our Nation's 
history. We cannot understand the present without understanding 
our past. The struggle to gain full citizenship for women is 
called America's Bloodless Revolution. It is a war unlike most 
American wars.
    The Women's Rights Bloodless Revolution lasted 72 years 
rather than the typical 4 years. The first cannon shot of this 
revolution was fired with words in 1848 at the first Women's 
Rights Convention in Seneca Falls, New York. The first shot was 
the public reading of the Women's Declaration of Sentiments. It 
was modeled after the Declaration of Independence written by 
Thomas Jefferson, 72 years earlier.
    At this first Women's Rights Convention, Elizabeth Cady 
Stanton rose to the dias and spoke these words. ``We hold these 
truths to be self-evident that all men and women are created 
equal. That they are endowed by their creator with certain 
inalienable rights among them are life, liberty and the pursuit 
of happiness.''
    More than 125 years later, I went to my great grandmother's 
house, sorry, my great, great grandmother's house in Seneca 
Falls in the early 1970s. By then her house had been acquired 
by a private foundation. While in Seneca Falls I decided to go 
to the site of the first Women's Rights Convention at the 
Wesleyan Chapel.
    When I arrived it was obvious, the Chapel had been 
converted into a laundromat. One would never know that this 
building was the birthplace of a blueprint that led to one of 
America's greatest bestowal of democratic freedoms in its 
history. A blueprint that enlarged the freedoms of the 51 
percent of the population by touching on voting rights, access 
to higher education and professions as well as other freedoms.
    In my mind I heard the voice of my great, great grandmother 
saying, ``it's a wonder the republic has done as well as it has 
when it has used only half of its resources.'' When I inserted 
my quarters into the washing machine, I said to myself this is 
amazing. I, an American citizen, am washing my dirty clothes in 
one of America's historically, most significant sites.
    It was the equivalent of putting a laundromat inside 
Independence Hall at Philadelphia. I knew then it was a matter 
of time before America would wake up and honor this site and 
other sites tied to women's rights.
    During the past 40 years since my visit to Seneca Falls, I 
have witnessed the creation of many milestones. Including the 
establishment of the Women's Rights National Historical Park, 
which is one of seven parks of the 391 units in the Park System 
that is specifically dedicated to commemorating some aspect of 
women's history. I have also, in Seneca Falls, witnessed the 
establishment of the Women's Hall of Fame, the McClintock House 
where the Declaration of Sentiments was written and the Hunt 
House where the tea party was at which that revolution was 
fomented.
    Both of these sites are in the National Park. This is the 
epicenter of the expansion of American democracy. What's 
important is the Park Service did not spend a dime on acquiring 
any of these sites. Furthermore the bill before you has no 
authority for land acquisitions, so it's an inexpensive good 
buy.
    The crowning moment came for me in 1998, which was the 
150th anniversary of the first Women's Rights Convention. Who 
would imagine this celebration that the celebration of legal 
rights would attract 20,000 people in 1 day to a National Park? 
This is a personal pleasure that such a dry subject as legal 
rights became a rock star.
    Now there exists a marvelous synergy between these National 
Park buildings and adjacent sites, the Harriet Tubman home, the 
Susan B. Anthony house. These are owned by non-profits, but 
they're open to the public. So today with the passage of this 
bill we link these sites with other sites across the Nation 
where women made history and we will ensure that women's rights 
history will not evaporate or become a site of a laundromat.
    The significance of women's history is captured by Edith 
Mayo, Curator Emeritus of the Smithsonian, the political 
history division of the Museum of American History. Curator 
Emeritus Mayo said, ``Women need to see themselves as actors 
and participants in American history. There is a very crucial 
connection between being visible with your history and 
empowering yourself in the present and in the future.'' The 
same can be said for all Americans as our society is based on 
``E pluribus Unum.''
    Specifically the bill before you, 1816, builds on this 
belief. I support three principle aspects. One is the auto 
route that goes across upper New York State that tells the 
history of the epicenter of the Women's Rights Movement. This 
would include signage, maps, educational books, etc.
    The second part I support is surveying, evaluating and 
nominating women's rights history properties to the National 
Registry of Historic Places. This would give a nationwide, 
overarching project called the National Women's Rights History 
Project Registry.
    Senator Akaka. Ms. Jenkins, would you please summarize your 
statement?
    Ms. Jenkins. I'd be delighted to do that. In conclusion 
this is one of the greatest honors of my life to address you, 
the representatives of we, the people. Thank you very much.
    [The prepared statement of Ms. Jenkins follows:]

Prepared Statement of Coline Jenkins, President, Elizabeth Cady Stanton 
                          Trust, Greenwich, CT

    I am Coline Jenkins, a resident of Old Greenwich, Connecticut, and 
the president of the Elizabeth Cady Stanton Trust. I am the great-great 
granddaughter of Elizabeth Cady Stanton.
    Elizabeth Cady Stanton was one of America's foremost leaders of the 
women's suffrage movement. In 1848, she publicly called for women's 
right to vote. Later, in 1878, she appeared before the Senate Committee 
on Privileges and Elections. In 1892, she appeared before the House 
Judiciary Committee. At both hearings, she supported the passage of 
women's suffrage and the expansion of women's rights.
    Today, in this hearing of the Senate Subcommittee on National 
Parks, I come before you in support of Senate Bill 1816--the creation 
of a women's rights history trail, its inclusion in the National 
Registry, and its support by state historic preservation offices across 
the country. Back in the 1800's, when Elizabeth appeared before both 
the Senate and the House, the committee members had bigger fish to fry. 
They were struggling with the issues of nation building. Were we, as a 
nation, going to extend rights to 51% of the population--women--or were 
women, particularly those who married, to lack fundamental legal 
rights, as dictated by the traditions of English common law?
    Since women were American citizens, Stanton argued, they also 
should enjoy the ultimate right of citizenship--the right to vote!
    Stanton would never live to see that right enshrined in the 
Constitution with the passage of the 19th Amendment in 1920. My mother, 
Rhoda Barney Jenkins, was born one month before its passage; she died 
last summer on the eve of August 25, the day Congress granted women the 
vote 87 years earlier. My mother's life is a measurement of women's 
rights progress.
    This bill, too, is a crucial and necessary step in honoring our 
national history. We cannot understand the present without 
understanding our past. The struggle to gain full citizenship for women 
is called ``America's Greatest Bloodless Revolution.'' It was a war 
unlike most American wars. The women's rights bloodless revolution 
lasted 72 years. The first cannon shot of this revolution was fired 
with words in 1848 at the First Women's Rights Convention in Seneca 
Falls, New York. The first shot was the public reading of the women's 
Declaration of Sentiments. It was modeled on the Declaration of 
Independence, written by Thomas Jefferson, 72 years earlier in 1776. At 
this first Women's Rights Convention, Elizabeth Cady Stanton rose to 
the dais to speak these words:

          We hold these truths to be self-evident, that all men AND 
        WOMEN are created equal, that they are endowed by their Creator 
        with certain unalienable rights, that among these are Life, 
        Liberty and the pursuit of Happiness.

    More than 125 years later, I visited my great-great grandmother's 
home in Seneca Falls, in the early 1970s. By then her house had been 
secured by a private foundation. While in Seneca Falls, I decided to 
also visit the site of the first Women's Rights Convention, held at the 
Wesleyan Chapel. Upon arrival, it was obvious the chapel had been 
converted into a laundromat. From outward appearances, one would never 
know this building was the birthplace of a blueprint that led to the 
greatest bestowal of democratic freedoms in the history of the United 
States. A blueprint that enlarged the freedoms of 51% of the population 
by touching on voting rights, access to higher education and 
professions, as well as other freedoms. In my mind, I heard the voice 
of Elizabeth Cady Stanton, saying, ``It is wonderful the republic has 
done as well as it has when it has used only half of its resources.''
    When I inserted my quarters into a washing machine, I said to 
myself, this is amazing that I, a citizen of the United States, am 
washing my dirty clothes in one of America's most historically 
significant sites. I realized the neglect of the building was the 
equivalent of putting a laundromat inside Independence Hall at 
Philadelphia. I knew then, it was a matter of time before America woke 
up to honor this site and other important sites. As my clothes were 
spinning, my consciousness was rising.
    During the past forty years, since my first visit to Seneca Falls, 
I have witnessed the creation of many milestones there, including the 
establishment of Women's Rights National Historical Park, one of seven 
parks, out of 391 units in the National Park system, that is 
specifically dedicated to commemorating some aspect of women's history. 
I have witnesses the establishment of The National Women's Hall of 
Fame. I have witnessed the purchase of the M'Clintock House, where the 
Declaration of Sentiments was written; and the Hunt House, where 
revolution was fomented with talk and a teaspoon. Both houses are parts 
of Women's Rights Historical National Park. The list of milestones in 
Seneca Falls goes on and on in the campaign to breathe life back into 
the people and places that made this an epicenter of the expansion of 
American democracy.
    It's important to note that the park service did not spend a dime 
on acquisition of these sites. Furthermore, the bill before you has no 
authority for land acquisition.
    A crowning moment for me came in 1998 at the 150th Anniversary of 
the first women's rights convention. Who would imagine that the 
celebration of legal rights would attract 20,000 people in just one day 
to this national park? What a pleasure to see such a dry subject--legal 
rights--become a rock star.
    Now there exists a marvelous synergy between these national park 
buildings and neighboring sites, such as the Harriet Tubman Home and 
the Susan B. Anthony House, both owned by non-profits and open to the 
public. Today, with the passage of this Bill, we link these sites to 
others across the nation, where women made history. We will ensure that 
women's rights history will not evaporate.
    The significance of women's history is captured by Edith Mayo, 
Curator Emeritus of the Smithsonian--The Political History Division of 
the Museum of American History. Curator Mayo said, ``Women need to see 
themselves as actors and participants in American history. ...There is 
a very crucial connection between being visible with your history in 
the past and empowering yourself in the present and the future.'' The 
same can be said for all American citizens, as our society is based on 
``E pluribus unum.''
    The specifics of Senate Bill 1816 build on this belief.
    This bill authorizes the Secretary of the Interior to establish a 
commemorative trail in connection with the existing Women's Rights 
National Historical Park. It would create an auto route across upper 
New York State that would link other properties historically and 
thematically associated with the struggle for women's rights. 
Practically speaking, the auto route will include uniform signage, 
maps, educational handbooks, interpretive guides and websites. This 
legislation does not authorize any land acquisition, but it links 
sites, both privately and publicly owned. The legislation would assure 
that all sites on the tour have verifiable connections to the expansion 
of women's rights.
    The second piece of this legislation recognizes that, while upper 
New York State is the site of the first phase of the struggle, the 
national as a whole granted women their rights. Thus the second piece 
of the legislation would authorize the Secretary of the Interior to 
make annual grants for up to five years to assist State historic 
preservation offices in surveying, evaluating and nominating women's 
rights history properties to the National Register of Historic Places. 
This Registry would thus become the foundation of an overarching 
project called ``The National Women's Rights History Project National 
Registry.''
    As an aside, many states have already amassed information, on a 
parallel course with this proposed legislation, such as Arizona, which 
has an excellent web site called The Arizona Women's Heritage Trail; 
www.womensheritagetrail.org. Other states have been active in 
documenting women's history. This relatively inexpensive legislation 
will help fuel tourism in your states of Hawaii, North Carolina, North 
Dakota, Tennessee, Louisiana, Wyoming, Colorado, Alabama, Arkansas, 
Oregon, Vermont and Montana--all states packed with women's rights 
history.
    Regarding Bill S-1816, the Secretary of the Interior will authorize 
the update of the existing website, ``Places Where Women Made 
History.'' The website currently provides travel itineraries based on 
geographic areas and themes related to women's rights. Finally, 
authorization would be given to make matching grants and give technical 
assistance to governmental and non-governmental entities to develop 
interpretive and educational programs.
    In closing, testifying before Congress is one of the greatest 
privileges of my life. Women did not start out as equal citizens, but 
our system of government enabled them to achieve that status with its 
guaranteed rights of free speech, assembly, and the right to petition 
government. It enabled my great-great grandmother to come before 
Congress; it has given me the honor of coming before you, the 
representatives of ``We, the People.'' Yet I leave with a warning. The 
19th Amendment, which was called the ``Susan B. Anthony Amendment,'' 
was introduced 41 years to Congress before it was passed. That is a 
very long time to wait.
    I encourage you to pass Bill S-1816 before the close of the 110th 
Congress that I understand adjourns in late September. If not, I will 
return, for as Susan B. Anthony said, ``Failure is impossible!''

    Senator Akaka. Thank you very much for your statement. Now 
we'll hear from Mr. Braunlich. Please proceed with your 
statement.

  STATEMENT OF WILLIAM H. BRAUNLICH, PRESIDENT, MONROE COUNTY 
                 HISTORICAL SOCIETY, MONROE, MI

    Mr. Braunlich. Good afternoon, Chairman Akaka. My name is 
William H. Braunlich and I'm privileged to serve as President 
of the Monroe County Historical Society. I thank you for this 
opportunity to speak on behalf of the River Raisin Battlefield 
legislation and the citizens of Monroe County, Michigan.
    This past Saturday on July 26, 2008, the community of 
Monroe, Michigan was extremely honored to have the U.S. 
Secretary of the Interior, Dirk Kempthorne as our featured 
speaker at Monroe County Community College. The occasion was 
very special, the ceremonial signing and transfer of Plum Creek 
Bay from the County of Monroe to the citizens of the United 
States of America. This 126 acre parcel of property was owned 
by the County of Monroe and the County Board of Commissioners 
realized that this unique wildlife habitat belongs rightfully 
to all of the citizens of this country and should be included 
in the magnificent and growing Detroit River International 
Wildlife Refuge.
    Through the inspirational leadership of our Congressman 
John D. Dingell, that property transfer was made and represents 
the genius of natural resource conservation through voluntary 
contribution. Today as President of the Monroe County 
Historical Society and as an elected trustee of Monroe County 
Community College, I'm proud to speak on behalf of another 
tremendous community collaborative and proposed contribution. 
Namely Monroe's effort to properly share our resources and 
transfer to the citizens of the United States of America our 
most precious, historical asset, the sacred soil of the battles 
and the massacre of the River Raisin.
    I'm joined today by Mark Worrel, honorable Mayor of the 
city of Monroe and other leadership representatives from our 
community Jean Guyor, Gerald Welch and Michael Meyer. Each of 
them joins me on behalf of their stakeholder organizations in 
urging you to consider this legislation favorably.
    What the community of Monroe recognizes and has recognized 
for a very long time is that our 1812 battlefield and its 
compelling story does not belong just to our city or our county 
or even the great State of Michigan. It belongs properly to the 
people of the United States of America.
    So, Chairman Akaka, we got it for you. The Battlefield. The 
River Raisin Battlefield is yours for the asking.
    We stand ready to host another signature event in Monroe. 
Transfer the deeds without charge to the citizens of this 
country and celebrate its incorporation into the constellation 
of National Parks in the United States.
    As Senator Levin has indicated, throughout the sweep of 
American history there have been the battle cries that 
represent galvanic moments in the national psyche, moments when 
horrific events have eliminated doubts about the stakes and the 
need for military action. Remember the Maine. Remember the 
Alamo. Remember Pearl Harbor.
    Remember the Raisin, although now but a faint historical 
whisper in the minds of many was a rousing call to action in 
January of 1813. Americans were stunned and enraged to learn 
that a force of almost 1,000 Americans was brutally decimated 
and that only 33 escaped death or capture.
    U.S. newspapers called the incident, the River Raisin 
Massacre. Thousands of young men in the Northwest Territory 
responded to the call to take back Detroit, to take back 
Mackinac, to take back Michigan and the Great Lakes from 
British control. That call was heeded with steadfast American 
determination and grit and yes, lives.
    America succeeded decisively in the Battle of Lake Erie and 
in the Battle of the Thames and brought the war to a close in 
the Great Lakes Theater. Remember the Raisin was the battle cry 
which inspired Americans to action and it should be recognized, 
remembered and commemorated with our other powerful national 
battle cries.
    We're very proud to inform you, Chairman Akaka, that 
through a powerful funding partnership, over $5.1 million has 
been extended for battlefield acquisition, environmental 
remediation, archeological investigation, academic scholarship 
and other related activities. We've educated ourselves about 
our own frontier history. I can tell you that we've been 
immeasurably enriched by the process. Now, we stand ready to 
share that history and that sacred soil with the citizens of 
this Nation and the world.
    Chairman Akaka, the River Raisin Battlefield is yours for 
the asking. Thank you.
    [The prepared statement of Mr. Braunlich follows:]

 Prepared Statement of William H. Braunlich, President, Monroe County 
               Historical Society, Monroe, MI, on S. 3247

    The community of Monroe, Michigan, respectfully submits that the 
River Raisin Battlefield meets, and in many ways exceeds, the 
established criteria of national significance, suitability, and 
feasibility for inclusion in the National Park System. In fact, the War 
of 1812 River Raisin Battlefield represents a theme, site and resource 
not already adequately represented in the National Park System. And, as 
a tremendous bonus to the citizens of the United States of America, the 
proposed River Raisin National Battlefield Park is located in Monroe 
County, Michigan, the gateway county to the great state of Michigan. By 
way of explanation, the proposed River Raisin National Battlefield Park 
is located between Toledo, Ohio and Detroit, Michigan and is but a 
stone's throw from I-75, the major traffic artery in the state of 
Michigan. The proposed River Raisin National Battlefield Park will be 
linked by walking trails to one of the most beautiful and frequented 
state parks in the Michigan State Park System--Sterling State Park--and 
is also extremely close to Plum Creek Bay on Lake Erie, recently 
donated by the County of Monroe to the Detroit River International 
Wildlife Refuge. Thus, visitors will have easy access to a splendid 
trifecta of War of 1812 history, exquisite natural habitat and 
beautiful Lake Erie shoreline--a National Battlefield Park, an 
International Wildlife Refuge and a Michigan State Park.
    Who are we? The Monroe County Historical Society is a Michigan Non-
profit 501C3 Charitable Organization established in 1938 and governed 
by a fifteen person board of directors. The Society's mission is to 
collect, preserve, share and celebrate Monroe County History through 
innovative exhibits, programs, publications and support of the Monroe 
County Historical Museum and River Raisin Battlefield Museum.
    The Society has been at the forefront of the River Raisin 
Battlefield Project during the past decade and has funded numerous 
battlefield initiatives dedicated to acquisition of the battlefield, 
environmental remediation of the site, archeological research, academic 
scholarship, and educational programming. The Society's objective is to 
foster a broader awareness of the national significance of the River 
Raisin Battlefield site and a deeper appreciation of the important 
historical role that Frenchtown (now Monroe) played in the history of 
North America. The Society has been joined, at every step of the way, 
with committed partners from the City of Monroe, Port of Monroe, County 
of Monroe, Monroe County Community College, the State of Michigan, and 
the United States Government. To date, the grants, loans and in-kind 
contributions committed to the River Raisin Battlefield project from 
federal, state, local and non-governmental organizations exceeds 5.1 
million dollars.
    This past January of 2008, the Monroe County Historical Society 
commissioned Dr. G. Michael Pratt of Heidelberg College to chair a 
multi-disciplinary team of historians, archeologists and academicians 
to draft a nomination of the River Raisin Battlefield as a National 
Historical Landmark. The Society desired to compliment, assist, support 
and accelerate the study by the National Park Service and provide 
technical, historical and archeological data for inclusion of the River 
Raisin Battlefield as a National Historic Landmark and as a prospective 
unit of the national park system. Representatives of the National Park 
met with members of the National Historic Landmark Nomination team in 
April of 2008 and the River Raisin Battlefield was toured by the 
Secretary of Interior on Saturday, July 26, 2008. The progress on the 
River Raisin Battlefield Project has been impressive and substantial.
    The Monroe County Historical Society has also commissioned Brian 
Dunnigan, Interim Director of the world famous Clements Library, to 
author a monograph on the national significance of the battles and 
massacre of the River Raisin. Brian Dunnigan's monograph is attached 
and incorporated into this written statement in favor of the River 
Raisin Battlefield legislation before the Senate National Park 
Subcommittee. By way of background, Brian Dunnigan is a highly 
recognized and noted Michigan historian and author and also serves on a 
National Park advisory committee. Brian Dunnigan's Statement on the 
National Significance contributes greatly to the academic scholarship 
on these important historical events and our contemporary understanding 
of American formative history on the Northwest frontier.
    We respectfully submit the following attachments* for consideration 
by the US Senate Subcommitee on National Parks:
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.

          1. ``Statement of National Significance, River Raisin 
        Battlefield'' authored by Brian Leigh Dunnigan, Interim 
        Director, Head of Research and Publication, Curator of Maps, 
        William L. Clements Library, University of Michigan, Ann Arbor, 
        Michigan (4 pages);
          2. ``The River Raisin Monuments at Monroe, Michigan,'' by 
        John M. Buckley, 141--154 [Volume 15 / 1906 / No. 2] (14 
        pages);
          3. ``Monroe County Historical Society Funds Nomination of 
        River Raisin Battlefield as National Historic Landmark--Press 
        Release of February 15, 2008 (7 pages).

    We are thrilled to report that through a tremendous community 
collaborative, we have assembled the core parcels of real estate, both 
by donation and by purchase. The River Raisin battlefield parcels are 
held in readiness by the Port of Monroe, City of Monroe, County of 
Monroe and the Monroe County Historical Society. The industrial 
intrusions into the battlefield site have been almost completely 
removed and the natural environment is being restored and reclaimed.
    What the community of Monroe recognizes, and has recognized for a 
very long time, is that our 1812 Battlefield and its compelling story 
does not belong just to our city, or our county or even our great state 
of Michigan. It belongs to the people of the United States of America. 
Thus, we stand ready to transfer the River Raisin Battlefield to the 
citizens of the United States of America and to celebrate its 
incorporation into the National Park System. We are confident that the 
energy and commitment of our community, as displayed during the past 
decade of work on the battlefield project, will make this a successful 
and celebrated inclusion into our National Park System and the perfect 
way to commemorate the upcoming 200th anniversary of the War of 1812.

    Senator Akaka. Thank you very much, Mr. Braunlich for your 
statement. I want to add my welcome to the Mayor and members of 
Monroe County's Historical Society who are present here.
    Mr. Braunlich, the Park Service's testimony states that 
Congress should delay action in designating the River Raisin 
National Battlefield Park until the special resource study is 
completed. The standard procedure is to wait until the study is 
finished. You've heard that it might take 2 to 3 years before 
that occurs.
    Can you tell us why you believe it is necessary to go ahead 
and designate the national battlefield before the study is 
done?
    Mr. Braunlich. I'm happy to respond to that, Senator Akaka, 
because I think our community has achieved a critical mass of 
support. The battlefield parcels are owned by the Port of 
Monroe, city of Monroe, County of Monroe and the Monroe County 
Historical Society. At this point all of those organizations 
stand ready to make conveyance of their respective parcels.
    You know, I respect the National Park Service's typical 
study times and profiles and protocols. I think that there has 
been substantial and meaningful progress in that study. We're 
extremely confident that ultimately the question of suitability 
and feasibility will be answered in the affirmative.
    But I think what the National Park Service failed to 
recognize is that the upcoming bicentennial, it has created 
just a wave of support for this initiative. We need to 
capitalize on that support and use it to good advantage. The 
community, I mean, I don't think any of us are going to be 
around for the tercentennial, but this bicentennial has really 
captured the imagination and support of the community.
    There's not any question about feasibility. More than 40 
acres is ready to be transferred to the United States. As far 
as suitability, the property has been environmentally 
remediated and almost all of the industrial intrusions into the 
site have been removed. So I respect the standard protocol and 
standard times, but I do think there are exceptional times to 
recognize the support and the opportunity and to seize the 
moment.
    So I think that's the best response to the National Park 
Service concern.
    Senator Akaka. Ok. Thank you very much for your response.
    Ms. Coline Jenkins, the National Park Service has 
recommended deleting the two grant programs authorized in S. 
1816 condemning that the new grant programs duplicate existing 
State and Federal authorities. In your view, why are these 
grant programs necessary?
    Ms. Jenkins. First, I think they're necessary because 
women's history, women's rights history, women's heritage is 
playing catch up with other types of histories. I do not see 
any problem with diverting resources to this catch up 
operation. This is an operation that's nationwide.
    It affects all 50 States. It's trying to work with highly 
qualified organizations, the State historical preservation 
offices, to inventory, evaluate and list properties. The 
Senator who was recently here talked about its reasonable to 
moderate public policy. This is the time to moderate public 
policy.
    We have had public policy that has favored one type of 
history. Now it's a good idea to perhaps bring 51 percent of 
the population into the story of history. These grants look at 
two types.
    They look at sites, but they look at material related to 
sites. The grants make it possible. So I strongly support 
having the grants.
    Senator Akaka. Thank you very much.
    Ms. Jenkins. Thank you.
    Senator Akaka. May I call now on Commissioner Judge and ask 
you--my understanding is that the County was involved in 
negotiating the consent decree, and agreed to it. If this is 
correct, can you explain why you are now supporting legislation 
to overturn the consent decree?
    Mr. Judge. In December 2007, Mr. Chairman, we had asked a 
court to recognize Dare County as an intervener in the lawsuit 
between the Defenders of the Wildlife, National Audubon and the 
National Park Service, Department of Interior. The judge 
granted that. However we were not a player at their table until 
a hearing on April 4th in U.S. District Court when the judge 
scolded the plaintiffs and defendants for negotiating behind 
closed doors and not being open to the public.
    It was only after that hearing that they paid some 
attention to us. But it was even later than that when they 
finally invited us to the table. But not to negotiate, to tell 
us, to tell us what it was going to be.
    We had our county attorney, assistant county manager in 
Raleigh at the negotiations. They sent them home. After we 
released a press release telling that the negotiations had 
broken off, it was only then that they called us back.
    It was 4:30 one afternoon when they gave us an ultimatum. 
That ultimatum was either accept this by 5 o'clock or it will 
go forward into court. The threat to Dare County was that the 
seashore would be closed down completely until negotiated 
rulemaking ran its course.
    Negotiated rulemaking is not scheduled to be completed 
until December 31, 2010, with implementation by April 1, 2011. 
Sir, we can't afford to have our economy battered the way it's 
been battered since April 30th that long. We've already had 
businesses reporting greater than 50 percent declines. It's 
been economically devastating to us.
    Yes, we signed the document. We signed it under great 
duress. We were not happy with it. We felt it was the lesser of 
two evils.
    Senator Akaka. Thank you for your explanation of why you 
supported legislation to overturn the consent decree.
    Mr. Carter, the Park Service has established an advisory 
committee to help the agency complete a long term ORV 
management plan for the seashore. It is my understanding that 
the committee membership represents all the diverse 
stakeholders interested in the seashore. My question to you is 
do you think, with the advisory committee's help, the Park 
Service will be able to complete a long term management plan 
that is acceptable to everyone?
    Mr. Carter. Senator Akaka, the Secretary of the Interior 
did establish in January a negotiated rulemaking committee 
composed of various stakeholders who had a variety of interest 
in the National Seashore. That group has been meeting 
frequently. There are a variety of views presented.
    The charge to that committee is to come up with and 
recommend to the Park Service an ORV management plan for the 
seashore. That can designate routes for ORV use, the types of 
vehicles that can be used and of course a consideration and 
that is the protection of resources on the seashore. We're 
involved in that process.
    Our clients are a part of that stakeholder group. The 
counties are involved. The ORV groups are involved.
    We're optimistic that a plan can be developed with input 
from that committee and that the Park Service can come up with 
a proposal that will both allow reasonable access and use and 
ORV use of the seashore while at the same time, protecting the 
natural resources on the seashore.
    Senator Akaka. I thank you very much for your responses, 
each of you. Again, I want to thank you for testifying this 
afternoon before this committee. Your testimony has been very 
helpful.
    Before we close today I want to let you know that some 
members of the committee who were not able to be here may 
submit additional questions in writing. If we receive any 
questions, we will forward them to you and ask you to respond 
so that we may include both the questions and the answers in 
the official hearing record.
    Again I want to say thank you. It's going to help us with 
our moves on these bills. I thank you again, this panel, 
because you have responded to and have given us feelings of 
your groups and all the people you represent as well.
    Ms. Jenkins. Yes.
    Senator Akaka. So again, thank you very much. This hearing 
is adjourned.
    [Whereupon, at 4:05 p.m. the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of William H. Braunlich to Questions From Senator Burr

                               ON S. 3247

    Question 1. Is any of the land proposed for designation by S. 3247 
under imminent threat of development if the battlefield park is not 
established soon?
    Answer. Senator Burr, you are expressing an appropriate and 
continuing MAJOR concern for all of us involved in this tremendous 
community collaborative---because the truth is that several or all of 
the significant battlefield parcels could be sold to third parties and 
developed in ways which are incompatible with the overall project. In 
fact, the prior owner of the largest battlefield parcel (Homrich Inc.) 
had been approached by a number of potential purchasers who were 
interested in the battlefield site for residential, retail, and other 
developments. That's why it's so very important to ``seize the moment'' 
and ``lock in'' the formal donation of the properties to the citizens 
of the United States of America. Otherwise our incredible momentum 
could be lost and the political winds could shift (at the City of 
Monroe, County of Monroe, Port of Monroe and Monroe County Historical 
Society) and the opportunity for the optimal acquisition, development 
and interpretation of the River Raisin Battlefield could be permanently 
destroyed.
    I have been involved with this project for almost 12 years and I 
don't think the stars and planets will align again this way for the 
optimal development of the battlefield. All of the major stakeholders 
in the project stand ready to make conveyance of their respective 
parcels to the citizens of the United States of America. However, time 
is of the essence. The threat to the River Raisin Battlefield would 
become imminent at the slightest suggestion that a major economic 
development project was under consideration at this site. In light of 
the economic woes of our local community and the State of Michigan, the 
River Raisin Battlefield, which is extremely near to all of the 
transportation modalities, may look quite enticing to developers. Such 
an economic development proposal would generate a true and imminent 
threat to the acquisition, study, development and proper intrepretation 
of the River Raisin Battlefield site.
    Question 2. Was any of the suitability and feasibility study 
completed prior to National Park Service involvement? If so, how much 
and is it being used to expedite the study process?
    Answer. There has been a considerable body of work by a number of 
academicians, historians, archeologists, and historic preservationists 
during the past decade and PRIOR to the NPS study. At Congressman 
Dingell's request, the NPS had been to several meetings of the RR 
Battlefield prior to the commencement of the special resource study. 
Further, to support, assist, compliment and accelerate the NPS special 
resource study, the Monroe County Historical Society commissioned a 
formal National Historic Landmark (NHL) nomination through Dr. Michael 
Pratt of Heidelberg College, and asked our NHL team to promptly 
assemble all of the available materials and get the NPS everything they 
need regarding the site. It may not be politically correct to say so, 
but I believe our NHL team is doing the rigorous historical and 
archeological spade work and thus, tremendously ``facilitating'' the 
NPS study.
    In the words of Dr. Ted Ligibel, director of Eastern Michigan's 
University's Historic Preservation Program and a key member of our NHL 
River Raisin Battlefield team: ``We are reviewing war records from the 
British government from 1812-1814; taking testimony from those with 
knowledge of the site; reviewing newspaper accounts and reading first 
hand accounts from people who were there. We are leaving no stone 
unturned.'' I would hasten to add that all of this work by Dr Ligabell 
and the other team members is being generously paid for by the Monroe 
County Historical Society is being transmitted to the National Park 
Service free of charge.
    Question 3. What was the size of the original battlefield and how 
much of the site is still available for designation and interpretation 
as a battlefield park?
    Answer. I would have to defer to our NHL team to answer the 
question about the ``original size'' of River Raisin Battlefield 
because that question requires certain assumptions about the time, 
location and scope of the series of activities on the River Raisin 
Battlefield. I can say with certainty, however, that the combined 
acreage of the proposed donations to the US government (approximately 
40 acres) incorporates the most important, desirable and historically 
significant land for designation and interpretation as a battlefield 
park. To be specific, the proposed donation of land includes the 
acreage where the original settlement of Frenchtown was located and 
where the majority of fighting occurred.
                                 ______
                                 
       Responses of Coline Jenkins to Questions From Senator Burr

                               ON S. 1816

    Question 1. Will the proposed commemorative trail have any impact 
on private property?
    Answer. Sites would be listed on the trail only with permission 
from property owners. There is no land acquisition authority in this 
bill and no land acquisition would be sought. Many of the likely sites 
are currently owned by government or nonprofit institutions.
    Question 2. Do you envision a visitor center for this trail at some 
point or does a suitable venue already exist to serve as an information 
center for the trail?
    Answer. The trail would be administered by Women's Rights National 
Historical Park in Seneca Falls and Waterloo, NY (established by PL 96-
607). A comprehensive visitor center exists in the Park that would 
serve as the information center for the trail.
    Question 3. How many individual sites would become part of the 
commemorative trail and how many of those are currently owned by the 
Federal government?
    Answer. While criteria for listing on the trail would need to be 
developed, preliminary assessment found that roughly 30-35 sites may be 
listed on this commemorative trail. Of those sites, two are owned by 
the Federal government and are under the stewardship of the National 
Park Service--Women's Rights National Historical Park in Seneca Falls 
and Waterloo, NY and Eleanor Roosevelt National Historic Site in Hyde 
Park, NY.
    Question 4. Will it become necessary for the Federal government to 
purchase or lease any land or structures to establish the Women's 
Suffrage Commemorative Trail?
    Answer. No, there is no Federal land acquisition or any lease 
requirements involved in the establishment and operation of the trail.
                                 ______
                                 
        Responses of Warren Judge to Questions From Senator Burr

                               ON S. 3113

    Question 1. How has use of Cape Hatteras changed under the court-
approved agreement versus the interim management plan?
    Answer. Decades of the tradition of going to the beach at Oregon 
Inlet, Cape Point, South Beach and Hatteras Inlet were disrupted from 
the first of May until the end of July. Today, Oregon Inlet is still 
closed to people. This has been a psychological and cultural shock to 
thousands of residents and visitors alike. While there are some beaches 
open for people to use in front of the Villages and other areas of the 
Seashore, the areas listed above are world renowned and are the 
favorite of all users. The closed beaches were the most heavily used 
under the interim plan. It is important to point out that there are 
very few accesses to the seashore in the National Seashore Recreational 
Area; closing down these four areas has had a dramatic impact on 
access. While there are other choices for recreation where there are 
open areas, the closures alter the prime uses of the Cape Hatteras 
National Seashore Recreational Area.
    Question 2. Has the Cape Hatteras area experienced any economic 
impact as a result of the court-approved agreement being implemented?
    Answer. Yes, there has been economic impact from the closures. 
Statistics are just now being complied by Dare County with respect to 
occupancy and meals tax revenue. In May the motel segment of the 
lodging industry was down 4.2%, In June the motel industry was down 
7.6%, campgrounds were down 19.3%, cottages courts were down 8.7%. On 
an individual basis, I will share the records of one very prominent 
business in Buxton, the Red Drum Tackle Shop. The owner reports the 
following decline in sales: May--17%, June--35%, July--23% and for the 
first 13 days of August--17%. Many other businesses are reporting the 
same type of decreases. It is important to understand that the motels, 
campgrounds, and cottage courts are lodging businesses that operate on 
a day of arrival or 24 to 72 hour window for cancellations. In other 
words, you can cancel your reservations for any reason within the 
cancellation window that your reservation was made under. The visitors 
who use these accommodations were able to react to the closures and 
cancel their trips and receive refunds of their deposits. The rental 
home industry, on the other hand, is one that requires full payment 
months in advance and the visitors who reserve these accommodations 
have no recourse to a refund should they want to cancel. As a result, 
the rental home visitors had no choice but to honor their reservations 
despite the closures or lose their money. Dare County is concerned how 
the closures, which this year caught thousands of these rental home 
visitors off guard, will affect next year's reservations and rentals of 
these homes. If this group of visitors elects not to come to the 
Seashore because of the beach closures, as the more transient visitor 
did this season, the negative economic impacts will be even more 
dramatic.
    Question 3. Have you heard from any of your colleagues in the 
neighboring counties of Hyde, Currituck and Carteret? What impacts have 
they experienced since the court-approved agreement has been in place?
    Answer. We have not heard from anyone in Carteret County. Currituck 
County Commissioners share our concerns and will share data with us as 
they are able to compute results. Hyde County sent the following 
statement:

          Hyde County supports balanced use of our public lands so that 
        they can be enjoyed by residents and guests while supporting 
        natural habitat. That balance is critical to sustaining our 
        economy, our culture and the beauty of our area.
          Facing the loss of all use of the beaches this spring and 
        summer, Hyde County endorsed the ORV beach closure settlement 
        in April 2008. It was the right decision at the time but Hyde 
        County needs help returning balance to the jobs/culture-birds/
        turtles teeter-totter.
          The impact of the settlement was quick and bad for the people 
        of Ocracoke who depend upon spring tourism. Shortly after the 
        ORV beach closure settlement was signed on April 30, the 
        National Park Service shut down parts of the beaches and then 
        fully closed large areas along the north and south ends of 
        Ocracoke. Despite normal weather without major storms, Hatteras 
        to Ocracoke ferry passenger counts were DOWN over 11% in June 
        DOWN 9.4% in July.
          After being named ``Best Beach'' in May 2007, it would be a 
        logical assumption that all the 2007 positive advertising would 
        cause Hatteras-Ocracoke ferry passenger traffic to be UP in 
        2008, but that is not the case. It is impossible to know the 
        damage of the constant rattle of beaches closure press articles 
        but anecdotal evidence has been seen in numerous emails from 
        visitors.
          We have heard reports from environmental groups that more 
        birds and turtles nested this summer. That wonderful success 
        may have NOTHING to do with the ORV beach closure settlement. 
        Rather, we have enjoyed a summer free of most normal storms. 
        Also, Hyde County has been told that last winter the National 
        Park Service had an extensive trapping program of fox, raccoons 
        and feral cats--all of which enjoy the eggs and hatchlings of 
        birds and turtles. We have no data about the extent of the NPS 
        trapping program nor its potential impact on the number of 
        birds and turtles.
          Hyde County supports enhancement of our natural resources, 
        strengthening our economy, and maintaining our special culture. 
        We hope that Congress will restore balance to an equation that 
        is now seriously off-kilter by adopting a reasonable approach 
        to maintaining public use of Ocracoke beaches.

    Question 4. Has there been any increase in beach traffic in other 
areas since the court-approved agreement has been followed?
    Answer. No, we have not experienced any increase in traffic in any 
other areas of the County. The closure areas were the major areas in 
Dare County for ORV use. There are few other choices for this user 
group. There is a direct correlation in loss of business in the 
northern beach area with the closure of Oregon Inlet. Oregon Inlet and 
Bodie Island Spit are in the National Seashore Recreational Area; this 
area is north of the Inlet and used more by residents and visitors who 
stay in the beach towns, on Roanoke Island or the mainland.
                                 ______
                                 
      Responses of Daniel N. Wenk to Questions From Senator Wyden

    Question 1. You testified on the need for further discussions with 
the Forest Service, which has called for further study of the boundary 
modification. However, didn't the NEPA-compliant 1998 General 
Management Plan for the Oregon Caves National Monument already address 
this issue and come out recommending an expanded boundary?
    Answer. Section 4 of the bill would direct the Secretary of 
Agriculture to transfer the proposed expansion area to the Secretary of 
the Interior, and to adjust the boundary of the Rogue RiverSiskiyou 
National Forest to exclude the transferred land. A comprehensive 
General Management Plan ((IMP) and accompanying Environmental Impact 
Statement were completed for Oregon Caves National Monument in 1998. 
The GMP and Record of Decision recommended that 3,410 acres be 
transferred from the U.S. Forest Service to the National Park Service 
to protect the Lake Creek and upper Cave Creek watersheds, the public 
water supply, and the foreground and middle ground viewsheds as seen 
from the Monument. S. 3148 would transfer 4,070 acres, including the 
3,410 acres that were recommended for addition in the GMP and about 650 
acres that were not evaluated in the GMP. Further, although the major 
portion of the expansion proposal, which was developed in compliance 
with NEPA, has been a part of the Oregon Caves National Monument GMP 
since 1998, no coordinated study or formal dialogue between the 
Departments has taken place in the intervening period.
    Question 2. How much did your NEPA review and preparation of the 
General Management Plan cost?
    Answer. It cost $60,000 to develop the GMP and Environmental Impact 
Statement.
    Question 3. Is your Management Plan still valid or are you planning 
on revoking it?
    Answer. The 1998 GMP, which recommended a 3,410 acre boundary 
expansion, is valid.
    Question 4. Can you please provide a copy of the General Management 
Plan EIS, as well as any modifications made to it or proposed to be 
made to it?
    Answer. An electronic copy of the GMP has been provided to the 
committee and Senator Wyden's office. There have been no amendments to 
the GMP and none are currently planned.
    Question 5. How is your testimony, which appears to be a shift from 
the 1998 General Management Plan--which recommends expansion--
consistent with the Centennial Challenge, which seeks to expand and 
enhance National Parks, and the Park's own 2007 Centennial Strategy 
document which lays out a goal of providing further education on the 
plan to expand the boundary?
    Answer. The National Park Service testimony indicates support for 
the intent of S. 3148, consistent with the GMP for the park, but 
recommends that action be deferred to allow for further interagency 
consultation. The testimony is also consistent with the park's 
Centennial Strategy, which encourages educating park partners, the US 
Forest Service, and local communities about the importance of 
protecting the park's water resources and scenic viewsheds.
    Question 6. How would further study avoid duplicating past process, 
paperwork and expense already undertaken to review the issue of 
boundary expansion?
    Answer. We do not believe that further study is necessary at this 
time. However, we believe that it would be beneficial to explore ways 
to maintain continuity and interagency coordination on issues related 
to forest health and recreational opportunities.
    Question 7. My understanding is that every National Park has a fire 
management plan and an officer assigned to it and that the recent fires 
in California have shown that National Park Service lands have 
responded well in slowing down advancing fires because they have been 
well managed to withstand these fires. Can you detail for me what 
experience the National Park Service has in managing lands for fire 
resiliency?
    Answer. The National Park Service wildland fire management and 
resource management programs work collaboratively to support NPS 
Management Policies and unit-specific goals and objectives for how 
wildland fire will be managed. The goal of wildland fire management is 
to restore and maintain fire-adapted ecosystems while protecting life, 
property and resources from adverse effects of fire. NPS has been 
successful across the nation in managing lands in all sizes of units by 
applying fire and managing unplanned fires on those lands to restore 
and maintain fire-adapted ecosystems. That success has been predicated 
upon having a fire management plan with clear direction, good science 
to understand the natural process, supportive management staff, an 
understanding public, and experienced fire management staff to 
implement necessary actions.
    Wildland fire is one of nature's major change forces, similar to 
floods and winds. Fire is a natural part of the landscape in fire-
adapted ecosystems. Our ability to manage it is dependent upon the 
condition of the land prior to the event. The NPS philosophy is to do 
active adaptive management to keep the landscape in balance so that 
recovery from disturbance will be part of the natural process and 
require minimal intervention.
    Question 8. What fire and forest restoration activities have been 
undertaken by the Park Service in the Oregon Caves National Monument?
    Answer. The National Park Service has engaged in mechanical methods 
of thinning to reduce fuel loading at Oregon Caves National Monument. 
Prescribed fire has also been used.
    Question 9. What is the precedent regarding hunting on National 
Monuments? Can you identify any policies regarding this issue and 
whether there are National Monuments with hunting allowed?
    Answer. Hunting is permitted only in units of the National Park 
System where it is specifically authorized by federal law. Of the units 
where sport hunting is authorized, none are designated national parks. 
Most NPS units where hunting is authorized are designated national 
preserves, national recreation areas, national seashores/lakeshores, or 
national rivers. Hunting is only authorized in two national monuments 
managed by NPS: Hagerman Fossil Beds National Monument and Grand 
Canyon-Parashant National Monument (which is jointly managed by NPS and 
BLM).
    Question 10. What experience does the National Park Service have on 
fencing out non-native animals?
    Answer. The National Park Service has extensive experience with 
fencing out non-native animals. For example, fencing is used at 
Haleakala National Park to exclude feral pigs and goats to allow the 
restoration of native ecosystems and to protect endangered species. At 
Pinnacles National Monument, fencing is being used to exclude feral 
pigs, and at Grand Canyon National Park and other western parks, 
fencing is routinely used to exclude domestic cattle and sheep.
    Question 11. Can you please provide a list of other instances where 
there are Wild and Scenic River designations within National Parks or 
National Monuments?
    Answer. Below please find a list of NPS-managed wild and scenic 
rivers within a designated national park or a designated national 
monument. In addition to this list, the NPS also manages wild and 
scenic rivers within other types of units of the National Park System 
such as national recreation areas and national scenic riverways; NPS 
also manages some stand-alone wild and scenic rivers, such as the 
Farmington National Wild and Scenic River. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 12. Can you provide me a copy of all the correspondence 
between the National Park Service and the Forest Service regarding the 
potential contamination of the Caves' drinking water supply from 
grazing?
    Answer. Electronic copies of the correspondence have been provided 
to the committee and to Senator Wyden's office.

       Responses of Daniel N. Wenk to Questions From Senator Burr

    In the absence of a rule for off-road vehicle use at Cape Hatteras, 
the National Park Service completed a biological assessment, obtained a 
formal biological opinion from US Fish and Wildlife Service, and 
prepared an interim management strategy that addressed threatened and 
endangered species and allowed for public access.
    Question 13a. During the time in which the interim management 
strategy was followed, did the National Park Service comply with the 
terms of the formal biological opinion?
    Answer. NPS complied with the ``Reasonable and Prudent Measures'' 
and with the ``Terms and Conditions'' of the original August 2006 
Biological Opinion (BO); however, in 2007 NPS failed to meet 
performance measures that were established in the March 2007 amended 
BO. (See next answer for details.)
    Question 13b. Did any taking of threatened or endangered species 
beyond what is allowed by the biological opinion occur while the 
interim management plan was in place?
    Answer. The take of a threatened or endangered species did not 
occur beyond what was allowed under the 2006 BO; however, NPS exceeded 
the incidental take allowed under the amended 2007 BO.
    The original August 2006 130 expected that an undeterminable level 
of incidental take of breeding and migrating piping plovers and of all 
species of sea turtles would occur under the interim strategy. The BO 
also stated that the incidental take would be difficult to detect for 
multiple reasons, including: 1) breeding adults may be scared away or 
prevented from nesting; 2) dead young are easily covered by sand or 
carried away by waves or predators and may not be detected; and, 3) not 
all nests may be detected over the 55 miles of seashore.
    In response to the 2006 BO, NPS developed performance measures, 
which the U.S. Fish and Wildlife Service adopted in an amended 130 in 
March 2007. Six performance measures were specified:

          1) Number of breeding pairs of piping plover (4 or more);
          2) Number of piping plover nests (3 or more nests or 75% of 
        the total number of pairs);
          3) Number of chicks fledged per nest (1 chick per nest);
          4) NPS would develop a systematic monitoring program for 
        wintering piping plover;
          5) The ratio of false crawls to sea turtle nests would not 
        exceed 1:1, which is the ratio that has been observed on 
        undisturbed beaches; and
          6) The number of sea turtle nests on Cape Hatteras National 
        Seashore (Seashore) would equal or exceed 10 percent of the 
        past five-year average number of sea turtle nests in North 
        Carolina.

    In 2007, NPS met performance measures 1, 2, 4, and 5, but failed to 
meet 3 and 6. There were 11 piping plover nests, but only 4 chicks 
fledged (the target was 11). The ratio of false crawls to sea turtles 
nests was 1.39: 1 (114 false crawls to 82 nests). As a result, NPS 
initiated and completed re-consultation with the Fish and Wildlife 
Service during the winter of 2007-08.
    Question 13c. How long has the court-approved consent decree been 
in place? Has there been any increase in beach traffic within the park 
and adjacent areas since the consent decree has been followed?
    Answer. The consent decree was approved by the court on April 30, 
2008 and went into effect immediately. Implementation of the measures 
in the consent decree has resulted in larger and earlier closures at 
key breeding sites and a reduction in the total amount of area open for 
access compared to 2007. In general, we are seeing a redistribution of 
traffic from closed areas to open areas. However, we do not have a good 
system for counting vehicles on the beach, so we do not know how the 
numbers compare to years previous to operating under the consent 
decree.
    Question 13d. How does management of Cape Hatteras differ under the 
interim management plan versus the consent decree?
    Answer. Under the interim strategy, NPS established ``prenesting 
areas'' at key piping plover breeding sites by April 1 and surveyed 66 
miles of ocean, inlet, and sound shoreline from March 15--September 15 
for bird breeding activity. NPS also patrolled over 55 miles of ocean 
shoreline daily from May 1--September 15 to survey for sea turtle nests 
and conducted law enforcement patrols of beaches, primarily during 
daylight hours, to enforce beach driving and resource protection 
requirements. After the prenesting areas were in place, whenever bird 
breeding behavior was observed or chicks had hatched on any Seashore 
beach, NPS implemented, expanded or modified the resource protection 
closures based on buffer distances identified in the interim strategy. 
Resource protection closures were removed when breeding activity 
concluded. In 2007, NPS staff implemented 389 such management actions 
(closures, modifications, or closure removals).
    Under the consent decree, NPS must establish the prenesting areas 
by March 15 and increase the frequency of monitoring at six key sites 
to daily through July 15. When subsequent bird breeding activity is 
observed on any Seashore beach, NPS implements buffer distances 
identified in the consent decree, which are larger than those 
identified in the interim strategy. The buffers must he installed 
around observed breeding activity within 8 daylight hours, and around 
nests and chicks within 6 daylight hours. The consent decree buffer 
distances are based on management recommendations for the Seashore that 
were prepared in 2005 by U.S. Geological Survey scientists, and are as 
follows:




                   Species                         Breeding Behavior/Nest (m)           Unfledged Chicks (m)

Piping plover                                                                 50      300 pedestrian (1000 ORV)
Least Tern                                                                   100                            200
Other colonial waterbirds                                                    200                            200
American oystercatcher                                                       150                            200


    The consent decree also established a new prohibition on night 
driving from 10 p.m. to 6 a.m. from May 1--November 15 to protect and 
improve sea turtle nesting, except that night driving may be allowed 
from September 15--November 15 with an educational permit.
    Question 13e. How many times did the National Park Service start 
and stop the preparation of an off-road vehicle management rule-making 
since the requirement was imposed by Executive Order in 1972 and what 
was the basis for stopping each time?
    Answer. ORV plans and regulations were attempted but not completed 
twice each. In 1978 NPS prepared a draft interim ORV management plan 
for the Seashore. The planning process apparently stalled at the 
Regional Office and the plan and environmental compliance were never 
completed. ORV management was also addressed in a 1980 local ``plan'' 
(or local policy) for the North District of the Seashore; however, it 
did not meet the planning and NEPA compliance requirements needed in 
order to be considered a formal plan. In 1973 and 1990, the Seashore 
submitted draft regulations through the NPS Southeast Regional Office 
to the Washington Office. The regulations were not promulgated. It is 
not clear to us why any of these actions were not completed.
    Question 13f. How has the annual visitation for Cape Hatteras 
changed each year in the past 5 years and can you point to any specific 
factors that contributed to the change? How does that compare with 
visitation across the entire national park system as a whole during the 
same time?
    Answer. The yearly counts for visitation at Cape Hatteras National 
Seashore over the past 5 years are as follows:

                  2007--2.237 million
                  2006--2.125 million
                  2005--2.261 million
                  2004--2.208 million
                  2003--2.661 million

    There was a relatively significant drop from 2003-2004 (about 17%), 
We know that there was a lot of storm activity, including Hurricane 
Isabel in the late summer and fall of 2004 that affected visitation 
that year. We do not know the reasons for the numbers changing since 
then, but it is common to have fluctuations in visitation, and often 
there are many different factors that contribute to the change.
    Yearly counts for visits to all units of the National Park System 
are as follows:

                  2007--275,581,547
                  2006--272,623,980
                  2005--273,488,751
                  2004--276,908,337
                  2003--266,099,641

    A significant factor in the change in total NPS visitation from 
2003 to 2004 was the opening of the World War [I Memorial, which drew 
more than 5 million visitors in 2004.
    Question 13g. The NPS testimony states: ``Although the breeding 
season is not yet completed, it appears that actions taken under the 
consent decree have been beneficial for resource protection. Under the 
consent decree, the Seashore has experienced an increase in the number 
of breeding pairs of piping plover from 6 pair in 2006 and 2007, to 11 
pairs in 2008. As of July 19, 2008, there were 83 sea turtle nests on 
the Seashore compared to 49 nests last year at this time.'' The consent 
decree was approved by the court on April 30, 2008. (i) When did the 
piping plover breeding season begin in 2008 and when does it end? (ii) 
flow long is the incubation period for the piping plover and how many 
clutches does a nesting pair produce per year? (iii) How long from the 
time of hatching does it take for a piping plover to become 
reproductively viable? (iv) How can you he certain that an increase in 
piping plover breeding pairs is the result of the consent decree when a 
complete reproductive season has not occurred under the decree; is it 
possible that more birds than usual survived the winter and were 
available to nest in 2008 for reasons unrelated to the consent decree? 
Please answer the same questions for the sea turtle.
    Answer. Piping plovers are present at the Seashore throughout the 
entire year with breeding typically beginning between mid-March and 
mid-April. It is difficult to determine if birds present on the beach 
during the spring are breeding birds or wintering migrants traveling to 
breeding grounds further north. In 2008, the Seashore observed its 
first evidence of breeding, a nest scrape, on April 4 at Cape Point. 
The end of breeding season is variable and dependent upon the nesting 
and fledgling success of early season nests. Typically, the breeding 
season ends late August. This year the last piping plover chick fledged 
on July 12, but in 2007 the last chick fledged on August 14. The 
average incubation period for piping plovers is 26 days and plovers 
typically produce one clutch per year if they are successful; however, 
depending on various conditions such as storm events, tidal flooding, 
and predators, plovers may re-nest numerous times until they are 
successful or the breeding season ends. Piping plovers are generally 
reproductively viable in 1-2 years.
    Sea turtles nest at the Seashore during the summer months with 
hatchling emergence occurring in the late summer and fall months. 
Typically nesting begins in mid-May and continues until nests hatch by 
late October. In 2008, the Seashore documented its first sea turtle 
nest on May 18; as of August 29, the Seashore has had 112 nests. The 
incubation period for sea turtle nests is highly dependent upon the 
temperatures of the eggs, which can be affected by daily temperatures, 
tides, storms, humidity, depth of the nest, and placement of the nest 
on the beach. Incubation periods average 60 days, but can range 48-100 
days. Sea turtle species at the Seashore typically lay 4-5 clutches 
each season depending on body condition, environmental factors, and 
threats. It is generally thought to take about 35 years for a sea 
turtle to become reproductively viable.
    It is possible that this year's nesting success for piping plovers 
and sea turtles is due to multiple factors, not just the consent 
decree. Animal populations fluctuate as a result of many factors, 
including genetics, prey availability, suitable and available habitat, 
environmental conditions, storm events, natural and man-made 
disturbances, and predators. All of these factors, which can occur 
during migration, breeding, and nesting stages, influence the success 
of a particular species. Determining a definitive cause-and-effect 
relationship between nesting success and the management requirements 
under the consent decree would require a comprehensive approach to 
species use of the Seashore and the associated influences affecting 
them, necessitating study over a number of years.

                               ON S. 3148

    Question 14a. S. 3148 would increase the size of Oregon Caves 
National Monument by more than 10-fold. What changes in manpower and 
funding requirements does the National Park Service anticipate because 
of that increase?
    Answer. NPS anticipates it will cost approximately $300,000 to 
$750,000 per year to administer the new lands, including management, 
administration, interpretation, resource protection, and maintenance. 
The range in this estimate is due to the uncertainties of what actions 
will be necessary on these lands to meet the ecological forest 
restoration program required by Section 6(b) of the bill.
    Question 14b. How many acres of National Park Service land 
throughout the US include grazing permits and approximately how many 
AUMs (Animal Unit Months) are involved?
    Answer. As of FY 2004, NPS had grazing at 31 units of the National 
Park System, totaling 1,580,000 acres and 71,000 AUMs.
    Question 14c. What are the National Park Service policies for 
managing grazing permits and if S. 3148 is enacted, will the existing 
grazing management plan remain in place until the permits have been 
relinquished?
    Answer. NPS policies prohibit grazing except 1) as specifically 
authorized by statute; or 2) as required by a reservation of use right 
arising from the acquisition of a tract of land; 3) as required in 
order to maintain a historical scene; or 4) as carried out as part of a 
living exhibit or interpretive demonstration; or 5) as used to achieve 
resource conditions as part of an integrated pest management (IPM) 
plan. Grazing is only allowed where it does not cause unacceptable 
impacts on park resources and values.
    Under S. 3148, 1,263 acres of the approximately 24,000 acre grazing 
allotment would be transferred to the National Park Service. The NPS 
would continue to work with the US Forest Service to administer the 
existing grazing allotment until such time as the permit expires or the 
allotment is retired.
    Question 14d. How much of the land involved in this proposed 
expansion is in private ownership and have any of the owners objected 
to this proposal?
    Answer. There is no private land involved in the proposed 
expansion.
    Question 14e. We have heard Senator Smith and his concern about the 
Park Service perhaps not maintaining the grazing permit holder's 
grazing rights if the permit is not bought out. Can you tell me why you 
think the Park Service is better qualified to manage these permits than 
say the Forest Service or the Bureau of Land Management?
    Answer. Oregon Caves National Monument has worked alongside the 
Forest Service in its planning and implementation of the Grayback 
allotment and would continue to do so if this small portion of the 
allotment were to be transferred to the monument.
    Question 14f. The Oregon Cave National Monument is a fairly small 
Park Service unit isn't that correct? Do you have sufficient budget and 
personnel to undertake the fuels treatments (i.e., logging, thinning, 
controlled burns) that will need to be done to the land your agency 
would acquire as a result of this bill?
    Answer. Oregon Caves National Monument is relatively small for a 
unit preserved for its natural resources. The park works closely with 
Forest Service in developing and implementing its fire management plan, 
which has included conducting fuel treatment projects and prescribed 
fire within the existing monument boundary. One of the reasons that we 
request that the committee defer action on S. 3148 is so that we can 
coordinate with the Forest Service to determine how best to accomplish 
the fuels treatment that will be necessary on the lands in question,
    Question 14g. Will hunting be allowed to continue on these lands if 
they are transferred to the Oregon Cave Monument?
    Answer. It is against NPS policies to allow hunting except where 
specifically authorized by law. One of the reasons we request that the 
committee defer action on this bill is so that we can coordinate with 
the Forest Service to determine how best to continue to provide a wide 
range of recreational activities to monument and forest visitors.

                               ON S. 3247

    Question 15a. When does the National Park Service anticipate 
completing the suitability and feasibility study for River Raisin 
Battlefield Park?
    Answer. At this point, we anticipate concluding the study by the 
summer of 2010. The study is being coordinated closely with the 
national historic landmark (NHL) nomination also currently under 
development. This coordination is necessary in this case as criteria 
for NHL designation is applied in determining whether or not the 
property is nationally significant, the first criterion of a special 
resource study. This means that, to some extent, the study schedule is 
dependent on the timing of the evaluation of the NHL nomination. The 
soonest that the first level of evaluation for the NHL, nomination will 
occur is the spring of 2009.
    Question 15b. How common is it to designate a new unit of the 
national park system without first completing a study?
    Answer. It is not very common for Congress to designate a new unit 
without the National Park Service first completing a special resource 
study. We have found that Congress relies heavily on the information 
provided in a completed study, including recommendations for the 
boundary and any special authorities needed, to help shape legislation 
designating a new unit. The National Park Service considers the 
information gained by a special resource study essential to 
establishing a sound unit, which is why NPS typically asks Congress to 
defer action on legislation designating a new unit until the study of 
the site has been completed.
    Question 15c. Has the National Park Service encountered any issues 
in the course of the study that might lead to a negative recommendation 
for designation?
    Answer. The National Park Service has just begun work on the 
special resource study and does not have sufficient information on any 
issues to provide either a negative or positive recommendation for 
designation.
    Question 15d. Has the National Park Service found any compelling 
reason in the course of the study to justify designation before the 
study is completed?
    Answer. No. Having both a completed special resource study and a 
NHL nomination would provide information necessary to make an accurate 
determination on whether the site is nationally significant and 
suitable and feasible to be designated as a unit of the National Park 
System, as well as whether administration by the NPS would be the best 
management option.

                               ON S. 1816

    Question 16a. How many other instances has Congress authorized a 
grant program to be administered by the Department of the Interior 
without a funding ceiling?
    Answer. We are not aware of any grant program administered by the 
NPS that does not have an authorized funding ceiling.
    Question 16b. Has the National Park Service completed a study of 
the proposed ``Women's Suffrage Commemorative Trail'' and what was the 
outcome of the study?
    Answer. NPS completed a feasibility study that was transmitted to 
Congress in January 2004. The final report concluded that while there 
are a large number of sites associated with the struggle for women's 
suffrage in the Northeast, a trail from Massachusetts to Buffalo was 
not viable. It found a large concentration of sites in the corridor 
from roughly Syracuse to Rochester, New York. Seneca Falls and 
Waterloo, where the nation's first women's rights convention was 
planned and held in 1848, lie in the center of this concentration. The 
study found that a ``Votes for Women'' History Trail, a vehicular tour 
route connected to Women's Rights National Historical Park, could link 
sites associated with the struggle for women's suffrage to support the 
recognition, promotion, and protection of properties connected to 
women's rights history.
    Question 16c. How many sites would be associated with this trail 
and how many of those are existing units of the national park system?
    Answer. Based on a preliminary assessment, there may be roughly 30-
35 sites on the trail. Two of the sites, Women's Rights National 
Historical Park and Eleanor Roosevelt National Historic Site, are NPS 
units. Many of the sites on the trail would be National Register-listed 
properties or national historic landmarks. Specific criteria would be 
developed for sites to be considered for inclusion on this trail.

                               ON S. 2093

    Question 17a. Has any other entity conducted any type of assessment 
of the rivers that could he incorporated into a NPS study?
    Answer. Yes, the State of Vermont has been assessing non-point 
agricultural run-off issues in the Missisquoi basin and is developing a 
management plan to address those issues in conjunction with local 
communities and partners, including the Environmental Protection Agency 
and the Missisquoi River Basin Association. NPS has met with local and 
state contacts and are in agreement that this ongoing planning and 
assessment work would be incorporated into the Wild and Scenic River 
study.
    Question 17b. How many suitability and feasibility studies is the 
NPS currently authorized by Congress to conduct and how many of those 
are for wild and scenic rivers?
    Answer. There are currently 34 studies pending for new units, 
heritage areas, rivers and trails. Of the 34, three are currently 
underway for wild and scenic rivers:

  <bullet> New River in West Virginia and Virginia
  <bullet> Lower Farmington River in Connecticut
  <bullet> Taunton River in Massachusetts.

                               ON S. 2535

    Question 18a. How much land is involved in this boundary adjustment 
and how much of it is in private ownership?
    Answer. There are 261 acres involved in this boundary adjustment. 
Of this acreage, 198 acres are owned in easement or fee by a non-profit 
land conservation organization, the Open Space Institute, with another 
non-profit land conservation agency, Equity Trust, having fee ownership 
of 101 of those acres. The remaining 63 acres are owned by three 
private owners.
    Question 18b. Have any property owners within the proposed 
expansion area objected to being included within the boundary?
    Answer. Currently none of the property owners within the proposed 
expansion area object to being included within the boundary. In the 
original proposed boundary expansion, there were two property owners 
who indicated that they did not wish to be included in the boundary 
change at this time, so their properties (totaling 70 acres) were 
removed from the proposed boundary expansion.
    Question 18c. How will the National Park Service use the property 
that is proposed for acquisition?
    Answer. The majority of the land, approximately 173 acres, will 
remain under private ownership and management and will continue to be 
farmed. Sections of these lands that were part of Van Buren's original 
farm, and which still retain original landscape features from Van 
Buren's tenure, will become accessible to visitors which will help them 
to gain a better understanding of Lindenwald. Approximately 25 acres 
that would be donated in fee would provide additional options for 
locating operational structures and visitor facilities so they would 
not impact the cultural landscape.

                               ON S. 2561

    Question 19a. Approximately how many sites would be included in the 
Cold War Theme Study if this bill is enacted?
    Answer. We do not know right now how many sites would be looked at. 
There are thousands of places that have an historical association with 
the Cold War, but only a very few will be of exceptional national 
significance and have a high degree of integrity, two characteristics 
they would need to qualify for NHL designation.
    Question 19b. Are any of the sites for potential study currently 
active military sites?
    Answer. We do not know if any of the sites are currently active 
military sites. That is something we would determine as we begin to 
look at the most significant Cold War sites.
    Question 19c. What role would DoD have in the proposed theme study?
    Answer. The legislation specifies that consideration should be 
given to the inventory of sites and resources associated with the Cold 
War that was done by the Defense Department pursuant to the 1991 
legislation which established the DOD Legacy Resource Management 
Program [Section 8120(b)(9) of Public Law 101-511]. We would be drawing 
from work DOD has already done to identify these resources. In 
addition, the study calls for the Secretary of the Interior to consult 
with the Secretary of the Air Force on the study. Thus, we would ensure 
that we had the input of Air Force personnel as we frame the study and 
identify resources.
    Question 19d. Have any prior studies of Cold War sites been 
conducted and what were the findings and recommendations?
    Answer. The Air Force conducted a special resource study of the 
Minute Man Missile site in South Dakota as part of the Legacy Resource 
Management Program prior to Congress' designation of the site as a unit 
of the National Park System in 1999. The Air Force also conducted 
historical studies on a number of other individual facilities, such as 
flight training centers and communication and command centers. However, 
there has not been a study of the kind proposed by this legislation--a 
study that would look at Cold War resources in a systematic and 
comprehensive manner.
    Question 19e. What is the estimated cost of the proposed study and 
how long will it take to complete?
    Answer. Typically, National Historic Landmark theme studies are 
estimated to cost between $250,000 and $400,000. The proposed study 
could take 3-5 years to complete, depending on the completion of 
current and pending studies already authorized by the Congress.

                               ON S. 3011

    Question 20a. What is the existing land area of the Palo Alto 
Battlefield National Historic Site and how much acreage will this bill 
add?
    Answer. The current acreage of the park is approximately 3,408 
acres, of which approximately 1,315 acres are federally owned. S. 3011 
would add 34 acres.
    Question 20b. How does the National Park Service intend to use the 
land acquired as a result of this legislation?
    Answer. The land would be added to the boundary of the park but may 
not ever be owned by NPS. The Brownsville Community Foundation, which 
owns the property, has proposed an administrative building for the 
site. If built, the foundation would use part of the building and NPS 
would use part of this building. If the land is acquired by the park, 
it would be interpreted along with the rest of the park as part of the 
American-Mexican war.
    Question 20c. How much of the proposed expansion area is privately 
owned and have any owners objected to the boundary adjustment?
    Answer. The entire 34 acres are owned by the not-for-profit 
Brownsville Community Foundation, which wants the land to be included 
within the park boundary.

                               ON S. 3226

    Question 21a. What is the estimated cost associated with changing 
the name of this site?
    Answer. The only costs would be those associated with changing the 
name on signs, brochures, and other materials, which would be minimal.
    Question 21b. Do you anticipate any budget increase or change in 
personnel as a result of this name change?
    Answer. No. The costs would be absorbed in existing budgets. There 
would be no impact on personnel.

                              ON H.R. 5137

    Question 22a. The current authorization for New River Gorge 
National River says hunting may be allowed. Has the National Park 
Service taken any steps to prevent hunting that would cause hunters to 
be concerned?
    Answer. No. Hunting has been allowed at New River Gorge since the 
area was designated as a unit of the National Park System in 1978. The 
park's 1982 GMP determined that hunting was an appropriate activity, 
and since that time, NPS has permitted hunting on lands owned and 
administered by NPS, except in areas of developed recreational 
facilities for reasons of public safety.
    Question 22b. Is there any reason why hunting should not be allowed 
in New River Gorge National River?
    Answer. No. NPS is cognizant of the importance of hunting to the 
local community as well as the ecological implications of hunting 
within New River Gorge. For both reasons, hunting has been determined 
to be appropriate at New River Gorge National River.
    Question 22c. What has transpired since the New River Gorge 
National River was established as a park unit that would cause concern 
for future hunting opportunities?
    Answer. NPS has allowed hunting at New River Gorge since its 
inception in 1978. In 2004, since NPS was about to begin a new GMP for 
the park, NPS decided to include National Environmental Policy Act 
(NEPA) compliance related to hunting in that document. As part of the 
NEPA compliance. NPS is considering alternatives for hunting within the 
park. Three of the action alternatives would continue or enhance 
hunting in the park, and one is a no hunting'' alternative. NPS has 
determined that the ``no hunting'' alternative must be included in the 
plan in some form to ensure that the requirements of NEPA are 
adequately met. When the draft GMP is released for public review, it 
will include a preferred alternative stating the NPS' position on 
continued hunting at New River Gorge.

                               ON S. 3158

    Question 23a. When was the Cape Cod National Seashore Advisory 
Commission first authorized and why is this reauthorization necessary?
    Answer. The Commission was first authorized in 1961 when the park 
was established. The Commission is an important partner to the park, 
providing information on issues related to private land ownership and 
occupancy, and on management of recreational activities.
    Question 23b. How many members are on the Cape Cod National 
Seashore Advisory Commission, how long a term do they serve, and how 
frequently do they meet?
    Answer. There are 10 members, appointed by the Secretary, who serve 
for a two-year term. The Commission meets five to six times a year.
    Question 23c. How many national park units currently have an 
advisory commission/board and how long do such commissions generally 
remain in existence once formed?
    Answer. There are 20 currently authorized federal advisory 
commissions for national park units, and several more that are 
associated with the National Park Service but not a specific park unit. 
As indicated by the list below, many of have an indefinite 
authorization, while others have a termination date. Some are 
established to provide advice on a range of issues; other for a very 
specific purpose. Advisory commissions established for general purposes 
for units of the National Park System are often authorized by Congress 
for an initial ten-year period and later extended for an additional 
period of time.

                                   NATIONAL PARK SERVICE ADVISORY COMMISSIONS

         Commissions with no termination dates

Boston Harbor Islands National Recreation Area Advisory
 Council
Big Cypress National Preserve Off-Road Vehicle Advisory
 Commission
Cedar Creek and Belle Grove Nation Historical Park
 Advisory Commission
Committee for the Preservation of the White House
Gettysburg National Military Park Advisory Commission
Jimmy Carter National Historic Site Advisory Commission
National Park of American Samoa Advisory Board
Native American Graves Protection and Repatriation
 Review Committee
NPS Subsistence Resource Commission--Aniakchak National
 Monument
NPS Subsistence Resource Commission--Denali National
 Park
NPS Subsistence Resource Commission--Gates of the
 Arctic
NPS Subsistence Resource Commission--Cape Krusenstern
 National Monument
NPS Subsistence Resource Commission--Kobuk Valley
 National Park
NPS Subsistence Resource Commission--Lake Clark
 National Park
NPS Subsistence Resource Commission--Wrangell-St. Elias
 National Park
Mary McLeod Bethune Council House National Historic
 Site Advisory Commission
Preservation Technology Training Board
Tall Grass Prairie National Preserve Advisory Committee
Wekiva River System Advisory Management Committee





          Commissions with termination dates                                Termination date

Acadia National Park Advisory Commission                                                         Sept. 25, 2026
Captain John Smith Chesapeake National Historic Trail                                              May 21, 2018
 Advisory Council
Chesapeake and Ohio National Historical Park                                                       Jan. 8, 2011
 Commission
Denali National Park and Preserve Aircraft                                                       Sept. 21, 2013
 Overflights Advisory Council
Flight 93 Advisory Commission                                                            Completion of monument
NPS Concessions Management Advisory Board                                                         Dec. 31, 2008
Selma to Montgomery National Historic Trail Advisory                                              Dec. 14, 2008
 Council
Route 66 Corridor Preservation Advisory Committee                                                 Aug. 10, 2009
Negotiated Rulemaking Advisory Committee for Off-Road                                              Jan. 2, 2010
 Vehicle Management  at Cape Hatteras National
 Seashore





 Commissions with expired authorizations/legislation
                pending to reauthorize                                      Termination date

Cape Cod National Seashore Advisory Commission                                                   Sept. 26, 2008
Delaware Water Gap Recreation Area Citizens Advisory                                              Oct. 31, 2008
 Commission
Kaloko-Honokohau National Historical Park Advisory                                                Nov. 12, 2006
 Commission


    Responses of Derb S. Carter, Jr., to Questions From Senator Burr

                               ON S. 3113

    Question 1. How was the interim management plan deficient and why 
was it necessary to develop a court-approved agreement?
    Answer. As more fully explained in the Amended Complaint in the 
federal lawsuit entitled Defenders of Wildlife et al. v. National Park 
Service et al.,\1\ the Interim Plan failed to meet the National Park 
Service's obligation pursuant to Executive Orders 11644 and 11989 and 
36 C.F.R. Sec.  4.10. These executive orders and the regulation require 
the National Park Service to adopt a special regulation to manage off-
road vehicle use on the Seashore and protect natural resources from the 
adverse impacts of off-road vehicle use. Further, the Interim Plan 
violated the National Park Service Organic Act ,\2\ the Cape Hatteras 
National Seashore enabling legislation,\3\ the Migratory Bird Treaty 
Act,\4\ and the Endangered Species Act\5\ because it failed to protect 
the wildlife of the Seashore. Its primary weaknesses included:
---------------------------------------------------------------------------
    \1\ Case number 2:07-CV-45-BO (U.S. Dist. Ct. for the Eastern Dist. 
of N.C.).
    \2\ 16 U.S.C. Sec.  1 et seq.
    \3\ 16 U.S.C. Sec. Sec.  459-459a-10.
    \4\ 16 U.S.C. Sec. Sec.  703-712.
    \5\ 16 U.S.C. 1531-1544.

  <bullet> Initiating pre-nesting closures on April 1, rather than 
        March 15, increasing the level of disturbance for birds seeking 
        to establish territories and court mates.
  <bullet> Limiting monitoring for territorial and breeding behavior. 
        The frequency of monitoring under the Interim Plan was not 
        sufficient because it allowed significant time periods to pass 
        between observations, ensuring that territorial and breeding 
        behavior would not be observed by Park staff and that buffers 
        would not be implemented to protect breeding birds.
  <bullet> Establishing disturbance buffers that were too small, had no 
        scientific basis, and did not meet the minimum recommendations 
        of the USGS scientists. Adequate buffers are vital to bird 
        courtship, breeding, nesting, and chick rearing.
  <bullet> Granting substantial discretion to the National Park Service 
        to decrease protections for wildlife. In previous years, Park 
        Service exercise of this discretion has consistently favored 
        ORV use over resource protection, putting wildlife in harm's 
        way. As Steve Harrison, former Chief of Resource Management at 
        Cape Hatteras National Seashore, explained in his sworn 
        declaration, ``during my tenure as Chief of Resource Management 
        at the Seashore, protection of birds and other natural 
        resources was often compromised by Seashore management to 
        accommodate ORV use and ORV user groups.''\6\
---------------------------------------------------------------------------
    \6\ Declaration of Steven Harrison, filed in Defenders of Wildlife, 
et al. v. National Park Service, et al.,  19 (Jan. 17, 2008).
---------------------------------------------------------------------------
  <bullet> Failing to impose any restrictions specifically on night 
        driving, which can disturb nesting sea turtles.

    Because of these deficiencies, and the Interim Plan's express 
reliance on previous management strategies, it was clear that the 
wildlife population declines observed over the last decade at the 
Seashore would continue under the Interim Plan. Specifically, experts 
on the species managed under the Interim Plan stated that:

  <bullet> ``[T]he 2007 Interim Plan will not provide for the recovery 
        of the piping plover population at Cape Hatteras National 
        Seashore, and does not acceptably reduce the risk of human-
        caused injury or mortality to nests or chicks.''\7\
---------------------------------------------------------------------------
    \7\ Declaration of Dr. Jonathan Cohen, filed in Defenders of 
Wildlife, et al. v. National Park Service, et al.,  9 (Dec. 12, 2007). 
Dr. Cohen was the piping plover expert hired by the United States 
Geological Survey to provide proposed management plans for Cape 
Hatteras National Seashore.
---------------------------------------------------------------------------
  <bullet> ``Under the 2007 Interim Plan, there is a risk that there 
        will not be a viable piping plover population in place when the 
        long-term ORV management plan is enacted.''\8\
---------------------------------------------------------------------------
    \8\ Id.  14.
---------------------------------------------------------------------------
  <bullet> ``[T]he 2007 Interim Plan is inadequate in its ability to 
        provide the type of protection required by piping plovers and 
        colonial ground nesting waterbirds at CAHA.''\9\
---------------------------------------------------------------------------
    \9\ Declaration of Dr. Francesca Cuthbert, filed in Defenders of 
Wildlife, et al. v. National Park Service, et al.,  8 (Dec. 13, 2007).
---------------------------------------------------------------------------
  <bullet> ``Without adoption of management at the highest level of 
        protection it is likely that piping plovers and the other 
        shoreline inhabiting waterbird species will not continue to 
        breed at Cape Hatteras for much longer in the future.''\10\
---------------------------------------------------------------------------
    \10\ Id.  11.
---------------------------------------------------------------------------
  <bullet> ``[T]he 2007 Interim Plan is inadequate for protecting 
        Piping Plovers and their eggs and chicks from disturbance or 
        direct mortality caused by recreational activities, especially 
        ORVs.''\11\
---------------------------------------------------------------------------
    \11\ Declaration of Scott Melvin, filed in Defenders of Wildlife, 
et al. v. National Park Service, et al.,  18 (Jan. 8, 2008).
---------------------------------------------------------------------------
  <bullet> ``Failure to implement more effective protection, beginning 
        with the 2008 breeding season, will continue to impede progress 
        toward recovery of this local population, and will not reduce 
        the current risk that breeding Piping Plovers will be 
        extirpated from the Seashore.''\12\
---------------------------------------------------------------------------
    \12\ Id.  22.
---------------------------------------------------------------------------
  <bullet> ``If current management practices continue for the next two 
        to three years, piping plovers will most likely disappear as a 
        breeding species from Cape Hatteras entirely and the 
        populations of colonially nesting waterbirds and American 
        oystercatchers will be drastically reduced if not also 
        eliminated.''\13\
---------------------------------------------------------------------------
    \13\ Declaration of Dr. Erica Nol, filed in Defenders of Wildlife, 
et al. v. National Park Service, et al.,  19 (Dec. 18, 2007).

    It was necessary to develop the Consent Decree to address these 
shortcomings of the Interim Plan, to prevent the loss of additional 
native species from the Seashore before a final ORV management plan is 
approved, and to ensure that a final management plan is adopted by 
creating an enforceable timetable for its development. In 2007, both 
gull-billed terns and black skimmers failed to nest on the Seashore 
beaches. The scientific evidence available indicated that several other 
species risked being eliminated from the Seashore under the Interim 
Plan. The Consent Decree corrects these faults by using a 
scientifically supported foundation for the protection of species. The 
extensive input from Dare County, Hyde County, and the Cape Hatteras 
Access Preservation Alliance in crafting the Consent Decree ensured 
that, even with this scientific basis, the Consent Decree appropriately 
considers all uses of the Seashore and accommodates those uses.
    Question 2. Cape Hatteras National Seashore Off-Road Vehicle Use 
(S.3113): Has there been any increase in beach traffic in other areas 
of the park or adjacent beaches since the court-approved agreement has 
been followed?
    Answer. The National Park Service is in the best position to answer 
this question. We understand that the Park Service is keeping track of 
the numbers of visitors to Cape Hatteras National Seashore generally as 
well as the number of ORVs driving on its beaches at certain locations, 
but we are not aware of any place that it has regularly published 
either those numbers or a breakdown of how many vehicles are using each 
section of beach. There has been little to no decrease in the numbers 
of ORVs using the beaches in general, and that there has been at least 
an occasional increase in the total number of vehicles on the 
Seashore.\14\ As we previously testified, the Park Service reported 
that 2,557 vehicles were on Seashore beaches on the July 4th, 2008, 
holiday,\15\ whereas the busiest holiday weekends in previous years 
reportedly approached only 2,200 vehicles.\16\
---------------------------------------------------------------------------
    \14\ Irene Nolan, New dispatches from the beachfront: Access 
update, getting smart about beach driving, manners and laws, and July 4 
report, ISLAND FREE PRESS, http://www.islandfreepress.org/2008Archives/
07.11.2008-ShootingTheBreezeNewDispatchesFromTheBeachfront.html.
    \15\ Id.
    \16\ Notice of Intent (NOI) To Prepare a Draft Environmental Impact 
Statement (DEIS) for an Off-Road Vehicle Management Plan (ORV 
Management Plan) for Cape Hatteras National Seashore, NC, 71 Fed. Reg. 
71552 (Dec. 11, 2006)
---------------------------------------------------------------------------
    The noteworthy fact regarding the location of beach driving is that 
beach driving has been managed in such a way as to keep ORVs away from 
areas only as long as necessary to ensure the success of wildlife 
breeding by allowing safe courting, breeding, nesting, hatching, and 
fledging.
    Question 3. Is your organization concerned about threatened and 
endangered species in other public beaches in the Outer Banks? Are you 
aware of any plans for additional legal action?
    Answer. National Audubon Society, Defenders of Wildlife, The 
Wilderness Society, and the Southern Environmental Law Center are all 
concerned about the welfare of threatened and endangered species 
wherever they may live and breed. We are aware that populations of 
threatened and endangered species, including many of the same species 
as those that live on Cape Hatteras National Seashore, live elsewhere 
in North Carolina's Outer Banks, including on Cape Lookout National 
Seashore. We have focused our attention on those populations living in 
Cape Hatteras National Seashore because those populations were 
suffering the greatest declines and because, according to the 
government's own scientists and the applicable federal laws, there was 
an obvious mechanism for the Park to protect the species and reverse 
the declines. That mechanism has been memorialized in the Consent 
Decree.
    Regarding other litigation, we aware of a lawsuit entitled Friends 
of the Earth et al. v. United States Department of the Interior, case 
number 05 CV 2302 (RCL),\17\ which was brought in the U.S. District 
Court for the District of Columbia in 2005. The groups that I represent 
were not party to that lawsuit. Dare County, Hyde County, and the Cape 
Hatteras Access Preservation Alliance were, however, intervenors in 
that lawsuit, in much the same posture as in the case involving Cape 
Hatteras. That case involved the National Park Service's duty to manage 
off-road driving at other national parks and seashores, including Cape 
Lookout. We understand that a settlement has been reached in that case. 
We also understand that Dare County, Hyde County, and the Cape Hatteras 
Access Preservation Alliance, represented by some of the same lawyers 
as in the Cape Hatteras case, informed the court that they did not 
object to that settlement.\18\
---------------------------------------------------------------------------
    \17\ Press Release, National Parks Conservation Association, 
Conservation Groups Settle Lawsuit with National Park Service, 
Protection National Parks from Illegal Off-Road Vehicle Use (May 22, 
2008) available at http://www.npca.org/media_center/press_releases/
2008/orv_052208.html.
    \18\ Notice of Settlement, filed in Friends of the Earth, et al. v. 
U.S. Dept. of the Interior, et al., (May 01, 2008); Joint Motion for 
Entry of Judgment, filed in Friends of the Earth, et al. v. U.S. Dept. 
of the Interior, et al., (May 23, 2008).
---------------------------------------------------------------------------
    Regarding future litigation, we have no current plans to initiate 
litigation regarding protection of endangered and threatened species 
from ORVs in other areas of the Outer Banks. We are aware, however, 
that the District of Columbia federal district court has retained 
jurisdiction over litigation initiated by Dare County, Hyde County, and 
the Cape Hatteras Preservation Alliance, through which they challenged 
the designation of critical habitat for wintering piping plovers on 
Cape Hatteras National Seashore, requiring status updates from the U.S. 
Fish and Wildlife Service.\19\ Warren Judge, Chairman of the Dare 
County Board of Commissioners, has indicated that the county may 
challenge the Fish and Wildlife Service's recent re-designation of 
critical habitat.\20\ We are also aware that ORV interest groups have 
indicated an ongoing commitment to using litigation as a means to 
address their dissatisfaction with beach driving limits at Cape 
Hatteras.\21\
---------------------------------------------------------------------------
    \19\ Cape Hatteras Access Preservation Alliance v. U.S. Dep't of 
the Interior, 344 F. Supp. 2d 108, 136-37 (D.D.C. 2004). See Federal 
Defendants' Second Status Report on Progress on Remand, filed Dec. 20, 
2007.
    \20\ The minutes of the May 19, 2008 Dare County Board of 
Commissioners' meeting state that Warren Judge commented that the 
county ``will have to revisit the issue in court.'' The Dare County 
Board of Commissioners' Minutes: May 19, 2008, available at http://
www.co.dare.nc.us/BOC/Minutes/2008/OM051908.pdf.
    \21\ http://www.ncbba.org/legalfund.html (stating, ``The North 
Carolina Beach Buggy Association needs help now, more than ever, to 
fund the legal battles we are facing now and will face in the immediate 
future. We are committed to free and open access to the beaches of Cape 
Hatteras National Seashore Recreational Area.''); http://
capehatterasapa.org/forum/forum--topics.asp?FID=8 (showing Cape 
Hatteras Preservation Alliance's ongoing efforts to raise legal funds, 
and stating, ``There are several pro-active projects that CHAPA is 
working on and I will share more with you, when they are ready for 
announcement, but these things take funds to be able to do.''); http://
www.capehatterasanglersclub.org/index.php?option=com--
content&task=view&id=22&Itemid=46 (stating, ``The purpose of [the Cape 
Hatteras Access Preservation Alliance] is to provide a venue through 
which OBPA can join with other like-minded user groups to preserve and 
defend through negotiation or litigation against any effort by any 
person, group, organization, or government agency to ban or restrict 
vehicular or other access to the beaches (ocean and sound side) of the 
Cape Hatteras National Seashore.'')
---------------------------------------------------------------------------
    Question 4. In your testimony you state: ``By the last week in 
July, piping plovers had increased from 6 breeding pairs in 2007 to 11 
pairs in 2008, an 83% increase for this threatened species. Fledged 
piping plover chicks nearly doubled from 4 to 7 during the same period, 
the highest number of fledged piping plover chicks on the Seashore 
since 1998.'' The consent decree was approved by the court on April 30, 
2008. (i) When did the piping plover breeding season begin in 2008 and 
when does it end? (ii) How long is the incubation period for the piping 
plover and how many clutches does a nesting pair produce per year? 
(iii) How long from the time of hatching does it take for a piping 
plover to become reproductively viable? (iv) How can you be certain 
that an increase in piping plovers is the result of the consent decree 
when a complete reproductive season has not occurred under the decree; 
is it possible that more birds than usual survived the winter and were 
available to nest in 2008 for reasons unrelated to the consent decree?
    Answer. (i) It is difficult to definitively state when the piping 
plover season began and ended. The first documented closure for 
breeding piping plovers, other than pre-nesting closures, was announced 
on May 5.\22\ The last piping plover chick fledged on July 15.\23\ The 
last remaining nest failed on July 20, 2008.\24\ This span approximates 
the generally accepted breeding season for piping plovers, which 
typically begins in March and runs through mid-August.\25\
---------------------------------------------------------------------------
    \22\ Press Release, Outer Banks Group, National Park Service, NPS 
Announces First Major Closures under the Consent Decree (May 5, 2008).
    \23\ OUTER BANKS GROUP, CAPE HATTERAS NATIONAL SEASHORE RESOURCE 
MANAGEMENT WEEKLY FIELD SUMMARY; JULY 17 TO JULY 23, 2008 (BODIE 
ISLAND, HATTERAS, AND OCRACOKE DISTRICTS) at 1 (2008).
    \24\ Id.
    \25\ U.S. GEOLOGICAL SURVEY, MANAGEMENT AND PROTECTION PROTOCOLS 
FOR THE THREATENED PIPING PLOVER (CHARADRIUS MELODUS) ON CAPE HATTERAS 
NATIONAL SEASHORE, NORTH CAROLINA 4 (2005).
---------------------------------------------------------------------------
    (ii) Piping plover incubation ranges from 25-29 days.\26\ A pair 
may re-nest multiple times if previous clutches are destroyed, but 
rarely do so after chicks hatch.\27\
---------------------------------------------------------------------------
    \26\ Id. 4.
    \27\ Id.
---------------------------------------------------------------------------
    (iii) Piping plovers have been known to breed as young as one year 
of age, but the frequency at which they do so is unknown.\28\
---------------------------------------------------------------------------
    \28\ U.S. FISH & WILDLIFE SERVICE, PIPING PLOVER (CHARADRIUS 
MELODUS) ATLANTIC COAST POPULATION REVISED RECOVERY PLAN 5 (1996).
---------------------------------------------------------------------------
    (iv) A range of factors can influence breeding success including 
habitat availability, weather conditions, predation, and human 
disturbance. At the Seashore, the National Park Service is implementing 
management strategies to address predators and human disturbance. While 
there is no way to be sure that the Consent Decree is the sole reason 
for this year's breeding success for piping plovers, the success of 
piping plovers, American oystercatchers, sea turtles, and other species 
is not unexpected. The Consent Decree is based primarily on the 
``moderate protection'' protocols created by USGS scientists and 
recommended to the National Park Service. Those scientists predicted 
that implementing the ``moderate protection'' protocols would decrease 
the disturbance of target species on the Seashore. While it is too 
early to make a final judgment on the effectiveness of the Consent 
Decree, that decreased disturbance may be responsible for the improved 
results from this year's breeding season.
    Survival rates of wintering plovers could affect the number of 
breeding pairs of piping plovers on the Seashore, but we are not aware 
of any evidence demonstrating that the survival rate of wintering birds 
leading into this breeding season was higher than normal. Further, if 
winter survival is responsible for the 83% increase in breeding pairs 
of piping plovers on Cape Hatteras Seashore, one would expect to see 
similar increases in the southern population of piping plovers at other 
locations. However, based on preliminary monitoring, the number of 
breeding pairs at nearby Cape Lookout National Seashore merely remained 
essentially the same, with 45 breeding pairs in 2007 and approximately 
45-46 breeding pairs in 2008.
                                 ______
                                 
 Responses of Joel Holtrop to Questions From Senator Wyden, on S. 3148

    Question 1. The Park Service has been proposing expanding the 
boundary of the Oregon Caves Monument since the 1930's, and, as you 
noted in your testimony, the original withdrawal proposal envisioned a 
larger Monument, but in the Forest Service testimony isn't this 
Administration reversing decades of policy by its unprecedented 
criticism of efforts to create an expanded boundary for the Oregon 
Caves monument?
    Answer. The Presidential Proclamation (No. 876, July 12, 1909) 
designating the Oregon Caves National Monument identified an area of 
approximately 480 acres of the Siskiyou National Forest to be managed 
as a national monument. This area was managed initially by the Forest 
Service and since 1933; it has been managed by the National Park 
Service. Since 1933, the Forest Service has worked closely with the 
National Park Service to ensure that management of the surrounding 
national forest lands is compatible with management objectives for the 
monument. Watershed protection, enhanced recreation opportunities, fire 
suppression and hazardous fuels management are some of the more 
important areas in which we have mutual interests with the National 
Park Service.
    In 1985, the National Park Service inquired about the possibility 
of transferring the management and operations responsibilities for the 
Oregon Caves National Monument to the Siskiyou National Forest. At that 
time, a joint team of both agencies addressed the issues. Following 
those discussions, the National Park Service reorganized to have the 
Oregon Caves National Monument manager report to the manager at Crater 
Lake National Park.
    Forest Service staff provided comments on the draft environmental 
impact statement associated with 1998 Oregon Caves Management Plan that 
recommended enlarging the monument. At that time, staffs from both 
agencies exchanged correspondence and consulted on a number of topics 
related to the monument plan and mutual objectives for managing the 
monument and the surrounding national forest.
    The Forest Service continues to be cooperative with and supportive 
of the Superintendent and staff at the Oregon Caves National Monument. 
The recent Forest Service testimony is aligned with a longstanding 
policy of intergovernmental cooperation, including the agreement and 
conservation policy established January 31, 1963, between the 
Secretaries of the Department of Agriculture (USDA) and the Department 
of Interior (DOI).
    Question 2. The Forest Service was provided an opportunity to 
comment and did in fact provide comments to the 1999 General Management 
Plan. I have reviewed some of the correspondence submitted providing 
those comments and notes of actions the National Park Service undertook 
to be responsive to those comments. Why doesn't that constitute 
adequate interagency consultation?
    Answer. The planning process for the Monument's General Management 
Plan was conducted by the National Park Service. During that process, 
the Forest Service and the National Park Service staffs discussed a 
number of topics related to the proposed management plan. The topic of 
changing lands status to enlarge the monument did not evolve to the 
point where the agencies conducted a joint study with public 
participation to fully consider of the feasibility of transferring 
lands from the Forest Service to the Park Service administration. To 
date, there has been no joint study of this proposal employing a 
process as envisioned and directed by the 1963 agreement between the 
Secretaries of Agriculture and the Interior. If a change to land status 
is to be considered, joint studies, fully open to public participation 
are the rule since the 1963 agreement. Longstanding direction has been 
for mutual support and cooperation in management of lands under each 
jurisdiction. The Forest Service is committed to cooperative and 
mutually supportive management across jurisdictions.
    Question 3. Can you provide a complete file of all comments the 
Forest Service submitted to the National Park Service for the 1998 
General Management Plan?
    Answer. The Forest Service comments on the draft environmental 
impact statement related to the Oregon Caves National Monument General 
Management Plan are attached in Exhibit 1.*
---------------------------------------------------------------------------
    * Exhibits 1-5 have been retained in subcommittee files.
---------------------------------------------------------------------------
    Question 4. Can you provide a complete file of all comments the 
Forest Service submitted to the National Park Service regarding 
transfer of land to the National Park Service?
    Answer. The Forest Service comments regarding proposed boundary 
changes to the Monument are included in the attached Forest Service 
comments on the draft environmental impact statement related to the 
Oregon Caves National Monument General Management Plan. See Exhibit 1.
    Question 5. Can you provide further explanation and documentation 
on the agency policy the Forest Service testimony cites regarding 
unilateral agency proposals?
    Answer. The nearly half-century policy of USDA and DOI to avoid 
unilateral proposals to change the status of lands dates back to a 
joint USDA and DOI letter on ``Jurisdictional Responsibilities in 
Managing Public Recreational Areas'' sent to and endorsed by the 
President on January of 1963. See Exhibit 2.
    Agencies may have different resource and recreation management 
objectives that lead them to emphasize different types of public 
recreation or adapt different techniques for resource protection. When 
one agency develops a management plan solely around its objectives, its 
management activities can disrupt patterns of legitimate recreational 
use, create additional management expenses, and even put certain 
resources at risk by affecting patterns of human use or natural 
processes. The USDA and DOI have long adhered to the 1963 agreement to 
ensure that neither inadvertently interferes with the other's mission 
and objectives for protecting natural resources and providing a wide 
range of recreational opportunities and public uses of federal lands.
    Question 6. Over the years, I have heard a number of examples where 
there has been less than stellar interagency coordination and agreement 
on protecting the monument resources. There are a number of examples I 
have heard, including the Forest Service clear cutting right up to the 
Monument boundary--in the late 1980s a road collapse associated with a 
culvert in a clear-cut in the Lake Creek watershed caused the National 
Park Service to shut down the public water supply because the turbidity 
was so high that they couldn't treat it.
    And it appears there has been a long history of National Park 
Service concern about grazing and in response the Forest Service 
increased the grazing. The Forest Service even closed the gate on the 
park to block access to the forest because of the controversial 
Sugarloaf timber sale.
    These examples seem to illustrate a failure of cooperation and 
protection of the Monument's resources. Can you detail and provide 
evidence of any special measures the US Forest Service has undertaken 
to further protect the natural resources and water supply of the Oregon 
Caves National Monument?
    Answer. Forest Service personnel have worked closely with the 
Oregon Caves National Monument staff on a wide variety of natural 
resource and administrative issues over the years and coordinated on 
activities that have been of mutual interest to the public, the Forest 
Service and the National Park Service.
    There is a Memorandum of Understanding for Fire Suppression and 
Mutual Aid: The Forest Service will aggressively respond to wildfire 
threats with coordinated suppression activities on the Monument. The 
local Forest Service District initial attack forces include two 
suppression engines, an 18 person helitack crew, and a type 2 
helicopter. As needed, air tankers, smokejumpers, and additional fire 
resources are made available including foam capability for structure 
protection. This is especially important due to significant risks 
associated with only one access route to the Monument and a high 
loading of hazardous fuels in this area due to lower than natural fire 
recurrence.
    The Wild Rivers Ranger District stores the Park Service fire 
suppression engine in a covered facility and maintains the Park Service 
suppression engine at no expense during the off-season.
    In support of the Oregon Caves administrative needs, the Forest 
Service has permitted the building of communications equipment and 
facilities on national forest lands to facilitate the operation of the 
Oregon Caves Monument. During the past year, the Forest Service has 
provided the Monument employees unlimited access to the facilities at 
the Wild Rivers District Compound to facilitate phone and communication 
services during a time when the Monument experienced a failure in phone 
and computer services. Office space, computer access, and phone service 
was willingly provided for eight months without any fees being charged.
    No clear cutting has occurred in the vicinity of the Monument 
boundary since the mid 1980's and none are planned. In regards to the 
``late 1980's road collapse associated with a culvert in a clear-cut in 
the Lake Creek watershed,'' there was a culvert failure and subsequent 
road fill slope failure on Forest Service Road 070 in 1997 when severe 
winter storms caused widespread flooding in Southwest Oregon. This 
culvert failure was not associated with a clear-cut, but was, however, 
directly below a high elevation natural meadow. In response to this 
culvert failure, the Forest Service closed and decommissioned a portion 
of this road which is located just outside the Monument's present 
boundary to prevent further risk of road failure and subsequent 
sedimentation. It should be noted that this action was consistent with 
the specific action described in the Oregon Caves National Monument 
General Management Plan (August 1999, page 20, action item 15).
    The National Park Service and the Forest Service have had concerns 
about grazing in the Lake Creek watershed above the Monument's water 
intake. For a variety of natural resource related reasons, the Forest 
Service has reduced the number of permitted cattle in the Big Grayback 
Allotment from 200 head in 1937 to 70 permitted head of cattle in 2008. 
The new Big Grayback Allotment Management Plan that will be implemented 
in 2009 calls for 56 permitted head of cattle for the allotment.
    The current staff on the Rogue River-Siskiyou National Forest is 
not aware of the specific details regarding the gate closure on the 
Monument to prevent access to the Sugarloaf Timber Sale area. However, 
coordination with the Monument staff to close this gate to maintain 
public safety in response to timber sale protest activity would have 
been consistent with Forest Service public safety policies in place at 
that time.
    The Forest Service manages the lands surrounding the Oregon Caves 
National Monument to meet or exceed Oregon surface water standards. The 
Forest Service has undertaken and will continue to undertake a variety 
of special measures to further protect the natural resources and water 
supply of the Oregon Caves National Monument. Current special measures 
include protecting the Oregon Caves National Monument public water 
supply by excluding a 150 foot radius around the water intake from 
livestock grazing, reducing the numbers of permitted livestock use from 
70 head to 56 head, reducing the livestock forage utilization levels in 
areas adjacent to the Oregon Caves National Monument (Bigelow Lakes 
Area), and authorizing the construction of a fence to prevent livestock 
from reaching the Bigelow Lakes area. These specific actions are fully 
described in the Environmental Assessment for the Big Grayback 
Allotment Management Plan (October 2007) and the Decision Notice and 
Finding of No Significant Impact for the Big Grayback Allotment 
Management Plan (February 2008), and will be implemented as soon as a 
final decision is made pending resolution of an appeal by the permit 
holder. These documents can be accessed at the following internet site: 
www.fs.fed.us/r6/rogue-siskiyou/projects/planning/big-grayback-
ea.shtml.
    In addition, the Forest Service will continue to maintain the 
closure of Forest Service Road 070 consistent with the Oregon Caves 
National Monument General Management Plan (August 1999).
    Question 7. Can you provide me a copy of all the correspondence 
between the National Park Service and the Forest Service regarding the 
potential contamination of the Caves' drinking water supply from 
grazing?
    Answer. Enclosed in Exhibit 3 is official correspondence between 
the National Park Service and the Forest Service regarding the 
potential contamination of the Oregon Caves National Monument drinking 
water supply from grazing. The Forest Service manages the watershed to 
meet in-stream state water quality standards. The Monument has obtained 
permits from the State of Oregon granting approval for appropriation of 
surface water through construction of the diversion on Lake Creek for 
purposes of ``domestic, hotel, and fire protection'' and is responsible 
for treating the water to state drinking water standards.
    Question 8. Can you please provide notices of violations issued on 
the Big Grayback Allotment?
    Answer. Attached are notices of violations and related documents 
correspondence on the Big Grayback Allotment. Please see Exhibit 4.
    Question 9. Can you please provide the Resource Management Plan 
direction on grazing in Research Natural Areas and Botanical Areas in 
the Big Grayback Allotment
    Answer. The Big Grayback allotment on the Rogue River-Siskiyou 
National Forest encompasses portions of the former Rogue River and 
Siskiyou National Forests. Prior to consolidation, both the Rogue River 
and Siskiyou National Forest completed their respective Land and 
Resource Management Plans. These plans provide the following direction 
for range management in Research Natural Areas and Botanical Areas:
Siskiyou National Forest Land and Resource Management Direction for 
        Range Management in Research Natural Areas
          There are no Research Natural Areas within that portion of 
        the Big Grayback Allotment located on the former Siskiyou 
        National Forest.
Siskiyou National Forest Land and Resource Management Direction for 
        Range Management in Botanical Areas
          1. Livestock grazing shall be prohibited in Botanical Areas, 
        except where such use is part of an existing allotment. Bigelow 
        Lakes is the only recommended Botanical Area with an existing 
        grazing allotment (Big Grayback Allotment, administered by the 
        Applegate Ranger District of the Rogue River National Forest.) 
        Cattle shall be prevented from reaching the Lakes area by a 
        drift fence. The effects of grazing in the Bigelow Lakes basin 
        shall be monitored and corrective action taken as necessary.
Rogue River National Forest Land and Resource Management Direction for 
        Range Management in Research Natural Areas
          1. Grazing may be allowed when the Director of the Forest and 
        Range Experiment Station authorizes such a management practice 
        as essential to maintain a specific vegetation type.
          2. Where Research Natural Areas are located adjacent to or 
        within grazing allotments, the boundaries will be marked and 
        physical barriers constructed around the area to prohibit 
        livestock entry, if needed.
          3. Write range allotment plans to reflect management 
        direction for all lands within the allotment boundary. 
        Allotment planning procedures are documented in FSM 2210.
          4. Develop Coordinated Resource Management Plans where 
        possible and feasible to facilitate integrated resource 
        management of range arid other resources, and between agencies, 
        permittees and offer other landowners.
Rogue River National Forest Land and Resource Management Direction for 
        Range Management in Botanical Areas
          1. Livestock grazing will be controlled in order to benefit 
        or maintain the botanical resource. This control can range from 
        limited or no livestock grazing to seasonal adjustments to 
        benefit target species. Forage utilization standards will be 
        based on this direction.
          2. Range improvements and vegetative manipulation will not be 
        permitted unless they will benefit the botanical resource. No 
        exotic species will be seeded or placed in botanical areas.
          3. Provide fences and stock control devices when necessary to 
        protect resource.
          4. Provide annual permittee plans for livestock distribution 
        and use patterns which reflect management direction.
          5. Write range allotment plans to reflect management 
        direction for all lands within the allotment boundary. 
        Allotment planning procedures are documented in FSM 2210.
          6. Develop Coordinated Resource Management Plans where 
        possible and feasible to facilitate integrated resource 
        management of range and other resources, and between agencies, 
        permittees and other landowners.

    All current grazing management on the Big Grayback Allotment 
conforms to this Land and Resource Management Plan direction. New 
grazing management as described in the Environmental Assessment, 
Decision Notice and Finding of No Significant Impact for the Big 
Grayback Allotment Management Plan Update will also conform to this 
Land and Resource Management Plan direction.
    Question 10. Forest Service testimony cites concerns about fuel 
management and forest restoration, but my bill specifically includes 
language providing for forest management and the recent fires have 
illustrated the Park Service's capabilities in managing for fire. What 
are the specific concerns about the National Park Service's ability to 
perform fuel treatments and forest restoration?
    Answer. The forest restoration and fuel treatment activities 
referenced in the Forest Service testimony that are planned for the 
4,070 acres identified in S. 3148 are the result of a well-coordinated, 
multiyear planning effort involving local communities, governments, and 
interest groups as well as interagency coordination. As a result of 
these investments in planning and public involvement, the Rogue River-
Siskiyou National Forest is now positioned to implement work that will 
achieve the forest restoration aims of S. 3148 as described in Section 
6(b).
    We fully support the need to conduct ecological forest restoration 
activities within the 4,070 acres identified in S. 3148 and believe 
that these fuel treatment and forest restoration activities can move 
forward in the most expedient fashion if these lands are maintained 
within the National Forest System. The longstanding involvement and 
familiarity of Forest Service personnel working on the forest and 
within the Pacific Northwest Region will ensure that the recreational 
values associated with these lands are provided for and ecological 
forest restoration goals are achieved in an efficient and effective 
manner.
    Question 11. You discussed in your testimony that you have planned 
restoration and fuels reduction projects. Can you tell us what the 
priority of those thinning projects in the Rogue River Siskiyou 
National Forest is, what percentage of those projects has been 
completed and whether all funding has been secured to complete those 
projects?
    Answer. The Forest Service has placed the highest priority on the 
restoration and fuels reduction projects planned for this area because 
they are within the wildland urban interface (WUI) and adjacent to the 
Oregon Caves National Monument. They are the highest priority for 
treatment on the Wild Rivers Ranger District as evidenced by the 
completion of NEPA planning efforts and ongoing implementation.
    Approximately 142 acres have already been implemented. An 
additional 236 acres have NEPA planning completed with expectations of 
field implementation within the next five years (funding dependent); 
and 1550 more acres are planned for NEPA and field implementation over 
the next five or more years. These projects are thinning in lands 
clear-cut over 30 years ago. These are stewardship projects, and the 
proceeds will help fund additional fuel reduction efforts.
    Question 12. Can you identify where significant amount of hunting 
occurs with in the lands proposed for transfer to the National Park 
Service?
    Answer. The proposed expansion area is a favorite location for many 
local hunters and is traditionally used as a primary hunting 
opportunity for black-tailed deer and black bear. Hunting is generally 
dispersed throughout the proposed expansion area with concentrated use 
occurring along open ridge tops, meadows, and other unique wildlife 
habitat features. In addition, hunting is also concentrated in areas 
that are accessible by hiking along trails and roadways that are no 
longer open to motorized vehicles.
    Question 13. Could you produce a map delineating these principal 
areas where hunting is more concentrated and where users would be most 
impacted?
    Answer. Yes, the Forest Service can provide a fairly accurate map 
of these features, as indicators of areas where hunting would likely be 
more concentrated using our GIS capabilities together with aerial 
photographs, and local expertise within 7-10 days of a request.
    Question 14 Is the 1907 withdrawal of Monument lands still in 
effect? Can you please provide a copy of the withdrawal document with a 
citation of where to locate it? Can you provide a map indicating the 
extent of the withdrawal?
    Answer. The Monument was withdrawn in 1907 by Secretarial Order, 
and then by Presidential Proclamation 876 of July 12, 1909, under the 
authority of the Antiquities Act. A copy of the proclamation and 
associated plat is in the attached Exhibit 5.
    A ``buffer'' was withdrawn on 12/3/1963 by administrative 
withdrawal, which is still in effect (based on the Master Title Plat). 
It can be found on Public Land Order 3286, which gives a Federal 
Register citation of 28 FR 13308 (which was corrected by 29 FR 3010) 
Link to the Master Title Plat: http://www.blm.gov/or/landrecords/or/
400s060wm01.pdf.
    Link to the Historical Index lists all land actions by the Federal 
Government for Township 40 South, Range 6 West, containing the 
Monument: http://www.blm.gov/or/landrecords/or/400s060whwd.pdf.

        Responses of Joel Holtrop to Questions From Senator Burr

    Question 15. How much of the expansion area is currently covered by 
grazing permits, how many permit-holders are involved, and how many 
AUMs are involved?
    Answer. The proposed expansion area would include approximately 
1,263 acres of the Big Grayback Allotment that is currently under a 
grazing permit. There is one permit holder and the current permitted 
cattle use on the Big Grayback Allotment is 70 head between June 1 and 
September 30 for a total of 280 animal use months (AUMs) authorized for 
the entire Big Grayback Allotment. The new Big Grayback Allotment 
Management Plan that will be implemented in 2009 calls for 56 permitted 
head of cattle for the allotment.
    Question 16. How do the procedures for managing grazing on US 
Forest Service land differ from the procedures on National Park Service 
land?
    Answer. Pursuant to regulations issued by the Secretary of 
Agriculture, the Chief of the Forest Service is authorized to develop, 
administer, and protect range resources, and permit and regulate 
grazing use of all kinds and classes of livestock on all National 
Forest System (NFS) lands and on other lands under Forest Service 
control. This authority extends to the national forests, national 
grasslands, and other lands administered by the Forest Service through 
lease, agreement, waiver or otherwise.
    We defer to the Department of the Interior to provide specifics, 
but it is our understanding that National Park Service policies 
prohibit grazing except 1) as specifically authorized by statute; or 2) 
as required by a reservation of use right arising from the acquisition 
of a tract of land; or 3) as required in order to maintain a historical 
scene; or 4) as carried out as part of a living exhibit or interpretive 
demonstration; or 5) used to achieve resource conditions as part of a 
management plan. Grazing is only allowed where it does not cause 
unacceptable impacts on park resources and values.
    The following information details the Statutory Authorities, 
Regulatory Authorities, Secretary of Agriculture Administrative Orders, 
Forest Service Policy for Range Management on National Forest System 
Lands AND Forest Service Objectives for Range Management on National 
Forest System Lands.

                              AUTHORITIES

Statutory Authorities
    Authority to protect, manage, and administer the National Forest 
System, and other lands under Forest Service administration for range 
management purposes, emanates from the following acts:

          1. Organic Administration Act of June 4, 1897 (Ch. 2, 30 
        Stat. 34, as amended; 16 U.S.C. 551).
          2. Bankhead-Jones Farm Tenant Act, Title III, of July 22, 
        1937, Sections 31-33 (Ch. 517, 50 Stat. 525, as amended; 7 
        U.S.C. 1010-1012).
          3. Granger-Thye Act of April 24, 1950, Sections 1,5, 7. 11, 
        12, 18, 19, (Ch. 97, 64 Stat. 82; 16 U.S.C. 571c; 16 U.S.C. 
        572; 16 U.S.C. 580d; 16 U.S.C. 580g; 580h; 16 U.S.C. 580k; 16 
        U.S.C. 580).
          4. Multiple Use-Sustained Yield Act of June 12, 1960 (P.L. 
        86-517, 74 Stat. 215, 16 U.S.C. 528-531).
          5. Wilderness Act of September 3, 1964, Section 4 (P.L. 88-
        577, 78 Stat. 890; 16 U.S.C. 1133).
          6. National Environmental Policy Act of January 1, 1970 (P.L. 
        91-190, 83 Stat. 852; 42 U.S.C. 4321 (note), 4321, 4331-4335, 
        4341-4347).
          7. Wild Horses and Burros Protection Act of December 15, 1971 
        (P.L. 92-195, 85 Stat. 649, as amended; 16 U.S.C. 1331-1340).
          8. Forest and Rangeland Renewable Resources Planning Act of 
        August 17, 1974 (P.L. 93-378, 88 Stat. 476, as amended; 16 
        U.S.C. 1601 (note), 1600-1614).
          9. National Forest Management Act of October 22, 1976 (P.L. 
        94-588, 90 Stat. 2949, as amended; 16 U.S.C. 472a, 476, 500, 
        513-516, 518, 521b, 528 (note), 576b, 594-2 (note), 1600 
        (note), 1601 (note), 1600-1602, 1604, 1606, 1608-1614).
          10. Federal Land Policy and Management Act of October 21, 
        1976, Sections 206, 310, 401, 402, 403, 404, (P.L. 94-579, 90 
        Stat. 2743, as amended; 43 U.S.C. 1716; 43 U.S.C. 1740; 43 
        U.S.C. 1751; 43 U.S.C. 1752; 43 U.S.C. 1753).
          11. Public Rangelands Improvement Act of October 25, 1978 (92 
        Stat. 1803, 43 U.S.C. 1752-1753, 1901-1908).
Regulatory Authorities
    Regulations relating to the range program which confer authority to 
the Chief Forest Service are:

          1. Grazing and Livestock Use on the National Forest System, 
        36 CFR Part 222, Subpart A.
          2. Management of Wild Free-Roaming Horses and Burros, 36 CFR 
        Part 222, Subpart B.
          3. Grazing Fees, 36 CFR Part 222, Subpart C.
          4. Administration of Lands Under Title III of the Bankhead-
        Jones Farm Tenant Act by the Forest Service 36 CFR 213.
          5. General Prohibition, 36 CFR 261, Subpart A.
          6. Administrative Review Procedures, 36 CFR 251.80, Subpart 
        C.
          7. Wilderness-Primitive Areas, 36 CFR 292.7.
Secretary of Agriculture Administrative Orders
    The Secretary of Agriculture sets forth responsibilities mandated 
by statutory authority through Departmental regulations and 
memorandums. Policy relating to range resources and coordination of 
range activities of the USDA agencies and other executive agencies, 
organizations, and individuals is included in the following:

          1. Secretary's Administrative Order of August 1963, 
        Administration of Lands Under Title III of the Bankhead-Jones 
        Farm Tenant Act; Establishment of National Grasslands.
          2. Departmental Regulation, Number 9500-5, dated April 21, 
        1988; Subject: Policy on Range.

                                 POLICY

National Forest System
    Basic policies for range management on National Forests and 
National Grasslands are to:

          1. Use appropriate methods, such as grazing use by livestock 
        or wild ungulates, prescribed fire, and mechanical or chemical 
        treatments, for managing range vegetation.
          2. Identify and inventory range resource values, including 
        riparian, upland, and other critical areas to determine which 
        areas meet or do not meet Forest land and resource management 
        plan objectives.
          3. Implement and monitor measures to restore and enhance 
        plant diversity and productivity, water quality, and soil 
        stability.
          4. Enhance or maintain the habitat of threatened, endangered 
        or sensitive species of plants and animals.
          5. Determine suitability and potential capability for 
        producing forage for grazing and browsing animals and for 
        maintaining and enhancing habitat for fish and wildlife 
        Management Indicator Species.
          6. Consistent with Forest land and resource management plans, 
        make forage available to qualified livestock operators from 
        lands that are suitable for livestock grazing.
          7. Issue term permits, generally for ten-year periods with 
        appropriate terms and conditions, to allow use of range 
        vegetation and promote stability for livestock enterprises.
          8. Coordinate, cooperate and consult with grazing permittees 
        and grazing associations, and other interested parties in the 
        development of allotment management plans.
          9. Emphasize permittee and association responsibility and 
        accountability for meeting terms and conditions of permits, 
        allotment management plans, and annual operating instructions.
          10. Recover administrative costs of permit transactions 
        initiated by the permittee.
          11. Manage wild free-roaming horse and burro populations in a 
        thriving ecological balance within established territories.
          12. Manage noxious weeds, using integrated pest management 
        techniques in close coordination and cooperation with adjacent 
        landowners and agencies.
          13. Use cost effectiveness in range vegetation management.
          14. Optimize involvement of expertise within the Forest 
        Service, from other agencies, organizations, permittees, and 
        others in range vegetation management.
          15. Integrate range management and resolve oonflicts through 
        Coordinated Resource Management by promoting voluntary 
        cooperation among agencies, groups and individuals responsible 
        for range resources on other land ownerships (FSM 1531.12e).

                               OBJECTIVES

National Forest System
    Objectives of the range management program for the National Forests 
and National Grasslands are:

          1. To manage range vegetation to protect basic soil and water 
        resources, provide for ecological diversity, improve or 
        maintain environmental quality, and meet public needs for 
        interrelated resource uses.
          2. To integrate management of range vegetation with other 
        resource programs to achieve multiple use objectives contained 
        in Forest land and resource management plans.
          3. To provide for livestock forage, wildlife food and 
        habitat, outdoor recreation, and other resource values 
        dependent on range vegetation.
          4. To contribute to the economic and social well being of 
        people by providing opportunities for economic diversity and by 
        promoting stability for communities that depends on range 
        resources for their livelihood.
          5. To provide expertise on range ecology, botany, and 
        management of grazing animals.

    Question 17. Is anyone interested in acquiring the grazing permits 
and how long will the transaction take to complete?
    Answer. We have not asked for applications, so we know of no other 
entity that meets the meet minimum qualification for base property and 
livestock ownership.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Marc Basnight, State Senator, Raleigh, NC, on S. 3113

    Mr. Chairman and Committee Members, thank you for this opportunity 
to submit a statement in support of S. 3113, introduced by Senators 
Dole and Burr: To reinstate the Interim Management Strategy governing 
off-road vehicle use in the Cape Hatteras National Seashore, North 
Carolina, pending the issuance of a final rule for off-road vehicle use 
by the National Park Service.
    My name is Marc Basnight, and I serve as President Pro Tempore of 
the North Carolina Senate. Since 1984 I have had the honor of 
representing State Senate District 1, which covers North Carolina's 
northeastern region and the Outer Banks including the Cape Hatteras 
National Seashore. I appreciate this opportunity to share the concerns 
of the people I am honored to represent in the Senate, and to speak in 
support of this legislative effort to protect what has been a focal 
point of our community's culture, economy and coastal heritage for 
generations.
    Back in the late 1930s, when the federal government was creating 
the recreational Seashore, Outer Banks residents and visitors were 
deeply concerned that government involvement would interfere with the 
public's enjoyment of and access to the beaches of Hatteras and 
Ocracoke Islands. It was an incredible relief that the Park Service and 
the Department of the Interior were willing to work so closely and 
cooperatively with the local community to address these concerns at 
that time--and ever since.
    And it is both ironic and disheartening that the concerns and fears 
expressed half a century ago now have come true because of intervention 
from the judicial branch. The federal Consent Decree issued on April 
30, 2008, is effectively breaking the Park Service's 1952 promise that 
``. . . there will always be access to the beach for all people, 
whether they are local residents or visitors from the outside.'' This 
legislation will restore that promise and put the management of the 
Cape Hatteras National Seashore back in the hands of the Park Service, 
which has worked so diligently and judiciously over the years to 
protect sensitive species while preserving beach access.
    Beach driving and surf fishing are beloved local traditions and 
recreational opportunities that help people truly appreciate--and in 
turn, work to protect--our natural resources. The people who use this 
resource, in fact, are among our most conscientious stewards of the 
environment. In fact, outstanding beach access is a primary reason 
visitors choose to visit Hatteras. They come back year after year with 
their families to enjoy this unique opportunity and to teach their 
children the importance of caring for the environment.
    With the Consent Decree in place, visitors don't know when and 
where they'll have access to the beach with their vehicle. While online 
sites provide some guidance, these closure areas are large and can 
change with little notice. Visitors worry that the fishing spot they 
have visited for the past 20 years will not be accessible, even if it 
was the day before. The economies of Hatteras and Ocracoke depend 
heavily upon fishing and tourism, and losing access to some of the 
nation's most premier surf-fishing spots has proven to be a devastating 
blow to our local community and economy--and to the prestige that Cape 
Hatteras gives North Carolina as a world-renowned destination for 
fishing and recreation. According to the Outer Banks Visitors Bureau, 
year-to-date meal and beverage receipts on Hatteras Island for 2008 are 
down 7 percent from last year during the same time period. Visitation 
to one of the Seashore's top attractions, the Cape Hatteras Lighthouse, 
saw a 15 percent drop in visits for April through June. The small 
businesses and families whose livelihoods depend on visitors are 
reeling from the effects of the Consent Decree. I expect that our 
state's overall economy will also feel some effects as well: Dare 
County generates more tourism dollars per capita than any other county 
in North Carolina.
    Under circumstances defined in the Consent Decree, areas of 
Hatteras could be closed to ORV use for 1,000 meters on either side of 
a nest, which is 3,280 feet in two directions or over 1.2 miles. This 
is especially disconcerting when you consider that the Seashore is only 
200 feet wide in some spots. Hatteras residents and visitors treasure 
this seashore and want to protect it because we have given them the 
privilege to experience it in a way they cannot experience other 
beaches. Before the Consent Decree, the Seashore has been managed by 
the National Park Service in a manner consistent with its mission, and 
should continue to be managed in that manner. The mission of the 
National Park Service is ``to promote and regulate the use of the 
national parks which purpose is to conserve the scenery and the natural 
and historic objects and the wild life therein and to provide for the 
enjoyment of the same in such manner and by such means as will leave 
them unimpaired or the enjoyment of future generations.''
    Part of our National Park Service's mission is to be ``guardian of 
our diverse cultural and recreational resources.'' Several of the 
Guiding Principles of the National Park Service also speak to their 
duty to protect ORV use on the Seashore:

  <bullet> Productive Partnerships: Collaborating with federal, state, 
        tribal, and local governments, private organizations, and 
        businesses to work toward common goals
  <bullet> Citizen Involvement: Providing opportunities for citizens to 
        participate in the decisions and actions of the National Park 
        Service
  <bullet> Wise Decisions: Integrating social, economic, environmental, 
        and ethical considerations into the decision-making process.

    Ensuring that residents and visitors to Cape Hatteras National 
Seashore can enjoy the traditional uses of the area is the duty of the 
Park Service, not the court system. Beach access has always included 
vehicles--in fact, before we had roads built in the Outer Banks, the 
beaches were our roads. In 1952 the Park Service stated a clear intent 
to continue to allow vehicle access in the Seashore, specifically 
noting that ``it will be necessary to establish certain regulations, 
such as to designate places for vehicles to get to the beach, in order 
to reduce sand dune erosion to a minimum . . .'' Anyone who knows the 
Outer Banks knows that beach driving has always been part of our way of 
life.
    The National Park Service's Interim Management Plan, developed with 
public input unlike the Consent Decree, is a balanced and sensible 
management plan based on the best science available. This plan will 
ensure reasonable ORV access that does not threaten delicate the 
nesting habitat of shorebirds and turtles--and will provide the best 
balance between man and nature until the National Park Service adopts 
final rules for the Seashore.
    This legislation will restore the Park Service to its proper role 
in managing the Seashore and keep the federal government's promise to 
the people. On behalf of the countless visitors who enjoy our beaches, 
on behalf of the local businesses that are struggling so mightily to 
survive, on behalf of the conservationists who believe that to truly 
appreciate our natural resources you must have access to them, and on 
behalf of the people of the Outer Banks and North Carolina, I ask for 
your support of S. 3113.
    I would like to express my appreciation to Senators Dole and Burr--
along with Congressman Jones in the House--for introducing this 
important legislation, and to you, Mr. Chairman and all the committee 
members, for giving this matter the consideration it is rightfully due. 
Thank you so very much for allowing me to share my thoughts with you, 
and for all you do in your service to our great nation.
                                 ______
                                 
Statement of Phil Krouse, Rancher, Krouse Ranch Inc., Southern Oregon, 
                               on S. 3148

    Chairman Akaka, Ranking member Burr, Members of the Subcommittee on 
National Parks, my name is Phil Krouse and I am a rancher in Southern 
Oregon. I would like to share my views regarding S. 3148, The Oregon 
Caves Monument Boundary Adjustment Act of 2008. I appreciate the 
Subcommittee allowing me to submit this statement for the record. The 
legislation before you today affects my family greatly. The grazing 
allotments in question, the Big Grayback Allotment in the Rogue River-
Siskiyou National forest and the Billy Mountain Grazing Allotment 
managed by the Bureau of Land Management have been in my family for 
over 70 years.
    I grew up on these ranges and alongside my grandparents and parents 
participated in something you only see in movies now days-cattle 
drives. In the process I grew to love these mountains and meadows. The 
names of ranchers who grazed cattle on these ranges: Oz Bigelow, Ed 
Kubli, Chester York, Orr Brown, Arian Christiansen, and Mack McCarty 
read like a history book of this southern Oregon region. Oz Bigelow 
(Bigelow Lakes namesake) ran 800 head of cattle in this allotment that 
we now run 70. Over the years we have voluntarily decreased grazing 
herd size from our original permit of 200 head to the current 70.
    In 1945 my grandfather Albert Krouse, my dad Francis Krouse, and 
five other men from the ranching community of Applegate, Oregon built 
the Krouse cabin at the bottom of the alpine glade on Grayback 
Mountain. The cabin was their only shelter while gathering and 
corralling the cattle. Not only did my family and I spend many happy 
days and nights in that cabin but countless hikers, and nature 
enthusiasts had the opportunity to enjoy this gem of Grayback; until it 
was accidentally burned down in 2001.
    I have been lucky enough to have shared these ranges not only with 
previous generations of ranchers and family but also my son, two 
daughters and now my grandchildren.
    The loss of these allotments will be detrimental to the operation 
of our ranch. We will no longer be able to have reprieve on the ranch 
land in order to grow hay therefore it will not be cost effective for 
ranch operations to continue to raise cattle on this scale. Cattle 
ranching has been the only income this ranch has had for the past 5 
generations. This loss would force us into unknown financial endeavors; 
as a result this could mean the loss of our financial security, and way 
of life.
    While I am willing to donate my grazing leases to the Federal 
Government in the best interest of the expansion of the Oregon Caves 
Monument, for the sake of my family and future generations, I must make 
sure that I am fairly compensated before I hand them over. I understand 
that federal dollars are not available for grazing buyouts, but I am 
aware that private buyouts are acceptable. I do, however, want to be 
sure that I am allowed to freely graze livestock on these allotments 
until I am ready to accept any deal from a private group that wants to 
buy me out. I am also aware that the regulations for grazing on 
National Park Service are a lot more stringent than what I have been 
working with on Forest Service (FS) and Bureau of Land Management (BLM) 
land. I would ask the Committee to protect me until I am ready to 
donate my leases and that the current FS and BLM grazing regulations 
continue to apply to my allotments.
    I would like to close with some personal observations. For many 
people this buyout may seem to be about money, but I see it 
differently. To me and many other ranchers in the west, this is about 
preserving a way of life for future generations. I know that there has 
been and will continue to be many efforts to remove livestock from 
federal lands across the West. I urge the Committee to remember one 
simple thing. These Allotments help build rural communities and are 
part of the fabric of rural America. Farmers and ranchers are not the 
villains they are sometimes portrayed as being and they take great 
pride in producing the safest food supply in the world for Americans 
and many others around the globe. I urge you to be aware of this as you 
look at further buyouts of ranchers across the west, knowing that the 
retirement of these leases means less food being produced domestically 
and further reliance on imported food. We can't allow our food supply 
to become like our energy supply. Our fellow Americans deserve better.
    I thank the Subcommittee for its consideration of my comments and I 
look forward to working with you.
                                 ______
                                 
 Statement of Derb S. Carter, Jr., Southern Environmental Law Center, 
                               on S. 3113

    This supplemental testimony is submitted on behalf of the National 
Audubon Society, Defenders of Wildlife, The Wilderness Society, and the 
Southern Environmental Law Center, in order to supplement our testimony 
provided prior to the National Park Subcommittee hearing on July 30, 
2008.
    Because the Consent Decree was agreed to by all parties to the 
lawsuit in which it was entered, and because it provides overdue 
protection of the natural resources of Cape Hatteras National Seashore 
and allows for appropriately managed off-road vehicle (``ORV'') use, we 
oppose Senate Bill 3113, legislation that would overrule the Consent 
Decree and mandate a return to management practices that were resulting 
in declines and disappearance of wildlife from the Seashore.

                            ADDITIONAL DATA

    Since the National Park Subcommittee's July 30, 2008, hearing, 
various government entities have released additional data that supports 
the Consent Decree and militates against passage of Senate Bill 3113.
Effects of the Consent Decree on Wildlife at the Seashore
    We previously reported that the number of successful sea turtle 
nesting attempts had increased to 92 as of July 24, 2008, up from 82 
during all of 2007. As of August 6, there have now been 101 
successfully laid sea turtle nests, tying the all-time high for at 
least the last 14 years.\1\ As over two weeks are left in the nesting 
season, it is highly likely this year will set a new record for turtle 
nests.
---------------------------------------------------------------------------
    \1\ The previous record was 101 in 2001. UNITED STATES GEOLOGICAL 
SURVEY, MANAGEMENT AND PROTECTION PROTOCOLS FOR NESTING SEA TURTLES AT 
CAPE HATTERAS NATIONAL SEASHORE, NORTH CAROLINA, 38 (2005). See also 
OUTER BANKS GROUP, NATIONAL PARK SERVICE RESOURCE MANAGEMENT WEEKLY 
FIELD SUMMARY REPORT FOR AUGUST 6, 2008 at 2 (2008).
---------------------------------------------------------------------------
    Likewise, the number of fledged American oystercatcher chicks at 
the Seashore beaches has increased to 13 so far in 2008, up from 10 
fledged chicks in all of 2007, and there are two chicks remaining which 
have yet to fledge.\2\
---------------------------------------------------------------------------
    \2\ OUTER BANKS GROUP, NATIONAL PARK SERVICE RESOURCE MANAGEMENT 
WEEKLY FIELD SUMMARY REPORT FOR AUGUST 6, 2008 at 1 (2008). These 
figures exclude Green Island, which is not reachable by ORVs due to its 
location in the sound.
---------------------------------------------------------------------------
    Once again, these preliminary indicators, along with those we 
reported in our initial testimony, show that all species appear to be 
benefiting from the management measures required by the Consent Decree.
Economic Effects of the Consent Decree
    We previously testified that, according to Dare County's Outer 
Banks Visitors Bureau, visitation during May 2008 (the first month of 
the Consent Decree) was 6.31% higher than May 2007.\3\ Dare County's 
Outer Banks Visitors Bureau has now released its latest statistics, and 
the trend has continued. Visitation during June 2008, as measured by 
occupancy of motels, cottages, and other accommodations, was 7.32% 
higher than in June 2007.\4\ This continued increase in visitation 
occurred despite a still sagging economy and unrelenting high gas 
prices. Allen Burrus, Vice Chair of the Dare County Board of 
Commissioners, reports that his ``small mom-and-pop grocery store'' is 
``doing well'' and that ``[b]usiness is up.''\5\ Accordingly, the 
Consent Decree still appears to have little to no measured ill effect 
on local tourism.
---------------------------------------------------------------------------
    \3\ OUTER BANKS VISITORS BUREAU, GROSS OCCUPANCY SUMMARY 1994-2007, 
www.outerbanks.org/pdf/Gross_Occupancy_Summary_receipts.pdf.
    \4\ Id.
    \5\ Ryan Hutchins, Outer Banks' tourism up in June despite economy, 
VIRGINIAN-PILOT, Aug. 4, 2008, available at http://hamptonroads.com/
2008/08/outer-banks-tourism-june-despite-economy.
---------------------------------------------------------------------------
Effects of the Consent Decree on Visitors to the Seashore
    We previously reported that, of Cape Hatteras National Seashore's 
67 miles of beaches, only 9.1 were closed to protect wildlife under the 
terms of the Consent Decree as of July 24, 2008; all other beach 
closures are the result of the usual seasonal and safety closures, 
unrelated to the Consent Decree or wildlife protection. As of August 7, 
2008, the number of miles closed for wildlife protection has decreased 
to 7.9 miles under the Consent Decree, as bird chicks have fledged and 
turtle nests have hatched.\6\
---------------------------------------------------------------------------
    \6\ OUTER BANKS GROUP, NATIONAL PARK SERVICE BEACH ACCESS REPORT 
FOR AUGUST 7, 2008 (2008).
---------------------------------------------------------------------------
    In addition, even more of the current amount of beach closures has 
been caused by vandalism of fencing and other wildlife protection 
measures. There have now been six incidents of vandalism (up from the 
four incidents reported prior to the Subcommittee hearing); the first 
violation in an area results in a 50 meter increase in the size of a 
buffer and the second violation in the same area results in a 100-meter 
increase.\7\
---------------------------------------------------------------------------
    \7\ Press Release, Outer Banks Group, A Sixth Deliberate Violation 
of Resource Protection Area (July 31, 2008), at http://www.nps.gov/
caha/parknews/a-sixth-deliberate-violation-of-resource-protection-
area.htm.
---------------------------------------------------------------------------
Response to Warren Judge's Testimony
    The parties to the Consent Decree--and the lawsuit in which it was 
entered--are Dare County, Hyde County, Cape Hatteras Access 
Preservation Alliance (``CHAPA''), the National Park Service, the 
Department of the Interior, the National Audubon Society, and Defenders 
of Wildlife. CHAPA is an umbrella organization that includes the Outer 
Banks Preservation Association, the Cape Hatteras Anglers Club, and the 
North Carolina Beach Buggy Association.\8\ Contrary to Mr. Judge's 
testimony that implied to the contrary, all parties in the lawsuit 
participated in the negotiations, supported the Consent Decree, and 
recommended that the court approve it on April 30, 2008.
---------------------------------------------------------------------------
    \8\ Cape Hatteras Access Preservation Association website, http://
capehatterasapa.org/.
---------------------------------------------------------------------------
    In response to Chairman Akaka's question regarding how Dare County 
could justify supporting legislation to overturn the Consent Decree 
after agreeing to it, Dare County Commissioner Warren Judge testified 
to the Subcommittee that his county was ``not a player at [the 
negotiating] table until a hearing on April 4 in U.S District Court,'' 
and that ``it was even later than that when they finally invited us to 
the table--not to negotiate, to tell us--to tell us what it was going 
to be. We had our county attorney and assistant county manager in 
Raleigh at the negotiations and they sent him home. After we released a 
press release, telling that the negotiations had broken off, it was 
only then that they called us back. It was 4:30 one afternoon that they 
gave us an ultimatum and that ultimatum was either accept this by 5:00 
or we will go forward into court and the--the--the threat to Dare 
County was that the seashore would be closed down completely until 
negotiated rulemaking ran its course.'' He concluded by stating that 
``Yes, we signed the document. We signed it under great duress'' and by 
making the unsubstantiated claim that the county would suffer 
``economic[] devastati[on]'' due to complete beach closures if it had 
not agreed to the Consent Decree.\9\
---------------------------------------------------------------------------
    \9\ Hearing on S. 3113 Before the Senate Committee on Energy and 
Natural Resources, Subcommittee on National Parks, 110th Cong. (2008) 
(oral statement of Warren Judge, County Commissioner for Dare County, 
North Carolina)
---------------------------------------------------------------------------
    This testimony was misleading, unsubstantiated, and incorrect. 
First, complete closure of the entire Seashore beach was never demanded 
or threatened by any party to the lawsuit or as part of the 
negotiations that led to the Consent Decree. If Dare County had chosen 
not to join the Consent Decree, the government and environmental groups 
could have moved forward asking the court to accept it. Dare County and 
the other Intervenors could have then objected to the Consent Decree 
and appealed it if it was approved by the court. And even if the other 
parties had not reached an agreement and presented a consent decree to 
the court for approval, the court would have moved on to consider a 
pending motion for preliminary injunction which requested the ORV 
management protocols recommended as ``moderate protections'' by the 
government's scientists at the United States Geological Survey, not 
complete beach closure of the entire Seashore.\10\ In sum, complete 
closure of the beach was not a threatened alternate outcome of the 
lawsuit when Dare County chose to approve the Consent Decree.
---------------------------------------------------------------------------
    \10\ 1Plaintiffs' Motion for Preliminary Injunction, filed on 
January 20, 2008, in Defenders of Wildlife et al. v. National Park 
Service et al., case number 2:07-CV-45-BO (U.S. Dist. Ct. for the 
Eastern Dist. of N.C.).
---------------------------------------------------------------------------
    Moreover, Mr. Judge's assertion that Intervenors were not included 
in negotiations is false. Although Dare County and the other 
Intervenors were asked to submit a settlement proposal and invited to 
actively join the negotiations on numerous occasions beginning when 
their motion to intervene was first granted in December 2007, they, 
through their attorney, initially repeatedly, consistently, and 
affirmatively refused to submit a proposal. Dare County, Hyde County, 
and the CHAPA did receive written settlement proposals from the 
government and/or the environmental groups on or about December 20, 
2007, February 28, 2008, April 2, 2008, and April 11, 2008. They 
commented on those settlement proposals in February, March, and April, 
and finally submitted their own initial settlement proposal on March 
31, 2008.
    The statements of Intervenors' attorney in court acknowledged this 
extensive involvement in settlement negotiations prior to the April 4 
hearing. Contrary to Mr. Judge's testimony that Intervenors were not at 
the negotiating table before the April 4, 2008 hearing with Judge 
Boyle, Intervenors' counsel confirmed at that hearing that they ``have 
been in discussions'' and that there were ``certain areas that we have 
of agreement.''\11\ This statement makes clear that not only were 
Intervenors involved in negotiations prior to April 4, they were in 
agreement on some elements of the negotiations. Moreover, by signing 
the Consent Decree, Dare County and the other Intervenors affirmed that 
it is a ``fair, just, adequate, and equitable resolution'' of the 
lawsuit.\12\ As a result of these contradictions, Mr. Judge's response 
to Sen. Akaka's question cannot be taken at face value.
---------------------------------------------------------------------------
    \11\ Hearing on April 4, 2008, in Defenders of Wildlife et al. v. 
National Park Service et al., case number 2:07-CV-45-BO (U.S. Dist. Ct. 
for the Eastern Dist. of N.C.).
    \12\ Consent Decree at 3.
---------------------------------------------------------------------------
                               CONCLUSION

    In sum, all parties and interests agreed in open court to the terms 
of the Consent Decree augmenting the terms of the ``interim plan'' 
until such time as the National Park Service adopts a final ORV 
management plan, and a federal court approved it. As the statistics 
above and in our original testimony show, the slight increase in the 
portions of the beach that have been closed to ORV use under the 
Consent Decree has had little to no impact on tourism and on the 
numbers of ORVs using the Seashore. At the same time, however, the 
closures appear to have had a strikingly positive effect on the success 
of the endangered, threatened, and sensitive species that live and 
breed at Cape Hatteras. We ask, therefore, that this Committee reject 
Senate Bill 3113 and leave the Consent Decree in place.
                                 ______
                                 
 Statement of Gordon Robertson, Vice President, American Sportfishing 
                       Association, on H.R. 3113

    Thank you for the opportunity to submit written testimony for the 
record regarding S. 3113, to reinstate the Interim Management Strategy 
governing off-road vehicle use in the Cape Hatteras National Seashore, 
North Carolina, pending the issuance of a final rule for off-road 
vehicle use by the National Park Service. The American Sportfishing 
Association (ASA) is the sportfishing industry's trade association, 
committed to representing the interests of the sportfishing industry, 
as well as America's 40 million recreational anglers. ASA also invests 
in long-term ventures to ensure the industry will remain strong and 
prosperous as well as safeguard and promote the enduring social, 
economic, and conservation values of sportfishing in America.
    ASA urges members of the Subcommittee on National Parks and the 
Committee on Energy and Natural Resources to support S. 3113. The 
provisions of the Interim Management Strategy balanced the resource 
protection requirements for wildlife with reasonable access to the 
beaches for pedestrians and off road vehicles. However, the provisions 
of the Consent Decree are resulting in undue harm to the local 
community without any significant added benefits to the wildlife of the 
Seashore.

                               BACKGROUND

    Presidential Executive Order 11644 of 1972 requires federal 
agencies permitting off-road vehicle (ORV) use on agency lands to make 
regulations for such use. However, a long-term ORV management plan was 
never finalized for Cape Hatteras National Seashore Recreational Area 
(CHNSRA), and in late December 2007 the Secretary of Interior Dirk 
Kempthorne approved the creation of a Negotiated Rulemaking Committee 
(Reg-Neg) to facilitate the development of the plan. The Committee 
consists of a variety of stakeholders and user groups of CHNSRA, 
including anglers, local business owners, environmental groups, tourism 
organizations, and homeowners, among others. ASA is also a member of 
the Reg-Neg.
    In addition to the Reg-Neg, on June 13, 2007 the National Park 
Service (NPS) finalized an Interim Protected Species Management 
Strategy (Interim Strategy) to ensure that wildlife within CNHSRA would 
be protected during the creation of a long-term plan. This Strategy was 
developed via an open, public process that included public comment, an 
evaluation under the National Environmental Policy Act (NEPA), and a 
Section 7 Consultation under the Endangered Species Act (ESA).
    It is important to note that the Reg-Neg was ``sold'' to community 
residents as a way to avoid litigation, and ground rules were finalized 
that specifically called for members to negotiate in good faith and to 
``voluntarily curtail using other means to influence the proposed 
regulations.'' All parties negotiated and verbally agreed to these 
rules, including the Southern Environmental Law Center (SELC), National 
Audubon Society (Audubon) and the Defenders of Wildlife (DOW), who all 
hold a seat on the Reg-Neg Committee.
    On February 20, 2008, after a series of court filings, DOW and 
Audubon (Plaintiffs) filed an injunction that would essentially result 
in all ORV access, except for essential NPS vehicles, being prohibited 
on CHNSRA. As a result of this injunction, the Plaintiffs entered into 
negotiations with the Department of the Interior (DOI), to be joined 
later by Dare County as interveners. These negotiations resulted in a 
consent decree that was ultimately approved by Federal District Judge 
Terrence Boyle on April 30, 2008. The details of the Consent Decree are 
extensive and put in place protections for shorebirds that exceed the 
protections outlined in the Interim Strategy. This Consent Decree, 
which will remain in effect for three years until the NPS issues a 
final long-term ORV Management Plan, has resulted in substantial 
restrictions on traditional ORV access to key surf fishing spots in 
CHNSRA and an undue economic burden on the local economy with no 
remarkable added benefit to the local wildlife.

             INTERIM MANAGEMENT STRATEGY VS CONSENT DECREE

    Although the NPS' Interim Strategy was not a final rule, it 
provided stakeholders with all the procedural protections and 
opportunities of a final rule, addressing the requirements of the 
Executive Order and the appropriate regulations. For resource 
protection, these included:

  <bullet> Year-round closure of areas historically occupied by nesting 
        or wintering plovers and that currently include suitable 
        habitat,
  <bullet> Closure (to ORVs as well as to pedestrians and pets) of 
        suitable breeding habitat through the breeding season,
  <bullet> Establishment of a minimum 150-foot buffer around all 
        nesting plovers,
  <bullet> Expansion of closed areas once eggs hatch, and
  <bullet> Monitoring to ensure that new closures are added or expanded 
        as required by bird activity.

    The Interim Strategy also regulated ORV use, addressing the 
requirements of the Executive Order through:

  <bullet> Consolidation and designation of beach access routes
  <bullet> Identification of a permitted ORV travel corridor on the 
        beach
  <bullet> Speed limits and license requirements for vehicle operators
  <bullet> Protection of vegetation and sea turtle and bird nesting 
        areas
  <bullet> Designation of summer seasonal ORV closures in front of 
        villages
  <bullet> Signage to notify visitors of the above

    The development and approval of the Interim Strategy was performed 
via an open, transparent process. As part of its development, the NPS 
conducted a NEPA Review (including an economic analysis), ESA Section 7 
Consultation, and public comment period. The provisions of the Consent 
Decree were never subject to these reviews. There was no opportunity 
for public participation, comment, or input. And more importantly, 
while the provisions of the Consent Decree are based off of management 
protocols developed by the USGS, neither the Consent Decree nor the 
protocols have undergone any sort of evaluation under NEPA. Without 
this evaluation, part of which is to weigh the benefits of resource 
conservation measures with the costs imposed on local communities/
economies, the citizens of CHNSRA have been denied their due public 
process.
    The preliminary injunction filed by the Plaintiffs in early 2008 
states that the Interim Strategy was inadequate. It even went as far as 
to state, ``The first year of the `interim plan,' 2007, was one of the 
worst bird breeding seasons on record.'' However, the Interim Strategy 
was implemented in mid-June, 3 months after the bird breeding season 
began. Therefore, since the Interim Strategy was not in place for a 
complete breeding season, it is not reasonable to place the blame of 
the 2007 breeding season on the Interim Strategy.
    In reality, in the short time that the Interim Strategy was in 
place it did serve to adequately protect the shorebirds and sea turtles 
that breed in CHNSRA. It also served to set a foundation for a 
successful ``pre-nesting'' season in Spring 2008.
    The piping plover, the bird at the heart of this controversy, is 
the only bird found on CHNSRA that is listed as federally threatened. 
North Carolina is positioned in the species' range such it is at the 
southern tip of the plover's breeding range and the northern tip of 
their wintering range. Therefore, the piping plover never was and never 
will be abundant in CHNSRA.
    Also, the piping plover population on CHNSRA has always been 
dependent on weather--specifically hurricanes--and predation. According 
to NPS and FWS reports,\1\ the recent dramatic decline in the number of 
breeding pairs of piping plovers in CHNSRA is due to eight hurricanes 
that hit the Outer Banks of North Carolina in nine years. In 1996, 
there were 14 breeding pairs; in 2004 there were three. However, no 
hurricanes have hit the Outer Banks since 2004 and the number of 
breeding pairs has slowly risen to six in 2007. Predators such as 
seagulls, crows, raccoons, and foxes also contribute to nest failure 
and juvenile mortality, since eggs and unfledged chicks are easy prey 
and a typical part of their diets. In 2008, the only juvenile plover 
mortality caused by human influences was during an NPS banding 
exercise.
---------------------------------------------------------------------------
    \1\ Annual Fish and Wildlife Service Piping Plover Status Updates, 
Cape Hatteras National Seashore Annual Resource Management Reports, and 
Cape Hatteras National Seashore Resource Management Weekly Field 
Summaries.
---------------------------------------------------------------------------
    In addition, due to the pre-nesting closures that were called for 
in the Interim Strategy and were put into place in March 2008, the 
foundation was set for the piping plovers to have a successful breeding 
season in 2008. In mid-July, the NPS determined that there have been 11 
breeding pairs in the Seashore this year--one of the most successful 
years in 20 years. However, this success is due to the pre-nesting 
closures of the Interim Strategy, not the provisions of the Consent 
Decree, which was not signed until after the breeding birds were on the 
Seashore. In addition, the 2007 Interim Strategy allowed 67% of the 
breeding pairs to fledge a chick, as compared to 63% under the consent 
decree.\2\
---------------------------------------------------------------------------
    \2\ Cape Hatteras National Seashore Resource Management Weekly 
Field Summary; July 17 to July 23, 2008
---------------------------------------------------------------------------
    Both the Interim Strategy and the Consent Decree also focus on the 
protection of colonial water birds (terns) and nesting shorebirds. 
While some have contended that there has been a dramatic decrease in 
the number of terns and black skimmers in CHNSRA, and that this 
decrease is due to ORV use, the fact is that these birds have chosen to 
nest on a dredge spoil island located in the sound within one quarter 
of a mile of Hatteras Village. This island offers more preferable 
habitat and is free of predators.
    Finally, according the NPS, 22 pairs of American Oyster Catchers 
hatched 15 nests and 29 chicks. In 2008, 23 breeding pairs again 
hatched 15 nests and only 26 checks.\3\ The American Oyster Catcher has 
strong site fidelity, meaning they tend to return to the same location 
each year to breed. Therefore, the 2008 breeding success is due to the 
resource protection measures provided by the Interim Strategy.
---------------------------------------------------------------------------
    \3\ Cape Hatteras National Seashore Resource Management Weekly 
Field Summary; July 17 to July 23, 2008
---------------------------------------------------------------------------
    Both the Interim Strategy and the Consent Decree include provisions 
to protect nesting sea turtles. Loggerhead turtles, the only turtle 
nesting at CHNSRA in 2008, nest on average once every three years. Each 
turtle lays an average of five nests per season at about one hundred 
eggs per nest. While it's true that numbers are up this year--99 nests 
this year as compared to 82 in 2007--the increase cannot be attributed 
solely to the provisions of the Consent Decree. The number of sea 
turtle nests are up all over North Carolina, South Carolina, and 
Georgia as well. In fact, Pea Island National Wildlife Refuge, which is 
bordered both north and south by CHNSRA and not subject to the Consent 
Decree--has had a record number of nests this year.

                            IMPACT ON CHNSRA

    Beach driving is a traditional use of the CHNSRA, predating the 
1937 authorization of the National Seashore, and has become a popular 
method of access for recreational pursuits. The Consent Decree has 
resulted in unprecedented closures (and blocked access of ``open'' 
areas) of the most popular areas of the seashore to both ORVs and 
pedestrians, limiting access for all user groups including fishermen, 
kiteboarders, swimmers, birdwatchers and families. It prohibits night 
driving in summer, at the peak of the tourist season, and has also 
restricted pedestrian access. It should be noted that even if a section 
of beach might be deemed ``open'' for the purposes of comparing the 
amount of open area vs the amount of closed area, it might not be 
accessible to ORVs or pedestrians.
    While the provisions of the Consent Decree will have less of an 
impact during the fall, the summer closures are significant and during 
the time the majority of vacationers visit CHNSRA, providing the 
greatest economic input for the community. Because the Consent Decree 
was never subject to a NEPA evaluation, an economic analysis was not 
performed to measure the potential impact on the local tourism-based 
economy. Many tackle shops and other businesses in CHNSRA have 
experienced a decrease in business activity of up to 40%. While hotel 
occupancy was initially up in May 2008 (the Consent Decree did not take 
effect until May 1, after visitors could obtain a refund for their 
hotel or rental property), it has fallen off through the summer months. 
In addition, while fishing license sales throughout the State of North 
Carolina have dropped an average of 39% since last year, license sales 
in Dare County has decreased by 50%. Dare County was the largest seller 
of saltwater licenses in 2007; they are now eighth in the state.\4\
---------------------------------------------------------------------------
    \4\ North Carolina Department of Marine Fisheries and Wildlife 
Resources Commission, Coastal Recreational Fishing Licenses Sales 
Update.
---------------------------------------------------------------------------
                                SUMMARY

    The NPS maintains, and ASA agrees, that ORV's must be regulated in 
a manner that appropriately addresses resource protection--including 
protected, threatened and endangered species--and potential conflicts 
among the various CHNSRA users. However, this was addressed by the 
development of the Interim Strategy, which the NPS failed to defend in 
the lawsuit. The end result is that Defenders of Wildlife and the 
National Audubon Society have accomplished through litigation what they 
pledged to work toward cooperatively toward in good faith with all 
stakeholders through the Reg-Neg.
    The Consent Decree was essentially exempted from the official NEPA 
review process, and undermined NPS staff and their scientific data. It 
set a precedent that private interest groups can negotiate a settlement 
with the Administration, in absence of public input, to govern National 
Park management. This is to the detriment of the 1,000 residents of the 
seashore, whose livelihoods depend on beach access, and the millions of 
CHNSRA visitors.
    S. 3113 will reinstate a management strategy that underwent the 
appropriate review process, restoring reasonable ORV and pedestrian 
access to CHNSRA while providing appropriate shorebird and resource 
protection. The enactment of S. 3113 will also provide relief for a 
community suffering economic consequences due to the Consent Decree. 
The Interim Strategy will provide ample protections for shorebirds 
until the final ORV Management Plan is complete and will help to save 
the economy and way-of-life of the Hatteras community--and the entire 
Outer Banks of North Carolina.
    Thank you for the opportunity to provide testimony.
                                 ______
                                 
 Statement of Brian Leigh Dunnigan, Interim Director, Head of Research 
         and Publication, University of Michigan, Ann Arbor, MI

    The battle cry ``Remember the Raisin'' made its way into American 
history and memory during the War of 1812. Like its better-known 
contemporary, ``Don't Give Up the Ship,'' it had its origins in a 
United States defeat and was used to encourage American forces to rally 
for future victories. ``Remember the Raisin'' recalls events that 
transpired in and around the village of Frenchtown, or River Raisin, in 
Michigan Territory between January 18 and 23, 1813, comprising a pair 
of small but fierce battles and an incident in which the wounded of the 
defeated American force were attacked by Native American allies of the 
British. It was the latter occurrence, and the belief that it was 
encouraged by the British, that was to be remembered by the soldiers 
and civilians who took up the cry.
    The River Raisin battlefield site is today in a condition that 
allows its designation and preservation as a National Historic Landmark 
for the special significance of what it represents about the War of 
1812. The battles fought there in January 1813 were not particularly 
influential in changing the course or the direction of the war or even 
the military campaign on the southern margins of the Great Lakes. The 
significance of the site lies in its manifestation that the War of 1812 
in the West actually constituted a pair of parallel conflicts, in which 
United States forces contended with the British and Canadians in a 
conventional war but were also involved in a full-scale and bitter 
wilderness conflict with the remaining organized Native American groups 
living east of the Mississippi River. The fighting represented the 
culmination of conflict in the Old Northwest between Indians and Euro-
Americans that had been underway since the 1750s, and the War of 1812 
was the last time that the native peoples of that vast region would 
fight effectively for their land and their independence.
    The circumstances that caused a force of around one thousand US 
regulars and Kentucky militia to march into the village of Frenchtown 
(today Monroe, Michigan) in January 1813 resulted from efforts by 
United States forces to recover from the disastrous outcome of an 
attempt to invade British Canada from the Michigan Territory in the 
summer of 1812. This had ended in the loss of Forts Mackinac and 
Dearborn, an army, and Detroit, the territorial capital, and had 
exposed the frontiers of Ohio and Indiana Territory to attack by the 
British and their Native American allies. All of the surrenders of 1812 
had been influenced by the real or perceived possibility that 
resistance might cause Native American warriors to take their revenge 
on hapless civilians, an implied threat that British leaders used to 
their advantage to ensure victory.
    The fighting of January 18 (an American victory) and January 22 (a 
successful British-Indian counterattack) left some sixty-five American 
wounded, who were not removed to the British post of Malden with their 
fellow prisoners of war. These unfortunates and about thirty able-
bodied comrades were sheltered in houses of the River Raisin 
settlement, where Native American warriors set upon them on January 23. 
It was a scenario that played to the worst fears of the American 
frontiersman--that his fate as a captive might be in the hands of a 
relentless and unmerciful native enemy.
    The attack on the wounded at River Raisin and the implied collusion 
of the British by leaving the helpless prisoners unguarded and exposed 
presented a propaganda opportunity that could be directed against both 
enemies of the United States in the western war. The British could be 
made to appear to have ignored the rules of ``civilized'' warfare, 
while the action of the Indians was exactly what most Americans 
expected and feared. A lurid contemporary print depicting the attack on 
the wounded makes the charge, through its visual details, that the 
British provided both scalping knives and liquor to fuel the atrocity. 
This implication harks back to the fighting in the Old Northwest during 
the 1790s when the British were accused of encouraging and supplying 
Native American resistance to the advance of the American frontier. In 
the event the message was not clear, the River Raisin print also 
includes a British flag waving above a nearby military encampment, 
although no red-coated soldiers are in evidence to intervene and save 
the wounded Americans.
    The attack on the wounded at the River Raisin struck a special 
chord with the citizens of Kentucky and the frontier area north of the 
Ohio River. The call for vengeance inherent in ``Remember the Raisin'' 
set the tone for the fighting that took place in northern Ohio and 
Ontario during the military campaign of 1813. This culminated in an 
American victory at the Battle of the Thames, in October, and the death 
of the celebrated Shawnee leader, Tecumseh. Although Native American 
resistance was not crushed in this battle, the symbolic loss was 
considerable, and the peace treaty between the United States and 
Britain that ended the War of 1812 left them with no guarantees for the 
future.
    The War of 1812 in the West was a very different conflict than that 
fought along the eastern seaboard and the northeastern border of the 
United States and British Canada. The conflict in the West included the 
additional component of widespread warfare with Native Americans--a 
continuation of the fighting that had wracked the region for the past 
sixty years. The War of 1812 would effectively end that long conflict 
and set the stage for the gradual extinguishing, over the next twenty-
five years, of Indian land claims and the removal of many Native 
Americans beyond the Mississippi River.
    The River Raisin battlefield site is highly significant as a 
reminder of the dual conflict represented by the War of 1812 in the 
West and its impact on the continued western expansion of the United 
States and the future of the Native American peoples of the region. It 
represents the symbolic culmination of the clash between American 
frontiersmen and Native Americans in the Old Northwest. No other site 
better represents this theme of American history, and its relevance is 
strengthened by the River Raisin's proximity to two other sites, 
Perry's Victory and International Peace Memorial, representative of the 
conventional war with the British, and Fallen Timbers, which represents 
the Indian wars of the 1790s.
                                 ______
                                 
Statement of J.W. ``Bill'' Wade, Chair, Executive Council, Coalition of 
               National Park Service Retirees, on S. 3113

    Mr. Chairman and other distinguished Members of the Subcommittee, 
we ask that you accept this statement for the record, reflecting the 
views of the Coalition of National Park Service Retirees on the 
important topic of protecting resources and providing for visitor 
enjoyment at the Cape Hatteras National Seashore, North Carolina.
    The Coalition now consists of 660 individuals, all former employees 
of the National Park Service, with more joining us almost daily. 
Together we bring to this hearing over 19,500 years of accumulated 
experience. Many of us were senior leaders and many received awards for 
stewardship of our country's natural and cultural resources. As 
rangers, executives, park managers, biologists, historians, 
interpreters, planners and specialists in other disciplines, we devoted 
our professional lives to maintaining and protecting the national parks 
for the benefit of all Americans--those now living and those yet to be 
born. In our personal lives we come from a broad spectrum of political 
affiliations and we count among our members six former Directors or 
Deputy Directors of the National Park Service, twenty-three former 
Regional Directors or Deputy Regional Directors, twenty-eight former 
Associate or Assistant Directors and over one hundred and fifty former 
Park Superintendents or Assistant Superintendents.
    We are strongly opposed to S. 3113, which would reinstate the 
Interim Management Strategy governing off-road vehicle use in Cape 
Hatteras National Seashore, pending the issuance of a final rule by the 
National Park Service (NPS).
    This proposed legislation, evidently promoted by very narrow 
special interests, would inappropriately and unnecessarily rescind a 
consent-decree agreed to by Defenders of Wildlife and the National 
Audubon Society; and Dare and Hyde Counties and the Cape Hatteras 
Access Preservation Alliance (an off-road vehicle group). The decree 
safeguards wildlife, while still allowing visitors to fish, surf, drive 
on certain portions of the beach and enjoy other activities at the 
Seashore.
    This proposed Bill is partisan legislative interference at its 
worst, and not only would overrule a legitimate judicial process, 
agreed to by both sides of the issue; but could negatively influence 
the established negotiated rulemaking process currently underway that 
has brought together many parties with interests in how the NPS 
ultimately manages off-highway vehicles and, at the same time, protects 
wildlife at the Seashore.
    The National Park Service has been out of compliance with its 
legislated responsibilities for a number of years and is now making a 
determined effort to meet those requirements.
    What is critically important here is that a final solution must be 
reached that will provide for the protection of several threatened 
species of birds and turtles for the enjoyment of Americans now and in 
the future; while still allowing for appropriate levels of other 
visitor uses in the Seashore. We believe that the legally derived 
consent decree ought to be allowed to stand and that the legitimate 
negotiated rulemaking process ought to be allowed to run its course, 
both without interference from legislation that represents only a very 
narrow set of interests. We believe this is the best process to meet 
the mission of the National Park Service at Cape Hatteras National 
Seashore.
                                 ______
                                 
  Statement of Frank M. Folb, Frank & Fran's The Fisherman's Friend, 
                       Inc., Avon, NC, on S. 3113

    Thank you, Chairman Daniel K. Akaka and the committee for the 
opportunity to submit written testimony for the record in support of S. 
3113.
    I am Frank Folb, the 65 year old who is owner and Secretary/
Treasurer of Frank and Fran's The Fisherman's Friend. My wife and I 
have been operating this retail fishing tackle store in Avon, NC for 
over twenty years. My wife and I have lived on Hatteras Island since 
August 1975 and my mother's family (the Miller family) goes back many 
generations on Hatteras Island. I am a present member of the Negotiated 
Rule Making Committee formed to advise the National Park Service in 
establish an ORV plan for the Cape Hatteras National Recreational 
Seashore. I represent Avon Property Owners Association where I was past 
president and now hold a director's position. (The association 
represents over 1800 property owners in Avon.) I am a member of the 
Outer Banks Preservation Association, and past director, since the mid 
1970's, a member of the Cape Hatteras Angler's Club, the North Carolina 
Beach Buggy Association, and the American Sportfishing Association. 
Until recently, when this matter consumed every waking hour of my time, 
I was a member of four North Carolina Marine Fisheries Advisory 
Committees, a NC Sea Grant Committee and a Federal Fisheries Committee.
    Over two years ago the National Park Service began taking 
applications for committee members of the Negotiated Rule Making 
Advisory Committee for implementing the Off Road Vehicle Plan mandated 
by President Nixon's 1972 Executive Order. At the interviews, we were 
told that we would be working from an even playing field and that all 
options would be considered that would be applicable under NEPA 
regulations. Meetings were held to consider facilitators for the 
meetings. Two workshops for potential committee members were held, and 
during these workshops the problem of the lawsuit instituted by 
potential members of the committee were discussed and the level playing 
field was discussed. At one of the meetings in Nags Head, NC I noted 
that although we would not be given Pea Island Wildlife Refuge as an 
area of consideration for routes and areas for Off Road Vehicles to be 
used that the area would be considered as a negotiating chip in future 
meetings. And finally, we were placed in the Federal Register for 
comment before being formally given positions by the Secretary of the 
Interior. From the first official meeting to present, no even playing 
field has been present due to the law suit and now due to its 
settlement. At the two court hearings on the suit, the judge showed 
adamant disregard for the intervener's comments and total belittling to 
the justice department's lawyers. At the April 4th 2008 hearing he 
questioned why the plaintiff wanted an extension when he was ready to 
give them injunctive relief then. At the April 30th 2008 hearing he 
washed his hands of the matter in giving them the consent decree after 
over thirty minutes of questioning, preaching and degrading of the 
whole process. The settlement was reached behind closed doors without 
comment from the public and it was based on questionable, non-peer 
reviewed science. The interim plan in place when the settlement was 
reached had gone through public review and a Section 7 was done by NPS 
and USFW.
    As a member of the public and Negotiated Rule Making Committee, I 
felt that through the NEPA and our committee process that there were 
less restrictive options than the interim plan covered that could be 
implemented. The consent decree has destroyed the committees' ability 
to negotiate any balanced ideas less than its requirements. In fact, in 
an informal gathering of three members of the pro access committee 
members and two of the environment committee members that sit on a sub-
committee for areas and routes for off road vehicles this summer during 
the break of formal full committee meetings on Tuesday July 22, 2008 it 
became apparent that the environmental members want more restrictive 
regulations than the present consent decree allows for the final plan.
    Under the impending lawsuit and the implementation of the consent 
decree, my business has already suffered financial losses. In 2007 
North Carolina's legislature instituted a fishing license that many 
feared would cause decreased revenue, but we had a very good year. 
Although in 2007 the fishing license was new and only warnings were 
issued, the NC Department of Marine Fisheries forecast for 2008 was 
that there would be higher sales this year. Dare County, who was the 
largest seller of fishing license in 2007 for the state and my 
business, have seen negative sales of licenses this year and they 
follow closely the decreases in business I have encountered. You may 
see the table taken from my business records below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Many vacationers this year were unaware of the restrictions on 
their activities and others that did know would lose large deposits on 
homes they have rented this year. For this reason, 2009 will be much 
worse than this year. We have reduced our work force by two people this 
year and morale is bad. Had I sold my business two to three years ago 
when the market and economy were peaking I could have retired, but now 
with the economy reducing the value of my business by 20% and the 
consent decree reducing the business I would have difficulty selling 
the business for 50% of the offer I had two years ago. Our business is 
Fran and my retirement fund, but now that looks bleak.
    Thank you again for the opportunity to submit written testimony.

Statement of Frank M. Folb, Fran & Fran's The Fisherman's Friend, Inc., 
                               on S. 3113

    I hope you will take the time to read this letter and the 
accompanying attachments I have put together. My family resides in 
Buxton, NC in the middle of Cape Hatteras National Recreational 
Seashore. We have lived on the island most of our lives and have been 
full time residents in Buxton, NC since 1975 when my mother passed away 
and we moved into my parent's residence. Our home is only a tenth of a 
mile from where she and past generations of her family now rest. My 
father moved to America from Lithuania inl 900 at the age of 8 to 
escape the poverty, persecutions, and terrors of that society with WW1 
looming.
    As I am sure you know, Cape Hatteras is synonymous with surf 
fishing and is widely considered the surf fishing capital of the East 
coast. To access the fishing areas, fishermen have for years utilized 
`` Beach Buggys'' 4x4 SUV vehicles. This access is eminently being 
threatened. For the last 12 weeks the best areas of the seashore have 
been closed during the peak spring fishing and visitor season. Closing 
these areas is the equivalent of closing Florida Keys waters during 
Tarpon season or blocking off the entrance to Magic Kingdom at Disney 
World. Thousands of fishermen make their annual spring pilgrimage to 
Cape Hatteras in quest of the spring fish runs and to enjoy summer 
beach activities. With the down turn in the economy Cape Hatteras is a 
relatively inexpensive drive to location that in the past has shown 
increases of visitors, however, this year National Park Service records 
show a 17 percent plus decrease in visitation. This decrease is not 
related to the current price of gas. Just north of us the Wright 
Brothers Memorial is showing a slight 2 percent decrease in visitors.
    We can have 4x4 SUV accesses to major surf fishing hot spots 
without threatening any bird life. Unfortunately no one uses the middle 
ground anymore. Every issue has an extremist these days and no good 
comes from it. These extremists I am referring to hide under the 
disguise of GREEN and have their own agenda which is threatening our 
islands heritage, way of life and economic well being. Under the 
present regulations provided by the Consent Decree, an area the size of 
three US Navy Super Carriers lined end to end as a radius fenced off 
for each nest with a hatched piping plover, allows no off-road vehicles 
or pedestrian access to the area.(See attached illustration.)*
---------------------------------------------------------------------------
    * Attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    Our island is being threatened by an all too familiar radical 
political movement called ``environmentalism,'' that is plaguing the 
entire USA, and denying us of property and public land usage rights, 
and the individual right to participate fully in the policy-making of 
government agencies that affect our businesses and our traditional way 
of life. The particular organizations that have taken control of our 
community and caused great harm to our way of life and the economy are 
the Audubon Society, the Defenders of Wildlife, and the Southern 
Environmental Law Institute. Unlike these well funded special interest 
groups, our community citizens' group has very limited out of pocket 
funding, but never the less has fended off these groups in court 
actions for eight years spending nearly $1,000,000.00. These are moneys 
that we could have used for our health care and education of our 
children.
    On April 30, 2008 Federal District Judge Terrence Boyle, allowed 
these groups, with the help of highly biased ``green minded'' officials 
in the Department of Interior in Washington, to settle a suit against 
the National Park Service, behind closed doors, without public comment 
or review. Many of my fellow citizens believe that the National Park 
Service officials in Washington went to these groups and said; ``Sue us 
so we can get what we want on Cape Hatteras and we will roll over in 
court.'' The local concerned citizens group, Dare County, and Hyde 
County filed as interveners, but only through last minute acceptance in 
the negotiations were they able to salvage small concessions before the 
``settlement'' was finalized by the court. The judge signed off on what 
is essentially a federal regulation contracted between radical 
environmental groups and the federal government where, in actuality, 
the federal government agrees to answer to these special interest 
groups for the next three years, ignoring scientific facts and the 
needs and desires of the general public. The interveners had no choice 
but to go along with the agreement or have the publicly accessible 
shoreline shut down completely. The court knew that and could have at 
least opened the settlement to include public hearings.
    The stated reason for court approval of the ``closure'' provisions 
of the settlement was the protection and production of bird species. 
Two species of birds, neither of which are listed by the government as 
endangered, are specified in the settlement: the Piping Plover and the 
American Oystercatcher. The closure distances and provisions in the 
settlement are not based on published science; they are arbitrary.
    Along the 60-mile park coast, only 7 piping plovers fledged this 
breeding season. The 15-year production rate for the piping plover is 
0.66 chicks/pair. The Park Service today announced that this year's 
Piping Plover production level is 0.64. That rate is less than the rate 
when there was beach access by ORVs. Much is the same for the American 
Oystercatcher, out of 27 birds that hatched only 10 have fledged.
    Most nests and hatched birds have been lost to predation, a few to 
storms, and one at the hands of a university researcher. This data 
suggests that ORVs do not reduce the productivity of birds and that 
previous park management programs (the interim strategy) has been 
effective at protecting birds.
    The shutdown of the park beaches has been a tremendous insult to 
the public. It is waste of public resource at an outrageous cost to the 
local community, county, state and federal government. The consent 
decree is ``bad public policy'' to the point of being a ``public 
nuisance'' as illustrated below:

  <bullet> The public has been deprived of public participation and 
        park access rights. Particularly affected are the disabled and 
        elderly members of our society who cannot get to the beach even 
        on foot.
  <bullet> The consent decree has created enormous public anxiety and 
        outrage. The closures policy has been the catalyst for threats 
        of physical violence, public disobedience, slander, and 
        vandalism. It has contributed to a distrust of government and 
        unnecessary tensions between citizen groups.
  <bullet> Park Service professionals have been stripped of their 
        prerogatives to make judgment calls and deal reasonably and 
        equitably with the public they are sworn to serve.
  <bullet> Especially disturbing, the consent decree establishes a 
        policy of retaliation and punishment for the general public 
        when violations of the consent decree occur. Every time there 
        is an act of vandalism, the Park Service is required, without 
        any management discretion, to significantly extend boundaries 
        and widen non-access areas.
  <bullet> Visitor habits and plans are changing. Hundreds of trips to 
        the Outer Banks have been canceled or redirected to other parts 
        of the country because of actual or threatened beach closures
  <bullet> The decree has produced significant economic harm to small 
        family businesses. For some businesses, revenues are down 50% 
        or more and some employees have been laid off. Gas station, 
        restaurant, and motel revenues are down.
  <bullet> Risks of ORV and pedestrian accidents have increased as ORVs 
        and pedestrians are forced into smaller areas.
  <bullet> On certain days, there is an absence of public parking and 
        unclear direction and access to the shore line.

    We need your committee's help! What can you do? I have some ideas, 
but being a small fish in a large sea of bigger, smarter fish I defer 
to the expertise of my countries legislators. My ideas are as follows:

          1. We want the park returned to the full control of the US 
        Park Service who by profession will answer to the needs of the 
        public. A federal judge is not qualified to manage a national 
        park. Make the legislation (Sen. Bill 3113) stronger by going 
        back and reviewing the enabling legislation. There you will 
        find that Cape Hatteras National Recreational Seashore was set 
        up for the people first in its design and management. 
        (Investigate the interveners file and its attachments filed in 
        the lawsuit against National Park Service that resulted in this 
        bill.)
          2. Hold congressional hearings on the matter of conflict of 
        political interests and investigate the appearance of 
        preferential treatment and special consideration for 
        environmental organizations by senior management of National 
        Park Service, Department of Interior, and US Fish and Wildlife 
        Service.
          3. Investigate the blocking of rebuilding a bridge over 
        Oregon Inlet which has received the same mistreatment as the 
        public access issue is receiving now. These environmental 
        activists groups are also putting the public at great risk by 
        delaying the construction of the much needed Bonner Bridge. The 
        current bridge is rated at an extremely dangerous category 2 on 
        a scale of 100. It is the only evacuation route from a 
        hurricane prone island that during hurricane season may have 
        tens of thousands of visitors in addition to twenty thousand 
        full time residents.
          4. Pass Sen. Bill 3113 out of committee and get it passed to 
        enable local NPS the ability to retake control of the seashore 
        and allow time for Negotiated Rule Making and NEPA to properly 
        put in place an ORV plan.
                                 ______
                                 
  Statement of Jeffrey A. Golding, Resident of Buxton, NC, on S. 3113

    I wish to thank the committee for the opportunity to submit written 
testimony for the record in support of S. 3113. As a knowledgeable and 
concerned citizen, I feel it is my civic duty to make timely comment 
and to respectfully request that you pass S. 3113 out of committee and 
allow a vote by the Senate.
    When Congress established Cape Hatteras National Seashore 
Recreation Area (CHNSRA) in 1937 its intent was to permanently provide 
for all Americans a unique area for their enjoyment and use. For years 
now, those of us who utilize this unique resource have been under 
assault by a variety of environmental special interest groups who would 
deny us access, but not themselves. They have tried compaction studies 
attempting to show that ORVs' were damaging the beach. Only to find 
their data lost when it rained or a storm occurred. They have filed 
lawsuit after lawsuit in federal court claiming harm and inadequate 
protection for the birds and turtles that nest here. And in each case, 
where evidence was heard from both sides in the court, they were sent 
packing. Quite simply, their claims were refuted by sound science and 
law. All of this was at the expense of the American taxpayer. What 
occurred April 30th, 2008, in Judge Terrence Boyle's court changed 
everything.
    It's the Piping Plover that has become the ``poster child'' for 
these groups. The plover is a relative newcomer to CHNSRA. Every bird 
study conducted between 1900 and 1959 show that it was not until 1960 
that the first birds arrived in the Park. Plovers nest independently of 
one another and not in colonies. They neither feed nor care for their 
young from the moment they hatch. They nest in areas that are subject 
to frequent overwash and frequently lose nests as a result. This has 
already occurred at CHNSRA in the 2008 breeding season, and not just 
with plovers. Predation has also taken its toll this year.
    The Piping Plovers that nest at CHNSRA are part of the Atlantic 
breeding population which is considered ``threatened'', not endangered. 
It is very important to understand that CHNSRA is on the extreme 
Southern edge of the Plovers breeding range which accounts for the 
historically low numbers within the Park. Most Plovers nest well north 
of the Park, from Virginia's Eastern Shore to Newfoundland, Canada; 
with the majority of nesting occurring mid-range.
    I am an individual who has utilized this resource, this National 
Seashore Recreational Area, for almost three decades. And, like many, I 
am very familiar with this beach system--predicting structure changes, 
overwash, and the like comes as second nature. Collectively, we possess 
more first hand knowledge of the workings of the beaches and the 
wildlife at CHNSRA than any environmental group in existence. This has 
actually been proven in the field on more than one occasion. It is, 
therefore, no surprise that an Alberta, Canada Plover study contains 
the following statement: ``human presence in an area can be a very 
effective form of predator deterrence.'' (USFW 2000) Interesting as 
well is a statement by Tim Gallagher, editor-in-chief of Living Bird 
magazine, published in the spring 2000 edition; ``But the large number 
of people always present at beaches does have a remarkable taming 
effect on birds.'' This reflects what we see daily as we visit our 
cherished beaches.
    There are 21 documented ORV related plover deaths in the entire 
United States. Twenty of these were committed by federal vehicles. In 
the 47 years prior to the Consent Decree, not one single plover death 
can be attributed to an ORV user in this Park. One hundred percent of 
plover mortality at CHNSRA has been a result of either storms or 
predation. A far cry from the 24 Piping Plover nests the Army Corps of 
Engineers destroyed recently in the name of floating two barges of 
alfalfa pellets down a tributary of the Missouri River.
    The Defenders of Wildlife (DOW), National Audubon Society, and the 
Southern Environmental Law Center (SELC) would have one believe that 
none of which I write in these pages is true--though it's all in the 
public record.
    The Consent Decree deals also with other birds such as Black 
Skimmers, Common Terns, Least Terns, Gull-billed Terns, Wilson's 
Plover, and American Oystercatchers. None of whom are threatened or 
endangered. The Consent Decree treats them as though they are, and at 
additional taxpayer expense. It also deals with the variety of sea 
turtles that occasionally nest on the Park's beaches though now 
requiring full beach closures, unlike the Interim Strategy.
    Some ``Inconvenient Truths'' for DOW, Audubon and SELC include: 
Under the Interim Strategy (IMS) the 2007 nesting season was the most 
successful Plover breeding season in over 20 years. Currently, under 
the Consent Decree, a single Plover chick is given enough beach area to 
cover the decks of three U.S. Navy Super Carriers, the largest warships 
on earth (1000m). As such, in most American communities, a convicted 
child molester can live closer to a public school than a fisherman and 
his family can get to a plover.
    On a positive note, the Atlantic Piping Plover population is fast 
approaching the 2000 nesting pair's figure that makes them eligible for 
de-listing as threatened. The most recent counts show 1700 nesting 
pair. Just four years ago, the most accurate estimate was 1400 pair. 
This represents a rather dramatic increase in breeding pairs in a very 
short period. And by some recent estimates, the Atlantic Piping Plover 
will reach the 2000 nesting pair figure in approximately three years. 
Unfortunately, at the cost of even more taxpayer dollars, de-listing 
the Atlantic Plover population is probably going to be challenged in 
court.
    The environmental groups also claim a substantial drop in Black 
Skimmer and Gull-billed Tern numbers. What they don't want you to know 
is that the bird count for the 2007 season shows a better than 20% 
increase in numbers. They know very well that the birds chose to nest 
on a newly re-created dredge spoil island, Cora June Island, which is 
within sight of the Park. In a survey of colonial waterbirds released 
by N.C. Wildlife Resource Commission in February 2008, in which Walker 
Golder, attorney for Audubon, plaintiff, and member of Negotiated 
Rulemaking participated, the Commission writes:

          An outstanding success story can be found on Cora June 
        Island, located near Hatteras Inlet. This island disappeared 
        during Hurricane Isabel in 2003 but was rebuilt in spring 2007 
        during a dredging project by the U.S. Army Corps of Engineers. 
        Only months after rising from the sea, the island was home to 
        one of the largest mixed tern/black skimmer colonies in the 
        state with good numbers of nesting adults that successfully 
        fledged hundreds of chicks.
          The recent survey, which was conducted in spring 2007, is one 
        of 10 complete coast-wide surveys conducted since the late 
        1970s to monitor population trends, distribution of colony 
        sites and nesting habitat conditions. Data gleaned from the 
        surveys help biologists make management and conservation 
        decisions and prioritize research. The next water bird survey 
        is scheduled for 2010.

    Never mind that environmental groups have sued to stop the creation 
of additional spoil islands which would provide substantial new habitat 
for the very birds they profess the need and desire to protect.
    In addition, they would prefer you to believe that night time 
driving on the beaches at CHNSRA disorients sea turtles. Hence the ban 
imposed by the Consent Decree. But they would have you ignore Pea 
Island National Wildlife Refuge, the northern 22 miles of beach on 
Hatteras Island. At Pea Island NWR, there is no beach driving and less 
than a dozen lights visible from the sea. Very few pedestrians frequent 
these beaches due to the difficulty in accessing them. And yet Pea 
Island has no greater turtle nesting success than ORV accessible 
beaches, but does have more false crawls, aborted nesting attempts, 
than the open beaches. They would also have you ignore the fact that 
Plovers don't nest there either, in spite of the excellent beach 
conditions.
    Under the Consent Decree, if a turtle nests within the relatively 
minute portion of beach that's still accessible by ORV, the Park 
Service is required to establish virtually the same nest enclosure as 
established within the Interim Strategy. Beach users may drive by, park 
by and fish by this clearly marked 10' by 10' enclosure at will. Until, 
that is, September 15th. On that date, the Consent Decree imposes full 
beach closures in addition to the procedures outlined in the IMS, 
making those areas impassable by vehicle or pedestrian. This is absurd 
and arbitrary. The Consent Decree clearly states that if a nest is 
approaching its anticipated hatch date (pre-September 15) NPS is to 
follow the same procedures outlined in the IMS, not including full 
beach closures. Which means that in spite of the additional ``path'' 
NPS constructs to funnel the hatchlings to the sea, the beach 
immediately outside this small closure is still accessible to both 
pedestrian and ORV use. So why is September 15th , the ``magic'' day 
for full beach closures under the Consent Decree? Because this is an 
arbitrary date by which perhaps some of the bird closures will have 
been reduced and the Consent Decree finally allows for ``permitted'' 
night driving. This is a thinly veiled maneuver to continue to prevent 
ORV access to the beach. If it was ok for me to drive by or park and 
fish right next to the closure on the 14th, it should be just fine on 
the 15th.
    They don't want you to know that at the best of times ORV users can 
only access less than 30% of the beaches at CHNSRA and that their ``12% 
of the beaches affected'' figure assumes 100% ORV access. This has not 
been true for many, many years. The truth is that well over 90% of the 
beach is currently closed either directly or by default. Areas bounded 
on both sides by closures are inaccessible even though they are 
technically open. They prefer to focus on ORV's but the current 
closures prohibit pedestrian use as well. No entry means just that.
    It is, I think, ironic that as I labor over this communication, 
Defenders of Wildlife have just sent their members an e-mail dated June 
15th, 2008 that describes success as a result of the Consent Decree. 
``Since some of the most sensitive areas were closed to vehicles, birds 
like the piping plover and the American oystercatcher have been 
bouncing back.''
    Plover numbers are almost the same as they were last year under the 
IMS. I don't know about the American Oystercatchers (AMOY) yet except 
for the nest on the Pamlico Sound side of HWY 12 between Frisco and 
Hatteras villages. There, less than 150' from the 55 MPH traffic, in 
plain sight, an AMOY pair feeds their young and raises them to fledge 
quite happily.
    They also write, ``The emergency plan was developed to be flexible, 
with temporary closures that can be lifted and reopened to vehicles 
once wildlife is no longer using certain areas. Already, some areas 
have been reopened this season.''
    This ignores the rash of immediate closures that followed the April 
30th signing of the Consent Decree. Because of the Consent Decree, 
anyone with a cell phone can call NPS, report bird activity and the 
Park Service is required to close the area for weeks at a time. All of 
the areas that have been reopened as of 6/26/08 were initially closed 
due to inaccurate and perhaps false observation.
    They would rather you didn't think of them as parties to the 
lawsuit that has prevented the replacement of the Bonner Bridge, Cape 
Hatteras' lifeline and only over ground hurricane evacuation route; a 
bridge with a safety rating of 4 out of 100. The bridge in Minnesota 
that collapsed in 2007, killing many, was rated at 27. Since when do we 
so blatantly condone risking the loss of human life? The environmental 
groups have already announced that if the new bridge is attempted they 
will sue.
    The Consent Decree is an obvious attempt at changing a National 
Seashore Recreation Area into a private wildlife refuge. Which has so 
far, been successful at the cost of untold taxpayer dollars. Remember 
that the plaintiffs are consistently reimbursed their legal fees and 
expenses by the already strapped Park Service and DOI. You must also 
consider the cost of constant monitoring, flying in and housing of un-
needed special event teams, additional, extensive new signage, 
additional vehicles, law enforcement and infrastructure.
    The impact of the Consent Decree on the economies of the villages 
bounded by the Park has been astounding. I know this first hand as it 
cost me my job. Conditions under the Consent Decree continue to fester 
as more Americans and foreign visitors discover that the experience 
they expected when they arrived at CHNSRA has been almost entirely 
compromised. Thousands have already cancelled their reservations or 
vowed not to return. And yet both the environmental groups and United 
States Fish and Wildlife Service continue to utilize the arguably inept 
Voglesong study as the foundation of their economic and visitor usage 
statements in spite of a government funded peer review that deems the 
study essentially worthless. The esteemed panel also regarded the data 
and its collection methods so flawed that further review of that data 
would be a waste of time.
    Dr. Michael A. Berry served as any Army officer in Vietnam in the 
1960s. After returning to civilian life, he earned a doctorate in 
public health and worked in the U.S. Environmental Protection Agency, 
where as a senior manager and scientist, he served as the deputy 
director of National Center for Environmental Assessment at Research 
Triangle Park in North Carolina. During his 28-year career with EPA, he 
had extensive interactions with environmental organizations, local 
governments, the federal courts, U.S. Congress, universities world-
wide, and institutions, such as the National Academy of Sciences, the 
World Health Organization, and the North Atlantic Treaty Organization. 
For more than 20 years, Berry, who lives in Chapel Hill, taught public 
health, environmental science, and business and environment courses at 
the University of North Carolina. He is currently a writer and part-
time consultant, specializing in the evaluation of environmental 
quality and human health effects, environmental management strategies, 
and policy.
    He writes,

          There has been no opportunity for public participation, 
        comment, and input with regard to this new ORV regulation. For 
        any environmental regulation issued by the federal government, 
        citizens have the right of public review and comment as 
        provided by the Federal Administrative Procedures Act. Under 
        the Federal Advisory Committee Act, citizens also have a right 
        to know about and attend federal government meetings, 
        especially when those meeting involve special-interest 
        organizations trying to influence the government. Under the 
        Freedom of Information Act, citizens have a right to obtain all 
        unclassified information, such as scientific information and 
        correspondence with special-interest parties, that is held by 
        the federal government.

    The Consent Decree has changed the very nature of the Park. Though 
the environmental groups claim to want to preserve CHNSRA for future 
generations, I fail to see the value of a National Park that remains 
inaccessible during the spring, summer and fall, when the majority of 
Americans that visit the Park take their vacations at this time. And if 
USFWS gets their way by declaring CHNSRA critical wintering habitat for 
Great Lakes and Great Plains plover populations, though they openly 
admit they have no idea where the wintering birds originate, this will 
include the late fall and winter months as well.
    Preservation has been, so far, successful without court 
intervention and a draconian Consent Decree. What choice did Dare and 
Hyde counties and the various beach access groups have other than to 
consent? It came down to either accepting an agreement that they had no 
voice in and hoping for the best or face certain closure and the 
enormous economic impact that it would spawn.
    A Federal Judge is bound by law to render a fair decision based 
upon the merits of the evidence presented before the Court. But Judge 
Boyle declared his intention to provide the environmental groups 
exactly what they sought without hearing any evidence from either point 
of view and precluded the intervening parties, Dare, Hyde, OBPA, CHAPA 
and others from entering any evidence at all. This occurred within the 
first few minuets of the February 2008 scheduling conference. During a 
later hearing, in spite of being charged by law to consider the 
economic impact of the proposed closures within the Consent Decree 
Judge Boyle repeatedly declared his lack of knowledge and understanding 
of CHNSRA, the villages contained therein, and signed the decree 
anyway. His obsession with closing Ramp 4 (Bodie Island Spit) as 
related in the transcripts of the April hearing is baffling. What the 
negotiations between the environmental groups and DOI promulgated can 
only honestly be referred to as a Decree of Forced Consent.
    CHNSRA was established first and foremost as a National Seashore 
Recreational Area. This is blatantly obvious when one reads the 
enabling legislation formulating and forever establishing the Park.
    Dated August 17, 1937 (50 Stat. 669), provides in part:

          Sec. 4. Except for certain portions of the area, deemed to be 
        especially adaptable for recreational uses, particularly 
        swimming, boating, sailing, fishing, and other recreational 
        activities of similar nature, which shall be developed for such 
        uses as needed, the said area shall be permanently reserved as 
        a primitive wilderness and no development of the project or 
        plan for the convenience of visitors shall be undertaken which 
        would be incompatible with the preservation of the unique flora 
        and fauna or the physiographic conditions now prevailing in 
        this area . . . 

    On June 11th, 2008, Senators Elizabeth Dole, Richard Burr and 
Representative Walter B. Jones introduced S. 3113 and H.R. 6233. These 
bills, if enacted, would put aside the Consent Decree and return CHNSRA 
to policy and operation governed by the IMS. This would effectively 
take management decisions out of the hands of a few special interest 
groups and return it to the professional scientists and staff of NPS at 
the savings of millions of taxpayer dollars over the life of the 
Consent Decree.
    Already these groups assail the media and their members with tales 
of doom were these bills signed into law. Some claim that Congress has 
no business even dealing with this matter. I beg to differ. Congress 
established this Park for the American People as a whole and provided 
us with a place we have fought hard to preserve as the unique and 
dynamic place that Hatteras is; or was. For years, most of us have 
lived by the motto of the Outer Banks Preservation Association, 
``Preserve, Protect, Not Prohibit.'' For example, to this day NPS does 
not employ ``beach clean-up crews''. We do this at our own time and 
expense. This hardly represents a user group with a penchant for 
environmental abuse.
    Congress reserved the right to change the nature of an established 
National Park for itself. And so there is no question as to whether 
these bills should be co-sponsored and enacted.
    16 U.S.C. Section 1a-1 states, ``The authorization of activities 
shall be conducted in the light of the high public value and integrity 
of the National Park System and shall not be exercised in derogation of 
the values and purposes for which these various areas have been 
established, except as may have been or shall be directly and 
specifically provided by Congress.''
    Surely this applies to forced closures as that constitutes an 
activity as well. Non-governmental organizations have taken over 
scientific management of a national park, an activity (Consent Decree) 
not sanctioned by Congress in spite of the obvious ``derogation of the 
values and purposes for which these various areas have been 
established''.
    Furthermore, the Federal Executive Branch Policy governing the 
selection, establishment and administration of National Recreation 
Areas by the Recreation Advisory Council circular, dated March 26, 1963 
states:
    Within National Recreation Areas, outdoor recreation shall be 
recognized as the dominant or primary resource management purpose. If 
additional natural resource utilization is carried on, such additional 
use shall be compatible with fulfilling the recreation mission, and 
none will be carried on that is significantly detrimental to it.
    I therefore urge every member of the Senate and House of 
Representatives to co-sponsor and foster these bills into law. Sound 
science and the weight of law should never be substituted for 
supposition and misleading statements.
    Please help return our National Seashore Recreation Area to the 
true stewards of this resource.
Authors Note: 6/28/2008
    I stated earlier that I was unaware of the current American 
Oystercatcher numbers at present. According to the most recent 
available NPS resource management field report, at this point in time 
last year the AMOY American Oystercatcher had attempted 41 nests and 
had 17 active or hatched nests. At this point in 2008, they have 
attempted 33 nests but have only 16 active or hatched nests. With the 
extensive closures, this can in no way be blamed on ORV drivers. This 
completely refutes the claims of the aforementioned environmental 
groups' press releases that the AMOY is some how miraculously 
``bouncing back'' as a result of no ORV traffic.
                                 ______
                                 
        Statement of Oregon Hunters Association, Wilsonville, OR

    We are writing on behalf of the 11,000 member Oregon Hunters 
Association (OHA). We would like to express our opposition regarding 
the legislation that would add approximately 4,000 acres to the Oregon 
Caves National Monument (Monument) in southwest Oregon by transferring 
land from the U.S. Forest service to the National Park Service. It is 
our understanding that the original act creating the monument carefully 
considered what was needed to protect the Oregon Caves. The upper 
portion of the Cave Creek watershed holding the caves is included in 
the 400-acre monument. The proposed acres are in the neighboring Lake 
Creek watershed. The proposed addition would increase acreage of the 
monument by over ten times.
    The lands adjacent to the Monument are popular for deer and bear 
hunting, and for upland bird and turkey hunting. According to the 
Oregon Department of Fish and Wildlife during the year 2007, 5,505 
deer, fall bear and fall/spring turkey hunters spent 39,155 days 
hunting in the Applegate Management Unit. We believe that taking away 
land from the Applegate Management Unit will in fact have an effect on 
hunters having access to this unit.
    In addition to the hunting issue, this particular acreage 
constitutes a much higher percentage of the `` high-quality'' deer and 
bear habitat in the Applegate Unit, especially the portion that lies in 
Josephine County. The area is high elevation alpine meadow habitat that 
holds far more game than the lower elevation lands that have become 
choked with brush since forest management has been halted on Federal 
Lands.
    It is the opinion of OHA that this land transfer will have an 
adverse impact on hunter opportunity because of limited access to the 
Applegate unit, which will have an effect on the area's economy that is 
dependent on hunter dollars and will also have an adverse impact on the 
habitat that sustains the wildlife in this area.
    It is for these reasons: hunter access to a very valuable hunting 
area, the economic impact of the area and habitat loss that OHA is 
opposed to this land transfer.
                                 ______
                                 
     Statement of David A. Perry, Emeritus Professor, Oregon State 
                         University, on S. 3148

    My name is David Perry. I am an emeritus professor of ecosystem 
studies and ecosystem management from Oregon State University. I 
currently reside in Oregon's Illinois Valley. Thank you for the 
opportunity to submit testimony on this matter.
    I strongly support expansion of the Oregon Caves National Monument 
Boundary as specified in S. 3148.
    The Caves themselves are geologically unique and attract large 
numbers of visitors each year. As such, they provide a focal point for 
the development of an expanded tourist industry in the Illinois Valley, 
which is still recovering economically from the sharp reduction in 
timber revenues during the 1990's.
    The Caves are located in one of the more scenic and botanically 
rich areas of the United States. The Monument currently has a few 
heavily used hiking trails, and expansion of the boundaries will allow 
for more which will almost certainly be well used. Polls taken at the 
Monument show that 75% of visitors would stay longer if there was more 
hiking available. People who view the caves and stay to hike will spend 
longer in the Illinois Valley, benefiting the local economy.
    Currently, the grazing lease adjacent to the Monument is 
contaminating the water supply. The rancher has been in negotiations 
with KS Wild and has agreed to retire the lease without a fight if the 
Boundaries are adjusted. There are no losers if the lease is retired, 
and 80,000 people per year with an uncontaminated water supply makes 
for a lot of winners.
    There is some concern that forest fire hazard won't be dealt with 
if the NPS takes over the land. In fact, the NPS seems more likely to 
address this problem than the USFS, which doesn't have the funds or 
personnel to deal with the many fuels reduction needs elsewhere on 
their lands.
    I summary, I wholeheartedly support expansion of the Monument 
boundaries. It is a positive step for the Illinois Valley.
                                 ______
                                 
  Statement of Susan Bondesen & Brian Barton, Williams OR, on S. 3148

    We are writing to express our strong support for support for the 
Oregon Caves National Monument Boundary Adjustment Act of 2008 (S. 
3148). We agree that too little protection exists for this important 
asset that enriches the natural environment here as well as the local 
economy. Please seriously consider passing the expansion contained in S 
B. 3148. It will benefit all Americans as well as Oregonians.
                                 ______
                                 
               Statement of Michael A. Berry, on S. 3113

    I wish to thank the committee for the opportunity to submit written 
testimony for the record in support of Senate Bill 3113. As a 
knowledgeable and concerned citizen, scientist, retired public 
administrator and university educator, I feel it is my professional and 
civic duty to make timely comment and to respectfully request that you 
pass Bill 3113 out of committee and allow a vote by the Senate.
    I am a senior citizen of the United States, residing at 16 
Charrington Place, Chapel Hill, North Carolina, 27517. I hold the 
following degrees: Doctor of Philosophy in Public Health from the 
University of North Carolina at Chapel Hill; Master of Science in 
Management from Duke University's Fuqua School of Business; both 
Bachelor and Master of Science degrees in Mathematics from Gonzaga 
University. I am a combat veteran of the Viet Nam War and a retired 
Lieutenant Colonel, Army Engineers. In my civilian life, I retired from 
the US Environmental Protection Agency in 1998 after a 27-year career 
with that agency. For over 22 years, I served as the Deputy Director of 
the National Center for Environmental Assessment at Research Triangle 
Park, NC. During my EPA career I had extensive interactions with 
foreign, state, and local governments; the federal courts; US Congress; 
universities world-wide; institutions to include the National Academy 
of Sciences, the World Health Organization, and the North Atlantic 
Treaty Organization; the major environmental organizations; private 
industry and trade associations. For more than 20 years, I was an 
adjunct or full-time faculty member at the University of North Carolina 
where I taught environmental science and management courses in the 
Department of Environmental Sciences and Engineering, the Kenan-Flagler 
Business School, and Environmental Studies Program. I have in-depth 
knowledge of environmental sciences, especially those related to human 
health; and the federal environmental statutes, programs, and policies.
    I wish to state clearly for the public record that I have been for 
the past four decades and remain today and forever in the future, 
professionally committed to protection of the environment. I am 
primarily concerned with environmental conditions that affect the 
health and well-being of humans and with the conservation of natural 
resources that are essential components of a healthy environment. Given 
the ever changing environmental conditions brought about by growing 
human populations and expanding regional and global economies, 
effective environmental management is more essential now than ever 
before, but never at the expense of violating human and Constitutional 
rights.
    Responsible environmental management uses sound science and 
professional judgment that balances the human needs and rights of 
people with the needs to manage and sustain natural processes.
    As a public health and environmental management professional, I 
will always place the health and well-being of humans first and I will 
never accept a political philosophy that suggests people are less 
important than other species. Increasingly, ``environmentalism'' places 
species ahead of humans. Sadly, this new-age philosophy has crept 
deeply into our political process. Humans should never be completely 
shut out or deprived of their environment so that other species should 
prevail or dominate. With a good understanding of science--knowledge of 
how the environment works--humans can make rational decisions and 
manage conditions so as to connect with their environment and at the 
same time provide for the existence of other species.
    The consent decree and settlement that Senate Bill 3113 is designed 
to overturn is properly criticized as ``legislating and managing from 
the bench.'' Because of the current consent decree and closures, the 
public is being pushed out and denied access to its treasured 
environment in which it too has a rightful place. The public is being 
denied a role and opportunity to suggest ways that an environment that 
it cherishes deeply can be effectively managed. The federal government, 
specifically the federal judiciary, and Departments of Interior and 
Justice, has failed in its duty to protect the Constitutional rights of 
the public to have a say in the management of its park environment.
    It is not the prerogative of a federal court to give exclusive 
decision-making and management rights to three well funded 
environmental activist organizations so as to dictate how the general 
public and local community will access public land, in this case Cape 
Hatteras National Sea Shore, which has a guarantee and tradition of 
certain usage rights, including the right to access the beach with a 
motor vehicle (ORV).
    Traditionally, federal courts interpret and render opinions on the 
law and protect citizen rights as spelled out in the Constitution or 
the federal statutes. It has been long recognized that Congress and the 
courts do not have the technical knowledge or resources to manage 
national parks. That is why Congress established the National Park 
Service. Park Service professionals are responsible for making 
technical judgments and management decisions concerning the peoples' 
park.
    The park management formula laid out in the consent decree is a new 
public policy. This new park policy was put together, in a rush, in 
about 10 days, behind closed doors, without any open discussion of 
scientific fact, explanation and justification of environmental 
management strategies, and consideration of the many needs and desires 
of the general public.
    In this court-approved settlement, the federal government agrees to 
respond to the dictates of three non-governmental special interest 
groups for the next three years. These environmental organizations 
answer to no one. Citizens cannot even challenge the Park Service or 
these non-governmental groups about this management policy. Essentially 
this consent decree takes the ``Cape Hatteras National Recreational Sea 
Shore and turns it into a national maternity ward and nursery for 5 
bird species and turtles.
    Every legitimate public policy in our democratic society is based 
upon the Constitution. Public policy is intended to provide for the 
public good and the rights of persons, which begins with the protection 
of citizens and promotes conditions that enhance social well-being. 
Citizens have a right to be a part and have a say in the formulation of 
governmental policies that affect their lives. However, in this consent 
decree, we have public policy created by dictum; the public was simply 
directed to behave in special new ways without benefit of comment or 
review.
    In addition, the consent decree appears to grant special rights to 
species overlooking the fact that the Constitution grants rights only 
to persons. There is nothing in the Constitution that grants any right 
to a bird or turtle.
    Only the Congress of the United States can change this situation.
    In the April 30 court hearing, the judge acknowledged about five 
different times the need for public participation and review, but then, 
at exactly 1 hour into the hearing, he completely set aside any public 
concern or comment, and signed off on the settlement. The Outer Banks 
community interveners had no choice but to go along with the agreement 
or have the beach shut down completely. The court knew that and could 
have at least opened the settlement to include public hearings or 
directed the Park Service to promulgate a final management plan by a 
certain date.
    This consent decree is a classic example of how not to formulate 
environmental policy. It is good example of why good public policy must 
always be transparent, provide for public review and comment. The 
formulation of good policy takes thoughtful planning and organization, 
time for citizen interaction and review, including science review, much 
along the lines of what is currently being attempted with the 
regulation-negotiation process for a final ORV plan initiated by the 
National Park Service at the end of last year.
    No reasonable person doubts the need of an ORV management plan for 
the National Sea Shore especially in the face of regional population 
growth and improved highway systems onto the Outer Banks of North 
Carolina.
    After many years of Department of Interior foot-dragging, an ORV 
regulation-negotiation process was launched earlier this year. Under 
the direction of a highly experienced and professionally competent park 
superintendent, the National Park Service went out of its way to 
encourage public participation in ORV management for the Park.
    The environmental activist organizations, who now control a large 
portion of the park through consent decree, agreed months ago to take 
part, along with dozens of other citizen stakeholders, in a highly 
visible process of good faith regulation-negotiation. The primary 
purpose of the regulation-negotiation process is to provide factual 
information to the Park Service for an effective ORV management plan, 
provide equitable consideration of all citizen groups, and avoid costly 
litigation. Through their litigation, while sitting as major 
participants of the negotiation process, the environmental activists 
violated their agreement and indicated beyond any doubt they have no 
intention of good faith negotiation.
    Within the recent judicial review, no consideration was given to 
the desirability and benefits of a publicly transparent regulatory 
negotiation process or the breach of agreement and inequity of the 
lawsuit. The court has sent a very clear message that it does not care 
what the public thinks or has to offer in terms of the effective 
management of the national park. This is an insult to citizens who have 
taken the time and their personal resources to attend and observe the 
regulation-negotiation meetings, sit at the table to negotiate in good 
faith, provide factual information and constructive comment to the Park 
Service.
    The consent decree has been shown to be ``bad public policy'' to 
the point of being a ``public nuisance.''
    The public has been deprived of public participation and park 
access rights. The public has been denied access to a park and 
shoreline it owns. Particularly affected now and in the future are the 
disabled and elderly members of our society who cannot get to the beach 
even on foot.
    The consent decree has created enormous public anxiety and outrage. 
This new policy has been the catalyst for threats of physical violence, 
public disobedience, slander, and vandalism.
    Park Service professionals, many having years of specialized 
training and experience and decades of faithful public service, have 
been stripped of their professional prerogatives to make judgment calls 
and deal reasonably and equitably with the public they are sworn to 
serve.
    The consent decree has contributed to a distrust of government. 
Government officers are forced to arm themselves and enforce laws that 
they themselves find as disturbing and unreasonably constraining as the 
public.
    There are unnecessary tensions between citizen groups. Persons who 
have some legitimate special interest in bird or nature watching, or 
simply walking or sitting on an ORV free region of the shoreline, are 
now viewed as the enemy of the ORV or surf-fishing public.
    Especially disturbing to me as a citizen soldier of this nation is 
that the consent decree establishes a policy of retaliation and 
punishment for the general public when violations of the consent decree 
occur. Every time there is an act of vandalism, the Park Service is 
required, without any management discretion, to significantly extend 
boundaries and widen non-access areas. This serves no practical 
management need and is simply a ``punishment'', much along the lines of 
what I have personally observed and fought against in a police state on 
foreign shores. So as to prevent further denial of beach access, 
citizen groups have been forced to reach into their own pockets to 
offer substantial amounts of reward money for the identification of and 
conviction of those who break the law as dictated by the consent 
decree.
    Visits to the National Park and Outer Banks community are down. 
Visitor habits and plans are changing. Already hundreds of trips to the 
Outer Banks have been canceled or redirected to other parts of the 
country because of actual or threatened beach closures
    The local economy has been adversely affected by the consent 
decree. Already this policy has produced significant economic harm to 
small family businesses. For some businesses, revenues are down 50% or 
more and some employees have been laid off. Gas station, restaurant, 
and motel revenues are down. Some longtime residents of the island are 
planning to relocate.
    Risks of ORV and pedestrian accidents have increased as ORVs and 
pedestrians are forced into smaller areas. On certain days, there is 
limited public parking and unclear direction and access to the 
shoreline. The judge himself predicted this in the April 30 hearing.
    Damages to sensitive sectors of the Park environment will 
increasingly occur as ORVs and pedestrian traffic are channeled into 
smaller regions of the Park, overrunning the carrying capacity of those 
sectors of the ecosystem.
    The closure provisions of the settlement are not based on well-
established science.
    The congress and the federal courts have repeatedly directed and 
ruled that before the government promulgates environmental regulations, 
there must be a hard look at the scientific basis for those rules. This 
administrative process principle is the ``Hard Look Doctrine.'' The 
science is ``environmental criteria.''
    For the federal government to justify the need for resource 
management such as that found in the consent decree there must be a 
basis in recognized and published science. In this consent decree, 
there is a clear and gross absence of well-established scientific 
information underpinning all technical aspects of the closure rule.
    There is no peer-reviewed science to support the claims of species 
loss as the result of ORV traffic. That claim is not verified. 
Environmental activists have claimed the loss of species due to ORV 
traffic on the beach through press releases.
    That is not the way credible science is presented or reviewed.
    The court accepted that claim without open court hearing and 
examination of expert witnesses.
    Given the significant economic consequences and beach access loss 
to the public, prior to restrictive regulation, our federal government 
owes the public an answer to the following questions about the factual 
and scientific basis:

  <bullet> What are the studies, science and protocols used as the 
        basis for the regulation and its technical content?
  <bullet> Who are the specific authors of those science-based 
        materials and who do they work for and represent--government, 
        universities, environmental activists groups?
  <bullet> What is the area of expertise and what are their 
        qualifications as researchers?
  <bullet> Where can the public acquire the raw or original data used 
        to create the criteria or science base?
  <bullet> Were the studies on which the criteria based peer reviewed 
        or published?
  <bullet> Who were the independent peer reviewers?
  <bullet> Where are written copies of their review findings?
  <bullet> What protocols were used to collect the data and were they 
        ever peer reviewed?
  <bullet> Where, when, and how were the data collected?
  <bullet> What quality control system and statistical analysis process 
        was used in data collection and presentation?

    Questions like these are always asked in open public science review 
before an environmental regulation as significant as this one is 
imposed upon the public.
    Congress should consider mandating that the National Academy of 
Sciences review the technical basis for park access closures such as 
those in the consent decree.
    The protection and production of bird species was the stated and 
widely proclaimed justification for court approval of the ``closure'' 
provisions of the settlement.
    Two species of birds, the Piping Plover and the American 
Oystercatcher, neither of which are listed by the government as 
endangered, are specified in the settlement.
    Data published by the federal agencies, prior to the consent 
decree, suggests that the piping plover is ``recovering'' on a regional 
and national basis. Data in no way suggests that additional beach 
closures at the Cape Hatteras National Seashore are essential for the 
recovery of the bird. The data indicate that piping plover populations 
everywhere are not in decline, as is repeatedly stated by special 
interest environmentalist organizations. Piping plover populations are 
growing or have at least stabilized even in the most extreme and remote 
regions of their range. The number of birds observed in recent times 
indicates that conservation efforts, without the consent decree, are 
working.
    Data collected and published by the Park Service in recent weeks in 
no way support the claim by environmentalists that ORVs reduce the 
productivity of birds. In fact, the data suggest that the Cape Hatteras 
National Seashore Interim Management Plan, prepared with public input 
and review in 2005, published in the federal register, has been 
effective at protecting birds and natural resources.
    The Interim Management Plan was set aside by the court and replaced 
by the consent decree and settlement that mandated closures. The 
closures of recent months have been of exorbitantly high cost to the 
public but have not contributed to an improvement in species production 
or safety.
    Along a 60-mile park coast, only seven piping plovers fledged this 
breeding season when beaches were closed to the public. The 15-year 
production rate for the piping plover is 0.66 chicks/pair. On July 25, 
2008, the Park Service announced that this year's Piping Plover 
production level is 0.64. This year's rate is less that the rate when 
the Interim Management Plan was in effect and there was beach access by 
ORVs and pedestrians. Much is the same for the American Oystercatcher, 
out of 27 birds that hatched only 10 have fledged.
    The huge closure distances in the settlement keep pedestrians and 
ORVs out of nesting areas. At the same time, the closures also provide 
for the proliferation and increased free movement of predators. In 
effect, the closures encourage predation. The majority of nests and 
hatched birds this closure season have been lost to predation, a few to 
storms, one at the hands of a university researcher. None has been lost 
to ORVs.
    For the reasons I have presented in this testimony, I respectfully 
request that the committee send Senate Bill 3113 to the full Senate to 
be voted upon and return full management of Cape Hatteras National Sea 
Shore to the National Park Service.
                                 ______
                                 
   Statement of Joseph Vaile, Klamath-Siskiyou Wildlands Center, Lee 
 Hippy, Clean Air & Water, Inc., Dave Willis, Soda Mountain Wilderness 
  Council, Josh Laughlin, Cascadia Wildlands Project, Erik Fernandez, 
                        Oregon Wild, on S. 3148

    Thank you for this opportunity to offer written testimony before 
the Subcommittee on National Parks of the Senate Committee on Energy 
and Natural Resources Committee concerning S. 3148, the Oregon Caves 
Boundary Adjustment Act of 2008. S. 3148 would expand the Oregon Caves 
National Monument, designate Cave Creek and its tributaries as a unit 
of the National Wild and Scenic Rivers System and also provide 
tremendous ecological and economic benefit through the permanent 
retirement of the Big Grayback and Billy Mountain grazing allotments.
    An expanded Oregon Caves National Monument (OCNM) would (1) include 
the surface drinking water supply for the 80,000 visitors annually; (2) 
protect additional surface and subsurface natural resources for current 
and future generations of Americans; and (3) provide local rural 
economic development opportunities.

            BACKGROUND ON THE OREGON CAVES NATIONAL MONUMENT

    The OCNM is a 480-acre national monument located in the botanically 
rich Siskiyou Mountains. The monument is important to the economy and 
identity of the local area; the nearest town is named Cave Junction 
after the Oregon Caves. Despite being the second smallest unit (in 
area) of the National Park System, OCNM receives about 80,000 visitors 
annually,. Oregon Caves is the only cave system in the nation with its 
particular geologic history. It is one of the few marble caves in the 
nation available for public tours and is longest tour cave west of the 
Continental Divide. The cave tour route, with its twists, turns, 
climbs, descents, narrowness and length is one of the most adventurous 
cave tour routes in North America.
    A perennial stream, the ``River Styx,'' (an underground portion of 
Cave Creek) flows through part of the cave system. The cave ecosystem 
provides habitat for numerous plants and animals, including some state 
sensitive species such as Townsend's big-eared bats and several cave-
adapted species of arthropods found only on the national monument. 
While the 1909 proclamation that established the national monument 
focused on unique subsurface resources, the significance of the land 
surface above the cave must not be overlooked. Surface processes, 
especially through the exchange of air, water and food, closely 
influence many of the geological and biological processes within the 
cave.
    Recent discoveries indicate that this network of caverns possesses 
a significant collection of Pleistocene aged fossils, including jaguar 
and grizzly bear. Grizzly bones that were found in the cave in 1995 
were estimated to be at least 50,000 years old--the oldest known from 
either North or South America. The monument preserves an excellent 
example of the Siskiyou Mountain's primeval forest: an area with one of 
the highest percentages of endemic plants in the country.

                   THE NEED TO ADJUST THE BOUNDARIES

    When the OCNM was established in 1909, the small rectangular 
boundary was thought to be adequate to protect the cave. Through the 
years, scientific research and technology has provided new information 
about cave ecology, how it is influenced by its surface environment and 
related hydrological processes. The current 480-acre boundary is 
insufficient to adequately protect this cave system and its unique 
contributions to local economies and our national heritage. The 
National Park Service proposed expansion numerous times, first in 1939, 
again in 1949 and most recently in 1999. Most of the boundary 
adjustments proposed in S. 3148 are part of the 1998 General Management 
Plan for the monument when the National Park Service deemed the greater 
Lake Creek watershed suitable for inclusion in the OCNM.

       INCREASING VISITATION AND ADVANCING COMMUNITY DEVELOPMENT

    The boundary adjustment proposed in S 3148 is needed for several 
reasons.
    A larger monument would increase the monument's visibility and 
attractions. This could lengthen visit time of the OCNM leading to 
economic development in local communities. The average visit to OCNM is 
only 2.5 hours, and the most common question is, ``What can we do after 
the cave tour?'' Economic models indicate that if the 2.5-hour average 
visit were extended to a one-day visit, local businesses would 
significantly benefit from added tourist dollars. (Personal 
communication with Craig Ackermann, Superintendent, OCNM, February 20, 
2007.) The OCNM is surrounded by excellent outdoor opportunities 
including hiking, horseback riding, and bird-watching. Adjacent 
recreation opportunities should be protected within the OCNM 
boundaries, and marketed along with cave tours. In addition nearby 
Forest Service campgrounds would be incorporated into the monument.
    The four trails within the current OCNM range from 0.7-3.3 miles. A 
number of longer trails around the monument offer visitors stunning 
views. Most of the trails weave in and out of the present OCNM 
boundary, and some connect with larger hiking trail systems including 
the Boundary and Pacific Crest Trails, giving hikers access to the Red 
Buttes Wilderness, Bigelow Lakes, Mt. Elijah (named for Elijah 
Davidson, the first Euro-American to see the Oregon Caves), and other 
popular areas.
    Located in the Siskiyou Mountains of southern Josephine County, 
OCNM offers great potential for one of the state's most struggling 
economic communities by nurturing a budding tourism and recreation 
economy. According to a 1994 Illinois Valley Tourism Assessment 
developed for the Oregon Economic Development Department, Oregon Caves 
is a ``centerpiece attraction'' for the tourism industry in the 
Illinois Valley area.
    Highway 199, stretching the length of the Illinois Valley, is a 
popular travel route between Redwood National Park and Crater Lake 
National Park, as well as a corridor for visitors that travel from the 
cultural center of Ashland to visit the Pacific Coast, as well as the 
OCNM. Surveys conducted in southwest Oregon and northern California 
describe visitors to this region to be primarily families taking a 
short vacation from the metropolitan areas of Portland, Seattle, 
Sacramento, San Francisco, and southern California (Smokejumper Base 
Interpretive Plan, undated).
    Highway 199 has an annual traffic load of about one million 
vehicles. In 1992, the state estimated that 289,000 vehicles, about one 
third of the vehicles traveling Highway 199, represented tourist 
traffic. Surveys conducted at OCNM indicate that average daily spending 
per tourist group is $90. These numbers indicate that more than $26 
million in tourism dollars pass through the Highway 199 corridor 
annually (Letter to Oregon Tourism Commission from OCNM Chief of 
Interpretation Roger Brandt, 18 April 2004). Compared to neighboring 
northern California counties, where tourism dollars per tourist group 
range from $95-$154 (Sheffield, Emilyn, 1998. Northern California 
Scenic Byway Network Newsletter, Chico, California), Josephine County 
clearly has room for economic development in this sector.
    A 1995 survey of visitors at the OCNM found that the top reasons 
for travel were viewing scenery, doing something with the family, and 
to learn more about nature. (Rolloff, David, Rebecca Johnson, and Bo 
Shelby, 1995). Similar studies have found that people come to Oregon to 
indulge in their interest in outdoor recreation, nature experiences and 
historic sites (Brandt, 2004).

                 FUELS REDUCTION AND FOREST MANAGEMENT

    It has been implied that fuels reduction or other forest thinning 
operations would not occur in the adjusted OCNM boundaries (see the 
Statement for the Record of Joel Holtrop, Deputy Chief, National Forest 
System of the U.S. Forest Service). We strongly disagree with this 
assessment. The National Park Service has a very active fire management 
and fuels reduction program on units where fire management is an issue. 
In fact, there is evidence that the National Park Service is more 
equipped and better funded to carry out fuels reduction projects in a 
timely and efficient manner due to larger budgets.
    Broadly, we agree with the Forest Service that fire and fuels 
issues are extremely important on the 1.8 million acres Rogue River-
Siskiyou National Forest. However, the OCNM boundary adjustments area 
(4,070 acres), only constitutes 0.23% of the forest area, an immaterial 
portion of the landscape to affect fire behavior. We do agree that the 
Forest Service and Park Service should continue collaborating on fire 
and fuels reduction projects in this area and we support section 5(b) 
of the S. 3148 regarding forest restoration as long as it is consistent 
with the National Park Service's Organic Act.
    We also strongly disagree with Mr. Haltrop's characterization of 
the efforts of the Forest Service in the OCNM area. We are very 
familiar with and support of these efforts by the Forest Service, but 
the facts presented by Mr. Haltrop are incorrect. Through a 
collaborative effort with support from the very organizations providing 
this testimony, the U.S. Forest Service produced the East Illinois 
Young Managed Stands project. This project looked at a 70,000-acre 
project area and identified approximately 4,000 acres for treatment. 
Only 100 acres were identified in the OCNM expansion area. No other 
treatments have been specifically identified to date.
    Moreover, the Forest Service has not yet determined if a timber 
sale or stewardship contract for this project will be utilized for this 
single thinning unit. A stewardship contract would not produce any 
revenue to the Treasury. Thus, it is premature for Mr. Haltrop to offer 
figures of the revenue that the Treasury or local counties would 
receive. This timber has not been appraised, laid out, offered for bid, 
contracted, sold or awarded. With the declining timber market due to 
housing slow downs, many sales on the Rogue River-Siskiyou National 
Forest are not producing bids and many. While the Forest Service has 
plans to move forward with thinning in this single unit--which, again, 
we support--there are no immediate plans as Mr. Haltrop implies, nor 
would this single project solve all of the fire and fuels issues in the 
OCNM. We are convinced that the Park Service could perform the 
necessary management activities to restore the forests to more natural 
fire and fuel conditions on this small portion of the landscape.

                   GRAZING AND EQUITABLE COMPENSATION

    KS Wild is also supportive of the provision the bill to provide for 
the donation of a Forest Service grazing permit and a Bureau of Land 
Management grazing lease. The Rogue River-Siskiyou National Forest's 
Big Grayback Grazing Allotment (17,703 acres) overlaps about half of 
the 4,070-acre OCNM expansion area. National Park Service regulations 
would prohibit continued livestock grazing in the expanded national 
monument. Currently livestock that use the Big Grayback Grazing 
Allotment tend to concentrate in the Bigelow Lakes area, a designated 
botanical special interest area.
    Continuing to grazing livestock on the remainder of the Big 
Grayback Grazing Allotment is problematic for several reasons. First, 
as noted, livestock concentrate in the Bigelow Lakes area. Second, 
there are two other designated botanical areas (Miller Lake, 588 acres; 
Grayback Mountain, 591 acres) and the Oliver Matthews Research Natural 
Area, where livestock grazing occurs, contrary to the purpose of the 
protective designation. In addition, there are 3,553 acres of Riparian 
Reserves, where livestock need to be limited. Parts of the allotment 
are also in the Sucker Creek Key Watershed for salmonid recovery. 
Finally, much of the allotment is in the Kangaroo Inventoried Roadless 
Area.
    Additionally, surface water sources used for the OCNM potable water 
supply are located on national forest land. Water is piped to park 
facilities where it is treated. Actions affected drainage in the 
national forest--upslope from the monument--have the potential to 
impact the monument. Activities such as mining, logging, grazing and 
stock use, have the potential to contaminate the OCNM water resources 
(OCNM General Management Plan, 1999, 8).
    The 4,758-acre Bureau of Land Management Billy Mountain Grazing 
Lease is on the on the Ashland Resource Area of the Medford District 
BLM, approximately 3/4 of a mile south of the town of Applegate in 
Jackson County, Oregon. The grazing allotment is leased by the same 
rancher that leases the Forest Service's Big Grayback Grazing 
Allotment. The allotment is next door to the rancher's base property. 
He uses the BLM allotment in the spring and the Forest Service 
allotment in the summer.
    The Billy Mountain Grazing Allotment includes the Enchanted Forest, 
a grove of oak, pine and maple, and a popular hiking trail. The 
allotment is interspersed with private land and there have been several 
complaints over the years by landowners dismayed by livestock on their 
property. Billy Mountain also includes habitat for the federally 
protected Gentner's fritillary (Fritillaria gentnerii), a member of the 
Lily family. This rare plant is found in the Applegate Valley in and 
near allotment. Its growing season includes the period when livestock 
may be using the allotment.
    Expansion of the national monument makes continued grazing of the 
Big Grayback Grazing Allotment very problematic, which therefore makes 
continued grazing of the Billy Mountain Grazing Allotment also 
problematic. Conservation interests (specifically Klamath-Siskiyou 
Wildlands Center) and rancher Phil Krouse have an understanding in 
which Mr. Krouse will received compensation from KS Wild in return his 
donation of his federal grazing permit and lease to the federal 
government, as provided in the legislation.
    In the spring of 2008, the Forest Service issued a decision to 
continue grazing on the Big Grayback Grazing Allotment for 10 years. 
While not reducing the amount of livestock grazing for the allotment, 
the decision requires investments in fences and changes in management 
to prevent overgrazing of Botanical Areas and to evenly distribute 
livestock. To comply with its own forest management plan, the Forest 
Service requires a 1/4-mile fence must be built in the Bigelow Lakes 
area.
    Fencing Bigelow Lakes is controversial from the standpoint of both 
conservation and ranching interests because not enough of the botanical 
area will be fenced, fences are expensive, often fail and do not last. 
Fencing is a bad solution because of the high initial cost ($7,030/mile 
according to the Forest Service), as well as the high ongoing 
maintenance costs. Fences in forests and deep snow require endless 
maintenance; they don't always work and are always an impediment to 
wildlife. The agency places additional requirements on the permittee to 
keep livestock out of certain areas.

                            COSTS OF GRAZING

    Both the ecological and fiscal costs of various alternatives to 
continue livestock grazing on the Big Grayback allotment are such that 
the best and least costly option is to simply buyout the grazing permit 
and not spend tax dollars endlessly to build and maintain fences.
    The annual income to the federal treasury from the Forest Service 
grazing permit and the BLM grazing lease is $118.13. The cost of 
preparing the Environmental Assessment to update the Big Grayback 
Grazing Allotment is at least $100,000. On average, the Forest Service 
and BLM lose $12.26/AUM and $7.64/AUM respectively, (GAO, 2005. 
Livestock Grazing: Federal Expenditures and Receipts Vary, Depending 
Upon Agency and Purpose of Fee Collection) or an average of $8,174.80 
annually. Based on the simple analysis above, the taxpayer would save 
an estimated $8,056.68 annually, by not grazing livestock in the two 
allotments.

                                HUNTING

    The expansion of the Oregon Caves National Monument by 4,070 acres 
from 480 acres to a total of 4,550 acres would result in an end of 
hunting pursuant to federal National Park System policy. This reduction 
in bear hunting opportunities is insignificant.
    The reduction of hunting area is insignificant. The proposed 
monument expansion is 4,070 acres, which is:

  <bullet> 0.55% of the 746,593 acres public (federal, state and 
        county) land in Josephine County.
  <bullet> 0.48% of the 848,395 acres of land in the Oregon Department 
        of Fish and Wildlife's Applegate (#28) Wildlife Management Unit 
        (all land between California border, US 199 and I-5). Most of 
        this land is open to hunting.
  <bullet> 0.23% of the 1.8 million-acre Rogue River Siskiyou National 
        Forest in Josephine, Jackson and Curry Counties, all of which 
        is open to hunting except campgrounds, etc.

    This minor amount of bear hunting area is unnecessary as there are 
fewer bear hunters and more bears are being killed.
    The number of Oregon bear hunters has declined 21% from an all-time 
high of 36,893 in 2001 to 29,077 in 2006. Yet, during the same time 
period, the number of bears killed increased 76% to 668 from 379 
(``Oregon General Bear Season and Harvest Summary'' in 2007 BIG GAME 
STATISTICS, Oregon Department of Fish and Wildlife, Salem).
                                 ______
                                 
 Statement of Alan Front, Senior Vice President, The Trust for Public 
                            Land, on S. 3247

    I appreciate the opportunity to express the support of The Trust 
for Public Land for S.3247, a bill introduced by Senators Carl Levin 
and Debbie Stabenow providing for the designation of the River Raisin 
National Battlefield Park in Michigan as a unit of the National Park 
System.
    The Trust for Public Land (TPL) conserves land for people to enjoy 
as parks, gardens, and natural areas, ensuring livable communities for 
generations to come. Since 1972, TPL has helped protect more than 2.1 
million acres of land in 46 states, the District of Columbia, Puerto 
Rico, the Virgin Islands, and Canada. Among the many land conservation 
projects we have worked on are historic sites such as Morristown 
National Historical Park, Chickamauga-Chattanooga National Military 
Park and Monocacy National Battlefield, whose protection ensures that 
our nation's unique history can be experienced by generations young and 
old, well into the future.
    S. 3247 would authorize the Secretary of the Interior to work with 
willing donors of land in Monroe and Wayne counties in Michigan to 
acquire sufficient lands to create the River Raisin National 
Battlefield Park. Once established, the park will be only the second 
national park unit in the state's Lower Peninsula and within a short 
distance from the population centers of Detroit and southeastern 
Michigan.
    The national battlefield park would commemorate the Battle of the 
River Raisin in January, 1813, during the War of 1812. Out of the 
hundreds of American participants in the battle during a campaign to 
retake Detroit from the British, only 33 escaped death, injury, or 
capture. The defeat became a rallying cry for the rest of the war, 
which eventually assured American independence and sovereignty.
    There is a pressing need to protect lands whose history relates to 
the War of 1812 period. In 1996 Congress accurately found that ``the 
historical integrity of many Revolutionary War sites and War of 1812 
sites is at risk because many of the sites are located in regions that 
are undergoing rapid urban or suburban development.'' Nearly half of 
the 697 Revolutionary War and War of 1812 sites studied in a National 
Park Service report delivered to Congress in September 2007 have 
already been lost. This vital legislation would ensure that a part of 
that heritage would be saved for future generations before it too is 
lost.
    We are pleased, Mr. Chairman, that your subcommittee is examining 
this legislation today and support the efforts of Senators Levin and 
Stabenow to protect our nation's heritage lands. A companion bill, HR 
6470, introduced by Congressman John Dingell, is currently under 
consideration by the House Natural Resources Committee and we hope that 
Congress can move to final passage of this legislation during the 110th 
Congress.
    I thank you again, Mr. Chairman, for this opportunity to provide 
testimony in support of designating the River Raisin National 
Battlefield Park in Michigan.
                                 ______
                                 
        Statement of a Resident of southwest Oregon, on S. 3148

    I wish to urge the Committee to quickly report S. 3148 to the House 
with a recommendation for passage. As a resident of southwest Oregon, I 
am deeply concerned for the future of the Oregon Caves National 
Monument. The Monument at present is vastly too small, at 480 acres, to 
provide meaningful protections for the Monument's watershed and the 
plants and animals it supports.
    At the time of the Monument's establishment in 1909, far less was 
known about the science of ecosystem management, and the need to 
protect full ecosystems, not just individual features or species. The 
OCNM does not currently operate as anything resembling such a complete 
ecosystem within the present boundaries, and it therefore remains 
extremely vulnerable to impacts from cattle grazing and mining claims. 
Recognizing this issue, the Park Service has proposed a boundary 
expansion several times, most recently in 2000, and yet OCNM remains in 
its original, non-functionally small configuration.
    The southwest Oregon region has one of the greatest diversities of 
plant species in North America, but it does not currently enjoy 
protection commensurate with that significance. An expansion of OCNM 
would help to provide for that protection, and would address the 
immediate problem of cattle grazing in the watershed that drains to the 
cave system. This legislation would transfer 4,070 acres to the OCNM 
from the Forest Service. The land will enjoy far greater protection in 
the custody of the Park Service, as Forest Service lands remain 
vulnerable to development and mismanagement.
    Again, I urge the Committee to expedite the passage of S. 3148 to 
the full House with a favorable report. Thank you.
                                 ______
                                 
        Statement of Paul F. Torrence, Williams, OR, on S. 3148

    I wish to state my ardent support for the Oregon Caves National 
Monument Boundary Adjustment Act of 2008 (S. 3148). As you are aware, 
this valuable geological and ecological treasure presently consists of 
only 480 acres. This is not nearly enough to preserve the cave insofar 
as the surrounding and contributing watersheds are subject to 
activities such as cattle grazing that lead to substantial degradation 
of water quality. Insofar as Oregon Caves is a major economic boon to 
our area and are such an incredible natural resource, I hope the Senate 
will look favorably upon approval of SB 3148, embodying this minimal 
expansion previously recommended by the National Park Service.
    Thank you for this opportunity to comment on legislation vital to 
the economic and ecological health of our region here in Southern 
Oregon.
                                 ______
                                 
   Statement of the American Forest Resource Council, Portland, OR, 
                               on S. 3148

    Thank you for the opportunity to submit the American Forest 
Resource Council's (AFRC) testimony on S. 3148, the Oregon Caves 
National Monument Boundary Adjustment Act of 2008.
    AFRC represents approximately 90 forest products manufacturers and 
forest landowner companies in the west and the majority of the mill 
capacity in the Pacific Northwest. Our mission is to promote 
sustainable forest management on our federal and public lands. Many of 
our members have their operations in rural communities adjacent to the 
federal forests of the Rogue-Siskiyou National Forest where the Oregon 
Caves expansion is proposed. The management on these federal forest 
lands ultimately dictates not only the health of the forests, but also 
the health and mere existence of forest products companies and, in 
turn, the economic health of local communities. AFRC members are proud 
to provide thousands of quality, family-wage jobs. We are also 
committed to being part of the solution to restore our public forests 
while providing Americans with quality wood products and renewable 
biomass energy.
    AFRC has several concerns with this bill, but the most alarming is 
the potential harm to life and property if action is not taken to 
reduce the fuel loads in the proposed Oregon Caves expansion area. The 
area in question, the Oregon Caves National Monument and the proposed 
expansion area, is located in a box canyon with only one access road. 
This road dead-ends in the ``box'' of the canyon and is the only exit 
out of the canyon. Were a wildfire to start in this area, not only 
would the Oregon Caves area be at risk, but also the lives of many 
tourists who visit the Oregon Caves in the summer--coincidentally 
during the fire season. As elected officials and Oregonians continue to 
discuss the need to address Oregon's declining forest health and 
introduce federal legislation addressing the issue, we would be remiss 
to ignore the potentially dangerous situation in the Oregon Caves area.
    The Oregon Caves expansion area is similar in nature to areas that 
burned in the 2002 Biscuit Fire. The proposed expansion would transfer 
4,080 acres of dry, mixed conifer forests in the Rogue-Siskiyou 
National Forest to the National Park Service (NPS). Forests in this 
area historically had a very frequent fire return interval (10-50 
years) before fire suppression became prevalent. Due to decades of fire 
suppression, the forests proposed in this expansion have hazardous fuel 
loads that put them at the highest risk of catastrophic wildfire--
condition class III.
    If or when fires start in this area, it would be nearly impossible 
to keep them as ground fires and they will almost surely turn into high 
severity crown fires similar to many areas burned in the Biscuit Fire. 
The Biscuit Fire burned 499,965 acres, mostly on the Wild Rivers Ranger 
District of the Rogue-Siskiyou National Forest, which is the same 
ranger district for the proposed Oregon Caves expansion. Half of the 
Biscuit Fire burned at high severity, killing at least 75% of the 
vegetation in its path. Further, roughly three-quarters of the area 
that burned was designated wilderness or roadless in which fire had 
been suppressed for decades and fuel loads were in the condition class 
III category. Density management and fuels reduction work must be done 
in this area to prevent unnaturally severe catastrophic forest fires 
and protect life and property.
    Thankfully, the Forest Service has taken the necessary steps to 
plan treatment in these areas. More than half of the acres in this 
proposal are included in one of two Environmental Assessments that 
approve density management and fuels reduction work, the East Illinois 
Valley EA or the Plantation Thin EA (see attached projects map). This 
means that these acres have been approved through the NEPA process, 
with no appeals or litigation, to be managed to improve forest health 
and reduce fire hazard. The NEPA work has already been paid for and the 
Forest Service is ready to move forward with work in these stands. 
These treatments are desperately needed in the proposed Oregon Caves 
expansion to lower the fires regime condition class from condition 
class III, where the fire regime has been substantially altered from 
natural (historical) ranges. If these treatments do not happen and a 
wildfire occurs, these stands would be at a high risk of losing key 
ecosystem components due to dramatic changes in one or more of the 
following: fire size, intensity, severity, and landscape patterns.
    It's also important to note that 2,740 acres of the proposed 4,080 
acres included in the Oregon Caves boundary modification proposal is 
classified as ``Late Successional Reserves'' or ``LSRs'' under the 1994 
Clinton Northwest Forest Plan. These areas were set aside to create 
future late-successional forests (generally what most folks would think 
of as ``old growth'' forests) for late succession species, such as the 
Northern Spotted Owl. Fuels reduction and density management 
treatments, like those contemplated for portions of this area, were 
specifically envisioned under the Plan to speed the development of 
these characteristics while making stands more fire resilient to avoid 
stand replacing wildfire events.
    The American Forest Resource Council believes the Forest Service is 
best suited to manage the 4,080 acres proposed for transfer to the 
National Park Service. Historically and given the mission of both 
agencies, the Forest Service has the authority, ability and know-how to 
manage the forest appropriately by reducing the risk of catastrophic 
wildfire through fuels reduction while also helping to speed the 
creation of late-successional habitat. If the Congress deems that the 
4,080 acres in question must be transferred to the NPS, AFRC believes 
at least a 10 year transition period should be legislated. This would 
allow the Rogue-Siskiyou Forest time complete the much-needed density 
management and fuels reduction projects that have already been through 
the NEPA process. Furthermore, AFRC believes the NPS should be given 
direction to continue to perform density management and fuels reduction 
treatments as needed in this area to maintain forests in an acceptable 
fire regime condition class into the future. Most importantly, this 
area must be treated to protect the monument and the many tourists that 
visit this beautiful part of Oregon.
    Thank you for the opportunity to submit written testimony.
                                 ______
                                 
                        The Monroe Evening News
              full speed ahead on battlefield plan (edit)
Copyright, 2008. Published: August 3, 2008

    Adding Monroe's River Raisin Battlefield to the national parks 
system wouldn't just benefit the Monroe area. It would benefit all 
Americans, furthering their love and understanding of U.S. history.
    That is the point area supporters of the battlefield proposal tried 
to hammer home in a hearing Wednesday before a Senate subcommittee.
    The hearing was called on short order and well ahead of schedule. 
No doubt the strong support of U.S. Rep. John D. Dingell, D-Dearborn, 
and Michigan's U.S. senators, Carl Levin and Debbie Stabenow, helped. 
And perhaps Secretary of the Interior Dirk Kempthorne, who had his ear 
bent by local supporters while in Monroe County on other business last 
week, lent his support, too.
    We're grateful for the expedited hearing. Still, it would have been 
nice to see the same sense of urgency among representatives of the 
national parks system at last week's hearing. They recommended that 
action on the battlefield proposal be put off, possibly for two or 
three years, until a special resource study can be completed.
    Excuse us ... two or three years?
    That could be a problem. The 200th anniversary of the War of 1812 
is just four years off. The Massacre of the River Raisin took place in 
1813.
    Four years from now, if Americans are fired up about the 
bicentennial, they might just want to see key battle sites while on 
vacation. Some of them, in fact, might be stoked for a visit here after 
touring Gettysburg or other Civil War battlefields during the 150th 
anniversary of that celebration.
    But what will those visitors find here?
    If Washington sticks to the timetable laid out by the bureaucrats, 
the nation may miss a crucial opportunity.
    Naturally, the feds will want to conduct some studies. But what 
happened here in January, 1813, is no secret.
    At that time, what was then called Frenchtown was occupied by 
Canadians, British soldiers and their Native American allies. A band of 
600 American troops forced them out. But a few days later the British 
counterattacked, retaking the settlement and forcing Americans to 
retreat. And injured Americans left behind by the British later were 
slaughtered by the Indians.
    That massacre sparked outrage. The resultant rallying cry 
``Remember the Raisin!'' helped inspire Americans in the subsequent 
battles of the war. In last week's hearing, Sen. Levin and William H. 
Braunlich, president of the Monroe County Historical Society, drew a 
comparison to the cry ``Remember 9/11'' that sprang up after the Sept. 
21 terrorist attacks.
    Much of the spadework for a national park at the battle site 
already has been done--literally as well as figuratively. More than $5 
million already has been spent on land acquisition, environmental 
cleanup, archaeological probes and other efforts. As Mr. Braunlich 
noted, 40 acres already are under title to public or nonprofit 
agencies, all of which are prepared to transfer title to the federal 
government.
    Another War of 1812 battle site, Fort McHenry in Baltimore, already 
is part of the national park system. The fort's survival of a fierce 
British naval bombardment inspired ``The Star Spangled Banner.'' In 
addition to the fort, there is a visitors' center with a gift shop and 
a small auditorium, a statue and a swath of green next to the water 
suitable for picnics. The River Raisin Battlefield doesn't have a fort 
or a national anthem behind it. It does have a visitors' center and 
auditorium. But it is historically important and surely worth a modest 
upgrade by the feds before the bicentennial. Local supporters want to 
make it a gift to the American people. Washington ought to accept the 
gift in a timely manner.
                                 ______
                                 
       Statement of Hon. Les AuCoin, Ashland, Oregon, on S. 3148

    I am writing in support of the Oregon Caves National Monument 
Boundary Adjustment Act of 2008 (S. 3148), introduced by former 
colleague, Senator Ron Wyden.
    The National Park Service recognized the unique ecological and 
hydrological resources of the Oregon Caves when the Oregon Caves 
National Monument was established in 1909. In the years that followed, 
many recognized that these resources required a larger boundary than 
the 480 acres covered under the inaugural designation. Unfortunately, 
repeated recommendations over the decades to expand the boundary were 
fruitless--including, I am sad to note, my own terms in Congress. I am 
pleased that Senator Wyden has given us an opportunity to finally give 
this natural treasure the protection it warrants.
    In 1939, Monument staff recommended a boundary expansion to 
conserve the upper Lake Creek watershed, to provide greater 
recreational opportunities such as hiking and horseback riding, and to 
protect the geological and botanical features, and views of the rugged 
Siskiyou Mountains, one of the most unusual ranges in the lower 48 
states.
    When that recommendation was unsuccessful, another boundary 
expansion was proposed in 1949. An interagency committee comprised of 
U.S. Forest Service, Bureau of Land Management and the National Park 
Service sent a memorandum to the NPS Regional Director that stated, in 
part, ``In 1936 an extension of Oregon Caves National Monument would 
have been highly desirable and far-sighted; in 1949 it has become 
urgent.''
    Now comes this most recent recommendation for expansion, which was 
in the NPS' General Management Plan of 2000.
    Clearly the time is past due to expand the Monument boundary from 
its current miniature 480 acres to an ecologically-based boundary that 
would protect the entire Cave Creek watershed. The relationship between 
the terrestrial surface and the caves cannot be overemphasized, yet it 
was barely understood, if at all, in 1909. Surface processes and the 
exchange of air and water closely influence cave ecology. If we want to 
protect the Oregon Caves in perpetuity, we must protect its watershed 
and the landscape above them.
    There are many extraordinary attributes of the Oregon Caves 
National Monument, including the longest marble cave open to the public 
west of the Continental Divide, the underground River Styx, unique 
geology, globally significant botanical diversity and a valued 
collection of Pleistocene aged fossils, including jaguar and grizzly.
    In addition to the ecological and geological value of the Oregon 
Caves, the Monument provides an important economic engine for rural 
communities in Josephine County. The Monument is a destination for 
nearly 100,000 visitors a year, and is a critical source of revenue for 
local businesses in Cave Junction and the greater Illinois River 
Valley. An expanded Monument, well timed with its centennial 
anniversary celebrations, would bolster visibility and visitation in an 
area that benefits greatly from tourism.
    I am happy to see that S.3148 includes a provision to retire the 
grazing allotment in the watershed, which has caused water quality 
concerns, including contamination of the Monument's drinking water 
supply, for decades.
    As a resident of southwest Oregon and a former Member of Congress 
who represented Oregonians for 18 years, I encourage the committee to 
advance this legislation as soon as possible.
                                 ______
                                 
  Statement of Larry Hardham, President, Cape Hatteras Anglers Club, 
                               on S. 3113

    Thank you and members of the subcommittee for the opportunity to 
submit written testimony for the record. My name is Larry Hardham, 
president of the Cape Hatteras Anglers Club since 1999. The Cape 
Hatteras Anglers Club has just over 1000 members (current on their 
dues) residing in 26 states. Many of our members live here on the Outer 
Banks and have volunteered for years in beach clean-ups, interpretive 
programs and as lighthouse docents here at the Cape Hatteras National 
Seashore. I personally have over 1000 volunteer hours with both Cape 
Hatteras National Seashore and Pea Island National Wildlife Refuge 
(PINWR).
    I write you to express the concern of our membership about the 
effects of the court ordered decree and a request to return control of 
the Cape Hatteras National Seashore (CHNS) back to the National Park 
Service (NPS) and its Interim Strategy via Senate Bill 3113.
    The United States Congress authorized the Cape Hatteras National 
Seashore Recreation Area in 1937 and 1941. The NPS has seen fit to drop 
Recreation Area from the name of the seashore without Congressional 
approval. Vehicular access to beach areas has been and is allowed due 
to the long distances from the few parking areas at the Seashore and 
has become required by visitors (especially the handicapped and elderly 
citizens). In 1978, through a public process an Off Road Vehicle (ORV) 
Plan was developed, but NPS never followed through with a listing in 
the Federal Register and we were left in non-compliance with two 
Executive Orders. CHNS implemented an Interim Protected Species 
Strategy in 2007 which also went through a very public process with an 
Environmental Assessment, and was issued a Biological Opinion by USF&W 
and a Finding of No Significant Impact by the NPS. Also in 2007, a 
Negotiated Rule Making Committee was formed to develop an ORV Plan for 
CHNS and comply with the 35 year old Executive Orders. In early 2008, 
several members of the Negotiated Rule Making Committee (Defenders of 
Wildlife and National Audubon Society represented by a third member 
Southern Environmental Law Center) brought a law suit against NPS and 
USF&W based on the lack of an ORV Plan and the perceived lack of 
protection of sea turtles and selected birds under the Interim 
Strategy. The resulting court ordered decree imposed extremely large 
closures (such as 1000 meters on either side [or the equivalent total 
of over 21 football fields] of a piping plover chick where the Piping 
Plover Recovery Plan suggests only 600 meters), unwarranted night 
closures and closure expansion penalties for closure violations. The 
court ordered decree was issued without a public process, without 
considering the true economic impacts to the eight villages located 
within CHNS, the surrounding communities or NPS costs and manpower 
required for implementation.
    Please consider that the ``only 12 miles of beach'' closed (as 
these three environmental groups refer to this summer's closures) are 
the most popular beaches in the Seashore and accommodated growing 
numbers of birds and limited public access under the Interim Strategy 
in 2007. In fact, according to USF&W the reproductive success in the 
entire state of North Carolina for piping plovers in 2007 was ``one 
chick fledged for every four (4) pair of nesting adults''\1\ while at 
CHNS under the Interim Strategy four (4) chicks fledged from six (6) 
pair of nesting adults\2\ or a significantly higher rate than the 
entire state.\3\ The Interim Strategy allowed for recreation closer to 
nesting areas. Breeding pairs of American Oystercatchers increased in 
2007 as compared to 2006 from 23 to 24\4\ but went down again in 2008 
to 23.\5\ More Oystercatcher chicks fledged in the three year period 
ending in 2007 than the prior two three year periods.\6\ North Carolina 
Wildlife Resource Commission (NCWRC) reported that an island (Cora June 
Island) only one quarter of a mile behind Hatteras Village ``was home 
to one of the largest mixed tern/black skimmer colonies in the state 
with good numbers of nesting adults that successfully fledged hundreds 
of chicks.''\7\ Populations of gull-billed terns, common terns and 
black skimmers are down in the state and the seashore, but these three 
environmental groups have claimed that these populations of birds on 
this nearby island ``do not count'' because the island is not 
technically within the boundaries of CHNS. This does not make sense, is 
poor birding and biased bad science.
---------------------------------------------------------------------------
    \1\ U.S. Fish & Wildlife Service ``Field Notes Volume 2, Number 5 
Fall/Winter 2007'' page 11 at www.fws.gov/nc-es.
    \2\ Cape Hatteras National Seashore Resource Management Field 
Summary week of August 10-16, 2007.
    \3\ U.S. Fish & Wildlife Service ``Field Notes Volume 2, Number 5 
Fall/Winter 2007'' page 11 at www.fws.gov/nc-es.
    \4\ Slide presentation given to Negotiated Rule Making Committee by 
Ted Simons, Department of Zoology, North Carolina State University 
Raleigh, NC on June 17, 2008.
    \5\ Cape Hatteras National Seashore Resource Management Field 
Summary week of June 19-25, 2008.
    \6\ Slide presentation given to Negotiated Rule Making Committee by 
Ted Simons, Department of Zoology, North Carolina State University 
Raleigh, NC on June 17, 2008.
    \7\ N.C. Wildlife Resources Commission News Release: 
www.ncwildlife.org/news_stories/pg00_NewsRelease/
020408_waterbird_survey.htm.
---------------------------------------------------------------------------
    The court ordered decree was signed late in the day on April 30, 
2008 and piping plover adults were already at CHNS and in fact had 
started nesting.\8\ NPS data indicates that the eleven breeding pairs 
that ultimately nested at CHNS in 2008 were already here on April 30th 
and were a result of successes last year. The 2007 Interim Strategy 
allowed 67%\9\ of piping plover breeding pairs to fledge a chick but 
this year under the court ordered decree only 64%\10\ of breeding pairs 
fledged a chick.
---------------------------------------------------------------------------
    \8\ Cape Hatteras National Seashore Resource Management Field 
Summary under heading of Piping Plover Observations for weeks of April 
3-April9, 2008 through June 19-25, 2008.
    \9\ Cape Hatteras National Seashore Resource Management Field 
Summary week of August 10-16, 2007.
    \10\ Cape Hatteras National Seashore Resource Management Field 
Summary week of July 17-23, 2008.
---------------------------------------------------------------------------
    This nesting season found even more black skimmers than last year 
reproducing on the spoil island (Cora June Island) one quarter of a 
mile behind Hatteras Village. Neither the NPS nor the NCWRC counted 
birds, nests or chicks on Cora June Island in 2008 but photos show the 
island to be covered with adult birds and chicks.
    In 2007 twenty-four (24) breeding pairs\11\ of American 
Oystercatchers hatched 15 nests and 29 chicks.\12\ In 2008 twenty-three 
(23) breeding pairs hatched 15 nests and only 26 chicks.\13\ Thus the 
court ordered decree produced fewer breeding pairs and fewer chicks 
from the same number of nests. This result was in spite of 
significantly larger closures which prevented recreational use of the 
beaches involved. Some closures were even put in place for pairs that 
never nested due to the fact that they were not of breeding age.
---------------------------------------------------------------------------
    \11\ Slide presentation given to Negotiated Rule Making Committee 
by Ted Simons, Department of Zoology, North Carolina State University 
Raleigh, NC on June 17, 2008.
    \12\ Cape Hatteras National Seashore Resource Management Field 
Summary week of August 3-9, 2007.
    \13\ Cape Hatteras National Seashore Resource Management Field 
Summary week of July 17-23, 2008.
---------------------------------------------------------------------------
    According to CHNS Resource Management Weekly Field Summary; July17, 
2008 to July 23, 2008 there have been 92 sea turtle nests laid and 82 
false crawls at Cape Hatteras National Seashore producing a false crawl 
to nest ratio of 0.89:1. This is a good ratio but higher than that at 
CHNS in six of the last ten years. One of the goals of the Interim 
Strategy Biological Opinion is for this ratio to be under a 1.3:1. The 
court ordered decree imposed a ban on night time driving between 10:00 
PM and 6:00 AM in an effort to reduce false crawls using the 
undocumented assumption that ORV headlights cause false crawls at the 
Seashore. Not only are there no eye witness reports of headlights at 
the sites of false crawls at CHNS, but at least 24 of last year's false 
crawls were inside the Cape Point piping plover closure\14\ (where no 
human activity is allowed day or night). The false crawl to nest ratio 
at CHNS for the last ten years (1998-2007) is 0.94:1 which is under the 
accepted normal ratio of 1:1.\15\ This ten year ratio at CHNS of 0.94:1 
is even lower than that of Cape Lookout National Seashore (0.95:1)\16\ 
and CHNS has eleven miles of village ocean frontage, three ocean piers 
and far more visitors. Furthermore, Pea Island, which is the northern 
13 miles of Hatteras Island, and has no ORV use, day or night or 
pedestrian use at night, had more false crawls than nests last year and 
as of July 21, 2008\17\ has a higher false crawl ratio this year 
(0.94:1) than here at the CHNS. The assertion that night time ORV use 
causes false crawls at the CHNS is just not born out by the facts. The 
92 nests laid at CHNS so far this year is more than last year but 
nesting activity all along the coast of NC has also increased, and in 
fact Pea Island has more nests as of July 21, 2008 than it has had 
since 1995.\18\ In summary, the court ordered decree is not responsible 
for a lower false crawl ratio or more nests in 2008.
---------------------------------------------------------------------------
    \14\ Cape Hatteras National Seashore 2007 Sea Turtle Annual Report 
page 13 under caption: False Crawls
    \15\ Cape Hatteras National Seashore 2007 Sea Turtle Annual Report 
page 8 and 2005 and 2006 Annual Reports
    \16\ See Chart #2 attached
    \17\ Personal communication from Dennis Stewart, Chief Biologist, 
Pea Island national Wildlife Refuge
    \18\ Personal communication from Dennis Stewart, Chief Biologist, 
Pea Island national Wildlife Refuge
---------------------------------------------------------------------------
    According to the NPS visitation website\19\ the total recreation 
visits at all NPS facilities through June 2008 are down 1.20% while 
visits at CHNS are down 14.5%. Such a reduction in the numbers of 
visits equates to economic losses, loss of jobs and tax revenue for 
local, state and federal governments. The Outer Banks has been fairly 
immune to downturns in the economy in the past, and thus the decrease 
in visitors this year has been dramatic and many businesses feel that 
it will get worse in the next two years if the court ordered decree 
remains in effect.
---------------------------------------------------------------------------
    \19\ www.nature.nps.gov/stats
---------------------------------------------------------------------------
    As you can see the increases in fledged chicks of all species or 
sea turtle nesting has not been produced by the court ordered decree 
and the economy has been very negatively impacted. With this in mind 
please vote for Senate Bill 3113 and allow the Cape Hatteras National 
Seashore to again be managed by the National Park Service and not the 
courts.
    Thank you.
    [Charts have been retained in subcommittee files.]
                                 ______
                                 
 Statement of Dare and Hyde Counties, NC and the Cape Hatteras Access 
                   Preservation Alliance, on S. 3113

       lawrence r. liebesman,\1\ partner, holland and knight llp
---------------------------------------------------------------------------
    \1\ Lawrence R. Liebesman is a Partner in Holland & Knight's 
environmental practice and has over 30 years experience as an 
environmental lawyer and litigator including 11 years as a Senior Trial 
Attorney at the Justice Department's Environment and Natural Resources 
Division. He is the co-author of the Endangered Species Deskbook 
published by the Environmental Law Institute.

    We are outside counsel to Dare and Hyde Counties, North Carolina, 
and to the Cape Hatteras Access Preservation Alliance (``CHAPA'') 
(collectively ``Intervenors'') in Defenders of Wildlife et al. v. 
National Park Service, No. 2:07-cv-00045 BO (E.D.N.C. Apr. 30, 2008). 
The following information supplements the July 30, 2008 testimony of 
Warren Judge, Chairman, Dare County Board of County Commissioners on 
S.3113. Our submission today is also intended to address comments of 
those opposed to the bill.\2\
---------------------------------------------------------------------------
    \2\ See, for example, Testimony of Derb Carter on Senate Bill 3113, 
Southern Environmental Law Center (July 30, 2008)(``Carter Test.'').
---------------------------------------------------------------------------
1. Intervenors Dare County, Hyde County, and the Cape Hatteras Access 
        Preservation Alliance reluctantly signed the Consent Decree as 
        the ``lesser of two evils''
    While it is true that the Counties and CHAPA signed the consent 
decree on April 30, 2008, it is a mischaracterization to call that 
signing a ``willing'' participation. When caught ``between a rock (the 
consent decree) and a hard place'' (the uncertainty of an injunction), 
any reasonable group will take the lesser of two evils--and that is 
exactly what the Intervenors did by reluctantly signing on to the 
consent decree.
    To understand Intervenors' dilemma, you must first understand the 
context in which the consent decree was entered. Prior to the filing of 
the lawsuit by Plaintiffs, the federal judge who entered the consent 
decree stated in two written opinions that as a result of an executive 
order entered by President Nixon, driving in the Cape Hatteras National 
Seashore (``Seashore'') was illegal until an off-road vehicle (``ORV'') 
management plan was implemented by the National Park Service (``NPS'').
    Based upon those findings, Intervenors were faced with the prospect 
of the entire Seashore being closed until the negotiated rulemaking 
process is completed in 2011. With the underlying possibility of a 
total Seashore closure, Plaintiffs filed suit in October, 2007, and 
then began negotiating with the NPS on the terms of an injunction for 
the Seashore. Even after the court permitted Intervenors to intervene 
in the suit, they were not provided with the full settlement proposals 
exchanged between Plaintiffs and NPS until the basic framework of an 
injunction had been agreed upon by the Plaintiffs and the NPS. In 
reality, Intervenors only first saw the actual proposed consent decree 
at the ``eleventh hour''.with literally a few days left before the 
decree was to be filed with the court and after the other parties had 
been negotiating ``behind closed doors'' for weeks. Intervenors 
protested the secretive nature of the negotiations to the court at the 
preliminary injunction hearing: ``Our real concern, unfortunately, is 
that we feel that most recently we've been cut out of what we think 
have been ongoing settlement discussions . . . .'' Hearing on Mot. for 
Prelim. Injunct., Tr. at 17 (Apr. 4, 2008). Indeed, on Friday April 18, 
the day that the proposed decree was to be filed with the court, the 
Government only gave Intervenors thirty minutes to agree to changes 
worked out between the Government and Plaintiffs regarding buffer 
distances; if not, the decree would be filed without them and would 
include buffer distances three times larger than in the Interim Plan 
approved in July 2007 after a lengthy public process. If the 
Intervenors refused to sign, they would be faced with the worst-case 
possibility of the court closing the entire Seashore. At best, if the 
court accepted the decree proposed by the Government and Plaintiffs--
with the significantly greater buffer distances--the Intervenors faced 
having to challenge the decree in court--a ``daunting'' prospect, given 
that the NPS had refused to contest Plaintiffs' request for a 
preliminary injunction and the court's apparent inclination to issue 
such an injunction.
    Thus, Intervenors, representing the interests of the people and 
organizations most affected by the closures, decided to sign a decree 
that was essentially negotiated without any meaningful public input and 
was the lesser of all evils; Intervenors simply could not take the risk 
of a full Seashore closure. The result was summed up by Allen Burrus, 
Vice Chairman of the Dare County Board of Commissioners: ``Am I happy 
with this plan? No.'' (Apr. 16, 2008), available at http://
www.co.dare.nc.us/Announce/CHORV/BeachDrivingProposal.htm.

2. Scientific studies do not prove that the Interim Plan was harmful to 
        wildlife
    Opponents of S.3113 would have the subcommittee believe that 
previous NPS management, including the Interim Plan, combined with ORV 
use was the root cause of all wildlife population fluctuations. See, 
e.g., Carter Test. at 3 (July 30, 2008)(first year of Interim Plan 
``was one of the worst bird breeding seasons on record''). This 
Subcommittee should know that experts refute those assertions.
    In a detailed statement filed with the court, Intervenors' 
biologist Lee Walton stated that ``all measures of nesting success 
recorded by the National Park Service was better for the last 3-year 
average when compared to the previous 13-year average. I believe that 
the recent success of piping plovers on Cape Hatteras is due to the 
implementation of beach closure similar to the protective measures'' in 
the Interim Protected Species Management Strategy. Walton Dec., Summary 
at 8 (Mar. 12, 2008)(Attachment 1). Predation and weather losses are 
the most importance factors regulating population increase and nest 
success at the Seashore. Id.
    As Mr. Walton noted, the Atlantic Coast population of the 
threatened piping plover, for example, has more than doubled and has 
averaged a 5% annual population increase between 1986 and 2007. Walton 
Dec. at  10. NPS data show that piping plover numbers are increasing 
in North Carolina. Id. at  11. For other colonial waterbirds, it 
appears that the populations are neither trending upward or downward 
but, rather, simply shifting to nearby shoals and islands. Id. at  16.

3. In issuing the Interim Plan, the NPS took into account the United 
        States Geological Survey Protocols and properly balanced those 
        Protocols with other legal and practical considerations
    Opponents of S.3113 claim that the restrictions in the consent 
decree ``are also based on the best available science, including the 
United States Geological Survey (``USGS'') recommendations.'' See 
Carter Test. at 5. These opponents neglect to mention that the Interim 
Plan's Finding of No Significant Impact/Environmental Assessment 
(``FONSI/EA'') actually referred to those Protocols but noted that the 
NPS had to take into account broader policy goals.\3\ Indeed, the 
Interim Plan was developed after a two-year investigative process that 
took into account the USGS protocols, public comments, the NPS's field 
experience during the 2006 breeding season, the U.S. Fish and Wildlife 
Service's (``FWS'') Biological Opinion, NPS professional judgment, and 
other information. FONSI/EA at 4-5.\4\ The FWS's issuance of a 
Biological Opinion, concurring with the Interim Plan under the 
Endangered Species Act, is especially noteworthy in that, as the expert 
federal agency, the FWS was in the best position to object to the Plan 
as not in compliance with the USGS protocols.\5\ Further, the NPS has 
been implementing the conditions of the FWS Biological Opinion and has 
even been conducting renewed consultation to address FWS's issues. Yet 
Plaintiffs chose to litigate despite the ongoing orderly and scientific 
process underway between the NPS and FWS.
---------------------------------------------------------------------------
    \3\ The FONSI on the Interim plan stated that ``The USGS protocols 
were prepared under an interagency agreement for the Seashore by the 
U.S. Geological Survey (USGS). The USGS is the scientific research 
agency for the Department of Interior. The information and 
recommendations presented in the protocols represent the professional 
opinion of scientists that analyzed and interpreted the scientific data 
associated with protected species found at the Seashore. In addition to 
the Protocols, many other factors such as federal laws and mandates, 
NPS management policies, public input, practical field experience, and 
other scientific opinion were considered in the development of the 
strategy/EA.'' FONSI/EA at 5, n.2. (emphasis supplied).
    \4\ As Mr. Walton noted, ``an enormous amount of effort was 
expended reviewing the scientific literature . . . studying the local 
seashore conditions and negotiating with agencies, user groups, and 
interested parties to develop this detailed plan.'' Walton Dec. at  
19.
    \5\ Mr. Walton disputes the use of the USGS protocols for projected 
species, stating that it ``is not biologically warranted and will not 
necessarily provide protective measures for piping plovers.'' Walton 
Dec. at  26. These protocols ``do not consider changes in suitable 
habitat from year to year or if the habitat is occupied by piping 
plovers.'' Id.
---------------------------------------------------------------------------
4. Recent biological data does not support the assertion that the 
        consent decree is benefiting wildlife
    Further, recent biological data does not support the claim by 
opponents of S.3113 that the consent decree is already having a 
positive effect of wildlife. Carter Test. at 6. We attach a letter from 
Larry Hardham, president of the Cape Hatteras Anglers Club that updates 
and supplements his comment letter of July 27, 2008, to Chairman Akaka 
(please see Attachment 2--additions to his prior letter are 
underlined). Mr. Hardham notes that any piping plover ``success'' was 
due to actions taken last year. That is, by April 30, the date the 
consent decree was signed, plover adults were already at the Seashore 
and had already established nests. Hardham Suppl. Letter at 3. Last 
year, under the Interim Plan, 67% of piping plover breeding pairs 
fledged a chick but this year under the court-ordered decree only 64% 
of breeding pairs fledged a chick. Id. Further, Mr. Hardham notes that 
the slight increase in the number of fledged plover chicks this year 
was more likely due to the fact that the Seashore hired a full time 
trapper for predator control, rather than using the services of the 
U.S. Department of Agriculture trappers for several weeks as was done 
in 2007. Hardham Suppl. Letter at 3.
    Despite the overall positive trends cited earlier, the American 
Oystercatcher and turtle have less-than-positive news. Last year, 24 
breeding pairs of American Oystercatchers hatched 15 nests and 29 
chicks with 14 nests lost to weather and predation; this year--after 
the consent decree--23 breeding pairs hatched 15 nests and only 26 
chicks with 19 nests lost to weather and predation. Hardham Suppl. 
Letter at 3. ``Thus, the court-ordered decree produced fewer breeding 
pairs and fewer chicks from the same number of nests. This result was 
in spite of significantly larger closures which prevented recreational 
use of the beaches involved.'' Id. For turtles, the consent decree has 
not led to a lower false crawl ratio or more nests in 2008. Id. at 4.
    Mr. Hardham's supplemental letter also addresses the claim that the 
consent decree helped increase the numbers of nesting colonial shore 
birds such as black skimmers. Carter Test. at 7. He notes that ``both 
common terns and black skimmers nested within the actual boundaries of 
[the Seashore] in 2008 but all of these nests were within the piping 
plover pre-nesting closures of the Interim Strategy or within least 
tern closures and thus their return to [the Seashore] can not be 
attributed to the Consent Decree.'' Hardham Suppl. Letter at 2.
    Further, Plaintiffs incorrectly assume that the consent decree was 
necessary because ORV use and related public uses directly cause the 
decline in wildlife populations over the years. In fact, the data 
demonstrates that more plover chicks fledged on North Carolina beaches 
with heavier ORV use than on North Carolina beaches with light ORV use. 
Walton Dec. at  14.

5. The consent decree is having a negative effect on the area's economy
    While Plaintiffs claim that the consent decree only affects ``small 
stretches of the Seashore's beaches,'' Carter Test. at 5, the fact is 
that those small stretches include some of the ``most popular beaches 
in the Seashore'' and thus have impacts disproportionate to their size. 
See Hardham Suppl. Letter at 2. Tourism is suffering in part because 
vacationers have the impression that all beaches are closed down. In 
fact, the six most popular fishing areas in the Seashore--and arguably 
on the entire east coast--were shut down earlier this summer. Testimony 
of NPS Deputy Director Daniel Wenk (July 30, 2008). Bait and tackle 
shops and other businesses are reporting a sharp drop in sales. The 
Virginian-Pilot (Aug. 4, 2008), available at http://
www.islandfreepress.org/2008Archives/08.04.2008-
VirginianPilotEditorialSlamsLegislationWhatTheySaidAndWhatWeSay.html.
    Even if it were shown that the consent decree has had no economic 
impact, the true measure will be next year's sales figures. Since this 
summer's vacation bookings were made long before the consent decree was 
signed, disappointed vacationers would have been unable to get out of 
their rental contracts. See Irene Nolan, Commentary: Virginian-Pilot 
editorial slams legislation: What they said and what we say, available 
at http://www.islandfreepress.org/2008Archives/08.04.2008-
VirginianPilotEditorialSlamsLegislationWhatTheySaidAndWhatWeSay.html 
(Aug. 4, 2008). As Mr. Hardham notes, ``Many of this year's cottage 
renters who became unhappy and disappointed due to the extensive 
consent decree mandated closures (which produced poor results and 
completely closed the most popular sites in the Seashore) may not 
return in future years.'' Hardham Suppl. Letter at 4.
    Further, it is undisputed that there was a significant decline this 
year in visitation at the Seashore in June, the period when expanded 
closures were in effect. This decline was far greater than the overall 
decline at other NPS facilities during a comparable period. ``According 
to the NPS visitation website, the total recreation visits at all NPS 
facilities through June 2008 are down 1.20% while visits at [the 
Seashore] are down 14.5%. Such a reduction in the numbers of visits 
equates to economic losses, loss of jobs and tax revenue for local, 
state and federal governments.'' Hardham Suppl. Letter at 4.\6\
---------------------------------------------------------------------------
    \6\ Further, opponents of S.3113 cite to a 2008 government-
contracted study concluding that 2.7 to 4 % of the approximately 2.5 
million visitors to the Seashore are ORV users and that ``9 % of the 
visitors to the Seashore would return more often if driving were 
restricted on the beaches.'' Carter Test. at 7. However, that data was 
taken from pages 2-14 and 2-17 of an unpublished study--the ``Cape 
Hatteras National Seashore Visitor Use Study,'' by Dr. Hans Vogelsong 
(Aug. 2003)--that was discredited by peer reviewers as part of the 
ongoing Negotiated Rulemaking process. The peer reviewers stated that 
Vogelsong could not ``provide a sound scientific basis for estimating 
ORV use at [the Seashore] or the economic impact of visitor spending 
associated with ORV use.'' Jim Gramann, PhD, Summary of Reviewer 
Comments on Two Reports Analyzing ORV use at Cape Hatteras national 
Seashore at 2.
---------------------------------------------------------------------------
6. The Interim Plan will protect the Seashore's interests better than 
        the consent decree
    The resources of the Seashore are more than its wonderful 
collection of birds, fish, and sandy beaches. Indeed, the Seashore 
encompasses the people whose towns and livelihoods have evolved along 
with the Seashore. Those people and towns survive on tourism, and 
tourism is driven by ORV use. As NPS Deputy Director Wenk correctly 
pointed out in his testimony before this Subcommittee, ORV use predates 
the 1937 authorization of the Seashore. Wenk Test. at 2. See also, 
Warren Judge Test. at 1-6 (tracing the legislative history that created 
the Seashore with an eye towards the recreational and commercial 
benefits historically enjoyed by the residents of the Outer Banks).
    In fact, even the Seashore's Superintendent recognizes the 
financial strain that the consent decree has placed without clearly 
demonstrating that the decree has actually led to increased success 
rates for protected species. In a recent Coastland Times front page 
story, Superintendent Murray noted that ``For the 2008 nesting season 
in the Cape Hatteras National Seashore, some critical numbers are up 
but it is impossible to attribute increases only to the implemented 
consent decree.'' Mary Helen Goodloe-Murphy, COASTLAND TIMES (Aug. 12, 
2008); see Attachment 3. He then noted that ``implementing the consent 
decree through August 6 has cost $316,117 above what would have been 
spent operating under the Interim Strategy. The Seashore will bring in 
another law enforcement team to help with Labor Day at an estimated 
cost of $37,000.'' Id.
    Obviously, everyone cares about the Seashore's natural resources--
especially the local citizens who ultimately make their living 
dependent upon its economic and environmental health. Maintaining 
public support and confidence is critical to achieving these goals. 
Unfortunately, the consent decree severely undermines critical local 
support achieved through the lengthy and open public process of 
adapting the Interim Plan. It has also imposed a substantial additional 
financial strain on the National Park Service without any demonstrable 
benefit to resources of the Cape Hatteras National Seashore.
                                 ______
                                 
        Statement of Barbara Ullian, Grants Pass, OR, on S. 3148

                      INTRODUCTION AND BACKGROUND

    I've lived and worked in southwest Oregon since 1947. I began 
hiking in the area of the Rogue River and Siskiyou National Forests 
encompassed by the Big Grayback Grazing Allotment and the area of the 
proposed expansion of the Oregon Caves National Monument in the 1960's. 
This is one of those special places that draw people from across the 
county and from many backgrounds.
    The often-eloquent notes of appreciation left in the Mazama box--
placed on Mt. Elijah's summit each season by the National Park Service 
staff--were evidence of this. The ``box,'' a large plastic jar with 
paper and pencils, was an informal guest book for the mountaintop. 
Hikers wrote out their thoughts as they surveyed the 360-degree view of 
the wild country laid out before them. Most of the notes--left over 
several decades--were about the beauty of the area. Many also wrote in 
dismay or anger about the growing number of clearcuts in the watersheds 
below and the impacts of cattle grazing.
    This beautiful high elevation land of peaks, forests and meadows is 
entirely suitable for inclusion into the National Park system as part 
of the Oregon Caves National Monument--to be restored and managed under 
the Park Service's conservation mandate. It's certainly not suitable 
``rangeland'' as the Washington DC office of the National Forest 
Service would have you believe in their testimony (see below).
    When I first began hiking the area there was a drift fence at the 
top of the watershed divide to prevent cattle from accessing the Lake 
Creek watershed and the springs and wet meadows above Bigelow Lakes 
that serve as the headwaters for Lake Creek, the Oregon Caves National 
Monument's drinking water source. The presence of the fence also 
provided a cattle-free respite for those hiking the high backcountry of 
the Siskiyou. Unfortunately, this ridge top fence was abandoned.
    I've hiked on trails through the high mountain meadows, literally 
ankle deep in fine choking dust, which coated everything, because the 
cattle also used the trails. After long hot dusty stretches of trail, 
I've found that the cattle had fouled the only available clean water in 
miles--the cold springs emanating from the side of Craggy Peak--and 
churned the surrounding wet areas into a mud bog. When cross county 
skiing in the Bigelow Lakes Botanical Area, I've had to avoid the 
meadows--where the best snow and views were--because of the dangerous 
tangle of downed wire drift fencing hidden beneath the snow. Even in 
the summer the un-maintained drift fence was a hazard. It didn't 
prevent the cattle from reaching the lake but did prevent 
recreationists from fully enjoying the area. The trampling, cow feces 
and flies, often made inviting shady areas above Bigelow Lakes 
inhospitable places to camp or rest. We camped on rock outcrops 
instead--where cows didn't go.
    My photographs of the Bigelow Lakes Botanical Area and the Craggy 
Mountain Research Natural Area have been published and used in efforts 
to conserve the outstanding ecological, scenic and recreation values of 
this part of Klamath-Siskiyou Bioregion. I've also photographed the 
results of the Forest Service's ``single-use'' cut-slash-and-burn 
management of the watersheds and forests surrounding the tiny Oregon 
Caves National Monument. I'd be happy to provide the National Parks 
Subcommittee with photos, both demonstrating the overall beauty of the 
area and the deleterious effects of past Forest Service management.
    Beginning in 1987, I've participated in Siskiyou National Forest 
and wild and scenic river planning processes, including the Siskiyou 
National Forest's response to American Rivers and Oregon Rivers 
Council's administrative appeal of the 1989 Siskiyou National Forest 
Plan referenced on the final page of Deputy Chief Joel Holtrop's 
written testimony. The settlement agreement for the appeal was signed 
in 1991. I have it and other documents describing the process still in 
my files (see additional information below).
    I've cut and pasted from the National Park Service and National 
Forest Service's July 30, 2008 written testimonies, as submitted to the 
Subcommittee on National Parks of the Senate Committee on Energy and 
Natural Resources and highlighted their direct quotes. My response 
follows.

1. Big Grayback Grazing Allotment--Compatible Uses and the Siskiyou 
        National Forest Plan
    The Forest Service believes that grazing is an environmentally 
compatible use within this portion of the Rogue River-Siskiyou National 
Forest. (National Forest Service testimony)
    Siskiyou National Forest Plan direction for Botanical and Research 
Natural Areas contradicts this statement. The area of the Big Grayback 
grazing allotment, which covers both Rogue River and Siskiyou National 
Forest lands, includes several Botanical Areas and a Research Natural 
Area (RNA). The RNA is known as Craggy Peak on the Siskiyou National 
Forest (SNF) side and Oliver Matthews on the Rogue River National 
Forest side. The Bigelow Lakes Botanical Area is entirely on the 
Siskiyou National Forest and managed under the SNF Plan's standards and 
guidelines. It is part of the area proposed expansion of the Oregon 
Caves National Monument. The Botanical Area is in the headwaters of 
Lake Creek, upstream of the Monument's sole source of potable water, 
used by both the visiting public and Park Service staff.\1\
---------------------------------------------------------------------------
    \1\ Consolidated comments submitted on March 8, 2008 by the Pacific 
West Region of the National Park Service concerning the Rogue River-
Siskiyou National Forest's Environmental Assessment for the Big 
Grayback Allotment Management Plan Update (on file with the author).
---------------------------------------------------------------------------
                   CRAGGY PEAK RESEARCH NATURAL AREA

    The Siskiyou National Forest Land and Resource Management Plan's 
(LRMP) management goal for Research Natural Areas is the 
``[p]reservation of naturally occurring physical and biological units 
where natural conditions are maintained . . . '' Page IV-81. Domestic 
livestock grazing is prohibited in Research Natural Areas by the SNF 
LRMP. Page IV-82. Despite this, 19 years after the SNF LRMP was 
finalized, the Craggy Peak RNA is still grazed by the cattle of the Big 
Grayback allotment.

          ELKHORN PRAIRIE--WHY GRAZING IS NOT A COMPATIBLE USE

    The Big Grayback grazing allotment includes Elkhorn Prairie on the 
border of the Rogue River and Siskiyou National Forests. Elkhorn 
Prairie was reviewed for Research Natural Area designation during the 
SNF planning process. It's part of a larger area of high elevation 
cells around Craggy Peak. Cells are the basic units that must be 
represented in a natural area system. Cells in the Craggy Peak/Elkhorn 
Prairie area include: herb lands (grass balds), cold springs, green 
fescue meadows and red fir/white fir interface. Despite the fact that 
it filled needed cells, Elkhorn Prairie was ``not recommended'' as an 
individual RNA or as part of the Craggy Peak RNA ``because of the high 
degree of disturbance and domestic animal use.'' 1989 SNF Plan Final 
Environmental Impact Statement (FEIS), page F-2.

 SISKIYOU NATIONAL FOREST BOTANICAL AREAS AND BIGELOW LAKES BOTANICAL 
                                  AREA

    The management goal for Siskiyou National Forest Botanical Areas is 
``to protect, preserve, and enhance the exceptional botanical features 
of these areas.'' SNF LRMP, page IV-87. The LRMP prohibits ``livestock 
grazing'' in Botanical Areas ``except where such use is part of an 
existing allotment.'' Id. at page IV-88. The LRMP further states that 
the ``Bigelow Lakes Botanical Area is the only recommended Botanical 
Area with an existing grazing allotment (Big Grayback Grazing Allotment 
. . .).'' Id. at page IV-89.
    Specific to the Bigelow Lakes Botanical Area, the SNF LRMP requires 
that cattle ``shall be prevented from reaching the Lakes area by a 
drift fence'' and requires that ``[t]he effects of grazing shall be 
monitored and corrective action taken as necessary.'' Id. at page IV-
89. The SNF Plan FEIS further explains the direction to monitor the 
effects of grazing on the Bigelow Lakes Botanical Area to specifically 
included the effects of grazing on botanical values:

          [The Bigelow Lakes Botanical Area] is within a grazing 
        allotment (Applegate Ranger District). The impacts of grazing 
        on botanical values needs to be assessed. Page F-35.

    While the Rogue River-Siskiyou National Forest recently began 
monitoring ``forage'' levels in the Bigelow Lakes Botanical Areas, the 
agency has yet to fully monitor or ``assess'' the impacts of grazing on 
the ``botanical values'' of the Bigelow Lakes Botanical Area. 
Additionally, because the agency did not implement the required 
monitoring, no baseline of the botanical values present when the 
Bigelow Lake Botanical Area was designated have ever been established.
    Therefore, current statements about the effects of grazing on the 
Botanical Area are meaningless. Species may have disappeared 
unbeknownst to the agency. Additionally, 19 years after the SNF LRMP 
required that cattle be prevented from reaching the Lakes Area by a 
drift fence, there is no fence and cattle are grazing the Lakes Area, 
the headwaters of the Oregon Caves National Monument's drink water 
source.

             NATIONAL FORESTS, MULTIPLE USE AND COOPERATION

    Consequently, the Forest Service opposes [section 7] ... However, 
the Forest Service also recognizes the value of working cooperatively 
and collaboratively with local stakeholders to fulfill its multiple use 
mission on Forest Service lands. (National Forest Service testimony)
    The Forest Service's multiple-use mandate does not require that 
every acre of the forest be managed for every desired product or 
amenity. 16 U.S.C. Sec.  531(a). The SNF LRMP's prohibition of grazing 
in Botanical and Research Natural Areas is evidence that the Forest's 
Service's multiple use mandate does not require grazing on every acre 
of the National Forest and in particular this high mountain area.
    Additionally, under the Forest Service's Organic Act, National 
Forests were established, in part, to secure favorable conditions of 
water flows. 16 U.S.C Sec. 475. As noted above, the Lake Creek 
Watershed, including its headwaters in the Bigelow Lakes area, is the 
sole source for drinking water for the visiting public and staff at the 
Oregon Caves National Monument. The Forest Service has not worked 
cooperatively or collaboratively with the National Park Service to 
address their concerns about grazing of cattle in the watershed. This 
can be seen in the March 8, 2005 comments the National Park Service 
submitted to the RR-SNF on the 2005 Environmental Assessment for the 
update of the Big Grayback Grazing Allotment and the fact the Park 
Service was not named as a cooperating agency in either of the two 
recent RR-SNF's Environmental Assessment's on the Allotment update, 
despite the National Park Service's ``special expertise'' and concerns 
regarding the safety of the Monument's sole potable water supply.\2\ 40 
CFR Sec.  1501.6. See also item #2.
---------------------------------------------------------------------------
    \2\ The March 8, 2005 comments on the Rogue River-Siskiyou National 
Forest Big Grayback Grazing Allotment Update Environmental Assessment, 
submitted by the Pacific West Region of the National Park Service state 
that: ``Currently, public water supplies for the [Oregon Caves 
National] Monument are obtained from surface water sources. Drinking 
water for the Monument visitors and staff is supplied by a diversion 
from Lake Creek approximately one and one-half miles to the northeast 
of the Monument boundary. ``The watersheds above these diversions are 
managed by the USFS. Land use includes logging and cattle grazing, 
which create concern for future water quality impact to these water 
sources  . . .'' (emphasis in the original).
---------------------------------------------------------------------------
2. Lack of Interagency Coordination to Ensure Protection of the Oregon 
        Caves National Monument's Public Drinking Water Source
    The Department of Agriculture (USDA) does not believe that either 
of the bill's primary purposes, enhanced protection of resources or 
increased public recreation opportunities, would be effectively 
achieved by its enactment. We believe that interagency coordination is 
the best and most effective means not only to enhance resource 
protection and recreational opportunities . . . (National Forest 
Service)
    If this statement were accurate, it would not have taken the Rogue 
River-Siskiyou National Forest 17 years to update the Big Grayback 
Grazing Allotment (Allotment), prepare an environmental assessment 
(EAs) and issue a decision notice (DN) and finding of no significant 
impact. Further, the EAs and DNs the RR-SNF did issue would have 
reflected the concerns of the National Park Service about cattle 
grazing in the watershed of the Oregon Caves National Monument's only 
viable potable water source--used by both public visitors and staff. 
Additionally, the Forest Service has yet to comply with the 
requirements of the 1989 Siskiyou National Forest Plan with regard to 
the Allotment in the Bigelow Lakes Botanical Area. The long history of 
the National Environmental Policy Act (NEPA) process concerning the Big 
Grayback Grazing Allotment, demonstrates a lack of concern for Park 
Service interests and a failure by the RR-SNF to coordinate with the 
National Park Service to ensure the safety of the Monument's drinking 
water supply.
    In 1991 the Rogue River National Forest (RRNF) issued public notice 
that they would prepare an Environmental Assessment (EA) to update the 
Big Grayback Grazing Allotment (allotment) and began scoping. In 1995 
the RRNF finally issued an EA for the update but no decision document 
was ever issued.
    In 1998 the National Park Service finalized the Oregon Caves 
National Monument's General Management Plan. The NPS Plan included 
expansion of the Monument to encompass the Lake Creek Watershed, in 
part, to protect the Monument's only available domestic water source, 
which is on RR-SNF land. The allotment includes part of the Monument's 
proposed area of expansion, the Monument's potable water source and the 
watershed of that water source.
    In 2003, the now combined Rogue River-Siskiyou National Forest (RR-
SNF), began yet another scoping process for the still-not-updated 
allotment. In February of 2005 the Forest Service finally issued a 
second EA for the allotment update for public comment and in September 
of 2005 they issued a third and revised EA along with a Decision Notice 
and Finding of No Significant Impact. In other words, it took the 
agency 14 years to issue a decision on the proposal to update the 
Allotment.
    More importantly, despite the National Park Service's considerable 
and well documented interest in its domestic water source and area of 
proposed expansion, the Park Service was not named as a cooperating 
agency in the EA to update the allotment. Moreover, the Forest 
Service's 2005 EA on the update of the Allotment and its Decision 
Notice failed to accurately represent the National Park Service's 
concerns about the Allotment and the safety of its public water supply. 
On March 8, 2005 the Pacific West Region of the National Park Service 
submitted consolidated comments on the EA for the Allotment update\3\ 
to Erin Connelly, Applegate District Ranger of the RR-SNF stating that:
---------------------------------------------------------------------------
    \3\ The Pacific West Region of the National Park Service's 
consolidated comments include those of John Leffel, Public Health 
Consultant for the National Park Service, Pacific West Region--Seattle.

          . . . the NPS continues to strongly oppose the practice of 
        allowing cattle access to the [Lake Creek] watershed due to the 
        increased risk of introducing pathogenic organisms such as E. 
        coli0157H:7 and Cryptosporidium parvum  . . . 
          The presence of grazing cattle within the Lake Creek 
        watershed and NPS intake will allow an increased risk of human 
        pathogenic organism to enter the Oregon Caves National 
        Monument's drinking water supply (emphasis added)  . . . 
          Therefore it is highly probable that allowing grazing cattle 
        within the watershed will increase the risk of introducing 
        biological and more importantly pathogenic organisms into the 
        Oregon Caves National Monument watershed (emphasis in original) 
         . . . 
          . . .  any other alternative that allows cattle to access the 
        Bigelow Lakes and Lake Creek area adjacent to the Monument's 
        domestic water source does conflict with the proposed actions 
        in the Oregon Caves National Monument General Management Plan 
        (emphasis in original).

    Despite the National Park Service's concerns about cattle grazing 
in the Lake Creek watershed, the RR-SNF selected alternative allowed 
the grazing of the watershed, with only a drift fence to that will 
purported prevent cattle from reaching the larger of the two Bigelow 
Lakes. In other words, the headwaters springs, creeks and the smaller 
of Bigelow Lakes are still subject to the cattle grazing.

3. Siskiyou National Forest's 1991 Wild & Scenic River Screening 
        Process
    None of the four rivers included partly or entirely in the current 
Monument expansion proposal were found to meet the criteria for 
eligibility at that time. The Forest Service would suggest that, at 
minimum, the segments within the proposed expansion area be re-
evaluated for their eligibility for the NWSRS. (National Forest Service 
testimony)
    The referenced wild and scenic river screening process undertaken 
by the Siskiyou National Forest (SNF) in 1991 was cursory and 
undertaken by the agency only upon an administrative appeal of its 1989 
Forest Plan. Decision's regarding the eligibility of streams on the SNF 
have never subject to public review or challenge under the National 
Environmental Policy Act (NEPA). Moreover to this date, the Rogue 
River-Siskiyou National Forest has yet to complete the terms of the 
1991 Settlement Agreement and prepare suitability studies for the few 
streams that the SNF Supervisor found eligible to be added to the 
National Wild and Scenic River System.\4\ These suitability studies 
would have triggered a NEPA process on the decisions made by the 
Forest.
---------------------------------------------------------------------------
    \4\ The 1991 Settlement Agreement between American Rivers, Oregon 
Rivers Council and the Siskiyou National Forest (signed by John F. 
Butruille, Regional Forester for Region 6) states that ``suitability 
studies will be target for completion by the end of fiscal year 1996.'' 
Copy of the settlement agreement is on file with the author of this 
testimony.
---------------------------------------------------------------------------
    As per the June 1991 settlement agreement between American Rivers, 
Oregon Rivers Council and the Siskiyou National Forest, the Forest 
Service agreed to ``evaluate for potential eligibility'' the 
tributaries of the Illinois and other rivers on the Siskiyou National 
Forest.\5\ The final settlement agreement was transmitted to Thomas J. 
Cassidy, Legal Council for American Rivers on or about July 15, 1991. 
The initial screening was scheduled for completion by the end of 
calendar year 1991.
---------------------------------------------------------------------------
    \5\ Cave Creek is a tributary of Sucker Creek, which in turn is a 
tributary of the East Fork Illinois River.
---------------------------------------------------------------------------
    Forest Service documents indicate that 425 streams were evaluated. 
The ``screening process'' was to be done by three ID teams of no fewer 
than 5 members each. Team members were asked to gather and review 
existing information prior to the first scheduled team meeting when 
they would discuss eight resource categories for each of the streams. 
Expectations were that teams 1 and 2 would complete the process (which 
included documentation) in two meeting days and team 3 within a day.
    All process papers and final recommendations were due to the Forest 
Supervisor no later than July 26, 1991. Assuming that the screening 
process did not begin until the final settlement agreement was signed, 
the SNF allotted approximately eleven days for the initial screening of 
425 tributary streams on the Siskiyou National Forest, which included 
evaluation and documentation of eight resources categories on each 
stream. The final decision on potential eligibility of the 425 streams 
was made by the Forest Supervisor.
    Ultimately, the Forest Supervisor selected only twelve of the 425 
streams as potentially being eligible for inclusion into the National 
Wild & Scenic River system. Additionally, two streams were to be re-
evaluated for their eligibility. In later decisions, made between 1992 
and 1994, the Forest Supervisor determined that 6 of the 12 potentially 
eligible streams were in fact eligible to become wild and scenic 
rivers. None of these decisions have been subject to review under the 
NEPA.

4. Fuels Reduction Projects in Proposed Monument Expansion Area
    We understand that the Forest Service is currently working on a 
multi-year effort to reduce fuels under a comprehensive forest plan, 
which is intended to help restore the appropriate role of fire in the 
ecosystem, which in turn would benefit monument resources that are at 
risk from fire and fire suppression damage. (National Park Service).
    Currently the Rogue River-Siskiyou National Forest is using 
commercial harvest in a coordinated, multi-year effort to reduce fuels, 
both around the immediate vicinity of the Monument and across the 
larger watershed and landscape. The Rogue River-Siskiyou National 
Forest plans for approximately 1550 acres of fuels treatment projects 
within the proposed expansion area. Four hundred and forty acres will 
be treated over the next several years. Of those acres, approximately 
100 acres will be treated by commercial harvest with volume estimated 
at 560 thousand board feet and an appraised value of approximately 
$168,000. The remainder will be treated non-commercially. These 
treatments are designed and implemented to help restore the historic 
role of fire in this ecosystem and will help ensure that the forest 
attributes intended for the LSR, including bigger, older, more fire 
resistant trees, remain intact. (National Forest Service testimony)
    On August 17, 2007 a Decision Notice and FONSI were issued for the 
East Illinois Valley Managed Stand Project. The Environmental 
Assessment and Decision are on the Rogue River-Siskiyou National Forest 
(RR-SNF) website--http://www.fs.fed.us/r6/rogue-siskiyou/projects/
planning/e-illinois-v-mg-stands-prj.shtml. The project proposes to 
treat approximately 3,000 acres of managed stands on Siskiyou National 
Forest lands. Part of the 3,000 acres is within the proposed Oregon 
Caves National Monument (OCNM) expansion boundaries. The Forest Service 
testified that:

          It's likely that the referenced 440 acres in the OCNM 
        expansion boundaries is part of the East IV Project. The rest 
        of the 1,000 plus acres referenced in the National Forest 
        Service's testimony may be part of a future project.
          Rather than deferring the expansion of the OCNM boundaries, a 
        ``cooperative'' agreement between the Park Service and Forest 
        Service could be sought to permit the East IV Project to be 
        implemented, while leaving restoration on the additional 
        acreage for the Park Service to carry out. I don't believe 
        there's anything that prohibits fuels reduction and forest 
        restoration projects on newly acquired National Park Service 
        lands. Indeed, the National Park Service has implemented fuels 
        reduction projects in the forests of the OCNM.

5. Hunting
    If the bill is enacted, we understand from the National Park 
Service that hunting would be prohibited from the 4070 acre proposed 
expansion area. (National Forest Service)
    Almost the entire 1.8 million acre Rogue River-Siskiyou National 
Forest--minus the 4070 acres of the Oregon Caves National Monument 
expansion--will still be available for hunting. The only exceptions are 
areas where the discharging of firearms is prohibited due to safety 
concerns. These include established campgrounds, several high-use areas 
along several Wild and Scenic Rivers and across rivers and roads.
                                 ______
                                 
Statement of John Patterson, President/CEO, Monroe County Convention & 
                 Tourism Bureau, Monroe, MI, on S. 3247

    I am writing in support of S. 3247, the River Raisin National 
Battlefield Act, which would designate sites related to the Battles of 
the River Raisin during the War of 1812 as a unit of the National Parks 
System.
    You have heard repeatedly the value of this property and its legacy 
to the communities of Monroe County, Southeast Michigan and our United 
States resulting from its prominent role in the War of 1812. I would 
like to offer additional testimony in support of this outstanding 
effort and this exceptional piece of our history.
    Tourism is the #1 industry in Michigan and one of the most 
significant to our businesses, citizens and organizations here in 
Monroe County. Over 20 million visitors pass through Monroe County each 
year from throughout the nation and around the world, taking with them 
an impressive perspective of our community and wonderful experiences to 
share with family, friends and business associates. Nothing is more 
important or makes a greater impact, than the hands on ``experiential'' 
time they spend here.
    In addition to the wonderful hands on promotional opportunities we 
have with these 20 million visitors and the impact we make on their 
lives during their time here, we enjoy the economic impact of their 
visits as well. It is estimated that tourism is a half billion dollar 
industry in Monroe County. With two major interstates passing through 
our County north and south and a major state highway dividing it east 
and west, intra county travel is both easy and desirable. Cabela's 
``The World's Foremost Outfitter'' in Dundee, for example, on our 
western border and Lake Erie on our eastern border offer attractive 
destinations for travelers and citizens alike. Events like the Monroe 
County Fair that attracts over 150,000 during its weeklong run and the 
River Raisin Jazz Festival that attracts over 50,000 during its 
weekend, are examples of tremendous community events that continue to 
grow and add to our quality of life and attractiveness to visitors.
    The magnitude of historic attractions in Michigan like The Henry 
Ford, Mackinac and others, attract millions of visitors as well. Our 
Monroe County Historical Museum (one of the finest Gen. George A. 
Custer exhibits in the nation), Navarre Anderson Trading Post 
(Michigan's Oldest Residence) and the River Raisin Battlefield and 
others offer equal historic appeal in Monroe County. All this, makes 
the significance of the River Raisin National Battlefield a must for 
continued Economic & Cultural growth and development for the benefit of 
our Nation, our Great Lakes State(s) and our communities here in Monroe 
County. I urge you to support S.3247 and look forward to assisting with 
the promotion of ``The River Raisin National Battlefield''.
                                 ______
                                 
                        Department of the Interior,
                                     National Park Service,
                              Cave Junction, OR, November 15, 2007.
Linda Duffy,
Siskiyou Mountains District Ranger, Rogue River-Siskiyou National 
        Forest, 6941 Upper Applegate Road, Jacksonville, OR.

    Dear Linda, Thank you for meeting with me at the Grants Pass 
Interagency office to discuss the update for the Big Grayback Allotment 
Management Plan. As discussed. our current position is consistent with 
written comments submitted by the National Park Service (NPS) and U.S. 
Public Health Service for the initial environment assessment (EA). The 
proposed update change of moving the allotment boundary far enough so 
as to not cover the public water supply intake is minor and would not 
significantly affect compliance with allotment stipulations. It appears 
that there are no substantive modifications from the previous EA that 
would appreciably change overall potential impacts to the public 
drinking water supply. Therefore, the comments provided by the NPS for 
the initial environmental assessment are unchanged.
    Although there is no evidence of movement of non-native Phytopthora 
lateralis (PL) via cattle, there is evidence for spread through non-
human activity (bear wallow) in the allotment (reference paragraph 1. 
Page 111-47). This indicates transmission through livestock would be 
possible. The percentage of infected areas also is expected to 
substantially increase by the end of the century, thus increasing the 
likelihood of spreading PL to the Monument which at present is PL free.
    Recently published studies from Texas A&M University indicate a 
prevalence of Leptospira bacteria occurrence nationwide in cattle 
herds. According to the study the bacteria is spread most frequently 
and efficiently through urine. There is a potential contamination of 
the Monument's public water and nearby surface water by the Leptospira 
species of the bacteria known in Oregon from cattle urine. The disease 
caused by this genus, leptospirosis, can cause severe intestinal pain 
and high fever in humans. It can be acquired by drinking contaminated 
water or by transmission through mucous membranes or open cuts. 
Although filters and chlorine treatment may prevent this disease from 
affecting users of the public water supply, the predominance of cattle 
feces and urine in areas that hikers from the Monument use to access 
upper Bigelow Lakes could pose a risk. Leptospirosis and ways to 
mitigate this potential impact were not addressed in this EA.
    In the original analysis the presence of cattle on the Monument was 
not considered an issue as the last evidence of cattle trespass was at 
least four years prior. However, in the last two years cattle 
defecations have been found in the upper elevations of the Monument. 
This is of special concern to the NPS due to the presence of a plant 
association (willow/American sawwort) designated in Oregon as rare by 
the Oregon Natural Heritage Program. It is also one of the largest 
disjunct populations of Saussurea americana that has not been seriously 
degraded by cattle grazing (Rolle May, Personal communication 1993). 
Cattle readily use roads and trails and could find their way to this 
meadow via well-used park trails. Sausurea americana was listed in the 
update as a rare plant in the area covered by the allotment but 
potential effects from cattle on this plant and its association were 
not addressed in the EA.
    We appreciate the opportunity to comment on this action and will 
continue to work closely with you and your staff to identify and 
mitigate potential impacts to the Monument's visitors and resources.
            Sincerely,
                                         Craig W. Ackerman,
                                                    Superintendent.
                                 ______
                                 
                        Department of the Interior,
                                     National Park Service,
                                  Crater Lake, OR, August 17, 1996.
Mary L. Smelcer,
District Ranger, Applegate Ranger District, Rogue River National 
        Forest, 6941 Upper Applegate Road, Jacksonville, OR.
    Dear Ms. Smelcer: Thank you for considering our comments on the 
``The Big Grayback Allotment Management Plan Update--Environmental 
Assessment.'' Although the Big Grayback Environmental Assessment (EA)'s 
public comment period ended on October 28, 1995, we feel that new 
information in regard to Cryptosporidium merits additional comments.
    I have enclosed a copy of a memorandum from Phillip Pollard 
expressing concern with potential Cryptosporidium contamination of our 
public water supply. Mr. Pollard is the U.S. Public Health Service 
consultant assigned to the Seattle office of the National Park 
Service's Pacific West Field Area. Mr. Pollard is concerned that 
selection of an alternative that does not exclude cattle from the Lake 
Creek watershed would represent a significant threat to our public 
water supply that could not be eliminated by our existing water 
treatment system.
    Only alternatives 2, 4 and 5 address the impact of livestock 
grazing on Cave Creek below Bigelow Lakes, the area where the potential 
for water quality impacts (Cryptosporidium and turbidity) to the Oregon 
Caves water supply is highest. The Monument's resource management 
specialist and other staff members have made numerous trips along Lake 
Creek and to the Bigelow Lakes area from 1988 to 1996. During these 
trips it was observed that cattle were just as likely to be grazing 
alongside Lake Creek as to be grazing on the shores of the Bigelow 
Lakes. If successful, fencing of Bigelow Lakes only (Alternative 2) 
could increase impacts on Lake Creek by diverting cattle to that area.
    Additionally, slope failures, possibly due to roads, occurred above 
Lake Creek in the early 1980s in the form of debris torrents and flows. 
This led to the temporary condemnation and shutdown of the public water 
supply for the Caves because of turbidity that reached two orders of 
magnitude above allowable levels for safe drinking water. The slope 
failures have moved a great deal of easily erodible sediment to Lake 
Creek. This material could be remobilized by cattle movement. Some of 
these areas have been reseeded with grasses that attract cattle. We 
have observed a correlation between periods of high turbidity in the 
Cave's water supply and the time when cattle have been seen grazing 
alongside Lake Creek.
    The decision on The Big Grayback Allotment Management Plan Update--
Environmental Assessment'' should further consider potential impacts on 
public health. The presence or absence of Cryptosporidium in Lake Creek 
should be established. Common to all alternatives should be monitoring 
of Ctyptosporidium.
    The National Park Service prefers all alternatives that would 
eliminate or greatly reduce the impacts of livestock on Lake Creek, 
including Alternatives 2, 4, and 5.
            Sincerely,
                                            Craig Ackerman,
                                                    Superintendent.
                                 ______
                                 
                               Memorandum
To: Superintendent, Oregon Caves National Monument

From: Public Health Consultant, Pacific West and Alaska Field Areas

Subject: Protection of Watershed

July 10, 1996.

    I have recently become aware that cattle grazing may be authorized 
by the Forest Service in the watershed from which the domestic water 
for the Oregon Caves National Monument public water system originates. 
As you know, the water source for this system is Bigelow Lakes which 
flows into Lake Creek. An intake is installed in Lake Creek, and water 
flows by gravity to the park water treatment plant. At the plant, water 
is filtered through a 50-micron automatic backwashing Filtomat 
prefilter, through a 25-micron automatic backwashing Filtomat 
intermediate filter, through a 5-micron cartridge polishing filter, and 
finally through a 3M giardia barrier filter bag. The treated water is 
continuously disinfected with chlorine, ,end then flows into storage 
and distribution. The potential of cattle in the watershed poses a 
significant threat to this public water system from contamination by 
cryptosporidium.
    Cryptosporidium is a protozoan parasite that can live in the 
intestines of human and animals. The infection can be transmitted 
through person-toperson or animal-to-person contact, ingestion of 
fecally contaminated water or food, or contact with fecally 
contaminated environmental surfaces. In the environment, the organism 
is protected by an outer shell called an oocyst. Once ingested, the 
organism emerges from the shell and infects the lining of the 
intestine. Ingesting this organism causes an illness called 
cryptosporidiosis that results in symptoms such as diarrhea, nausea, 
vomiting, fever, headache, and loss of appetite. Diarrhea is usually 
watery and accompanied by abdominal cramping. There is no drug or 
treatment for this disease. People with healthy immune systems will 
recover on their own. People with HIV or AIDS, cancer and organ-
transplant patients taking immunosuppressive drugs, and people with 
genetically weakened immune system are especially vulnerable. To these 
people, cryptosporidiosis is a life threatening disease.
    An outbreak of cryptosporidiosis occurred in Milwaukee in 1993 
causing illness in 400,000 people and death to approximately 100. This 
outbreak was traced to water from the municipal water plant that comes 
from Lake Michigan. An outbreak has also occurred in Medford that 
treats surface water from Big Springs. Cattle had been allowed in that 
watershed. Lntbreaks have also occurred in Clark County Nevada, in 
Georgia, in Washington, and Minnesota.
    The public health community, and drinking water officials including 
American Water Works and state regulators, recommend a multiple barrier 
approach to keep oocysts out of tap water. this includes source water 
protection in the watershed, optimized treatment, and a sound 
distribution system. At ORCA we have optimized treatment with the 3M 
filter bag, which has been shown to effectively remove a large 
percentage of oocysts, and the ORCA distribution system has good 
integrity and is not susceptible to contamination. What remains, then, 
is to protect the entire watershed from which the source water flows.
    I recommend you take appropriate measures to assure cattle are not 
allowed to graze in the Bigelow Lakes watershed.
                                        Phillip F. Pollard.
                                 ______
                                 
Statement of Sean Smith, Regional Director, National Parks Conservation 
                        Association, on S. 3148

    On behalf of the National Parks Conservation Association (NPCA), I 
write in support of S. 3148--the Oregon Caves National Monument 
Boundary Adjustment Act of 2008 which was introduced by Senator Wyden.
    In 1998, the National Park Service (NPS) completed a general 
management plan that calls for the expansion of Oregon Caves NM by 
roughly 3,400 acres. According to the Park Service the expansion will 
better protect the monument's cave hydrology, surface forest 
environment, public water supply and park viewsheds. S. 3148 will make 
that recommendation a reality.
    The Oregon Caves NM expansion will better protect the monument's 
ecology and wildlife with little or no cost ro the federal government 
since no private lands need to be acquired. All land proposed for the 
monument expansion is already owned by the federal government within 
the Rogue River-Siskiyou National Forest. Transfer would merely require 
Congressional authorization.
    The Oregon Caves expansion should also produce significant economic 
benefits for gateway communities. Research shows that national parks 
are huge economic engines, generating $4 in value for every one federal 
dollar invested in them. Park gateway communities have higher economic 
growth rates than non-park communities. The Oregon gateway communities 
of Cave Junction and Grants Pass will clearly benefit from the expanded 
national monument.
    Oregon Caves National Monument is a northwest gem, and expansion of 
its boundaries as recommended by the Park Service management plan will 
make it an even better place for the public to learn, to enjoy and to 
be inspired. NPCA urges the committee's support of S. 3148.
                                 ______
                                 
 Statement of Shane Jimerfield, Executive Director, Siskiyou Project, 
                      Grants Pass, OR, on S. 3148

    The Siskiyou Project is a 501 (3) (c) public interest organization 
with 1,500 members that has been seeking protections for the Siskiyou 
Wild Rivers Area for the past 25 years. We have offices near Cave 
Junction, and in Grants Pass, Oregon. We proudly give support for the 
Oregon Caves National Monument Boundary Adjustment Act of 2008 (S. 
3148). The Act will allow for better management of the area immediately 
surrounding the Oregon Caves National Monument by expanding the 
boundary to encompass lands which provide water and ecological 
integrity to the current Monument. Additionally, it will designate Cave 
Creek and its tributaries as a unit of the National Wild and Scenic 
Rivers System and also provide tremendous ecological and economic 
benefit through the permanent retirement of the Big Grayback and Billy 
Mountain grazing allotments. The expansion is long overdue and is a 
logical way for the federal government to meet the changing needs of 
the American public.
    The Oregon Caves national Monument (OCNM) is a destination for 
80,000 visitors a year and is a critical source of revenue for local 
businesses in the Cave Junction area. The expansion would provide 
opportunities to better market the world class scenery, geologic 
wonders, historic buildings, and better manage the unique hydrology and 
plant diversity. Current ``multiple use'' management by the Forest 
Service cannot meet the needs of today's sophisticated tourists that 
expect ``National Park'' quality experiences when visiting areas 
managed by the Park Service.
    The OCNM and proposed expansion area includes underground rivers, 
high elevation meadows and forests of rare flowering plants, sensitive 
wildlife, unique cave-adapted arthropods, and conifer and deciduous 
tree diversity. From the headwaters of Bigelow Lakes below Mt. Elijah 
to the campground at Cave Creek a true National Park quality landscape 
exists--a landscape worthy of considerable protection to ensure that 
future generations of Americans continue to enjoy its rare and 
remarkable values.

            BIGELOW LAKES: A BOTANICAL SPECIAL INTEREST AREA

    Above the Caves in the high Siskiyou Mountains are the Bigelow 
Lakes. Formed in a glacial cirque the lakes are surrounded by meadows 
and primeval forests. Ancient species of Brewer's Spruce and rare 
flowering plants inhabit the area as relics from the ice age. Due to 
its unique characteristics the area has been given special botanical 
area designation. However, the Forest Service has done little to manage 
for and protect this valuable resource.
    The Park Service has a proven track record for managing natural 
areas. For example, a rare botanical, the California globe mallow, 
which grows in the area, requires periodic burning to germinate its 
seeds. The Park Service would be able to meet the plants needs with 
prescribed burning. Currently, the Forest Service emphasizes cattle 
grazing which is harmful to the plant and is contributing to the need 
to list the plant under the Endangered Species Act.
    The expansion would open the door for Park Service nature tours in 
the upper Lake Creek watershed and evening presentations at Caves 
Campground that would better inform the American public about the role 
of fire in western forests, climate change, and the need to protect 
native plant diversity.
    A small change administration authority would yield many benefits 
far into the future.
                                 ______
                                 
    Statement of Alexander Brash, Regional Director, National Parks 
                  Conservation Association, on S. 2535

    On behalf of the National Parks Conservation Association (NPCA), I 
write in support of S. 2535--the Martin Van Buren National Historic 
Site Boundary Revision Act which was introduced by Senator Clinton.
    In 2003, the National ParkService (NPS) completed a Boundary Study 
that calls for the expansion of Martin Van Buren National Historic Site 
by approximately 261 acres. According to the Park Service, the 
expansion will allow the NPS to protect nationally significant 
resources and provide visitor access to the original home and farm of 
the eighth President of the United States. The expansion will also 
provide space not in the historic core for long overdue permanent 
facilities. S. 2535 will make the recommendations of the NPS Boundary 
Study and the wishes of the local communities a reality.
    The Martin Van Buren National Historic Site expansion will preserve 
open space in a region where it is quickly disappearing and help tell 
the rich agrarian stories of our national heritage. Visitors will have 
access to the original Van Buren Farm, thus gaining a better 
understanding of President Van Buren and the significance of farming in 
American history. The land surrounding the Martin Van Buren National 
Historic site currently remains in its historic agricultural use, but 
is not yet interpreted for the public. The New York State Historic 
Preservation Office, The Open Space Institute, as well as the local 
community, support the boundary adjustment proposal.
    The expansion of the Martin Van Buren National Historic Site 
demonstrates creative planning and collaboration to preserve a region's 
historic character in a way that is compatible with modern growth and 
development. With the proposed expansion, most of the land will remain 
under private management and not be removed from the county tax base. 
The preservation of these cultural resources as national park land will 
benefit the local Town of Kinderhook, Columbia County, and New York 
State, where the economy, in part, is based on tourism. Research shows 
that national parks are huge economic engines, generating $4 in value 
for every one federal dollar invested in them. Park gateway communities 
have higher economic growth rates than non-park communities. The New 
York gateway communities of Kinderhook and Columbia County will clearly 
benefit from this expanded national historic site, financially as well 
as culturally.
    Martin Van Buren National Historic Site is a northeastern national 
historic jewel and expansion of its boundaries as recommended by the 
NPS Boundary Study will make it an even better place for the public to 
learn, to enjoy scenic beauty and historic treasures, and to be 
inspired. NPCA urges the committee's support of S. 2535.
                                 ______
                                 
Statement of Bill Mandulak, Chairman, Coastal Conservation Association 
                      North Carolina, Raleigh, NC

    The Coastal Conservation Association North Carolina wants to 
correct a mistake in the letter we previously sent you. The 
recreational saltwater license sales drop for Dare County was correctly 
stated as 50% but the statewide drop in sales was incorrectly stated as 
25%. The correct statewide drop in license sales was 39%. Dare County 
was the largest seller of saltwater licenses in 2007. They are now 
eighth in the state,
    I apologize for the incorrect data.
                                 ______
                                 
         Statement of Richard G. Micka, Monroe, MI, on S. 3247

    The Subcommittee on National Parks and Parklands has scheduled a 
hearing on Senate Bill S. 3247 this Wednesday (7.30.08).
    As Co-Chair for the Experiential Tourism Task Group, War of 1812 
Bicentennial Steering Committee, Community Foundation of Monroe County, 
Michigan, and as a member of the Michigan Commission on the 
Commemoration of the Bicentennial of the War of 1812, I offer my 
support for this legislation.
    As you know, the State of Michigan has been hit hard by the housing 
crisis and loss of manufacturing jobs. Our Governor, Jennifer Granholm, 
has created a ``Transformation Initiative'' that will place the State 
of Michigan on the path to economic recovery.
    One of the planks in her platform is cultural economic development 
(CED). The creation of the RIVER RAISIN NATIONAL BATTLEFIELD PARK in 
Monroe and Wayne Counties, Michigan, provides a Community CED Readiness 
Initiative for both counties promising tourism-related jobs. One 
illustration of this point is the $17M investment by the State of 
Michigan at Sterling Sate Park on Lake Erie adjacent to the River 
Raisin Battlefield that attracts over one millino visitors a year. This 
is a $28M boost to the local economy on an annual basis for overnight 
visitation.
    Finally, Senator Carl Levin has championed the NORTH COUNTRY 
NATIONAL SCENIC TRAIL. This legislation provides the missing link for 
that Park Service Initative. Monroe County, Michigan, is in a 
juxtaposition between two of the world's largest metropark systems--the 
Huron-Clinton Metropolitan Authority (Michigan) and the Toledo-Lucas 
County Metroparks (Ohio). The Park Service can play an important role 
in connecting these metropark systems through Monroe County which is 
the GATE WAY to Michigan and Michigan's only County on LAKE ERIE.
    Both Monroe County and Wayne County have heritage resources that 
would benefit from the Park Service Rivers, Trails and Conservation 
Assistance Program. The Trail from the proposed Battlefield (150 acres) 
to Sterling State Park (1,200 acres) will be universally accessible, 
thanks to a grant from the Kellogg Foundation.
    We need S. 3247 to sustain the momentum of the Governor's 
transformation initiative.


</pre></body></html>
